Department of Defense                   Department of Defense
Inspector General                            Inspector General
4800 Mark Center Drive                  4800 Mark Center Drive
Alexandria, VA 22350-1500            Alexandria, VA 22350-1500

www.dodig.mil                                   www.dodig.mil

Defense Hotline 1.800.424.9098   Defense Hotline 1.800.424.9098
                                                                                               NERAL
                                                                                   INSPECTOR GEDEFENSE
                          	                                                                   OF
                                                                                DEPARTMENT
                                                                                                 Y DRIVE
                          	                                                        400 ARM AV
                                                                                          Y  N
                                                                                                          4704
                                                                                            RGINIA 22202-
                                                                              ARLINGTON, VI



                                                                                                                                                                  Report to
                                                                                                                        to r  G    en   er   al Semiannual
                                                                                                          se Insp   ec                                            dicated to
                                                                    e   D   ep  ar tment of Defen                          30  ,   20   11   . DoD IG is de
                                                  presen    t   th                                          ptem    be  r                                           improve
                            I am pleased to                              ri od   A  pr  il 1, 2011 to Se                     w  as   te  ,  an  d abuse; and to
                                         r the reportin         g   pe
                                                                                         xpayers to iden
                                                                                                            tify fr  au  d,                                       uct audits,
                      the Congress fo                              ht   er s  an  d  ta                                    .  In     do    in  g so, we cond
                                       half of the war
                                                              fig                                          operat   io  ns                                         ement to
                      working on be                                    of   D  oD     programs and                           m   en    da   ti ons for improv
                                        and effectiven        es   s                                          d re    co m                                           e federal
                       the efficiency                             s    th  at   pr  ov  id e guidance an                 ov  er si  gh   t   or  ganization in th
                                         and inspection                                                          od  el
                       investigations                                                        on is to be a m
                                               en t an  d   C on    gress. Our visi                  prom   ot in g excellence.
                                          tm                                           truth and
                        both the Depar                         ge   ,  sp ea   ki ng
                                                                                                                                                                   views and
                                           leading chan                                                                                          intelligence re
                        government by                                                                      audits   ,  ev  al ua   ti  on   s,
                                                                                                                                                                        use and
                                                                         od  ,  w  e   conducted 82                        th   at    co   ul  d  be put to better
                                                  porting       pe    ri                                    ial fund     s                                           e Service,
                              During this re                               $5  47    m  illion of potent                        se     C  ri  m  inal Investigativ
                                           uditing iden        ti fie  d                                      , the   D  ef en                                     itution and
                         assessments. A                                  34   0  co  nt  acts. In addition                    40     m   ill  io n in fines, rest
                                              line manag       ed     9,                                      turned      $4                                           sions and
                         the Defense Hot                         la w    en   fo rc em    ent agencies, re             im   in al    co   nv   ic tions, 74 suspen
                                           y with other                                         63 arrests, 166
                                                                                                                    cr
                         working closel              . go  ve rn   ment along with
                                             e   U.S
                          recoveries to th                                                                                                                           April 1981
                          130 debarments
                                               .
                                                                                                                                    .  Si  nc   e  its creation in
                                                                                                              ary of     D  C  IS                                       15 special
                                                                            gn  iz e  th  e 30th annivers                       n     from       a small cadre of
                                                   eased to        re  co                                        has    gr ow                                         I am proud
                                We are also pl                              as pa  r  W   einberger, DCIS                     st  ig  at iv   e ar  m of DoD IG.
                                             ary of Defen          se    C                                      inal   in ve                                             t since its
                           by then Secret                         ec   ia l ag  en  ts  w  ho run the crim              bi lli on      to    th  e  U.S. governmen
                                                than 350 sp                                                          9
                           agents to more                                                      rning over $19.
                                               D  C IS  is  re  sp   onsible for retu
                            to report that                                                                                                                             g the Army
The Honorable Gordon        inception.                                                                                             rp   ar   t ag  encies includin
                                                                                                                our co    un   te                                       Command,
Heddell speaks at the                                                 es   th  e  ac co   m plishments of
                                                                                                                        A  rm    y   C  ri  m   in al Investigation
                                                          includ                               rce Audit Agenc
                                                                                                                     y,
2011Annual Leadership             This report also                it  Service, Air Fo                                    Special Investig
                                                                                                                                                      ations.
                                         nc  y,  N av  al  Aud                                     Fo rc e O ffice  of
Conference.                  Aud  it Age                                      rvice    an   d A ir
                                                   Investigative Se                                                                                                        employees
                              Naval Criminal                                                                                           d    ha  rd   work of DoD IG
                                                                                                               tive eff  or  ts   an                                      cing fraud,
                                                                              ia ti on   fo r the collabora                         fig  ht   in  g  corruption; redu
                                                        s my ap       pr  ec                                       inte  re st s;                                        embers who
                                  I want to expres                                    of   pr otecting public                           e    th an   k the service m
                                                  our crucia        l  m   issi on                                spar   en  cy  . W                                        e agencies,
                              who carry out                                         co  un  ta bility and tran                          m   ili ta ry  services, defens
                                                   e; and ensu          ri ng   ac                               mmen      d   th  e                                      preciate the
                               waste and abus                                     e  an  d  sacrifice. We co                              hm     en  ts. Finally, we ap
                                                    k for thei      r   se rv  ic                                eir ac   co  m    pl  is                               improvement
                               inspire our wor                        e  ov  er si gh  t  co mmunity on th                w  e  w   or  k    to  w  ard continuous
                                                    bers of th                                    e Department
                                                                                                                      as
                               and other mem                   th  e   Congress and th
                                                 pp  or t  of
                                continued su
                                and efficiency.




                                                                                                                          dell
                                                                                                         Gordon S. Hed
                                                                                                              ec to r Gen er al
                                                                                                         Insp
STATISTICAL HIGHLIGHTS


SUMMARY OF AUDIT ACTIVITIES

 Reports Issued                                                                                                  64
 Monetary Benefits
          Recommendations Made on Funds Put to Better Use                                              $547 million

SUMMARY OF INVESTIGATIVE ACTIVITIES

Defense Criminal Investigative Service1
Total Returned to the U.S. Government                                                                  $440 million
          Seizures and Recoveries                                                                       $2.5 million
          Civil Judgments                                                                               $98 million
          Criminal Judgments                                                                           $24.5 million
          Administrative Agreements                                                                    $315 million
 Investigative Cases
          Arrests                                                                                                63
          Indictments                                                                                           195
          Convictions                                                                                           166
          Suspensions                                                                                            74
          Debarments                                                                                            130
 Administrative Investigations
 Cases Received                                                                                                 588
 Cases Closed                                                                                                   358
         Senior Official Investigations                                                                         243
         Reprisal Cases                                                                                         114

SUMMARY OF POLICY AND OVERSIGHT ACTIVITIES

 Existing and Proposed Regulations Reviewed                                                                     213
 Evaluation Reports Issued                                                                                        7
 Inspector General Subpoenas Issued                                                                             358

SUMMARY OF INTELLIGENCE ACTIVITIES

 Intelligence Reports Issued                                                                                      7

SUMMARY OF SPECIAL PLANS AND OPERATIONS ACTIVITIES

 Assessment Reports Issued                                                                                        4

SUMMARY OF DEFENSE HOTLINE ACTIVITIES

 Contacts                                                                                                     9,340
        Cases Opened                                                                                          1,433
        Cases Closed                                                                                          1,256




1 Includes investigations conducted jointly with other federal criminal investigative organizations.

   ii SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                                                       CONTENTS


1. OVERVIEW
         MISSION AND ORGANIZATION......................................................................................................................................2
         EXECUTIVE SUMMARY ........................................................................................................................................................4
         OVERSEAS CONTINGENCY OPERATIONS .....................................................................................................................7
         IG HIGHLIGHTS ......................................................................................................................................................................9
                      HEALTH AND SAFETY OF THE WARFIGHTER ...........................................................................................9
                      SPARE AND SUBSTANDARD PARTS .......................................................................................................... 10
                      IMPROPER PAYMENTS .................................................................................................................................. 12
                      GUAM REALIGNMENT .................................................................................................................................. 13
2. CORE MISSION AREAS
         AUDITS .................................................................................................................................................................................. 16
                      ACQUISITIONS AND CONTRACTING ....................................................................................................... 16
                      FINANCIAL MANAGEMENT......................................................................................................................... 23
                      HEALTH CARE .................................................................................................................................................. 26
                      INFORMATION ASSURANCE, SECURITY AND PRIVACY ..................................................................... 28
                      JOINT WARFIGHTING AND READINESS .................................................................................................. 29
                      NUCLEAR ENTERPRISE.................................................................................................................................. 31
         INVESTIGATIONS ................................................................................................................................................................ 32
                      PUBLIC CORRUPTION ................................................................................................................................... 32
                      PROCUREMENT FRAUD ............................................................................................................................... 33
                      HEALTH CARE FRAUD ................................................................................................................................... 35
                      PRODUCT SUBSTITUTION ........................................................................................................................... 36
                      TECHNOLOGY PROTECTION ...................................................................................................................... 37
         INSPECTIONS ...................................................................................................................................................................... 39
                      HEALTH AND SAFETY.................................................................................................................................... 39
                      JOINT WARFIGHTING AND READINESS.................................................................................................. 40
3. ENABLING MISSION AREAS
         DEFENSE HOTLINE ............................................................................................................................................................ 46
         WHISTLEBLOWER PROTECTION ................................................................................................................................... 48
         SENIOR OFFICIAL INVESTIGATIONS ............................................................................................................................ 50
         CONGRESSIONAL TESTIMONY ...................................................................................................................................... 51
         OUTREACH ACTIVITIES .................................................................................................................................................... 52
4. SERVICES
         ARMY ..................................................................................................................................................................................... 56
                      ARMY AUDIT AGENCY .................................................................................................................................. 56
                      ARMY CRIMINAL INVESTIGATION COMMAND..................................................................................... 61
         NAVY ...................................................................................................................................................................................... 66
                      NAVAL AUDIT SERVICE ................................................................................................................................. 66
                      NAVAL CRIMINAL INVESTIGATIVE SERVICE ........................................................................................... 72
         AIR FORCE ............................................................................................................................................................................ 75
                      AIR FORCE AUDIT AGENCY ......................................................................................................................... 75
                      AIR FORCE OFFICE OF SPECIAL INVESTIGATIONS............................................................................... 80
5. APPENDICES
         A. AUDIT, INSPECTION AND EVALUATION REPORTS ISSUED ............................................................................ 88
         B. REPORTS CONTAINING POTENTIAL MONETARY BENEFITS........................................................................... 99
         C. FOLLOW-UP ACTIVITIES ..........................................................................................................................................100
         D. CONTRACT AUDIT REPORTS ISSUED ..................................................................................................................102
         E. STATUS OF ACTION ON POST-AWARD CONTRACTS .....................................................................................103
         F. STATUS OF REPORTS WITH ACTION PENDING ................................................................................................104
         G. CONTRACT AUDITS WITH SIGNIFICANT FINDINGS........................................................................................109
         H. RESULTS OF PEER REVIEWS ....................................................................................................................................114
         I. ACRONYMS ..................................................................................................................................................................115




                                                                                                                                    APRIL 1, 2011 TO SEPTEMBER 30, 2011 iii
REPORTING REQUIREMENTS


The Inspector General Act of 1978, as amended, states that each inspector general shall no later than April 30 and October 31 of each
year prepare semiannual reports summarizing the activities of the office during the immediately preceding six-month periods ending
March 31 and September 30. The IG Act specifies reporting requirements for semiannual reports. The requirements are listed below and
indexed to the applicable pages.

REFERENCES          REQUIREMENTS                                                                                                      PAGE
Section 4(a)(2)     “review existing and proposed legislation and regulations...make recommendations...”                              N/A

Section 5(a)(1)     “description of significant problems, abuses, and deficiencies...”                                                16-42

Section 5(a)(2)     “description of recommendations for corrective action...with respect to significant problems, abuses, and         16-42
                    deficiencies...”

Section 5(a)(3)     “identification of each significant recommendation described in previous semiannual reports on which cor-         N/A
                    rective action has not been completed...”
Section 5(a)(4)     “a summary of matters referred to prosecutive authorities and the prosecution and convictions which have          16-42
                    resulted.”
Section 5(a)(5)     “a summary of each report made to the [Secretary of Defense] under section 6(b)(2)...instances where infor-       N/A
                    mation requested was refused or not provided”
Section 5(a)(6)     “a listing, subdivided according to subject matter, of each audit report, inspection report, and evaluation re-   88-98
                    port issued” showing dollar value of questioned costs and recommendations that funds be put to better use.
Section 5(a)(7)     “a summary of each particularly significant report...”                                                            16-42

Section 5(a)(8)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     100
                    the total dollar value of questioned costs...”
Section 5(a)(9)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     100
                    the dollar value of recommendations that funds be put to better use by management...”
Section 5(a)(10)    “a summary of each audit report, inspection report, and evaluation report issued before the commencement          100
                    of the reporting period for which no management decision has been made by the end of reporting period...”
Section 5(a)(11)    “a description and explanation of the reasons for any significant revised management decision...”                 N/A

Section 5(a)(12)    “information concerning any significant management decision with which the Inspector General is in                N/A
                    disagreement...”
Section 5(a)(13)    “information described under Section 05(b) of the Federal Financial Management Improvement Act of 1996...” N/A
                    (instances and reasons when an agency has not met target dates established in a remediation plan)
Section 5(a)(14)    “an appendix containing the results of any peer review conducted by another Office of Inspector General dur- 114
                    ing the reporting period...”
Section 5(a)(15)    “A list of any outstanding recommendations from any peer review conducted by another Office of Inspector          N/A
                    General that have not been fully implemented, including a statement describing the status of the implemen-
                    tation and why implementation is not complete...”
Section 5(a)(16)    “any peer reviews conducted by DoD IG of another IG Office during the reporting period, including a list of       114
                    any outstanding recommendations made from any previous peer review...that remain outstanding or have
                    not been fully implemented...”
Section 5(b)(2)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     100
                    the dollar value of disallowed costs...”
Section 5(b)(3)     “statistical tables showing the total number of audit, inspection, and evaluation reports and the dollar value    100
                    of recommendations that funds be put to better use by management agreed to in a management decision...”
Section 5(b)(4)     “a statement with respect to audit reports on which management decisions have been made but final action          104-108
                    has not been taken, other than audit reports on which a management decision was made within the preced-
                    ing year...”
Section 8(f )(1)    “information concerning the number and types of contract audits...”                                               102
Section 5 note      “an annex on final completed contract audit reports...containing significant audit findings.”                     109-113

  iv SEMIANNUAL REPORT TO THE CONGRESS
           1


Overview
Mission



                                  Serving the Congress
                                  and the Department
                                  Department of Defense Inspector General is an
                                  independent, objective agency within the U.S.
                                  Department of Defense that was created by the
                                  Inspector General Act of 1978, as amended. DoD
                                  IG is dedicated to serving the warfighter and the
                                  taxpayer by conducting audits, investigations,
                                  inspections, and assessments that result in
                                  improvements within the Department. DoD IG
                                  keeps the Department and the Congress fully
                                  and currently informed about problems and
                                  deficiencies relating to the administration of
                                  such programs and operations and the necessity
                                  for and progress of corrective action.


                                  Mission
                                  Our mission is to provide independent, relevant,
                                  and timely oversight of the Department of
                                  Defense that:

                                  •	   Supports the warfighter.
                                  •	   Promotes accountability, integrity and
                                       efficiency.
                                  •	   Advises the secretary of defense and
                                       Congress.
                                  •	   Informs the public.


                                  Vision
                                  Our vision is to be a model oversight organization
                                  in the federal government by leading change,
                                  speaking truth and promoting excellence; a
                                  diverse organization, working together as one
                                  professional team, recognized as leaders in our
                                  field.


                                  Core Values
                                  •	   Integrity
                                  •	   Efficiency
                                  •	   Accountability
                                  •	   Excellence




2 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                 Organization



                                                           Secretary of Defense



                                                             Inspector General




                                                      Administrative                                                          Special Plans &
       Auditing             Investigations                                 Intelligence & SPA     Policy & Oversight
                                                      Investigations                                                            Operations




Auditing                                                Intelligence and Special
The Office of the Deputy Inspector General for          Program Assessments
Auditing conducts audits on all facets of DoD           The Office of the Deputy Inspector General for
operations. The work results in recommenda-             Intelligence and Special Program Assessments
tions for reducing costs; eliminating fraud, waste,     provides oversight (audits, evaluations, and in-
and abuse of authority; improving performance;          spections) across the full spectrum of programs,
strengthening internal controls; and achieving          policies, procedures, and functions of the Intelli-
compliance with laws, regulations, and policy.          gence enterprise, special access programs, nucle-
                                                        ar enterprise and related security issues within
Investigations                                          DoD.
The Office of the Deputy Inspector General for
Investigations leads the Defense Criminal Inves-        Policy and Oversight
tigative Service, which protects America’s warf-        The Office of the Deputy Inspector General for
ighters by conducting criminal and civil inves-         Policy and Oversight provides oversight and
tigations in support of crucial national defense        policy for audit, investigative, and hotline ac-
priorities.                                             tivities within DoD; provides technical advice
                                                        and support to DoD IG projects; and operates
Administrative Investigations                           the DoD IG subpoena and contractor disclosure
The Office of the Deputy Inspector General for          programs.
Administrative Investigations investigates and
oversees investigations of allegations regarding        Special Plans and Operations
the misconduct of senior DoD officials, both            The Office of the Deputy Inspector General for
civilian and military; whistleblower reprisal           Special Plans and Operations provides assess-
against service members, defense contractor em-         ment oversight to facilitate informed decision
ployees, and DoD civilian employees (appropri-          making by senior civilian and military leaders of
ated and nonappropriated fund); and improper            the DoD and Congress, to accomplish priority
command referrals of service members for men-           national security objectives.
tal health evaluations.



                                                                                                              APRIL 1, 2011 TO SEPTEMBER 30, 2011 3
Executive Summary



                                       Overview                                             Administrative Investigations received 588 cases,
                                                                                            closed 358, and has 657 open complaints involv-
                                       The Inspector General Act of 1978, as amended,       ing whistleblower reprisal and senior official
                                       states that the inspector general is responsible     misconduct. Of 14 civilian reprisal investiga-
                                       for conducting audits, investigations and in-        tions completed, 1 was substantiated (7 percent);
                                       spections and for recommending policies and          of 52 military reprisal investigations completed,
                                       procedures to promote economic, efficient and        17 (33 percent) were substantiated; and of 125
                                       effective use of agency resources and programs       senior official investigations completed, 18 (14
                                       that prevent fraud, waste, abuse and misman-         percent) were substantiated.
 Inspector General Heddell addresses
 oversight needs in Southwest Asia.    agement. The IG Act also requires the inspector
                                       general to keep the Department and Congress          Intelligence and Special Program Assessments is-
                                       fully and currently informed about problems          sued seven reports that addressed management
                                       and deficiencies in the Department’s operations      challenges of the intelligence enterprise as it sup-
                                       and the need for corrective action.                  ports joint warfighting and readiness and com-
                                                                                            pliance.
                                       During this reporting period, DoD IG contin-
                                       ued directing its resources toward those areas of    Policy and Oversight issued seven evaluation re-
                                       greatest risk to the Department of Defense. We       ports primarily addressing its oversight of the
                                       are dedicated to serving the warfighter and the      Defense Contract Audit Agency and traffic is-
                                       taxpayer by conducting audits, investigations        sues at the BRAC 133 Mark Center Complex.
                                       and inspections that result in improvements to       Policy and Oversight also issued three Depart-
                                       the Department. DoD IG provides guidance and         ment-wide policies, reviewed 213 existing and
                                       recommendations to the Department and Con-           proposed regulations and issued 358 IG subpoe-
                                       gress. The work of each component as of Sep-         nas.
                                       tember 30, 2011, is summarized below.
                                                                                            Special Plans and Operations issued four assess-
“Administrative                        Auditing issued 64 reports with 392 recom-           ment reports with 95 recommendations that
                                       mendations identifying potential cost savings        addressed a wide range of issues, including the
Investigations received
                                       and funds that could be put to better use, en-       development of an effective medical logistics
588 cases, closed 358,                 suring the safety of service members; address-       system within the Afghan National Security
and has 657 open                       ing improvements in DoD operations, financial        Forces; DoD planning for transitioning the se-
complaints involving                   reporting and accountability; ensuring the De-       curity assistance mission in Iraq from the De-
whistleblower reprisal                 partment complied with statutory mandates;           partment of Defense to the Department of State;
                                       and identifying and eliminating improper pay-        the exposure of U.S. soldiers and civilians to so-
and senior official
                                       ments. Of those reports, 23 percent addressed        dium dichromate, a carcinogen, at a water treat-
misconduct.”                           the American Reinvestment and Recovery Act;          ment plant in Qarmat Ali, Iraq in 2003 and the
                                       25 percent addressed acquisition processes and       Warrior Care and Transition program located at
                                       contracting issues; 25 percent addressed finan-      Fort Drum, N.Y.
                                       cial management issues; 13 percent addressed
                                       joint warfighting and readiness issues; 5 percent    As of September 30, 2011, the DoD IG workforce
                                       addressed health and safety issues; and 9 percent    totaled 1,549 employees, not including military
                                       addressed information assurance, security and        personnel and contractors.
                                       privacy issues.

                                       Investigations-DCIS opened 470 cases, closed
                                       356 cases and has 1,856 ongoing investigations.
                                                                                            Priorities
                                                                                            As a Department-wide priority, the secretary
                                       These cases primarily addressed criminal allega-     of defense identified the need to improve effec-
                                       tions of public corruption, procurement fraud,       tiveness and efficiencies in business operations
                                       product substitution, illegal transfer of technol-   in order to sustain mission-essential activities.
                                       ogy and health care fraud.                           In support of this focus, DoD IG uses its exten-
                                                                                            sive oversight capabilities to promote economy,

  4 SEMIANNUAL REPORT TO THE CONGRESS
effectiveness and efficiency throughout the De-
partment. DoD IG performs audits, investiga-
                                                    Audits
                                                    •	   We, in conjunction with the Department of
tions and inspections to support the Depart-
                                                         State Office of Inspector General, conducted
ment’s goals to:
                                                         a series of audits of the Afghanistan National
•	 Prevail in today’s wars.
                                                         Police program. DoD IG and DOS OIG is-
•	 Prevent and deter conflict.
                                                         sued three joint reports identifying and rec-
•	 Prepare to defeat adversaries and succeed
                                                         ommending corrective actions for improper
     in a wide range of contingencies.
                                                         obligations of $249 million; potential funds
•	 Preserve and enhance the all-volunteer                                                                         DoD IG issued three joint reports on
                                                         put to better use of $200 million; a poten-
     force.                                                                                                       the Afghan National Police Program.
                                                         tial Antideficiency Act violation; inappro-
•	 Implement defense agenda.
                                                         priate obligations for three DOS programs
                                                         and personal services contracts contrary to
We performed audits, inspections and assess-
                                                         either Economy Act or reimbursable agree-
ments of key programs and operations. We also
                                                         ment limitations; and inadequate plans for
consulted on a variety of Department initiatives
                                                         transferring the contract from DOS to DoD
and issues. DoD IG is focusing work efforts on
                                                         resulting in a lack of proper oversight.
preventing and detecting fraud, waste and abuse
                                                    •	   We determined the Department of the Navy
and improving efficiency and effectiveness in
                                                         did not select and plan several photovoltaic
such critical areas for the Department as:
                                                         projects in accordance with the require-
•	 Acquisitions and contracting.
                                                         ments of the American Reinvestment and
•	 Financial management.
                                                         Recovery Act and applicable energy legisla-
•	 Health and safety.
                                                         tion and policies. As a result, the Navy will
•	 Information assurance, security and pri-
                                                         not recover $25.1 million of the $50.8 mil-
    vacy.
                                                         lion invested in photovoltaic projects. Dur-
•	 Joint warfighting and readiness.
                                                         ing project planning and selection, officials
•	 Nuclear enterprise.
                                                         did not consider whether projects were cost-             DoD IG reviewed DoN photovoltaic
                                                         effective or analyze different types of energy           Recovery Act projects.
DCIS investigations resulted in criminal, civil
                                                         projects to determine the best investments
and administrative actions. DCIS identified the
                                                         for meeting legislative energy goals. DoN
following investigative priorities for crimes im-
                                                         has taken steps to improve its energy pro-
pacting the Department:
                                                         grams by restructuring existing offices and
•	 Public corruption.
                                                         establishing new energy offices, developing
•	 Procurement fraud.
                                                         strategies and policies, and implementing a
•	 Health care fraud.
                                                         new project selection tool.
•	 Product substitution.
                                                    •	   We reported that the DoD Cash Management
•	 Technology protection.
                                                         Report was not complete or accurate. Other
                                                         defense organizations used the Cash Man-
Core Mission Areas                                       agement Report to reconcile their fund bal-
                                                         ance with Treasury general ledger accounts.
We issued 11 reports identifying $547 million in
                                                         We identified deficiencies in the Cash Man-
potential monetary benefits, of which $78 mil-
                                                         agement Report that significantly under-
lion has already been realized and put to better
                                                         mine the reliability of the report as a recon-
use. We achieved an additional $86 million in
                                                         ciliation tool and negatively affect the ability
funds put to better use based on management
                                                         of other defense organizations to obtain a
completed corrective actions to reports issued
                                                         favorable financial statement audit opinion.
in previous reporting periods. In addition, DCIS
investigations were the basis for 63 arrests, 195
criminal charges, 166 criminal convictions, 74
suspensions and 130 debarments, which resulted
in $440 million returned to the U.S. government.


                                                                                                            APRIL 1, 2011 TO SEPTEMBER 30, 2011 5
Executive Summary



                                          Investigations
                                          •	 We investigated Serono Laboratories for
                                                                                               Enabling Mission Areas
                                               paying kickbacks to TRICARE and other
                                               government health care providers to induce      Defense Hotline
                                               them to promote a particular drug they          The Defense Hotline received 9,340 contacts
                                               were manufacturing. As a result, Serono         from the public and members of the DoD com-
                                               agreed to pay $44.4 million to resolve False    munity: 9 percent via mail, 34 percent via email,
                                               Claims Act allegations in connection with       7 percent via the Internet and 50 percent via
DoD IG leadership, personnel and U.S.                                                          telephone. Based on these contacts, the hotline
troops in Southwest Asia.                      marketing of the drug.
                                          •	   We investigated an individual who sought to     opened 1,433 cases. The Defense Hotline closed
                                               acquire, transfer and export military tech-     1,256 cases this reporting period.
                                               nology and weaponry, to include a Stinger
                                               missile, to a drug trafficking organization
                                               based in Mexico. Payment for the technol-
                                                                                               Whistleblower
                                               ogy and weaponry was in lump sums of cash       Protection
                                               and large quantities of methamphetamine.        DoD received 312 complaints of whistleblower
                                               Several people plead guilty to weapons and      reprisal through the Defense Hotline and other
                                               drug charges and received jail sentences.       sources and closed 114. Of the 114 closed, 59
                                                                                               were full investigations, with 18 complaints sub-
                                          Inspections                                          stantiated (31 percent). We conducted 51 out-
                                                                                               reach and training events attended by 838 mili-
                                          •	 We reported that the ability of the Afghan
                                                                                               tary and civilian IG representatives.
                                               National Army to build and maintain a sus-
                                               tainable medical logistics system at its cur-
                                               rent level of capability was not feasible in    Senior Official
                                               the absence of U.S. and international com-
                                               munity support. Further, pharmaceuticals        Accountability
                                               provided to the Afghan Security Forces by       As of September 30, 2011, there were 281 ongo-
                                               U.S. and coalition forces were at significant   ing investigations into senior official misconduct
                                               risk of theft, misappropriation, or other il-   throughout the Department, representing a 7
                                               legal acts. This report triggered a signifi-    percent decrease from March 31, 2011, when
                                               cant reorganization of the medical mentor-      303 open investigations were reported. Over
                                               ing plans and programs that advanced the        the past six months, the Department closed 243
                                               building of a viable Afghan Security Forces     complaints. Of those complaints, 125 contained
                                               health care system by 2014.                     a credible allegation of senior official misconduct
                                          •	   We reported that planning for establishing      that required investigation. Of the 125 senior of-
                                               an enduring Office of Security Cooperation      ficial investigations completed, 18 (14 percent)
                                               in Iraq succeeded largely due to the singular   contained substantiated allegations.
                                               efforts of an ad-hoc cadre of strategic plan-
                                               ners operating within U.S. Forces-Iraq. Fur-
                                               ther, this assessment prompted U.S. Central
                                                                                               Congressional
                                               Command to establish an Operations Plan-        Testimony & Briefings
                                               ning Team to assist in the stand-up of the      During the reporting period, we testified before
                                               Office of Security Cooperation within U.S.      the Commission on Wartime Contracting on
DoD IG reviewed planning for an                Embassy–Baghdad.                                implementing improvements to defense wartime
Office of Security Cooperation in Iraq.   •	   We substantiated allegations of unauthor-       contracting. We also testified before the Panel
                                               ized intelligence activities.                   on Defense Financial Management and Audit-
                                                                                               ability Reform, House Armed Services Commit-
                                                                                               tee, on the efforts of the Department to improve
                                                                                               payment and funds control as well as before the


 6 SEMIANNUAL REPORT TO THE CONGRESS
Subcommittee on Government Organization,              and mentoring activities from U.S. Forces–Iraq                    “We established a
Efficiency and Financial Management, Com-             to the new Office of Security Cooperation–Iraq                     new division that
mittee on Oversight and Government Reform,            under Department of State and Chief of Mission
regarding financial management and internal           authority. DoD will also seek to establish the
                                                                                                                        will evaluate DoD
control challenges within the Department.             framework for a robust security assistance and                 and military service
                                                      foreign military sales program that will endure               criminal investigative
DoD IG received 146 new congressional inqui-          after the last U.S. military combat forces leave in          policies, programs and
ries and closed 169 cases. New inquiries involved     December 2011.                                                  training focused on
reprisal investigations, concern about improper
payments, allegations regarding senior officials      As of December 2010, DoD estimated that the
                                                                                                                         violent crimes...”
and reviews of senior DoD officials.                  drawdown from Iraq would include the with-
                                                      drawal of approximately 1.2 million pieces of
                                                      equipment. Base closure processes and contrac-
Programs & Outreach                                   tor demobilization are critical issues facing the
We established a new division that will evaluate      Department, as well as the accountability of as-
DoD and military service criminal investigative       sets flowing out of Iraq and into Kuwait.
policies, programs and training focused on vio-
lent crimes such as murder, suicide, sexual as-       The effective transition of DoD training, equip-
sault, robbery, criminal child abuse and aggra-       ping and mentoring assistance from U.S. Forces-
vated assault.                                        Iraq to the Office of Security Cooperation-Iraq
                                                      before December 2011 is critical to sustaining
                                                      progress made thus far in developing an inde-
Iraq & Afghanistan                                    pendent ISF capability after the withdrawal of
                                                      U.S. combat forces.
                                                                                                                  Overseas
In support of the U.S. mission in Iraq and
                                                      The ISF must be able to effectively conduct coun-
                                                                                                                Contingency
Afghanistan, DoD IG has stationed over 50
oversight personnel in Southwest Asia working
                                                      terterrorism operations, protect critical national
                                                      infrastructure, maintain civil order and protect
                                                                                                                 Operations
out of six offices, as well as teams of auditors,
                                                      against external threats in order to minimize the
special agents, inspectors and engineers enter-
                                                      strategic risk to Iraq and provide a stable partner
ing and exiting the region on temporary duty
                                                      in the region to support U.S. national security
assignments.
                                                      goals.

Transition in Iraq                                    Afghan Security Force
A major U.S. national security goal is the estab-
lishment of a sovereign, stable and self-reliant
Iraq that contributes to the peace and security
                                                      Development
                                                      Over the next 36 months, U.S. policy and related
of the region and with whom the United States         DoD military strategy in the Afghanistan-Paki-
can forge a long-term security partnership. An        stan region will be implemented by high-intensi-
Iraq Security Forces capable of providing for in-     ty, complex operations that prioritize:
ternal security, as well as a foundational external   •	 Training, equipping and mentoring the Af-
defense capability, is essential to achieving these        ghan National Security Forces to assume a
U.S. national objectives.                                  leading security operations role.
                                                      •	 Building the ANSF to 352,000, as agreed to
Over the next 6 to 12 months, U.S. policy and              by the International Joint Coordination and
related DoD military strategy in Iraq will en-             Monitoring Boards Security Standing Com-
compass withdrawing the remaining U.S. com-                mittee and the government of the Islamic
bat forces from Iraq by the end of 2011 while              Republic of Afghanistan on June 28, 2011.
continuing to train, equip and mentor the ISF.        •	 Withdrawing 10,000 U.S. combat forces
To support the development of the ISF, DoD                 from Afghanistan before December 2011.
will transition all remaining training, equipping

                                                                                                            APRIL 1, 2011 TO SEPTEMBER 30, 2011 7
IG Highlights



                                         •	   Withdrawing an additional 23,000 U.S.           toring of the Afghan National Security Forces;
                                              combat forces from Afghanistan in 2012.         management and execution of the approximate
                                         •	   Continuing to drawdown U.S. combat forc-        additional $14.2 billion designated for the Af-
                                              es in 2013 and 2014 while the ANSF gradu-       ghan Security Forces Fund for FYs 2010 and
                                              ally assumes responsibility for the internal    2011; military construction projects; financial
                                              and external security of Afghanistan and        management challenges related to the com-
                                              the Afghan people.                              mander’s emergency response program; and the
                                                                                              development of the logistics sustainment capa-
                                         Both the Afghan National Army and the Afghan         bility of the Afghan National Army.
                                         National Police may need augmentation beyond
                                         2014 in the areas of intelligence, joint effects,
                                         logistics sustainment and medical evacuation         Contingency
                                         to develop the capacity to conduct and sustain
                                         independent security operations.
                                                                                              Contracting
                                                                                              The Department is increasingly using contrac-
                                                                                              tors and contingency contracting to support tac-
                                         The success of operations in Afghanistan will be     tical and operational military forces engaged in
 DoD IG reviews the development of the   partially measured by how well the Afghan gov-       armed conflict and noncombat contingency op-
 Afghan National Security Forces.
                                         ernment is prepared to provide for and protect       erations such as national and international disas-
                                         its people and gain their trust. The responsibil-    ter relief efforts. As the Commission on Wartime
                                         ity to protect the Afghan people will fall primar-   Contracting in Iraq and Afghanistan highlighted
                                         ily on the ANSF, in particular, the ANP. In the      in its Final Report to Congress, “The number of
                                         light of this reality, the NATO Training Mission–    contractor employees supporting Defense, State
                                         Afghanistan/Combined Security Transition             and USAID operations in Iraq and Afghanistan
                                         Command – Afghanistan is conducting an ac-           exceeded 260,000 in 2010 – a number larger
                                         celerated buildup of the ANP and has achieved        than the U.S. military and federal-civilian work-
                                         considerable progress in increasing its training     force in theater.”
                                         capacity to grow these forces, to improve train-
“During the reporting                    ing quality, to reduce attrition and to improve      Effective contracting is critical toward accom-
                                         recruitment.                                         plishing the mission of overseas contingency
period, DoD IG
                                                                                              operations. Last year, DoD IG issued the report,
continued to identify                    The Department will continue to develop the ca-      “Contingency Contracting: A Framework for
some of the same                         pability of the Afghan Ministries of Defense and     Reform,” May 14, 2010, identifying important
recurring problems                       Interior to not only logistically sustain the ANSF   areas for improving DoD wartime contracting.
with contingency                         but also plan, program, budget and execute fi-       We identified 10 systemic challenges related to
                                         nancially, since the majority of funding will have   deficiencies in the contract management process
operations.”                             to come from the international community after       during contingency operations. In April 2011,
                                         the planned 2014 withdrawal of U.S. and inter-       the deputy inspector general for auditing testi-
                                         national combat forces.                              fied before the Commission on Wartime Con-
                                                                                              tracting regarding five recommendations that
                                         Concurrently, the Department will continue de-       DoD IG believed were key to improving con-
                                         veloping the capacity of the Pakistan Security       tingency contracting. These recommendations
                                         Forces to maintain internal security and elimi-      included ensuring all requirements are fully
                                         nate extremist Taliban and al-Qaida forces in the    defined, selecting the appropriate contract type,
                                         Northwest Frontier safe haven.                       competing future procurements properly, pur-
                                                                                              chasing supplies and services at fair and reason-
                                         In support of U.S. policy and related DoD mili-      able prices, and developing a Quality Assurance
                                         tary strategy in the Afghanistan-Pakistan region,    Surveillance Plan. During this reporting period,
                                         DoD IG is conducting a wide range of audits,         DoD IG continued to identify some of the same
                                         evaluations, assessments and investigations.         recurring problems with contingency contract-
                                         DoD IG is focused on the safety and protection       ing.
                                         of U.S. forces; the training, equipping and men-

  8 SEMIANNUAL REPORT TO THE CONGRESS
For example, our review of the contract manage-        gency operations. Task Force 2010 is comprised
ment of joint logistics integrator services in sup-    of representatives from the fields of contracting,
port of mine resistant ambush protected vehicles       intelligence, law enforcement and forensic au-
identified that DoD officials inappropriately al-      diting. The goals of the task force are to identify
lowed the contractor to perform inherently gov-        Afghan subcontracting networks, trace the flow
ernmental functions and to have organizational         of DoD contracting dollars, and understand re-
conflicts of interest. This occurred because DoD       lationships between business entities and insur-
officials only cursorily addressed statutory and       gent groups. Ultimately, this information should
regulatory requirements for preventing perfor-         be used to recommend contracting actions, such              DCIS special agents arrive in a convoy
mance of inherently governmental functions             as canceling contracts or disqualifying nefarious           to Camp Eggers, Kabul, Afghanistan.

and organizational conflict of interests, and only     contractors from doing business with the De-
one government employee was assigned to over-          partment.
see the multi-million-dollar contract executed
in three foreign countries. This greatly increased
the risk for potential waste or abuse on the con-
tract.                                                 Health and Safety of the                                 IG Highlights
In another example, we reviewed the Afghan Air         Warfighter
Force Pilot and English Language Training task
order and determined that the Army did not ob-
tain fair and reasonable prices because contract-      Background
ing personnel did not verify that the contractor       Taking care of its military and civilian personnel
used personnel from the negotiated labor cat-          is a major priority of the DoD 2010 Quadrennial
egories to perform the tasks. This resulted in the     Defense Review and is a priority for DoD IG.
Army paying approximately $431,638 in inflated         The DoD budget for health care costs in FY 2011
labor costs. Additionally, Army officials did not      was approximately $53 billion. Accomplishing
develop complete oversight processes or suffi-         this priority during a time of contingency opera-
ciently document procedures as they felt suffi-        tions, fiscal austerity and legislative imperatives
cient oversight was in place, resulting in officials   makes cost control difficult.
having limited assurance of effective contract
                                                       In this environment, it is critical for DoD IG to                     “DCIS is actively
oversight of the contractor efforts.
                                                       maintain vigorous oversight of the health care                     involved with Task
Additionally, DCIS has dedicated nine special          challenges facing the Department by focusing on                     Force 2010, a U.S.
agents to the International Contract Corrup-           preventing and detecting fraud, waste and abuse;
                                                                                                                         Forces-Afghanistan
tion Task Force, which focuses on procurement          containing costs; and improving efficiency and
                                                       effectiveness of the programs affecting the health                  task force focused
fraud and corruption cases, and is comprised
                                                       and safety of service members and employees.                           on linking DoD
of personnel from the Army CID, the FBI, the
Air Force Office of Special Investigations, Naval                                                                            contracting with
Criminal Investigative Service, the Special In-        Of special concern is the proper care and support                  counterinsurgency
spectors General for Iraq and Afghanistan and          to approximately 35,000 soldiers, sailors, airmen
                                                                                                                                 operations.”
the Offices of Inspector General for the Depart-       and marines wounded due to combat actions in
ment of State and the U.S. Agency for Interna-         Operations Iraqi and Enduring Freedom.
tional Development. These cases are prosecuted
primarily by the Department of Justice in U.S.
courts, but some cases involving active duty per-
                                                       Recent Activities
                                                       The oversight efforts of DoD IG focused on
sonnel are prosecuted using the Uniform Code           medical infrastructure replacement and repair
of Military Justice.                                   projects under the American Reinvestment and
                                                       Recovery Act, certifying medical providers and
DCIS is actively involved with Task Force 2010,        processing and paying medical claims in the
a U.S. Forces-Afghanistan task force focused on        Philippines, and planning for medical care due
linking DoD contracting with counterinsur-             to the military realignment to Guam. In addi-

                                                                                                             APRIL 1, 2011 TO SEPTEMBER 30, 2011 9
IG Highlights



                                      tion, DoD IG dedicated a team to develop an in-        Strike Force teams collaborate to arrest and con-
                                      tegrated audit approach to analyzing TRICARE           vict individuals and entities charged with health
                                      health care claims.                                    care fraud. DoD IG also participates in various
                                                                                             other health care fraud working groups around
                                      Another DoD IG evaluation reviewed DoD ac-             the country to share intelligence on emerging
                                      tions regarding the exposure of approximately          health care fraud trends.
                                      1,000 U.S. Army soldiers and civilians to sodium
                                      dichromate, a carcinogen, while working to re-
                                      store a water treatment plant in Qarmat Ali, Iraq,     Way Forward
                                      after the overthrow of Saddam Hussein in 2003.         With the United States engaged in overseas con-
                                      The evaluation found that DoD military, civilian       tingency operations in Iraq and Afghanistan,
                                      and contractor personnel did not effectively ad-       and most recently, support to other efforts in
                                      dress environmental hazards found prior to be-         the Middle East, the medical care required by
Boeing charged $1,678.61 each for a
$7.71 part; refunded DoD $76,849.     ginning work at Qarmat Ali.                            military personnel is expected to increase over
                                                                                             the next several years. It is critical for DoD IG
                                      In addition, DoD IG completed the final report         to maintain vigorous oversight of the health
                                      of a series of interceptor body armor audits in        and safety challenges facing the Department, to
                                      response to a congressional request and deter-         ensure not only that wounded warriors receive
                                      mined that ballistic testing and quality assurance     high-quality health care but also that DoD health
                                      for interceptor body armor inserts did not have        care dollars are spent wisely and prudently.
                                      proper controls to ensure that the ballistic in-
                                      serts met contract requirements. The Army did
                                      not consistently enforce the requirements for          Spare and Substandard
                                      testing to include weathered and altitude tests,
                                      use the correct size ballistic inserts for first ar-   Parts
                                      ticle testing, or conduct all required tests for the
                                      body armor ballistic inserts. Consequently, the
                                      Army cannot be sure that the appropriate level
                                                                                             Background
                                                                                             Over the past 50 years, Congress and the govern-
Boeing charged $644.75 each for a     of protection has been achieved.                       ment have tried various methods to avoid paying
$12.51 part; refunded DoD $556,006.
                                                                                             excess prices and profits for sole-source spare
                                      DCIS focused health care investigations on those       parts. From the Truth in Negotiations Act, to
                                      involving harm to the patient and on health care       spare parts breakout, to commercial pricing, the
                                      providers involved in corruption or kickback           overarching goal has been to reduce prices for
                                      schemes. In one investigation, it was disclosed        spare parts whether using cost-based or price-
                                      that Serono Laboratories paid kickbacks to TRI-        based acquisition procedures.
                                      CARE and other government health care pro-
                                      viders to induce them to promote or prescribe          In the 1980s, various audits, congressional inves-
                                      the drug Rebif. In response to this investigation,     tigations and media disclosures indicated that
                                      Serono Laboratories agreed to pay $44.4 million        DoD paid excessive prices for many spare parts
                                      to resolve False Claims Act allegations.               and supplies, often sole-source procurements
                                                                                             from contractors who did not manufacture the
                                      Additionally, DCIS participates in the Health          items. These disclosures caused both DoD and
                                      Care Fraud Prevention and Enforcement Action           Congress to take action to improve procurement
                                      Team, a joint initiative between the Department        prices on DoD spare parts. Starting in 1998, var-
                                      of Health and Human Services and the Depart-           ious audits by DoD IG again showed that DoD
                                      ment of Justice. The teams target fraud hot spots      was paying excessive prices for many spare parts
                                      across the country to identify and arrest perpetra-    and supplies. Serious flaws, wasting tens of mil-
                                      tors of health care fraud – to include TRICARE.        lions of dollars, were identified in DoD acquisi-
                                      Teams currently operate in Tampa, Miami, Ba-           tion practices.
                                      ton Rouge, Los Angeles, Detroit, Brooklyn and
                                      Houston. Under the initiative, Medicare Fraud          In addition to paying excessive prices for parts,

10 SEMIANNUAL REPORT TO THE CONGRESS
substandard parts in the DoD supply chain pose        ident, Breck A. Taylor, had been defrauding the
a risk to military operations and both military       government by not providing the services and
and civilian personnel. Substandard parts are         products required by the contract. As a result,
parts that are not manufactured in complete           on August 15, 2011, the U.S. Department of Jus-
compliance with an established industry or U.S.       tice entered into a civil settlement agreement, in
government specification which includes design,       which Red River Computer Company agreed to
manufacturing, test and acceptance criteria, and      pay $2.3 million to settle the allegations of fraud.
uniform identification requirements.                  On September 8, 2011, Breck Taylor plead guilty
                                                      to two counts of wire fraud, one count of at-
                                                      tempted wire fraud and one count of conversion
Recent Activities                                     of federal funds. Taylor admitted to defrauding
DoD IG issued reports on excessive prices paid        the United States in the amount of $1,084,446.
by the Department for spare parts. Specifically,
during a review of material purchases made from
the Boeing Company in support of the Corpus
Christi Army Depot, we identified $339.7 mil-         Way Forward
lion in existing DoD inventory that DoD offi-         The availability of spare parts and critical items
cials did not use before procuring the same parts     provided through the DoD supply chains not
from Boeing. We also determined that DoD of-          only affects the readiness and capabilities of our
ficials did not effectively negotiate prices for 18   military forces but also represents a substantial
high-dollar parts because either adequate cost        investment of resources. Over the last 20 years,
or price analyses was not performed or the con-       spare parts prices have increased significantly,
                                                                                                                   Sikorsky charged $7,814.88 each for a
tractor submitted cost or pricing data that were      often at unreasonable rates. Contributing factors            $1,536.65 part.
not current, complete and accurate. As a result of    include the lack of both price and cost analyses,
our efforts, we identified monetary benefits for      the use of commercial pricing for sole-source
the government of $288.2 million. (D-2011-061)        items, the lack of thorough prime contractor
                                                      evaluations of subcontractor proposals, and the
In a second report on spare parts procured at         failure of contracting officers to take advantage
Corpus Christi Army Depot through the part-           of economic order quantities.
nership agreement with Sikorsky Aircraft Cor-
poration, we also identified that the Department      DoD IG will conduct audits aimed at determin-
did not effectively negotiate fair and reasonable     ing whether DoD is purchasing sole-source
prices. This occurred because neither DoD nor         spare parts at fair and reasonable prices and
Sikorsky performed adequate cost and price            therefore obtaining best value. The audits will                “In addition to paying
analyses of subcontractor prices. DoD IG fur-         focus on high-risk contractors with billions of                   excessive prices for
ther determined that the prime contractor paid        dollars in DoD business. Consistently, audit                       parts, substandard
excessive prices to the subcontractor and did not     work in the spare parts pricing area has shown
                                                      that DoD does not effectively negotiate prices
                                                                                                                           parts in the DoD
always provide the most current, complete and
                                                      and that DoD pays more than what is fair and                        supply chain pose
accurate cost data. As a result of the review, we
identified $49.6 million in excessive prices. (D-     reasonable. DoD IG will also evaluate effective                      a risk to military
2011-104)                                             use of government-owned inventory, to deter-                     operations and both
                                                      mine whether it is used before the same part is                  military and civilian
During the reporting period, DCIS investiga-          procured from a contractor. Audits conducted
                                                      in the areas of spare parts pricing and excess in-
                                                                                                                                 personnel.”
tions led to the recovery of $4,880,943 on behalf
of the U.S. government; in addition there were        ventory typically result in significant monetary
18 criminal charges, 15 convictions, 15 suspen-       returns.
sions and 21 debarments related to spare and
substandard parts investigations. For example, a      Defective, substituted, counterfeit and substan-
joint DCIS investigation with the FBI and Gen-        dard products continue to be a top investigative
eral Services Administration OIG disclosed that       priority. DCIS has initiated multiple undercover
Red River Computer Company Inc. and its pres-         operations and developmental projects to iden-
                                                      tify leads for products introduced into the DoD

                                                                                                             APRIL 1, 2011 TO SEPTEMBER 30, 2011 11
IG Highlights



                                    acquisition system, with particular emphasis         tion process. Without a reliable process to re-
                                    for allegations involving troop safety and mis-      view expenditures and identify the full extent of
                                    sion readiness. In addition, DCIS has teamed         improper payments, the Department will not be
                                    with the members of the National Intellectual        able to improve internal controls aimed at reduc-
                                    Property Rights Coordination Center for a com-       ing improper payments and improving financial
                                    prehensive initiative targeting counterfeit items    management controls.
                                    entering the supply chains of the DoD and other
                                    U.S. government agencies.
                                                                                         Recent Activities
                                                                                         DoD IG reported that the Department lacks
                                    Improper Payments                                    assurance that it correctly disburses billions of
                                                                                         dollars annually. For example, DoD IG reported
                                                                                         that the Defense Finance and Accounting Ser-
“In FY 2010, the                    Background                                           vice had an inadequate process and lacked the
Department reported                 Improper payments are often the result of un-        system controls to permit the proper recording
nearly $1 billion in                reliable data and poor internal controls. These      and tracking of contractor debt. This resulted in
                                    conditions create an environment where fraud         an increased risk that DFAS will not collect all of
estimated improper
                                    is more likely. An improper payment is a pay-        DoD contractor debt. DoD contractor debt in-
payments.”                          ment that should not have been made or that          cludes improper payments, duplicate payments,
                                    was made in an incorrect amount under statu-         and overpayments made to DoD contractors.
                                    tory, contractual, administrative or other legally   (D-2011-084)
                                    applicable requirements. Incorrect amounts are
                                    overpayments and underpayments made to eli-          DoD IG also reported that the Office of Small
                                    gible recipients (including inappropriate denials    Business Programs did not have sufficient quali-
                                    of payment or service, payments that do not ac-      fication guidance regarding requests made by re-
                                    count for credit for applicable discounts, and       lated and excluded parties. We identified incen-
                                    duplicate payments). Improper payments also          tive requests totaling $4.17 million from prime
                                    include payments to ineligible recipients or for     contractors who were inappropriately subcon-
                                    ineligible goods or services and payments for        tracting to a related party and contractors on the
                                    goods or services not received (except for such      Excluded Parties List System. The Office of Small
                                    payments authorized by law). In addition, when       Business Programs implemented new guidance
                                    an agency’s review process is unable to discern      and denied the requests. This resulted in better
                                    whether a payment was proper as a result of          use of $4.17 million in funds. (D-2011-091)
                                    insufficient or lack of documentation, this pay-
                                    ment must also be considered an error.               DoD IG reviewed nearly 2.1 million active duty
                                                                                         military personnel accounts and identified 1,159
                                    The Office of Management and Budget recently         potentially invalid accounts with basic pay total-
                                    reported that despite efforts to reduce improper     ing more than $76.5 million. DoD did not en-
                                    payments, federal agencies reported an esti-         sure that the Defense Joint Military Pay System
                                    mated $125 billion in improper payments for          – Active Component contained only valid active
                                    FY 2010. Whether these payments resulted from        duty military personnel accounts as DFAS did
                                    inadequate recordkeeping, inaccurate eligibility     not maintain personnel file documentation to
                                    determinations, inadvertent processing errors,       substantiate them. This resulted in potential im-
                                    the lack of timely and reliable information to       proper payments of $4.2 million. (D-2011-093)
                                    confirm payment accuracy, or fraud, the amount
                                    of improper payments is simply unacceptable.         During the reporting period, DCIS recovered
                                                                                         $298,541,668 on behalf of the U.S. government;
                                    In FY 2010, the Department reported nearly $1        in addition, there were 15 criminal charges and
                                    billion in estimated improper payments. Howev-       11 convictions related to improper payment in-
                                    er, based on our audit results, we are concerned     vestigations. For example, DCIS investigated
                                    with the accuracy and reliability of the estima-     Boeing/United Launch Alliance for charging

 12 SEMIANNUAL REPORT TO THE CONGRESS
unallowable support costs on a contract with the     rent fiscal year. However, due to shifting priori-
U.S. Air Force. The investigation also uncovered     ties in the Congress, it is anticipated that funding
related misconduct by a Defense Contract Audit       in FY 2012 will decrease.
Agency deputy regional director, who was ter-
minated because of her improper actions. As a        DoD IG hosts periodic meetings of the Guam
result, in July 2011, Boeing/United Launch Al-       Interagency Planning Group and Joint Planning
liance paid restitution to DoD in the amount of      Group. The purpose of the IPG and JPG is to
$72,198,875, plus an additional $17,036,292 in       synchronize the efforts of DoD and interagency
accrued interest. The contract was further modi-     oversight agencies that support the Interagency
fied by reducing the total DoD cost by an addi-      Coordination Group, which oversees the re-
tional $198,953,797.                                 alignment of the U.S. Marines to Guam.

                                                     The following are recent DoD IG activities as
Way Forward                                          they relate to the status of the Guam realign-
Improper payments have been a long-standing          ment.
problem within the Department. DoD IG has
worked closely with the Department to identify
improper payments and make recommendations           Recent Activities
to improve controls that will reduce improper        In September 2011, the IPG and JPG held a
payments. While the Department made strides          combined quarterly meeting to facilitate a brief-
to improve the identification and reporting of       ing from the director of plans and policy for the
improper payments and took many corrective           Joint Guam Program Office on plans for the Ma-
actions to implement recommendations made            rine Corps move to Guam. The director briefed
by DoD IG, more work is needed to improve            representatives from the Departments of De-
controls over payments processed throughout          fense, Interior, Education and Transportation,
the Department.                                      as well as the Environmental Protection Agency,
                                                     Naval Audit Service, Army Audit Agency and
DoD IG will continue to focus audit oversight        the Defense Contract Audit Agency.
efforts on identifying improper payments and
ways the Department can make changes to assist       In 2010, DoD IG began the assessment Program
in eliminating improper payments. We currently       and Contract Infrastructure Technical Require-               DoD IG assessed the infrastructure
                                                                                                                  requirements for Guam.
have ongoing and planned oversight efforts ad-       ments Development for the Guam Realignment
dressing accuracy of disbursement transactions,      Program. The objective of the project was to as-
periodic reporting on improper payments made,        sess the development of program and contract
and the Department’s compliance with the re-         infrastructure technical requirements to include
quirements of the Improper Payments Elimina-         cost estimates and budgets for the Guam Re-
tion and Recovery Act of 2010.                       alignment Program. The assessment included
                                                     seven areas of infrastructure: port, roads, power
Procurement and acquisition fraud, corruption,       production and transmission, drinking water,
and other financial crimes impact crucial DoD        wastewater, solid waste and communications.
operations and result in significant financial       The team reviewed the existing infrastructure
losses that would otherwise be utilized to finance   facilities on location and assessed the engineer-
vital national defense initiatives. Improper pay-    ing improvements and supporting documenta-
ments is an investigative priority of DCIS.          tion. For each infrastructure area, the scope of
                                                     our assessment included infrastructure area

Guam Realignment
                                                     requirements, statutory and regulatory respon-
                                                     sibilities, inclusion in the realignment program,
                                                     cost estimates, budgeting, contract, schedule
                                                     and sustainment. The draft report was signed on
Background                                           September 1, 2011, and issued to the Naval Fa-
Funding for the Guam realignment has in-             cilities Command Pacific, Joint Region Marianas
creased over previous fiscal years and the cur-

                                                                                                            APRIL 1, 2011 TO SEPTEMBER 30, 2011 13
IG Highlights



“ DoD IG is concluding              commanders, and the Department of Transpor-            tion of Guam by 22 percent. With only 43 civil-
oversight of DoD                    tation OIG, for their review and comment. The          ian dental providers, population increases could
                                    final report is expected to be released in Decem-      push the population-to-dentist ratio to 5,000-
planning for health                 ber 2011.                                              to-1, potentially resulting in the designation of
care resources in                                                                          Guam as a Health Professional Shortage Area for
Guam and the source                 DoD IG performed two audits regarding the              dental care. The plans were inadequate because
selection process for               Guam realignment. The first one found that             Navy officials concluded that the current TRI-
the Guam multiple                   DoD officials did not accurately identify and re-      CARE Dental Program network in Guam would
                                    port obligations and expenditures for the Guam         be sufficient to provide dental care to active duty
award construction                  realignment in the Annual Report to Congress.          family members. (D-2011-092)
contracts.”                         Navy personnel did not accurately identify ob-
                                    ligations, resulting in an understatement of ap-
                                    proximately $7.3 million, or adequately support
                                    obligations, resulting in an overstatement of
                                                                                           Way Forward
                                                                                           DoD IG is concluding oversight of DoD plan-
                                    approximately $1.9 million. Further, DoD did           ning for health care resources in Guam and the
                                    not provide reliable Guam realignment costs to         source selection process for the Guam multiple
                                    Congress. Therefore, Congress cannot ensure            award construction contracts. Future planned
                                    that Guam realignment costs are properly allo-         oversight will include a review of the total cost
                                    cated, and it will not have reliable historical cost   estimate for the Guam realignment.
                                    data for planning future military realignments.
                                    (D-2011-075)                                           DoD IG will continue to monitor U.S. expen-
                                                                                           ditures in Guam, congressional appropriations
                                    The second audit reported that DoD plans for           and Japan’s financial contribution as they relate
                                    providing dental care to active duty family            to the Guam realignment.
                                    members in Guam need improvement. There is
                                    likely to be a shortage of dentists because of the
                                    expected population increases. The realignment
 DoD IG provides oversight of the   will increase the active duty family members and
 Guam realignment.                  civilian populations by about 39,100 during peak
                                    construction, thus increasing the total popula-




 14 SEMIANNUAL REPORT TO THE CONGRESS
                     2


Core Mission Areas
Core Mission Areas



                                        The following are highlights of DoD IG audit          and Missile Life Cycle Management Command

Audits                                  work during the reporting period. DoD IG
                                        performed audits in the following categories:
                                                                                              material purchases from The Boeing Company
                                                                                              supporting the Corpus Christi Army Depot to
                                        •	 Acquisitions and contracting.                      determine whether the partnership agreement
                                        •	 Financial management.                              effectively minimized the cost of direct materi-
                                        •	 Health care.                                       als to the depot. The command entered into the
                                        •	 Information assurance, security and                partnership to address parts availability prob-
                                            privacy.                                          lems and improve readiness.
                                        •	 Joint warfighting and readiness.                   Findings: Army Aviation and Missile Life Cycle
                                        •	 Nuclear enterprise.                                Management Command officials did not effec-
                                                                                              tively use $339.7 million of existing DoD inven-
                                                                                              tory before procuring the same parts from Boe-
                                        Acquisitions and                                      ing because DoD had inadequate policies and
                                        Contracting                                           procedures addressing inventory use. The Army
                                                                                              paid significantly higher prices to Boeing than
                                        Improving the efficiency and effectiveness of
                                        acquisition and contract management process-          if it would have procured the same parts from
                                        es remains a top priority. Over the last several      DLA. Command officials did not effectively ne-
                                        years, priorities have included reducing the use      gotiate prices for 18 of 24 high-dollar parts re-
                                        of high-risk contracts, increasing competition,       viewed because neither command officials nor
DoD IG evaluated purchases supporting   eliminating unneeded weapons systems, build-          Boeing officials performed adequate cost or price
the Corpus Christi Army Depot.
                                        ing the acquisition workforce, providing better       analyses, and Boeing officials submitted cost or
                                        training for acquisition professionals and maxi-      pricing data that were not current, complete and
                                        mizing the industrial base. Challenges of the         accurate. Further, command officials overstated
                                        Department include engaging in sound business         repair turnaround time improvements because
                                        arrangements and managing and overseeing              they used inconsistent methodologies for calcu-
                                        contracts and contractors to be assured that it is    lating baseline and actual performance, showing
                                        getting the services it needs on time and at a fair   a 46.7 percent improvement instead of an actual
                                        and reasonable price.                                 improvement of 26.1 percent to 36.9 percent.
                                                                                              Result: Among other recommendations, DoD
                                        During this reporting period, DoD IG issued           IG recommended that the Office of the Under
                                        reports related to improving acquisition and          Secretary of Defense for Acquisition, Technol-
                                        contract management processes. DoD IG rec-            ogy, and Logistics should issue policies and pro-
                                        ommended corrective action for ensuring the           cedures addressing the inventory and pricing is-
                                        use of existing excess inventory, negotiating         sues identified in this report. Also, DoD needs to
                                        fair and reasonable contract prices, improving        develop an effective strategy to use on hand and
                                        contract file documentation, validating perfor-       due-in government inventory before procuring
                                        mance requirements, accounting for property           the same parts on partnership agreements.
                                        and improving the suspension and debarment            Report No. D-2011-061
                                        decision-making processes. DoD IG continued
                                        to focus oversight on contract management and         Pricing and Escalation Issues Weaken the Effec-
                                        administration related to overseas contingency        tiveness of the Army Contract with Sikorsky to
                                        operations. Additionally, DoD IG continued its        Support the Corpus Christi Army Depot
                                        review of the Department’s implementation of          Overview: DoD IG evaluated the Army Aviation
                                        the American Recovery and Reinvestment Act            and Missile Life Cycle Management Command
                                        and identified areas for improving the use and        material purchases from Sikorsky Aircraft Cor-
                                        administration of undefinitized contract actions.     poration supporting the Corpus Christi Army
                                                                                              Depot to determine whether the partnership
                                        Excess Inventory and Contract Pricing Problems        agreement effectively minimized the cost of di-
                                        Jeopardize the Army Contract with Boeing to           rect materials to the depot.
                                        Support the Corpus Christi Army Depot                 Findings: Army Aviation and Missile Life Cycle
                                        Overview: DoD IG evaluated the Army Aviation          Management Command officials did not effec-

16 SEMIANNUAL REPORT TO THE CONGRESS
tively negotiate prices for 28 of 46 noncompeti-      ment decisions and entering the information
tive spare parts reviewed because neither Sikor-      into the Excluded Parties List System. DoD IG
sky nor command officials performed adequate          also reviewed the suspension and debarment
cost or price analyses of proposed subcontractor      process for the services and the Defense Logis-
prices. Sikorsky also paid excessive prices to sub-   tics Agency to determine whether contracting
contractors (pass-through costs) and did not al-      officers referred poorly performing contractors
ways provide the most current, complete and ac-       to be suspended or debarred, whether contract-
curate cost data (defective pricing). In addition,    ing officers checked the system before making
the CCAD/Sikorsky contract established exces-         contract awards, and whether contractors re-
sive inflation rates that were not tied to an eco-    ceived contract awards after being listed in the
nomic index. DoD IG calculated that Sikorsky          system.
charged the Army $11.8 million or 51 percent          Findings: The suspension and debarment de-                        “DoD IG reviewed
more ($34.7 million versus $22.9 million) than        cision-making process and data entry into the
fair and reasonable prices for 28 parts. If prices    system appeared to be done in a timely manner.
                                                                                                                        documentation on
are not corrected, command officials will pay         The services suspension and debarment officials                     the timeliness of
excessive profits of approximately $16.6 million      did not suspend or debar as many contractors                    DoD suspension and
over the remaining two years of the contract.         based on poor performance as did the DLA offi-                  debarment decisions
During the audit, Sikorsky agreed to provide re-      cial. The services officials issued suspension and                  and entering the
funds of about $1.0 million. In addition, Army        debarment actions based on poor performance
Aviation and Missile Life Cycle Management            for 8 of 87 suspension and debarment case files
                                                                                                                      information into the
Command will pay excessive escalation costs of        reviewed. According to the services contracting                 Excluded Parties List
$21 million because contract escalation was not       personnel interviewed, they had little to no in-                            System.”
tied to an economic index.                            volvement with suspending and debarring con-
Result: Among other recommendations, DoD              tractors. The DLA official issued suspension and
IG recommended that command officials need            debarment actions based on poor performance
to correct prices and seek refunds totaling about     for 24 of 39 case files reviewed. As a result of
$11.0 million for unnecessary subcontractor           the services contracting officers not referring as
pass-through costs, an unacceptable quantity          many poorly performing contractors, these con-
curve, and instances where Sikorsky negotiated        tractors may still be receiving contracts. The ser-
lower supplier prices after negotiating with the      vices and DLA contracting personnel awarded
Army. Command officials should procure the            17 contract actions, valued at about $600,000,
remaining contract requirement for a rotor from       to eight suspended or debarred contractors after
DLA, to save more than $1.3 million. Command          the contractors were listed in the Excluded Par-
officials need to develop procedures that require     ties List System.
the contracting officers or other oversight of-       Result: DoD IG recommended that the director,
ficials to perform price analysis in conjunction      Defense Procurement and Acquisition Policy,
with cost analysis. Also, command officials need      develop a working group to review and improve
to take immediate action to correct excessive         the process for referring poorly performing
prices caused by too much escalation and use          contractors for potential suspensions or debar-
an appropriate economic index for the contract.       ments; develop a training program to inform
The director, defense procurement and acqui-          contracting personnel of the suspension and de-
sition policy, needs to issue guidance that em-       barment program and the process for referring
phasizes performing cost analysis of a sample of      poorly performing contractors; and conduct
spare parts before exercising an option under a       training for contracting personnel on checking
firm fixed-price contract.                            the system before awarding contracts.
Report No. D-2011-104                                 Report No. D-2011-083

Additional Actions Can Further Improve the            Contract Management of Joint Logistics Integra-
DoD Suspension and Debarment Process                  tor Services in Support of Mine Resistant Am-
Overview: DoD IG reviewed documentation on            bush Protected Vehicles Needs Improvement                   DoD IG reviewed Joint Logistics
the timeliness of DoD suspension and debar-           Overview: DoD IG reviewed and evaluated the                 Integrator MRAP contracts.


                                                                                                            APRIL 1, 2011 TO SEPTEMBER 30, 2011 17
Core Mission Areas



                                        Army award and administration of the Joint Lo-        governmental functions and organizational con-
                                        gistics Integrator contracts. The initial contract,   flicts of interest requirements, should review the
                                        awarded in 2007, was valued at $193.4 million,        contracting officers’ performance, and should
                                        and the follow-on contract, awarded in 2009,          establish a process that will gather and analyze
                                        was valued at $285.5 million.                         data from the JLI follow-on contract, so that
                                        Findings: Army Contracting Command-War-               tasks can be converted to fixed-price work where
                                        ren and Joint Program Office MRAP officials           appropriate.
                                        inadequately planned for the follow-on contract       Report No. D-2011-081
                                        award and did not effectively administer the
                                        contract. The officials inappropriately allowed       Ballistic Testing for Interceptor Body Armor In-
                                        the contractor to perform inherently govern-          serts Needs Improvement
                                        mental functions, such as disciplining DoD em-        Overview: DoD IG completed a series of four
                                        ployees, and to have organizational conflicts of      interceptor body armor audits in response to
                                        interest, such as helping prepare requirements        a congressional request. This audit evaluated
                                        for the follow-on contract that the contractor bid    product quality assurance for seven Army con-
                                        on and won. This occurred because the officials       tracts, valued at $2.5 billion, for ballistic inserts
                                        only cursorily addressed statutory and regula-        awarded between 2004 and 2006. Specifically,
DoD IG reviewed ballistic testing for   tory requirements for preventing performance          DoD IG determined whether the results for first
interceptor body armor.                 of inherently governmental functions and orga-        article tests and lot acceptance tests met contract
                                        nizational conflict of interests, and only one gov-   requirements and whether quality assurance
                                        ernment employee was assigned overseas to the         personnel performed the product quality sur-
                                        task of overseeing a multi-million dollar contract    veillance in accordance with contract require-
                                        in three different foreign countries. This greatly    ments.
                                        increased the risk for potential waste or abuse       Findings: The Army program manager soldier
                                        on the contract. In addition, the contracting of-     equipment could provide only limited assurance
                                        ficer did not adequately support the need to use      that approved ballistic materials for approxi-
                                        a time and material type of contract for the fol-     mately five million inserts on seven contracts
                                        low-on Joint Logistics Integrator effort, valued at   met the contract requirements. This occurred
                                        $285.5 million. Command officials did not use         because the program manager did not consis-
                                        data from the initial contract to help structure      tently enforce the requirements for testing the
                                        appropriate portions of the contract as fixed         body armor ballistic inserts. On two contracts,
                                        price. This occurred because command officials        the program manager did not conduct all the re-
                                        stated that they could not estimate the extent        quired tests because they had no protection per-
                                        or duration of the work needed due to constant        formance concerns on these inserts. On all seven
                                        changes in mission need and work performed.           contracts, the program manager did not always
                                        Consequently, the contracting officer awarded         use the correct size ballistic insert for first article
                                        a contract type, which provides no incentive to       tests, use a consistent methodology for measur-
                                        the contractor for cost control or labor efficiency   ing the proper velocity or enforce the humidity
                                        and significantly increased risk to DoD.              and temperature requirements. In addition, the
                                        Result: The commander, Marine Corps Sys-              program manager did not require weathered and
                                        tems Command, should require Joint Program            altitude tests on six of the seven contracts. Of-
                                        Office MRAP officials to obtain training on in-       ficials indicated that neither the size of the bal-
                                        herently governmental functions and organi-           listic insert nor the humidity and temperature
                                        zational conflicts of interest requirements. The      would affect the test results. The proper velocity
                                        program manager, Joint Program Office MRAP,           was not always calculated because the contracts
                                        should issue guidance to ensure that future Joint     did not define the process for determining the
                                        Logistics Integrator services do not include the      velocity, and the weathered and altitude tests
                                        performance of inherently governmental func-          were eliminated to expedite first article tests in
                                        tions. The executive director, Army Contracting       support of the urgent wartime requirement for
                                        Command-Warren, should require that con-              the ballistic inserts. Defense Contract Manage-
                                        tracting officials obtain training on inherently      ment Agency Phoenix personnel did not use

18 SEMIANNUAL REPORT TO THE CONGRESS
an appropriate random sampling methodology            ing Ground, should:                                             “DoD IG reviewed
to select a statistically representative sample for   •	 Obtain certified cost or pricing data before             Army efforts to procure
the lot acceptance tests. This occurred because          awarding future delivery orders on contract
                                                                                                                        the interrogation
DCMA personnel believed that their sampling              W909MY-10-D-0021 or renegotiate the
process provided a representative sample. As a           contract in accordance with Federal Acqui-                      arm that is used
result, the lot acceptance test results cannot be        sition Regulation Part 15, “Contracting by                   on route clearance
relied on to project identified deficiencies to the      Negotiation.”                                               vehicles in Iraq and
entire lot. Since additional testing was not con-     •	 Perform a review of the contracting officers’                    Afghanistan...”
ducted, DoD IG could not conclude that ballis-           actions relating to the determination that
tic performance was adversely affected by inad-          the interrogation arm was a commercial
equate testing and quality assurance.                    item and that a commercial market existed
Result: The Program Executive Office Soldier             and initiate, as appropriate, administrative
should revise the contract purchase description          actions.
to clearly define the point at which velocity is to   Report No. D-2011-105
be measured; perform the weathered and alti-
tude tests as required by the contract purchase       American Recovery and Reinvestment Act—Im-
description; and perform a risk assessment on         proper Planning of the Administrative Buildings
two lots, to determine whether the ballistic in-      Project at Camp Lejeune, North Carolina
serts will perform as intended.                       Overview: DoD IG determined whether DoD
Report No. D-2011-088                                 ensured the appropriate use of Recovery Act
                                                      funds by adequately planning, funding, initially
Competition for Interrogation Arm Contracts           executing and tracking and reporting the Ad-
Needs Improvement                                     ministrative Buildings Project, valued at $21.7
Overview: DoD IG reviewed Army efforts to             million, at Camp Lejeune, N.C.
procure the interrogation arm that is used on         Findings: Camp Lejeune officials did not proper-
route clearance vehicles in Iraq and Afghanistan      ly plan the project. Camp Lejeune Public Works
to determine whether the acquisition initiative       Division officials prepared project documenta-
was contracted and managed in accordance with         tion without sufficient justification. Specifically,
federal and defense acquisition regulations.          Public Works Division officials did not properly
Findings: Army contracting and program of-            complete DD Forms 1391, Military Construc-                  DoD IG reviewed competition for
ficials inappropriately restricted competition in     tion Project Data; retain documents to support              interrogation arm contracts.

their award of four sole-source contracts valued      $20.5 million in repairs; develop complete and
at $82.1 million to one source. These officials       reliable economic analyses and prepare required
also inappropriately managed the interrogation        documents to support the project’s exclusion
arm as a commercial item when it was developed        from environmental requirements. In addition,
uniquely for military purposes. This occurred         Naval Facilities Engineering Command Mid-
because program officials preferred to use a spe-     Atlantic contracting officials overobligated the
cific contractor and contracting officials did not    Administrative Buildings Project by $37,015,
perform due diligence in their determination          which resulted in a potential Antideficiency Act
that it was a commercial item. As a result, the       violation.
Army lost the benefits of competition and may         Result: DoD IG recommended Public Works
not have received the best value in its contracts     Division officials be required to track and assess
to meet the need of the warfighter and protect        the completion of DD Forms 1391, economic
the interest of DoD.                                  analyses and National Environmental Policy
Result: The project manager, Close Combat             Act reviews in accordance with Marine Corps
Systems, should develop an acquisition strategy       Order P11000.5G, “Real Property Facilities
with the Army Contracting Command–Aber-               Manual, Volume IV, Facilities Project Manual,”
deen Proving Ground to seek, promote and              September 30, 2004. Additionally, DoD IG rec-
sustain competition for future interrogation          ommended the deputy commandant, programs
arm procurement. Also, the executive director,        and resources, conduct a preliminary review of
Army Contracting Command–Aberdeen Prov-               the potential Antideficiency Act violation for the

                                                                                                             APRIL 1, 2011 TO SEPTEMBER 30, 2011 19
Core Mission Areas



                                      project.                                             ued at $4.7 million, at the long-range radar sites
                                      Report No. D-2011-119                                at Cape Lisburne, Cape Newenham and Cape
                                                                                           Romanzof, Alaska, and determined whether Air
                                      American Recovery and Reinvestment Act—              Force personnel complied with the Recovery
                                      Repair Project at Camp Pendleton, California,        Act’s requirements and related guidance.
                                      Needed Improvements in Planning                      Findings: Personnel at the 611th Civil Engi-
                                      Overview: DoD IG evaluated whether person-           neer Squadron did not ensure the wind turbine
                                      nel from Naval Facilities Engineering Command        projects were properly planned and supported
                                      Southwest and the U.S. Marine Corps Base             to meet the minimum savings-to-investment
                                      Camp Pendleton appropriately used Recovery           ratio and payback criteria because of multiple
                                      Act funds by adequately planning, funding,           turnovers in project managers and a loss of proj-
                                      initially executing, and tracking and reporting      ect files. Additionally, before the projects were
                                      Project P-0438, Repair of the Bachelor Enlisted      selected for Recovery Act funding, personnel
                                      Quarters, valued at about $8.9 million.              at the 611th CES did not first ensure that wind
                                      Findings: Naval Facilities Engineering Com-          studies had been completed and, therefore, that
                                      mand Southwest and Camp Pendleton person-            the projects were shovel-ready. As a result, DoD
                                      nel did not adequately plan the project. The         cannot ensure that the projects are viable, that
                                      Integrated Product Team and Camp Pendleton           the deputy under secretary of defense (installa-
                                      Public Works Department personnel did not            tions and environment) appropriately selected
                                      have complete documentation to support ap-           the projects for Recovery Act funding, and that
                                      proximately $8.3 million in Recovery Act funds       Recovery Act funds were appropriately used.
                                      for the project. Personnel did not properly com-     That Air Force personnel distributed funds to
                                      plete the 2009 DD Form 1391, Military Con-           the Air Force Civil Engineer Support Agency for
                                      struction Project Data, based the repair project’s   the wind turbine projects in a timely manner,
                                      requirements on a 2005 request for proposal and      or that the funding authorization documents
                                      a 2002 DD Form 1391, and did not document            properly identified a Recovery Act designa-
                                      the 2008 walkthroughs of the bachelor enlisted       tion. Although contracting personnel at the Air
                                      quarters that they used to update requirements.      Force Civil Engineer Support Agency ensured
                                      Therefore, DoD did not have reasonable assur-        that contracting actions for the wind turbine
                                      ance that repairs were necessary and that Recov-     projects generally were executed appropriately,
                                      ery Act funds were appropriately used.               they originally cited an incorrect appropriation
                                      Result: DoD IG recommended that the com-             to award the task order. Finally, the contractor
                                      manding officer, Naval Facilities Engineering        reported the required information for Recovery
                                      Command Southwest, and the commanding of-            Act recipients; however, the contractor original-
                                      ficer, U.S. Marine Corps Base Camp Pendleton,        ly reported an incorrect Treasury appropriation
                                      review project requirements documentation for        fund symbol to the www.recovery.gov website.
                                      existing projects and ensure files are accurate      As a result of the review, officials at the Air Force
                                      and complete and that the commanding officer,        Civil Engineer Support Agency took action to
                                      Naval Facilities Engineering Command South-          correct those errors.
                                      west, validate that approximately $800,000 in        Result: DoD IG recommended that the Air
                                      Recovery Act funds were returned to headquar-        Force prepare supporting documentation, in-
                                      ters.                                                cluding the results of the 1-year wind studies,
                                      Report No. D-2011-117                                and revalidate the discounted payback periods
                                                                                           and SIRs on the life-cycle cost analyses. DoD IG
                                      American Recovery and Reinvestment Act Wind          also recommended that the deputy under secre-
                                      Turbine Projects at Long-Range Radar Sites in        tary of defense (installations and environment)
                                      Alaska Were Not Adequately Planned                   cancel the wind turbine project at Cape New-
                                      Overview: DoD IG reviewed the planning, fund-        enham and work directly with the Air Force to
                                      ing, initial project execution and tracking and      validate the life-cycle cost analyses for the wind
DoD IG reviewed energy conservation
                                      reporting of the Energy Conservation Invest-         turbine projects at Cape Lisburne and Cape Ro-
wind turbine projects.                ment Program wind turbine projects, each val-        manzof and determine the best course of action

20 SEMIANNUAL REPORT TO THE CONGRESS
for the construction of the Cape Lisburne and       and Marine Corps develop energy strategies and             “DoD IG recommended
Cape Romanzof wind turbine projects; develop        comprehensive policies for planning and select-                  that the Navy and
plans to use the savings resulting from the ter-    ing cost-effective energy projects. DoD IG also
mination of the project at Cape Newenham; and       recommended that officials review the actions of
                                                                                                                Marine Corps develop
develop plans to address cost overruns for the      those responsible for planning and selecting the             energy strategies and
projects at Cape Lisburne and Cape Romanzof.        photovoltaic projects that were not cost-effec-            comprehensive policies
Report No. D-2011-116                               tive, which resulted in Recovery Act funds not                    for planning and
                                                    recovered, and, based on that review, determine             selecting cost-effective
The Department of the Navy Spent Recovery Act       whether any administrative actions were neces-
Funds on Photovoltaic Projects that Were Not        sary.
                                                                                                                      energy projects.”
Cost-Effective                                      Report No. D-2011-106
Overview: DoD IG determined whether DoN
planned and selected three Recovery Act pho-        American Recovery and Reinvestment Act
tovoltaic projects at 12 Navy and Marine Corps      “Heating, Ventilation, and Air Conditioning
sites in accordance with the Recovery Act and       Replacement” Project at Naval Support Activity
applicable energy legislation and policies. The     Norfolk - Planning and Initial Execution Could
contract costs for these three projects totaled     Have Been Improved
$62.3 million.                                      Overview: DoD IG evaluated the Naval Facili-
Findings: DoN did not select and plan the pho-      ties Engineering Command Mid-Atlantic plan-
tovoltaic projects in accordance with the Recov-    ning, funding, initial execution, and tracking
ery Act and applicable energy legislation and       and reporting of $19.25 million for a heating,
policies. As a result, the Navy will not recover    ventilation and air conditioning replacement
$25.1 million of the $50.8 million invested in      project at Naval Support Activity, Norfolk, Va.
photovoltaic projects. During project planning      Findings: The replacement project did not meet
and selection, officials did not consider whether   Recovery Act requirements. Public Works De-
projects were cost-effective or analyze different   partment officials lacked sufficient documenta-
types of energy projects to determine the best      tion supporting the replacement project, and
investments for meeting legislative energy goals.   contracting officials did not identify contract
Instead, they relied on project titles, location,   oversight responsibilities in writing and did not
cost and amount of time to award contracts to       develop a quality assurance plan. These condi-
selected projects. Officials incorrectly conclud-   tions occurred because Public Works Depart-
ed that cost-effectiveness was not required for     ment officials believed the DD Form 1391, FY
planning Recovery Act energy projects. Energy       2010 Special Projects Program, was the main
legislation and policies required the projects to   document needed to support the replacement
be cost-effective, and the Recovery Act did not     project; contracting officials stated that hav-
waive these requirements; rather, it required       ing contract oversight responsibilities in writ-
agencies to spend funds “consistent with pru-       ing was not required; and contracting officials
dent management.” Officials also were not well      stated a quality assurance plan was not needed
equipped to handle quick timelines for plan-        for construction contracts and instead relied on
ning and selecting projects because, at the time    the contractor’s quality control plan. As a result,
of the Recovery Act’s implementation, the Navy      DoD did not have reasonable assurance that Re-
and Marine Corps did not have processes for         covery Act funds were used appropriately. How-
completing life-cycle cost analyses, processes      ever, Naval Facilities Engineering Command
for planning and selecting all energy projects,     Mid-Atlantic officials properly distributed Re-
or energy strategies for achieving legislative      covery Act funds to the heating, ventilation and
goals. DoN has taken steps to improve its en-       air conditioning replacement project, and con-
ergy programs by restructuring existing offices     tracting officials properly tracked and reported
and establishing new energy offices, developing     required project information.
strategies and policies, and implementing a new     Result: DoD IG recommended that the com-
project selection tool.                             manding officer, Naval Facilities Engineering
Result: DoD IG recommended that the Navy            Command Mid-Atlantic, provide adequate

                                                                                                          APRIL 1, 2011 TO SEPTEMBER 30, 2011 21
Core Mission Areas



                                    documentation to justify the need to replace the      contractor progress and performance.
                                    heating, ventilation and air conditioning system;     Report No. D-2011-108
                                    require all project submissions to fully demon-
                                    strate the need for the projects; and designate, in   Army Contracting Command-Redstone Arse-
                                    writing, contract oversight responsibilities for a    nal’s Management of Undefinitized Contractual
                                    qualified contracting officer’s authorized repre-     Actions Could Be Improved
                                    sentative or equivalent official.                     Overview: This is the fifth in a series of reports
                                    Report No. D-2011-109                                 discussing DoD compliance with section 2326,
                                                                                          title 10, United States Code, as required by P.L.
                                    Geothermal Energy Development Project at Na-          99-591. DoD IG reviewed 43 undefinitized con-
                                    val Air Station Fallon, Nevada, Did Not Meet          tractual actions with a total not to exceed value
                                    Recovery Act Requirements                             of about $3.1 billion awarded by the Army Con-
                                    Overview: DoD IG reviewed whether Navy per-           tracting Command-Redstone Arsenal from FY
                                    sonnel appropriately used Recovery Act funds to       2004 through September 18, 2009, to determine
                                    plan, fund and initially execute the Geothermal       whether contracting personnel complied with
                                    Energy Development project at Naval Air Sta-          the restrictions of the U.S.C. and whether they
“DoD IG reviewed                    tion Fallon, Nev. DoN allocated approximately         appropriately justified undefinitized contract ac-
whether Navy                        $9.12 million in Recovery Act funds to the proj-      tions at reasonable prices.
                                    ect.                                                  Findings: Army Contracting Command-Red-
personnel
                                    Findings: The project did not meet Recovery           stone Arsenal contracting personnel did not
appropriately used                  Act requirements. Geothermal Program Of-              consistently comply with statutory and DoD re-
Recovery Act funds to               fice and Naval Air Station Fallon Public Works        quirements for managing UCAs for 40 of the 43
plan, fund and initially            Department personnel did not adequately plan          UCAs that we reviewed. As a result, contracting
execute the Geothermal              the project. Specifically, they did not fully com-    personnel negotiation positions on price did not
                                    plete the DD Form 1391, and the Geothermal            consider incurred costs for three UCAs, result-
Energy Development
                                    Program Office did not have a comprehensive           ing in profit positions that were about $800,000
project...”                         plan in place to substantiate its three-phase ap-     higher than they would have been had incurred
                                    proach to geothermal exploration. In addition,        cost been considered. Therefore, the government
                                    the commander, Navy Region Southwest, did             may have paid more profit than was necessary.
                                    not promptly distribute about $1.2 million in         Result: DoD IG recommended that Army con-
                                    Recovery Act funds, and contracting personnel         tracting personnel comply with federal and DoD
                                    at Naval Air Warfare Center Weapons Division,         policy for UCAs, better coordinate with custom-
                                    China Lake, could have improved contract ex-          ers to identify changes in government require-
                                    ecution. Finally, the director, Navy Shore Energy     ments, and revise local acquisition guidance to
                                    Office, did not effectively oversee the project. As   include procedures for escalating prolonged ne-
                                    a result, the Geothermal Program Office efforts       gotiations and to require contracting personnel
                                    to reduce exploration risks were weakened and         to adequately document the profit determina-
                                    DoD lacks reasonable assurance that Recovery          tion for UCAs.
                                    Act funds were used appropriately.                    Report No. D-2011-097
                                    Result: DoD IG recommended that the director,
                                    Navy Shore Energy Office, Naval Facilities En-        DoD Efforts to Protect Critical Program Infor-
                                    gineering Command, provide detailed oversight         mation: The Air Force’s Family of Advanced Be-
                                    to the project in accordance with Recovery Act        yond Line-of-Sight Terminals
                                    requirements and establish an estimated time-         Overview: The report was the second in a series
                                    line to complete the project. Additionally, DoD       of assessments to determine how DoD protects
                                    IG recommended that the commander, Naval              critical program information. The report used
                                    Air Systems Command, require the Naval Air            the Air Force’s Family of Advanced Beyond
                                    Warfare Center Weapons Division, China Lake,          Line-of-Sight Terminals category ID program of
                                    procuring contracting officer to designate a con-     record as a case study to establish how the De-
                                    tracting officer’s representative and develop a       partment protects critical program information.
                                    quality assurance surveillance plan to monitor        The assessment was done in coordination with

 22 SEMIANNUAL REPORT TO THE CONGRESS
DoD research, development and acquisition,            agement within the Department, the under sec-
counterintelligence, and security subject matter      retary of defense (comptroller)/chief financial
experts and focused on eight key issue areas re-      officer issued the DoD Financial Improvement
lated to program protection.                          and Audit Readiness Plan. The plan outlines
Result: DoD IG and the under secretary of de-         DoD strategy, priorities and methodology for
fense for intelligence recommended that the           achieving audit readiness. The objective of the
OUSD(I) should strengthen policy related to           plan is to provide ongoing, cross-functional col-
critical program information protection in the        laboration with DoD components to yield stan-
area of tailoring threat products to ensure time-     dardized accounting and financial management
liness and relevance of the threat to program-        processes, business rules and data that will pro-
specific critical program information. DoD IG         vide a more effective environment to better sup-
further recommended that the Air Force should         port the warfighting mission.
determine the most effective means to integrate
and optimize Air Force research, development,         DoD IG performs financial system audits to                   “DoD IG focused on
and acquisition protection efforts.                   evaluate the adequacy of system controls. These           15,093 service-related
Report No. 11-INTEL-08                                audits help to reduce the risk of loss due to er-
                                                                                                                      entitled payments
                                                      rors, fraud and other illegal acts and disasters
Summary of FY 2010 Inspections on Security,           that may cause the system to be unavailable. In             totaling $1.28 billion
Intelligence, Counterintelligence, and Technol-       addition, financial system audits provide invalu-         that Army commercial
ogy Protection Practices at DoD Research, De-         able information on DoD efforts to transform              vendor services offices
velopment, Test, and Evaluation Facilities            its systems and develop the Business Enterprise                           in Iraq.”
Overview: The report was a summary of the in-         Architecture. These audits also provide insight
spection results from the DoD and service OIGs        and recommendations to managers as they fo-
and, where available, noted the best practices of     cus and prepare for audit readiness. In addition
each. DoD IG assessed an acquisition category         to financial systems audits, we performed audits
1D program; the service IGs selected 45 of 121        on tax reporting, enterprise resource planning,
research, development, test and evaluation fa-        and controls over financial transactions during
cilities under their purview for inspection. The      the six-month period.
inspections ensure a uniform system of periodic
reviews for compliance with directives concern-       Army Commercial Vendor Services Offices in
ing security, intelligence, counterintelligence       Iraq Noncompliant with Internal Revenue Ser-
and technology protection practices. DoD and          vice Reporting Requirements
service OIGs used the recently published bienni-      Overview: DoD IG determined whether Army
al version of inspection guidelines that focused      commercial vendor services in Iraq complied
on eight key issue areas related to program pro-      with federal tax reporting requirements for
tection for reference.                                payments made to contractors supporting op-
Result: There were no recommendations.                erations in Southwest Asia. DoD IG focused on
Report No. 11-INTEL-11                                15,093 service-related entitled payments total-
                                                      ing $1.28 billion that Army commercial vendor
                                                      services offices in Iraq processed through the
Financial Management                                  Computerized Accounts Payable System-Clip-
DoD IG continues to support as well as provide        per from January 1, 2006, through December 31,
oversight of the financial management transfor-       2008.
mation efforts of the Department. Over the last       Findings: Of 14,699 payments, Army Com-
six months, DoD IG has worked closely with the        mercial Vendor Services personnel incorrectly
Department to address its long-standing finan-        coded domestic contractors as foreign, for an
cial management challenges to include financial       estimated 316 payments totaling an estimated
reporting, financial systems implementation and       $351.92 million, and may have incorrectly coded
improper payments.                                    domestic contractors as foreign, for an estimated
                                                      5,054 payments totaling an estimated $248.66
As part of its initiative to improve financial man-   million. This occurred because Defense Finance

                                                                                                          APRIL 1, 2011 TO SEPTEMBER 30, 2011 23
Core Mission Areas



                                       and Accounting Service and Army financial          correct the program planning, acquisition and
                                       management officials did not establish stan-       justification deficiencies identified in report
                                       dard operating procedures for coding contrac-      D-2008-041, “Management of the General Fund
                                       tor domain status. In addition, Army financial     Enterprise Business System,” January 14, 2008.
                                       management officials did not adequately train      The General Fund Enterprise Business System
                                       commercial vendor services personnel to code       is a financial management system the Army is
                                       contractor domain status. As a result, Army        developing to obtain an unqualified audit opin-
                                       commercial vendor services personnel did not       ion on its general fund financial statements and
                                       file federal information returns with the IRS      improve accuracy of financial information.
                                       for an estimated $351.92 million of incorrectly    Findings: Management actions were insufficient
DoD IG reviewed compliance with        coded contractor payments and an estimated         for correcting General Fund Enterprise Business
federal tax reporting requirements.
                                       $248.66 million of potentially incorrectly coded   System program planning, acquisition and jus-
                                       contractor payments. Army commercial ven-          tification deficiencies previously identified. The
                                       dor services personnel coded some contractors      Army estimates it will spend $2.4 billion over
                                       as domestic for 394 payments; however, Army        the system life cycle; however, it still has not
                                       commercial vendor services offices did not file    identified all of the requirements and costs as-
                                       the federal information returns or send the tax    sociated with the project. In addition, the DoD
                                       file to the DFAS Tax Office. This occurred be-     and Army did not implement seven of the 16
                                       cause the DoD Financial Management Regula-         recommendations made in the prior report.
                                       tion did not include all reporting requirements    Four recommendations remained open because
                                       for federal information returns. In addition,      Army oversight was not sufficient to ensure the
                                       Army financial management officials did not        Army prepared a detailed data conversion plan
                                       have standard operating procedures for filing      or an adequate economic justification for the
                                       federal information returns.                       program. Three recommendations remained
                                       Result: DFAS should establish standard operat-     open because the under secretary of defense for
                                       ing procedures for correctly coding contractor     acquisition, technology, and logistics and under
                                       domain status and distribute the annual quality    secretary of defense (comptroller)/chief finan-
                                       assurance plan for tax filing procedures to U.S.   cial officer did not take action to implement the
                                       Army Financial Management Command. U.S.            recommended improvements to the acquisition
                                       Army Financial Management Command should           process for system integration services. As a re-
                                       develop standard operating procedures for filing   sult of the open recommendations, the program
                                       federal information returns and update train-      remained at high risk of incurring additional
                                       ing to address coding contractor domain sta-       schedule delays, exceeding planned costs, and
                                       tus, completing Computerized Accounts Pay-         not meeting program objectives.
                                       able System-Clipper data fields and preparing      Result: The USD(C)/CFO and the deputy chief
                                       tax files. The Financial Management Center         management officer should review the Army’s
                                       should implement procedures for filing federal     Enterprise Resource Planning strategy, includ-
                                       information returns, update training to address    ing any investment in the further deployment
                                       coding contractor domain status and producing      of the system. The deputy chief management
                                       CAPS-C tax files and correctly code domestic       officer should also not approve the deployment
                                       contractors and issue federal information re-      of the system to additional users until the Army
                                       turns for reportable payments made by Army         completes the recommendations and corrects
                                       commercial vendor services offices from Janu-      the deficiencies identified by the U.S. Army Test
                                       ary 1, 2006, forward.                              and Evaluation Command. The Army should
                                       Report No. D-2011-059                              ensure a detailed data conversion plan for the
                                                                                          General Fund Enterprise Business System pro-
                                       Previously Identified Deficiencies Not Cor-        gram is prepared. In addition, the Army should
                                       rected in the General Fund Enterprise Business     implement procedures to ensure that economic
                                       System Program                                     justification information is complete and sup-
                                       Overview: DoD IG assessed whether DoD and          ported. The General Fund Enterprise Business
                                       Army management actions were sufficient to         System program manager should develop com-


24 SEMIANNUAL REPORT TO THE CONGRESS
plete and supported information for Army’s use       Cost of War Data for Marine Corps Contingen-
in preparing budget and cost estimates and for       cy Operations Were Not Reliable
managing the General Fund Enterprise Business        Overview: DoD IG determined whether Ma-
System program.                                      rine Corps officials accurately reported FY 2008
Report No. D-2011-072                                OCO costs in the DoD Cost of War Report and
                                                     whether documentation substantiated opera-
U.S. Marine Corps Forces Special Operations          tion and maintenance obligations and deobliga-
Command Needs to Improve Controls Over Fi-           tions.
nancial Transactions                                 Findings: Marine Corps officials did not always
Overview: DoD IG determined whether inter-           support or accurately report FY 2008 OCO costs.
nal controls over the U.S. Marine Corps Forces       Based on the sample results, DoD IG projects
Special Operations Command comptroller op-           that Marine Corps officials properly supported
erations were effective and in accordance with       179 transactions, valued at approximately $2.27
applicable guidance and regulations.                 billion, and partially supported 14 other trans-
Findings: The command did not have effective         actions, valued at approximately $204 million.              “DoD IG determined
controls over recording and processing 35,699        However, the projections also show that they               whether Marine Corps
transactions using baseline and contingency          could not provide sufficient documentation to                 officials accurately
funds valued at $131.8 million in obligations        support 86 transactions, valued at approximately
and $54.1 million in expenditures from Octo-         $1.82 billion. DoD IG also projects that Marine           reported FY 2008 OCO
ber 1, 2008 to October 16, 2009. The 320 sam-        Corps officials inaccurately entered financial              costs in the DoD Cost
ple transactions included obligations valued at      coding that resulted in approximately $58 mil-                  of War Report...”
$83.8 million and expenditures at $20.6 million;     lion and another $1.36 billion not being report-
245 transactions had one or more deficiencies.       ed under the correct operation or cost category,
Specifically, command personnel:                     respectively. Furthermore, DoD IG projects that
•	 Recorded 30 obligations valued at $300,000        Marine Corps officials incorrectly reported ap-
     without an official signing the authorization   proximately $40 million as OCO costs despite
     and approval.                                   those costs not supporting OCO. Costs were not
•	 Made 14 expenditures valued at $700,000           always supported and accurately reported be-
     for the purchase of goods and services with-    cause Marine Corps officials had not developed
     out an official receipt.                        command-level procedures to implement exist-
•	 Approved 26 travel vouchers valued at             ing DoD and Marine Corps policies and report-
     $200,000 with incorrect and unsupported         ing requirements. In addition, Headquarters,
     expenses.                                       Marine Corps officials did not hold fund man-
•	 Recorded 19 obligations valued at $600,000        agers accountable for the accuracy of data. As a
     and 14 expenditures valued at $300,000 that     result, DoD provided members of Congress and
     did not match the supporting documenta-         other decision-makers unreliable data. Also,
     tion.                                           portions of the FY 2008 Marine Corps opera-
•	 Processed 215 transactions with insufficient      tion and maintenance obligations reported on
     supporting documentation that included          the DoD Cost of War Report did not reflect how
     obligations valued at $37 million and ex-       funds were actually spent. In FY 2011, OCO-
     penditures valued at $20 million.               related data continued to be reported using the
As a result, the command reported inaccurate         Cost of War Report, so the need for accurate
costs on the Cost of War Report.                     data remains critical to decision-makers.
Result: The commander, U.S. Marine Corps             Result: The Marine Corps should update exist-
Forces Special Operations Command, should            ing policy to define the level of detail and type
improve controls over processing and record-         of documentation necessary for maintaining a
ing baseline and contingency operation funds         written audit trail, require fund managers to de-
by developing standard operating procedures,         velop command-level standard operating proce-
training personnel and performing reviews of         dures, and review the methodology for allocat-
transactions.                                        ing costs across multiple ongoing operations.
Report No. D-2011-086                                Report No. D-2011-090


                                                                                                         APRIL 1, 2011 TO SEPTEMBER 30, 2011 25
Core Mission Areas



                                        DoD Indian Incentive Program Payments to Re-         •	 DFAS Indianapolis did not establish a pro-
                                        lated Parties and Rebates to Excluded Parties             cess for communicating with the ODO sub-
                                        Overview: The audit objective was to determine            mitters.
                                        whether sufficient guidance existed to ensure        Therefore, the ODOs reconciled their fund bal-
                                        Office of Small Business Program properly ap-        ance with Treasury general ledger accounts to
                                        proved and awarded incentive payments under          the Cash Management Report, which in aggre-
                                        the DoD Indian Incentive Program.                    gate, did not match the amounts reported by
                                        Findings: OSBP did not have sufficient quali-        the U.S. Treasury. Because the ODOs must rely
                                        fication guidance regarding requests made by         on the amounts on the Cash Management Re-
                                        related and excluded parties. DoD IG identified      port as a control total for reconciling to the U.S.
                                        incentive requests totaling $4.17 million from       Treasury, these unreconciled variances seriously
                                        prime contractors who were inappropriately           undermine the reliability of the Cash Manage-
                                        subcontracting to a related party and prime          ment Report as a reconciliation tool and impede
                                        contractors on the excluded parties list system.     the audit ability of the ODO fund balance with
                                        DoD IG notified OSBP of these instances in two       Treasury accounts. This has a significant nega-
“DoD IG assessed the                    memorandums issued in May 2010.                      tive effect on the ability of ODO to obtain a fa-
completeness and                        Result: The OSBP acting director responded           vorable financial statement audit opinion unless
accuracy of the Cash                    by implementing new guidance and denying             adequate compensating controls are implement-
                                        the requests in June 2010. OSBP put to better        ed.
Management Report.”                     use $3.02 million in FY 2010 requests made by        Result: DFAS Indianapolis addressed some
                                        prime contractors appearing related to their         of the deficiencies identified during this audit.
                                        subcontractors, and OPBP put to better use           The director, DFAS Indianapolis should imple-
                                        $1.15 million in FY 2010 requests made by a          ment written procedures to reconcile variances
                                        prime contractor who was on the excluded par-        between the Cash Management Report and the
                                        ties list system.                                    U.S. Treasury, establish an integrated working
                                        Report No. D-2011-091                                group to resolve issues affecting the complete-
                                                                                             ness and accuracy of the Cash Management Re-
                                        Defense Finance and Accounting Service Needs         port and research and correct transactions held
                                        to Improve Controls Over the Completeness            in suspense accounts in a timely manner. The
                                        and Accuracy of the Cash Management Report           director, financial improvement and audit readi-
                                        Overview: DoD IG assessed the completeness           ness, under secretary of defense (comptroller),
                                        and accuracy of the Cash Management Report.          should monitor the progress of the integrated
                                        This is the first of two reports relating to the     working group and ensure all personnel respon-
                                        reconciliation of fund balance with Treasury         sible for reporting ODO transactions to DFAS
                                        for the other defense organizations. As of Sep-      Indianapolis are fully participating.
                                        tember 30, 2009, DoD reported $80.3 billion in       Report No. D-2011-098
                                        fund balance with Treasury on the ODO Gen-
                                        eral Fund Balance Sheet.
                                        Findings: The Cash Management Report was             Health Care
                                        not complete or accurate. Specifically, the direc-   Years of war have significantly stressed military
                                        tor, Defense Finance and Accounting Service          troops and their families. Given the continuing
                                        Indianapolis, did not attribute approximately        need for substantial and sustained deployments
                                        $10.5 billion in transactions to the ODO re-         in conflicts zones, DoD must do all it can to take
                                        sponsible for reconciling and accounting for the     care of its people – physically and psychologically.
                                        transactions. This occurred because:                 Consequently, the DoD Military Health System
                                        •	 DFAS Indianapolis did not properly re-            must provide health care support for the full
                                             search and resolve variances on a regular       range of military operations. In addition to the
                                             and recurring basis.                            readiness mission, the Military Health System
                                        •	 ODO submitters did not always report              is responsible for providing quality care for
                                             transactions to DFAS Indianapolis with          approximately 9.6 million beneficiaries. The
                                             valid lines of accounting.                      DoD budget for health care cost in FY 2011

 26 SEMIANNUAL REPORT TO THE CONGRESS
was approximately $52.6 billion, a 70 percent       These weaknesses occurred because TRICARE                   “...it is critical for DoD
increase since FY 2005. Accomplishing the           Management Activity personnel did not                          IG to maintain vigor-
readiness and peacetime mission during a            adequately oversee the contractor performing
time of contingency operations, fiscal austerity,   the certifications and did not require the claims
                                                                                                                    ous oversight of the
and legislative imperatives makes cost control      processing contractor to verify beneficiary                   health care challenges
difficult.                                          addresses. TRICARE Management Activity                      facing the Department,
                                                    paid for inadequate certification packages,                  including replacement
In this environment, it is critical for DoD IG to   and did not have adequate assurance that                    of aging infrastructure,
maintain vigorous oversight of the health care      “certified” medical providers actually exist
challenges facing the Department, including         or that beneficiaries always receive medical
                                                                                                                  cost containment and
replacement of aging infrastructure, cost           care from licensed medical professionals at                    care for family mem-
containment and care for family members of          accredited facilities. Further, by not verifying                  bers of active duty
active duty service members. DoD IG focused on      beneficiaries’ addresses before paying medical                    service members.”
medical infrastructure replacement and repair       claims, personnel cannot be sure that payments
projects under the American Reinvestment            reach the intended beneficiaries and may
and Recovery Act, certifying medical providers      unintentionally facilitate attempts to defraud
and processing and paying medical claims in         TRICARE through erroneous claims.
the Philippines and planning for medical care       Result: DoD IG recommended improvements
due to the military realignment to Guam. In         in oversight of contractor requirements for
addition, DoD IG dedicated a team to develop        certification of medical professionals and
an integrated audit approach to analyzing           medical facilities treating military retirees and
TRICARE health care claims.                         their dependents in the Philippines. DoD IG also
                                                    recommended improvements over procedures
Improvements Needed in Procedures for               for processing medical claims. The Department
Certifying Medical Providers and Processing         was responsive to the recommendations to
and Paying Medical Claims in the Philippines        improve oversight of contractor requirements
Overview: DoD IG evaluated the management           for Philippine provider certification, but did
controls over procedures for certifying medical     not agree that improvements over procedures
providers and for processing and paying             for processing and paying medical claims and
Philippine medical claims. While TRICARE            verifying beneficiaries’ addresses and to give
Management Activity has implemented                 beneficiaries the option of receiving claims
numerous initiatives to control costs and enhance   payment by electronic funds transfer are
anti-fraud controls in the overseas arena,          necessary to help ensure that the payments
DoD IG identified additional opportunities to       reach beneficiaries. DoD IG requested the
improve the certification and claims payment        Department reconsider its position.
process in the Philippines. This audit resulted     Report No. D-2011-107
from internal control deficiencies identified
while supporting DCIS and the U.S. Attorney’s       Guam Medical Plans Do Not Ensure Active
Office, Western District of Wisconsin.              Duty Family Members Will Have Adequate
Findings: TRICARE Management Activity               Access to Dental Care
needs to improve procedures for certifying          Overview: DoD IG evaluated DoD plans for
medical providers in the Philippines and for        providing dental care to active duty family
processing and paying medical claims. During        members in Guam in view of the anticipated
the review, DoD IG found the following:             growth in population resulting from the planned
•	 The contractor responsible for certifying        base closure in Okinawa and subsequent
     medical providers did not provide adequate     realignment to Guam.
     documentation to support 28 of 63              Findings: DoD plans for providing dental
     certifications of medical providers.           care to active duty family members in Guam
•	 Claims processing personnel did not verify       needs improvement. Specifically, the plans
     beneficiaries’ addresses before issuing        required family members to rely on local dental
     payment.                                       providers, despite the likely shortage of dentists,

                                                                                                          APRIL 1, 2011 TO SEPTEMBER 30, 2011 27
Core Mission Areas



                                       because of the expected population increases.       members of the Armed Forces were improperly
                                       The realignment will increase the active duty       marketed as investment products, providing
                                       family members and civilian populations             minimal death benefits in exchange for excessive
                                       by about 39,100 during peak construction,           premiums that are front-loaded in the first few
                                       thus increasing the total population of Guam        years, making them inappropriate for most
                                       by 22 percent. With only 43 civilian dental         military personnel. P.L. 109-290 required DoD
                                       providers, population increases could push          IG to conduct a study on the impact of DoD
                                       the population-to-dentist ratio to 5,000-to-1,      Instruction 1344.07, “Personal Commercial
DoD IG reviewed DoD plans for          potentially resulting in Guam’s designation as      Solicitation on DoD Installations,” March 30,
providing dental care in Guam.         a Health Professional Shortage Area for dental      2006, and the reforms included in the law on
                                       care. The plans were inadequate because Navy        the quality and suitability of sales of securities
                                       officials concluded that the current TRICARE        and insurance products marketed to members
                                       Dental Program network in Guam would be             of the Armed Forces. This is the third in a series
                                       sufficient to provide dental care to active duty    of reports addressing the reforms included in
                                       family members; however, in arriving at this        the law on the quality and suitability of sales of
                                       conclusion, Navy officials did not fully examine    securities and insurance products marketed to
                                       the impact the increase in total population would   members of the Armed Forces.
                                       have on the availability of dental care in Guam;    Findings: DoD Instruction 1344.07 and
                                       and coordinate with the TRICARE Management          mandated reforms in P.L. 109-290 were generally
                                       Activity to ensure that the TRICARE Dental          effective. Although controls are generally in
                                       Program could continue to provide adequate          place on military installations to protect service
                                       access to dental care for active duty family        members from sales of unsuitable life insurance
                                       members. If there is not adequate access to         products, responsible officials can and should
                                       dental care, it could negatively impact quality     take further action. Sales of unsuitable life
                                       of life and morale for active duty members and      insurance products continued on or near five of
                                       their families.                                     six military bases visited.
                                       Result: DoD IG recommended that the deputy          Result: The deputy assistant secretary of defense
                                       director, TRICARE Management Activity, assess       for military community and family policy
                                       the capability of the TRICARE Dental Program        should expand the requirement for types of
                                       to meet access requirements given the projected     information to be reported in the Personal
                                       increases in ADFM, contractor, DoD civilian         Commercial Solicitation Report and require
                                       and indirect/induced populations. DoD IG            military services to update financial training to
                                       also recommended that the chief, Navy Bureau        increase service member awareness.
                                       of Medicine and Surgery, in coordination with       Report No. D-2011-099
                                       TRICARE Management Activity, develop viable
                                       plans that fully consider the impact contractor,
                                       DoD civilian, and indirect/induced population       Information Assurance,
                                       increases in Guam will have on the availability
                                       of dental care for ADFMs.
                                                                                           Security and Privacy
                                                                                           DoD reliance on information technology to
                                       Report No. D-2011-092                               complete mission requirements in the environ-
                                                                                           ment today is almost immeasurable. Managing
                                       Additional Actions Needed to Mitigate Risks         the risks to DoD information and information
                                       of Unsuitable Life Insurance Sales to Junior        systems requires constant vigilance against and
                                       Enlisted Service Members                            immediate reaction to threats. Information as-
                                       Overview: Congress enacted P.L. 109-290,            surance is the practice of managing the risks and
                                       Military Personnel Financial Services Protection    threats. DoD IG focused its efforts on reviews of
                                       Act, September 29, 2006 to protect members of       controlled unclassified information for weapon
                                       the Armed Forces from unscrupulous practices        systems contracts, the DoD information assur-
                                       regarding sales of insurance and financial and      ance vulnerability management program and
                                       investment products. Congress has found             the information security controls over the Ma-
                                       that certain life insurance products offered to     rine Corps Total Force System.

28 SEMIANNUAL REPORT TO THE CONGRESS
DoD Cannot Ensure Contractors Protected              Information Systems,” July 31, 2009, into a DoD
Controlled Unclassified Information for Weap-        issuance.
on Systems Contracts                                 Report No. D-2011-115
Overview: DoD IG determined whether DoD
protected its information in the possession          Improvements Are Needed to the DoD Infor-
of non-DoD entities who have been awarded            mation Assurance Vulnerability Management
weapon systems contracts. DoD IG reviewed            Program
20 contracts for requirements intended to pro-       Result: The report results are FOUO.
tect controlled unclassified information for the     Report No. D-2011-096
Departments of the Army, Navy and Air Force
and the Missile Defense Agency. In addition, we      Information Security Controls Over the Marine
determined whether select contractors imple-         Corps Total Force System Needs Improvement
mented minimum-baseline controls that DoD            Overview: The Marine Corps Total Force Sys-
developed to protect its controlled unclassified     tem maintains more than 500,000 active, re-
information.                                         serve and retiree records. During 2009, it paid
Findings: DoD did not consistently ensure            out more than $10.7 billion to active and reserve
contractors protected controlled unclassified        Marines. DoD IG assessed whether vulnerabili-
information for weapon systems contracts. Spe-       ties within the Marine Corps Total Force System
cifically, the 20 contracts valued at $202 billion   application and mainframe operating system
did not consistently require minimum-baseline        have been properly detected and remediated.
controls to ensure contractors protected the in-     Result: The results are FOUO.
formation. This occurred because DoD did not         Report No. D-2011-064
have enforced guidance to protect controlled
unclassified information on contractor-owned,
contractor-operated information systems. DoD         Joint Warfighting and
proposed changes to include the protection of
information in the Defense Federal Acquisi-
                                                     Readiness
                                                     The drawdown in Iraq and sustained opera-
tion Regulation Supplement in March 2010, but        tions in Afghanistan have placed a consider-
has not issued guidance as of September 2011.        able strain on individual service members and
In addition, program officials did not perform       their dependents; the low-density, high-demand
oversight to ensure contractors protected con-       systems such as intelligence, surveillance and
trolled unclassified information. This occurred      reconnaissance that the Department brings to
because contracting officers did not always in-      the battlefield; and the ability to reset and recon-
clude clauses in their contracts that provided au-   stitute the forces. The high operational tempo
thority for government oversight over controlled     of deployments in ongoing operations requires                DoD IG reviewed the disposition
unclassified information on contractor-owned,        DoD to pay extra attention to the well-being of              process for equipment leaving Iraq.
contractor-operated information systems. The         our service members, systems and institutions.
lack of guidance and oversight resulted in an in-    DoD must work to better manage the deploy-
creased risk of compromising information and         ment tempo; recruit, train, and equip qualified
in some cases, left the network vulnerable to at-    and able personnel; and prepare for the next
tack.                                                engagement. DoD IG audits address asset ac-
Result: DoD IG recommended that the direc-           countability, Afghan National Police training
tor, defense procurement and acquisition policy,     program transition, force protection and supply
develop a plan of action and milestones for is-      chain management issues.
suing Defense Federal Acquisition Regulation
Supplement clauses that address information          Consistent Use of Supply Support Activities
assurance requirements for controlled unclas-        Could Increase Efficiency of Equipment Draw-
sified information. DoD IG also recommended          down from Iraq
that requirements be incorporated from the Di-       Overview: DoD IG evaluated the disposition
rective Type Memorandum 08-027, “Security            process for equipment leaving Iraq and whether
of Unclassified DoD Information on Non-DoD           that process ensured timely accountability, vis-

                                                                                                            APRIL 1, 2011 TO SEPTEMBER 30, 2011 29
Core Mission Areas



                                       ibility and redistribution of the equipment to        port the Afghan National Police training pro-
                                       meet DoD needs and whether adequate security          gram and appropriately approved contractor
                                       procedures were in place to ensure the intended       invoices.
                                       destinations received the equipment.                  Findings: DoD and DOS needed improved
                                       Findings: Although the two supply support             processes and procedures to better manage the
                                       activities and central receiving shipping points      approximately $1.26 billion of DoD funds pro-
                                       visited were effectively managing the disposition     vided for the program. DOS did not properly
                                       process for equipment leaving Iraq, DoD activi-       obligate or return to DoD approximately $172.4
DoD IG reviewed the process for        ties bypassed the supply support activities and       million. Moreover, DOS approved contractor
turning in excess equipment.           shipped their equipment directly to the theater       payments for approximately $2.07 million that
                                       redistribution center at Camp Arifjan, Kuwait.        either were not authorized or were for services
                                       U.S. Forces-Iraq officials did not establish proce-   not provided. DOS officials did not always per-
                                       dures to preclude movement control teams from         form a detailed review of invoices before pay-
                                       authorizing DoD activities to ship equipment          ment and relied on a post-payment review of
                                       directly to the center.                               invoices to identify overpayments and obtain
                                       Result: DoD activities delayed redistribution         refunds from the contractor.
                                       and reduced content visibility when they by-          Result: DoD IG and DOS OIG identified ap-
                                       passed supply support activities. Lack of con-        proximately $124.62 million that, when recov-
                                       tent visibility increased the risk of injury from     ered, could be used for valid ANP training pro-
                                       inappropriately packed weapons and hazardous          gram requirements or other DoD requirements.
                                       material. For example, theater redistribution         In addition, if not corrected, incorrect obliga-
                                       center officials provided documentation identi-       tions of approximately $74.91 million could re-
                                       fying that during a period of about 60 days, DoD      sult in potential Antideficiency Act violations.
                                       incurred work stoppage at the center of about         Report No. D-2011-080
                                       2,670 hours at a cost of $85,000. U.S. Forces-Iraq
                                       and U.S. Army Central were responsive to the          Afghan National Police Training Program: Les-
                                       recommendations to develop procedures to pre-         sons Learned During the Transition of Contract
                                       vent unauthorized DoD activities from bypass-         Administration
                                       ing the supply support activities and procedures      Overview: DoD IG and DOS OIG conducted
                                       requiring that all radio frequency identification     this joint audit in response to a requirement in
                                       tags contain the appropriate data and that met-       the FY 2011 National Defense Authorization
                                       rics are developed to track compliance.               Act. This report addresses whether government
                                       Report No. D-2011-056                                 and contractor plans to transfer administration
                                                                                             for the Ministry of Interior and Afghan National
                                       Anti-Terrorism Programs for U.S. Forces at            Police training program contracts were com-
                                       Kandahar Airfield, Bagram Airfield, Camp Eg-          plete and feasible. In addition, this report ad-
                                       gers and New Kabul Compound Need Improve-             dresses whether DoD was prepared to provide
                                       ment                                                  effective management and oversight.
                                       Result: The report results are classified.            Findings: DoD IG and DOS OIG identified that
                                       Report No. D-2011-063                                 DoD and DOS officials did not conduct suf-
                                                                                             ficient planning for the transfer of ANP train-
                                       DoD and DOS Need Better Procedures to Moni-           ing program’s contract authority, to include de-
                                       tor and Expend DoD Funds for the Afghan Na-           veloping a comprehensive transition plan or a
                                       tional Police Training Program                        memorandum of agreement to guide, monitor,
                                       Overview: DoD IG and DOS OIG conducted a              and assign transition responsibilities. Instead,
                                       joint audit in response to a requirement in the       DoD and DOS officials relied on independent-
                                       FY 2011 National Defense Authorization Act.           ly developed contractor transition plans, some
                                       This was the first in a series of audits to address   of which were not feasible and did not address
                                       those requirements. For this audit, DoD IG and        inherently governmental tasks. DoD and DOS
                                       DOS OIG determined whether the Department             lacked guidance for planning contract transi-
                                       of State properly obligated DoD funds to sup-         tions from one agency to another, which con-

30 SEMIANNUAL REPORT TO THE CONGRESS
tributed to contractor schedule delays. In addi-    International Narcotics and Law Enforcement
tion, DoD officials reported that the incoming      Affairs officials identify and return the total
contractor had not filled 428 of the 728 required   amount of Afghanistan Security Forces fund ap-
trainer and mentor positions, placing the overall   propriations that were improperly used on other
ANP mission at risk. Also, DoD did not have the     programs, that DoD and DOS officials perform a
personnel in place to effectively oversee the new   joint investigation of the potential Antideficien-
DoD contract and did not formalize an agree-        cy Act violations for the $1.05 million of funds
ment for managing oversight personnel, com-         obligated for personal services contracts and the
munication, and information sharing between         estimated $75.6 million of funds obligated with-
commands.                                           out considering Economy Act limitations and
Result: DoD will be unable to adequately moni-      reimbursable agreement requirements.
tor whether the contractor is meeting its obli-     Report No. D-2011-102
gations and achieving the goals of the program.
DoD IG and DOS OIG recommended DoD                  Special Operations Forces Plans for Drawdown
and DOS develop guidance for planning and           and Reset of Property in Iraq
conducting complex transitions and that DoD         Result: The report results are classified.
continue to fill the management and oversight       Report No. D-2011-103
vacancies and agree on oversight roles and re-
sponsibilities between commands.                    Guidance for Petroleum War Reserve Stock
 Report No. D-2011-095                              Needs Clarification
                                                    Result: The report results are classified.
DoD Bi-Directional Flow Agreements and Ad-          Report No. D-2011-111
equate Tracking Mechanisms on the Northern
Distribution Network
Result: The report results are classified.          Nuclear Enterprise
Report No. D-2011-100                               National security of the U.S. nuclear enterprise
                                                    extends to providing oversight for evaluating
Afghan National Police Training Program             policies, procedures, plans and capabilities of
Would Benefit from Better Compliance with the       security and control of nuclear weapons.
Economy Act and Reimbursable Agreements
Overview: DoD IG and DOS OIG conducted              Review of United States Navy Nuclear Weapon
this joint audit in response to a requirement in    Security Program
the FY 2011 National Defense Authorization          Overview: This report examined the policies,
Act. This report addresses whether the Depart-      practices, plans and capabilities for physical se-
ment of State properly obligated DoD funds in       curity and control of U.S. nuclear weapons in
support of the Afghan National Police training      Navy custody. It examined the vulnerabilities
program.                                            determined by the Navy; the physical improve-
Findings: DoD IG and DOS OIG identified             ments accomplished and how tactics, training
that DOS officials improperly obligated $76.65      and procedures have been changed to mitigate
million of Afghanistan Security Forces fund         these vulnerabilities. The progress made was
appropriations that DoD provided to support         compared with the 2008 DoD Nuclear Weapon                 DoD IG and DOS reviewed funds to
the ANP training program. Specifically, DOS         Security Roadmap and what has yet to be done              support the ANP training program.

officials obligated the funds for three DOS pro-    was identified. The report is responsive to secu-
grams and for personal services contracts con-      rity concerns in the nuclear enterprise.
trary to either Economy Act or reimbursable         Result: The report provided actionable recom-
agreement limitations.                              mendations that will strengthen the security
Result: DoD and DOS may have violated the           of nuclear weapons in the custody of the Navy.
Antideficiency Act. DoD could realize a benefit     There are two issues where the Navy continues
if the funds were returned and put to better use    to delay implementation of projects to correct
supporting the ANP training program. DoD IG         vulnerabilities. The report is classified.
and DOS OIG recommended that Bureau of              Report No. 11-ISPA-15

                                                                                                         APRIL 1, 2011 TO SEPTEMBER 30, 2011 31
Core Mission Areas



                                         The following cases are highlights of investiga-       agreement, Tamimi Global will pay the United
Investigations                           tions conducted by DCIS and its federal law en-
                                         forcement partners during the reporting period.
                                                                                                States $5.6 million as part of a deferred prosecu-
                                                                                                tion and institute a strict compliance program to
                                         DCIS investigations are listed under the follow-       ensure that the company and its employees will
                                         ing categories:                                        abide by the legal and ethical standards required
                                         •	 Public corruption.                                  for government contracts. If Tamimi Global
                                         •	 Procurement fraud.                                  meets its obligations under the agreement with-
                                         •	 Health care fraud.                                  out violation for 18 months, the United States
                                         •	 Product substitution.                               will dismiss the criminal charges. Also on Sep-
                                         •	 Technology protection.                              tember 16, 2011, Tamimi Global agreed to pay
                                                                                                the United States an additional $7.4 million as
                                                                                                part of a civil settlement to resolve allegations
                                         Public Corruption                                      that Tamimi Global paid kickbacks in return
                                         DCIS is at the forefront of DoD corruption in-         for favorable treatment in the award and per-
                                         vestigations. Public corruption within DoD             formance of dining facilities and logistical con-
                                         impacts national security and safety and de-           tracts in Kuwait and Iraq.
                                         grades the overall mission of the warfighter. It
                                         undermines public trust and confidence in the          Former U.S. Army Special Operations Com-
                                         U.S. government and wastes billions in tax dol-        mand Employee Sentenced to Six Years and
                                         lars every year. With the skills and capabilities      $365,300 Forfeiture for Extortion, Bribery and
                                         to run complex undercover operations and sur-          Illegal Gratuities
                                         veillance, DCIS conducts multifaceted corrup-          Overview: This investigation disclosed that Jo-
                                         tion investigations. Of particular importance is       seph J. Marak, while employed as an acquisition
                                         corruption affecting the health, safety, welfare       official responsible for purchasing emergency
                                         and mission-readiness of U.S. troops assigned          medical equipment for the Command Surgeon’s
                                         to theater.                                            Office, U.S. Army Special Operations Command,
A DCIS investigation involved casualty
evacuation medical equipment.                                                                   Fort Bragg, N.C., extorted and received bribes
                                         Saudi Arabia-Based Company Pays $13 Million            and illegal gratuities totaling over $365,300 in
                                         to Resolve Kickback and Gratuity Allegations           exchange for providing preferential treatment to
                                         Overview: A joint investigation conducted by           certain companies resulting in the award of over
                                         DCIS, FBI, Army CID and IRS-Criminal Inves-            $4 million in contracts. Marak contacted com-
                                         tigation found that Tamimi Global Company,             panies including Special Operations Technolo-
                                         Ltd. paid kickbacks to a former Kellogg, Brown         gies, Inc. and Skedco, Inc., to form a joint ven-
                                         and Root subcontract manager in return for fa-         ture to design and develop an updated version
                                         vorable treatment in the award and performance         of casualty evacuation medical equipment sets.
                                         of a subcontract to provide dining services at         These sets are a two-part litter pack mounted on
                                         Camp Arifjan in Kuwait. The investigation also         a vehicle that can be easily torn away from the
                                         found that Tamimi Global paid kickbacks to             vehicle to retrieve the injured or deceased from
                                         the contracting officer’s representative and the       a distance. Once an agreement was reached,
                                         non-commissioned officer in charge of the mili-        Marak directed the development of the new
                                         tary dining facility at U.S. Central Command at        sets. Marak started demanding compensation
                                         Camp Doha, Kuwait. Tamimi Global employees             and post-government employment from each
                                         provided the contracting officer’s representative      company for his contributions. In 2006, the
                                         money and use of an apartment in Kuwait. All           military approved the sets and purchased 2,764.
                                         of these illegal gratuities were paid on account       Shortly thereafter, Marak submitted his resigna-
                                         of official acts that the contracting officer’s rep-   tion to the government and began working as
                                         resentative performed or was going to perform.         an independent consultant for Skedco. As a re-
                                         Result: On September 16, 2011, Tamimi Global           sult of his demands for compensation and post-
                                         entered into a deferred prosecution agreement          government employment, Marak received more
                                         with the U.S. Attorney’s Office for the Cen-           than $15,300 in cash and other payments while
                                         tral District of Illinois. Under the terms of that     still employed with the government and an ad-

32 SEMIANNUAL REPORT TO THE CONGRESS
ditional $350,000 in the first six months follow-   was sentenced to serve 18 months in prison, 6
ing his resignation.                                months of home confinement and restitution
Result: On April 8, 2011, a jury convicted Marak    jointly liable with co-defendant Harmon, of
of one count of extortion and 17 counts each of     $4,929. In addition, he was sentenced to three
bribery and receiving illegal gratuities. On Au-    years supervised release, 100 hours of com-
gust 11, 2011, Marak was sentenced to six years     munity service, $200 special assessment and a
in prison and ordered to forfeit $365,300.          $15,000 fine. After pleading guilty to bribery, on
                                                    June 1, 2011, Adam Berg was sentenced to serve
Military Members Charged Under UCMJ with            six months in prison, followed by six months
Accepting Bribes                                    home confinement, one year of supervised re-
Overview: A joint investigation conducted by        lease, a $30,000 fine, 100 hours of community
DCIS, NCIS, Army CID, GSA-OIG and the FBI           service and a $100 special assessment fee. The
disclosed that a supply company was targeting       business, Berg Bros Recycling, Baltimore, Md.,
military purchasing officials with money, gift      was sentenced to three years of probation, a spe-
cards and money orders for preferential treat-      cial assessment fee of $400 and given a $130,000
ment in awarding government purchase card           fine. Both Adam Berg and Berg Brothers Recy-
orders from that company or affiliated compa-       cling were deemed jointly liable for $104,989 in
nies. In return, significant purchases of marked    restitution. On July 11, 2011, the Defense Logis-
up items were bought from the office supply         tics Agency debarred Adam Berg, Adcock, and
company.                                            Berg Brothers Recycling for a period of three
Result: On May 3, 2011, Cpl. Dakota Beckham,        years. Their debarments will end on June 5,
USMC, plead guilty in a special court-martial to    2014.
one count of Uniform Military Code of Justice
Article 134. At sentencing Beckham received a
reduction in rank to E-3, letter of reprimand and   Procurement Fraud
a 60 day restriction.                               Procurement fraud investigations continue to
                                                    comprise a major part of the DCIS inventory
Berg Recycling Owners and NSA Official Con-         of cases. Of all the forms of white-collar crime,
victed in Bribery Scheme                            procurement fraud is probably the least visible,
Overview: A joint investigation with the Na-        yet the most costly. In part, procurement fraud
tional Security Agency OIG determined that          is a hidden byproduct of seemingly legitimate
Robert Adcock, while he was serving as the          transactions often involving millions of dollars.
contracting officer’s representative for the NSA    The potential damage relating to procurement
“Recycling Program,” had received $104,331 in       fraud extends well beyond financial losses; it
bribe payments from May 13, 2004, to March 31,      poses serious threats to the ability of the Depart-
2006, from Berg Brothers Recycling, Baltimore,      ment to achieve its operational objectives and
Md., a subcontractor under an NSA recycling         can hamper the implementation of programs
contract. Berg Bros owners, Adam Berg and           and projects. Procurement fraud includes, but
the company president, Jeff Harmon, had been        is not limited to, cost/labor mischarging, defec-
                                                                                                                DCIS investigated mischarging on
skimming precious metals out of the recycled        tive pricing, defective parts, price fixing and bid         Delta IV EELV contract with the AF.

scrap metal dumpsters and selling the precious      rigging.
metals for profit and then paying a portion of
the profit to government employees as bribes.       Boeing/United Launch Alliance Agree to Repay
Result: On April 12, 2011, after pleading guilty    $89 Million
to bribery, Harmon was sentenced to jail for one    Overview: DCIS investigated Boeing/United
year and one day, fined $25,000, assessed a $100    Launch Alliance for charging unallowable sup-
penalty, ordered to perform 100 hours of public     port costs on its Delta IV Evolved Expendable
service and ordered to make restitution jointly     Launch Vehicle contract with the U.S. Air Force.
liable with co-defendant Adcock, to the U.S.        The investigation also uncovered related mis-
government in the amount of $4,929. On June         conduct by a Defense Contract Audit Agency
3, 2011, after pleading guilty to bribery, Adcock   deputy regional director, who was terminated as

                                                                                                          APRIL 1, 2011 TO SEPTEMBER 30, 2011 33
Core Mission Areas



                                            a result of her improper actions. These actions       Company and General Dynamics Amphibious
                                            allowed Boeing to improperly charge DoD $271          Systems. The companies had billed unallowable
                                            million in order to recoup losses the company         inter-company fees to DoD since 2002. They
                                            previously sustained during commercial con-           were aware of the issue but failed to correct the
                                            tracts involving the Delta IV program.                problem. The violation is Federal Acquisition
                                            Result: In July 2011, Boeing/United Launch Al-        Regulation, Cost Accounting Standards, Sub-
                                            liance paid restitution to DoD in the amount          chapter B, 9904.405, Accounting for Unallow-
                                            of $72,198,875, plus $17,036,292 in accrued           able Costs.
                                            interest. The contract was further modified by        Result: On June 20, 2011, an administrative
                                            reducing the total DoD cost by an additional          agreement was reached between DoD and Gen-
                                            $198,953,797.                                         eral Dynamics Land Systems, which agreed to
                                                                                                  repay the government $1,077,260 to resolve its
                                            Officials of Security Contractor Sentenced to         failure to comply with requirement of Cost Ac-
                                            Imprisonment and Ordered to Pay $8,780,258            counting Standard 405 related to the billing of
                                            in Restitution                                        unallowable inter-company fee during the peri-
                                            Overview: A joint investigation conducted by          od January 1, 2002, through December 31, 2006.
                                            DCIS, Army CID, ATF, IRS Criminal Investiga-
                                            tion, GSA OIG and Department of Homeland              $2.7 Million Settlement by Ultralife Batteries In-
                                            Security Investigations disclosed that officials of   corporated for Defective Pricing
                                            Superior Protection Inc., a contractor to DoD,        Overview: A joint DCIS investigation with
                                            GSA and Federal Protective Services, conspired        Army CID and DCAA Regional Investigative
                                            to secure contracts through the bribery of a GSA      Support Division disclosed that Ultralife Batter-
                                            official, then willfully failed to pay employment     ies Inc. overcharged DoD for several parts used
                                            taxes and income taxes, diverting funds for per-      in the manufacture of the 5390/U non-recharge-
                                            sonal use.                                            able battery for the Army under several con-
DCIS investigated overcharging of parts     Result: On April 8, 2011, John Heard was sen-         tracts. The 5390/U batteries were widely used to
related to a missile control launch unit.   tenced to 151 months of confinement and or-           power more than 50 military applications, such
                                            dered to pay restitution of $8,780,258. On April      as the AN/PRC-119 Single Channel Ground and
                                            29, 2011, Janet Heard was sentenced and re-           Airborne Radio System. The system provides
                                            ceived six months of confinement, six months          commanders with a highly reliable, secure, eas-
                                            of home detention, three years of supervised          ily maintained Combat Net Radio that has both
                                            release and a fine of $5,000. On May 20, 2011,        voice and data handling capability in support of
                                            Gary Lambert was sentenced and received 51            command and control operations and the Jav-
                                            months of confinement and was jointly ordered         elin Medium Anti-Tank Missile Control Launch
                                            to pay restitution in the amount of $2,465,554        Unit. DCIS initiated an investigation based
                                            with John Heard. The collective sentences and         upon a DCAA Form 2000, Suspected Irregular-
                                            debarments of John Heard and Gary Lambert             ity Form, alleging defective pricing on the part
                                            were for violations of 18 U.S.C. 152(2) False         of Ultralife. According to the Form 2000, Ultra-
                                            Oath in Bankruptcy; 18 U.S.C. 201 Bribery; 18         life overcharged DoD for the separator and wire
                                            U.S.C. 201 Gratuity; 18 U.S.C. 371 Conspiracy;        harness on government contracts. In addition,
                                            26 U.S.C. 7206 (1) Making a False Return; and         the investigation revealed Ultralife overcharged
                                            26 U.S.C. 7212(a) Corrupt Interference with the       DoD for lithium, fuse assembly, cell sleeve and
                                            Internal Revenue Laws.                                cell tab. For each overcharged part, Ultralife sub-
                                                                                                  mitted false certificates of current cost or pricing
                                            Over $1 Million Settlement by General Dynam-          data. Based on the review of records and inter-
                                            ics Land Systems                                      views, it was substantiated that Ultralife failed
                                            Overview: DCIS initiated an investigation based       to report updated cost and pricing information
                                            on Defense Contract Audit Agency incurred             before the definitization of the DoD contracts.
                                            cost audit for 2005 and identified cost mischarg-     On June 1, 2011, Ultralife entered into a civil
                                            ing and billing irregularities by General Dynam-      settlement agreement with the U.S. Attorney’s
                                            ics Land Systems, Customer Service & Support          Office, Western District of New York to settle al-

34 SEMIANNUAL REPORT TO THE CONGRESS
legations of violations of 10 U.S.C. 2603a, Truth    Princeton, N.J., promoted the drug NovoSeven
in Negotiations Act.                                 to health care professionals for off-label uses,
Result: Ultralife agreed to pay the U.S. govern-     including as a coagulatory agent for trauma
ment a total of $2.7 million to settle allegations   patients, general surgery, cardiac surgery, liver
that Ultralife failed to furnish accurate, com-      surgery, liver transplants and intracerebral hem-
plete and current cost or pricing data pursuant      orrhage. The investigation also found a study
to Title 10 U.S.C. 2603a for DoD contracts.          published in 2005 in the New England Jour-
                                                     nal of Medicine and funded by Novo Nordisk,
DoD Contractor Agrees to Pay the Government          showed that NovoSeven can help patients with
$407,245.22 to Settle Allegations of False Claims    bleeding strokes. However, the study also found
Regarding the Buffalo Vehicle Contract               that there were complications including heart
Overview: A joint DCIS investigation with            attacks and strokes caused by blood clots, which
Army CID resulted in a $407,245 settlement be-       Novo Nordisk failed to disclose to DoD. As a
tween Force Protection Industries, Inc. and the      result of this unlawful promotion, Novo caused
government. The allegations stemmed from a           false claims to be submitted to TRICARE, Medi-
Defense Contract Audit Agency referral, which        care and government health care programs that
                                                                                                               DCIS investigated pricing irregularities
noted pricing irregularities in the Buffalo ar-      were not reimbursable by those programs.                  in the Buffalo armored vehicle contract.
mored personnel carrier contract. The irregu-        Result: On June 10, 2011, Novo agreed to pay
larities were associated with monetary credits       $25 million to resolve its civil liability arising
the company was receiving from the supplier          from the illegal promotion of its hemostasis
for unused parts, recovery of freight costs and      management drug NovoSeven.
painting costs.
Result: On June 23, 2011, Force Protection In-       Serono Laboratories Inc. Pays $44.4 Million for
dustries, Inc. agreed to settle the false claims     False Claims
fraud allegations by paying the government           Overview: A joint investigation with Health
$407, 245.                                           and Human Services OIG disclosed that be-
                                                     tween January 1, 2002, and December 31, 2009,
                                                     Serono Laboratories Inc. paid kickbacks to TRI-
Health Care Fraud                                    CARE and other government health care pro-
Health care fraud costs the country an estimated     viders to induce them to promote or prescribe
$60 billion a year. Health care fraud is a rising    Rebif, a recombinant interferon injectable that
threat with national health care topping $2 tril-    is used to treat relapsing forms of multiple scle-
lion and expenses continuing to outpace infla-       rosis, a chronic autoimmune disease that attacks
tion. Recent cases also show that medical pro-       the central nervous system. The allegations re-
fessionals are more willing to risk patient harm     solved in the settlement included the payments            DCIS investigated unlawful promotion
in their schemes. DCIS has primarily focused         of kickback type remuneration to health care              of the drug NovoSeven.
health care investigations on those involving        professionals in the form of promotional speak-
harm to the patient and on health care provid-       ing engagements, speaker training, advisory and
ers involved in corruption or kickback schemes.      consultant meetings, expense reimbursement,
Investigations also include overcharging for         independent medical and educational grants
medical goods and services, off-label market-        and sponsorships and charitable contributions.
ing of drugs and unauthorized people receiving       Result: On April 29, 2011, Serono Laboratories,
TRICARE health benefits. DCIS proactively tar-       Inc.; Emd Serono, Inc.; Merek Serono, S.A.; and
gets health care fraud through task forces, strike   Ares Trading, S.A.; agreed to pay $44.4 million
teams and undercover operations.                     to resolve False Claims Act allegations in con-
                                                     nection with marketing of the drug Rebif.
Novo Nordisk, Inc., Pays $25 Million for False
Claims                                               Lockheed Martin, Incorporated Pays $2 Million
Overview: A joint DCIS investigation with            for False Billing Scheme
Army CID disclosed that between January 2000         Overview: A DCIS investigation disclosed that
and December 31, 2010, Novo Nordisk, Inc.,           Lockheed Martin was contracted to support the

                                                                                                          APRIL 1, 2011 TO SEPTEMBER 30, 2011 35
Core Mission Areas



                                        DoD Military Health Services Clinical Quality         Links fraudulently continued billing TRICARE
                                        Management Program including clinical care            and Medicaid long after some children had left
                                        studies and data collection and analysis to vali-     the program or billed for appointments in which
                                        date the quality of care provided by the Military     the children were not seen. Learning Links also
                                        Health System. It was determined that a Lock-         continued to bill for services attributed to prac-
                                        heed manager created a billing scheme by which        titioners who were no longer working for the
                                        the medical abstractor employees were paid a          company. Learning Links was located near Fort
                                        flat rate and the government was invoiced based       Bragg, and the clientele primarily consisted of
                                        on productivity rather than the actual number         children of military members suffering from
                                        of hours worked.                                      transitional issues. Hundreds of special needs
                                        Result: On May 10, 2011, Lockheed Martin, Inc.        children received substandard care as a result
                                        paid $2,095,478 to settle the covered conduct         of this scheme in that they did not receive the
                                        under the False Claims Act allegations in con-        treatment they required, which had been paid
                                        nection to the billing scheme.                        for by the government. Fraudulent billings to
                                                                                              TRICARE were over $1 million. Forfeitures of
                                        TRICARE Provider Pays $1.4 Million to Settle          bank accounts and vehicles were pursued in an
                                        False Claims Allegations                              effort to recoup government losses.
                                        Overview: A DCIS investigation disclosed that         Result: The owner and chief executive officer
“Health care fraud                      Marci Taylor, through her companies: Tree-            of Learning Links, Sandra Elliott plead guilty
costs the country an                    house Pediatric Center, Treehouse Behavioral          to health care fraud, and aiding and abetting.
estimated $60 billion a                 Services and the Autism Clinic of Texas billed        She was sentenced to 10 years imprisonment,
                                        for therapy by non-qualified therapists; submit-      three years probation, $1,885,196 restitution,
year.”                                  ted false billing for one-on-one therapy which        $207,791 forfeiture, and $100 penalty. The medi-
                                        was actually given in a group setting; submitted      cal director of Learning Links, Earlene McKei-
                                        false billing to TRICARE for therapy when the         than Baggett, plead guilty to subscribing to false
                                        billing was for tuition; and falsified records sub-   tax returns for her failure to disclose income
                                        sequent to a records audit.                           earned from Learning Links on her tax returns.
                                        Result: On August 25, 2011, a settlement agree-       She was sentenced to five years probation, 300
                                        ment was reached between Taylor and the gov-          hours of community service and $67,311 resti-
                                        ernment, whereby Taylor agreed to pay $1.4            tution. Learning Links, Inc. was forfeited to the
                                        million to settle the allegations of submitting       government, assets liquidated and was put out
                                        false claims to the government, in violation of       of business.
                                        31 U.S.C. 3729, False Claims Act.

                                        Final Subjects in Learning Links Case Sentenced       Product Substitution
                                        to Probation, Community Service, and Ordered          Investigations involving the introduction of
                                        to Pay $67,311 Restitution                            counterfeit goods, substandard materials and
                                        Overview: A DCIS investigation, in cooperation        non-conforming products into the DoD pro-
                                        with the North Carolina Department of Justice         curement and acquisition system have histori-
                                        Medicaid Fraud Investigations Unit, TRICARE           cally been, and will continue to be, a top pri-
                                        Program Integrity Office, and the Health Net          ority for DCIS. The Department requires very
                                        Federal Services Office of Program Integrity, re-     specific, and at times, unique products for its
                                        vealed Sandra Elliott, owner of Learning Links        infrastructure and weapons systems. Noncon-
                                        Educational Network Services Center, Inc.,            forming products pollute the DoD supply chain
                                        fraudulently billed TRICARE and Medicaid for          and pose a risk to military operations and both
                                        services not rendered and for services rendered       military and civilian personnel. Any products or
                                        by unlicensed practitioners. Learning Links pur-      component of a product not manufactured, as-
                                        ported to provide early intervention treatment        sembled, tested, or inspected in accordance with
                                        for children with special needs such as develop-      the terms of the contract specifications is con-
                                        mental delays, psychological services and occu-       sidered nonconforming and is generally divided
                                        pational and speech therapy. Instead, Learning        into the following investigative categories: coun-

 36 SEMIANNUAL REPORT TO THE CONGRESS
terfeit, substituted, defective and substandard.    Result: On August 10, 2011, Honeywell paid
                                                    $257,663 to the U.S. Navy for the repairs of 173
DCIS works with federal law enforcement part-       generators.
ners, supply centers, and the defense industrial
base to ensure that DoD contractors provide the
correct part or component to meet DoD require-      Technology Protection
ments. DCIS actively participates in the Defense    Protection of critical military technologies sup-
Supply Center Columbus Counterfeit Material/        porting the warfighter continues to be a DCIS
Unauthorized Product Substitution team and          priority consistent with its legacy of investigat-
partnered with the Intellectual Property Rights     ing public corruption and financial crime within
Center, focusing on counterfeit parts.              the Department. DCIS actively represents the
                                                    interests of the Department in multiple inter-
Non-Conforming Parts for DoD Vehicles               agency task forces charged with the enforcement
Overview: DCIS initiated a project to identify      and reform of export policy. The DCIS Technol-
contractors and DoD employees involved in           ogy Protection Program collaborates with fed-
procurement fraud schemes associated with           eral partners to minimize duplicative investiga-
contracts awarded by the Defense Supply Cen-        tive effort. Through this collaborative effort and
ter-Columbus. Contracting officers, quality         information sharing, DoD is better able to focus
assurance specialists, and engineers from the       intelligence and procurement efforts to main-
Defense Supply Center-Columbus Product Test         tain the technological supremacy of the Ameri-
Center, Columbus, Ohio, evaluated purchase or-      can warfighter.
ders and parts supplied by Lawrence Fabricating
and determined that Lawrence provided non-          Two Chinese Nationals Charged with Illegally
conforming parts. The purchase orders were for      Attempting to Export Military Satellite Compo-
a variety of automotive parts required to be in     nents to the PRC
accordance with DoD drawings and specifica-         Overview: Xian and Li were officers of Bei-
tions. The parts are used on a variety of DoD       jing Starcreates Space Science and Technology
vehicles to include the amphibious assault vehi-    Development Company, which imported and
cle, 5-ton series of trucks, high mobility multi-   sold programmable read-only memory chips to
purpose wheeled vehicle and M109 Howitzer.          China Aerospace Science and Technology Cor-
Lawrence Fabricating Company is owned by            poration, which is run by the People’s Republic
Michael D. Ochadleus.                               of China and conducts substantial research, de-
Result: On August 9, 2011, Michael Ochadleus        sign, development and production of strategic
was sentenced to 21 months confinement and          and tactical missile systems and launch vehicles
ordered to pay $273,448 in restitution and $400     (rockets). Since 1990, the U.S. government has            A DCIS non-conforming parts project
                                                                                                              involved the amphibious assualt vehicle.
penalty assessment and Lawrence Fabricat-           maintained an arms embargo that prohibits the
ing was sentenced to 60 months probation and        export, re-export, or transfer of any defense ar-
ordered to pay $1,600 penalty assessment. Be-       ticle to the People’s Republic of China. A pro-
tween January 5, 2009, and August 20, 2011, Mi-     grammable read-only memory microchip stores
chael Ochadleus and Lawrence Fabricating were       the initial start-up program for a computer sys-
debarred.                                           tem and is built to withstand conditions found
                                                    in outer space. Neither Xian or Li applied nor
Contractor Pays Navy for Defective Generators       received a license from the U.S. Department of
Overview: A DCIS joint investigation with           State to export defense articles placed on the
NCIS disclosed that Honeywell International         U.S. Munitions List, which includes spacecraft
supplied defective generators to the U.S. Navy      systems and associated equipment; however,
for use on E2 Hawkeye aircraft. An assembly of      from April 2009 to September 1, 2010, Xian and
the generator was proven to be nonconform-          Li contacted a company in Virginia and sought
ing due to the removal of critical machining        to export thousands of radiation-hardened pro-
requirement. The Navy determined that cost of       grammable read-only memory microchips from
repairs was $257,663.                               that company. On September 1, 2010, Xian and

                                                                                                         APRIL 1, 2011 TO SEPTEMBER 30, 2011 37
Core Mission Areas



                                         Li were arrested in Hungary pursuant to a U.S.       ment, Baniameri plead guilty to violations of 50
                                         provisional arrest warrant and were transferred      U.S.C. 1705(a) and (c), Conspiracy to Export
                                         into the custody of the U.S. Marshals Service on     Goods to Iran, and 22 U.S.C. 2778 and 22 C.F.R.
                                         April 1, 2011, after waiving extradition. Xian and   127.1(a)(1), Attempting to Export Defense
                                         Li were charged with 18 U.S.C. 371, Conspiracy       Materials on the United States Munitions List
                                         to Violate the Arms Export Control Act and to        Without a License. On August 12, 2011, Bania-
                                         Smuggle Goods from the United States, and 22         meri was sentenced to 51 months incarceration,
                                         U.S.C. 2778 and 22 Code of Federal Regulations       three years probation, and a $200 assessment.
                                         127.1, Attempted Export of USML items in vio-
                                         lation of the Arms Export Control Act, pursuant      New Jersey Defense Contractor Pleads Guilty to
                                         to a superseding indictment.                         Violations of the Arms Export Control Act and
                                         Result: On May 18, 2011, and May 21, 2011,           Conspiracy
                                         Xian and Li signed guilty pleas, respectively, re-   Overview: A joint investigation conducted by
                                         lated to the charges of conspiring to violate the    DCIS, Homeland Security Investigations, Army
                                         Arms Export Control Act and smuggling goods          CID and Air Force OSI revealed that Swiss
                                         from the United States.                              Technology, Inc. exported DoD drawings, spec-
                                                                                              ifications and samples to the People’s Republic
                                         Iranian National Sentenced to 51 Months for Il-      of China without obtaining the proper license
                                         legally Exporting Missile Parts                      from the U.S. Department of State. Swiss Tech
                                         Overview: A joint investigation conducted by         entered into contracts with the DoD from Au-
                                         DCIS and Homeland Security Investigations re-        gust 2004 through June 2009 to manufacture
                                         vealed that Davoud Baniameri conspired to ex-        defense articles and parts for use by the military.
                                         port goods and technology to Iran without ap-        Swiss Tech contracted with a company in the
                                         proval from the U.S. Department of Treasury, in      People’s Republic of China, which manufactured
                                         violation of the International Emergency Eco-        the items at a much lower cost than they would
                                         nomic Powers Act. Baniameri also attempted to        have been manufactured in the United States.
                                         export defense articles without approval from        The items included parts intended for use in the
                                         the Department of State in violation of the Arms     M4 and M14 rifles and the M249 squad auto-
                                         Export Control Act. Baniameri was charged            matic weapon machine guns. Additionally, the
                                         in July 2010 along with Andro Telemi, a natu-        loss to the government in terms of fraudulent
DCIS investigated export violations
that included parts for the M14 rifle.   ralized U.S. citizen from Iran, and Syed Majid       contracts related to this matter has been esti-
                                         Mousavi, an Iranian citizen. The investigation       mated at more than $1.1 million.
                                         determined that Mousavi contacted Baniameri          Result: According to a plea agreement filed on
                                         and requested Baniameri purchase and export          July 12, 2011, Swiss Tech agreed to plead guilty
                                         radio test sets from the United States to Iran,      to violations of 22 U.S.C. 2778, Arms Export
                                         through Dubai. Baniameri agreed and negotiat-        Control Act, 18 U.S.C. 371, Conspiracy to Com-
                                         ed the purchase of three Marconi radio test sets     mit Offense or Defraud the United States, 22
                                         from an Illinois-based company. Baniameri ar-        C.F.R. 127.1(a)(1), and 22 C.F.R. 127.1(d). As
                                         ranged to have the radio test kits shipped to him    part of the plea agreement, Swiss Tech has con-
                                         in California and he then shipped them to Dubai      sented to restitution in the amount of $1,148,052
                                         for ultimate transshipment to Iran. The investi-     to the DoD.
                                         gation also determined that Mousavi contacted
                                         Baniameri and requested that he purchase and         Guilty Pleas and Guilty Verdict for Mexican Na-
                                         export to Iran, via Dubai, 10 connector adapters     tionals in Conspiracy to Acquire Stinger Missile
                                         for the TOW and TOW2 missile systems. Bania-         and Other Military Grade Weapons
                                         meri agreed to purchase the items on behalf of       Overview: A joint investigation conducted
                                         Mousavi and admitted that over the following         by DCIS, ATF and DEA revealed that David
                                         months he and his co-defendants attempted to         Diaz-Sosa, a Mexican national, sought to ac-
                                         purchase 10 connector adapters from a com-           quire, transfer and export military technology
                                         pany in Illinois.                                    and weaponry, to include a stinger missile, to a
                                         Result: On May 31, 2011, based on a plea agree-      drug trafficking organization based in Mexico.

38 SEMIANNUAL REPORT TO THE CONGRESS
The stinger missile is a man portable surface-       gency Economic Powers Act.
to-air missile which can be adapted to fire from     Result: On August 3, 2011, Diego Echeverri
ground vehicles and helicopters. The investiga-      plead guilty to 18 U.S.C. 371, Conspiracy to
tion further revealed Emilia Palomino-Robles         Smuggle J85 Jet Engines to Iran without Obtain-
was acting as a courier when it was determined       ing a License from the Department of State. On
she delivered 2,029 grams of methamphetamine         September 2, 2011, Amparo Echeverri-Valdes
and $139,900 cash as payment for the transfer of     and Carlos Pantoja-Coral also entered a guilty
weapons. Jorge Dejesus-Casteneda was arrested        plea to 18 U.S.C. 371, Conspiracy to Smuggle
while attempting to deliver over 11 pounds of        J85 Jet Engines to Iran without Obtaining a Li-
methamphetamines as part of an additional            cense from the Department of State.
payment for weapons. Mario Orozco-Acosta
was arrested and indicted for being a felon in
possession of a handgun.
Result: On April 12, 2011, Palomino-Robles
                                                     The following are highlights of inspections, as-
                                                     sessments, or evaluations conducted by DoD
                                                                                                               Inspections
agreed to plead guilty to Conspiracy to Possess      IG. DoD IG inspections are listed under the fol-
with Intent to Distribute Methamphetamine, vi-       lowing categories:
olation of 21 U.S.C. 846, 841(a)(1) and 841(b)(1)    •	 Health and Safety
(B)(viii). On April 19, 2011, Diaz-Sosa agreed       •	 Joint Warfighting and Readiness
to plead guilty to 18 U.S.C. 371, Conspiracy to
Possess Unregistered Firearms, and Transfer
Firearms for Use in a Drug Trafficking Crime.        Health and Safety
On April 27, 2011, Dejesus-Casteneda was con-        DoD IG focuses its oversight efforts on prevent-
victed in the U.S. District Court of Arizona,        ing and detecting fraud, waste and abuse and
Phoenix, Ariz., on one count of Possession with      improving efficiency and effectiveness of the
Intent to Distribute Methamphetamine, Viola-         programs affecting the health and safety of ser-
tion of 21 U.S.C. 841(a)(1)). On August 2, 2011,     vice members and employees.
Dejesus-Casteneda was sentenced to 12 years
and 2 months confinement and 5 years proba-          Assessment of DoD Wounded Warrior Matters–
tion, ordered to pay a fine of $100, and required    Fort Drum
to pay a $100 assessment fee.                        Overview: In 2007 and 2008, U.S. Army and
                                                     Marine Corps established warrior care and
Four Family Members Charged in Conspiracy            transition programs to manage the care and
to Export F-5 Fighter Jet Engines to Iran            transition either back to military units or into
Overview: A joint investigation conducted by         civilian life of wounded, ill and injured. There
DCIS and Homeland Security Investigations            are 29 Warrior Transition Units in the Army
revealed that Felipe Echeverri, Diego Echeverri,     with approximately 10,000 soldiers and two Ma-
Amparo Echeverri Valdes and Carlos Alfredo           rine Wounded Warrior Battalions in the Marine
Pantoja-Coral conspired to sell 22 F-5 Jet Fighter   Corps with approximately 1,000 Marines. Fort
engines for $320,000 to an undercover agent and      Drum, located in upstate New York, is the home
agreed to help the undercover agent export the       of the 3rd Battalion, 85th Mountain Infantry
engines from Miami to Iran through Panama.           Regiment Warrior Transition Battalion. Among
From January to March 2011, during a series          the Fort Drum warriors are severely burned pa-
of meetings and conversations, the subjects ne-      tients; amputee patients; traumatic brain injury
gotiated the terms of the sale, knowing that the     and post traumatic stress disorder patients; and
ultimate destination was purported to be Iran.       other wounded, ill or injured.
The U.S.-Iran embargo prohibits the exporta-         Findings: Fort Drum Warrior Transition Bat-
tion from the United States to Iran of any goods,    talion has established a number of noteworthy
technology or services with limited exceptions       practices for supporting the comprehensive care,
unless authorized by the Department of the           healing and transition of warriors, including
Treasury, Office of Foreign Assets Control. The      providing a personal digital assistant to warriors
embargo is enforced via the International Emer-      with memory or other cognitive medical issues.

                                                                                                          APRIL 1, 2011 TO SEPTEMBER 30, 2011 39
Core Mission Areas



                                        Further, warriors are required to in-process        noteworthy changes to policies and procedures.
                                        through the Soldier and Family Assistance Cen-      The assistant secretary of defense for health af-
                                        ter to ensure that they received a comprehensive    fairs updated policy for post-deployment health
                                        orientation on the services available to them and   assessments.
                                        their families. However, a number of significant    •	 The U.S. Army Corps of Engineers pub-
                                        challenges were identified that, if addressed by         lished a policy addressing hazardous and
                                        Fort Drum management, would increase pro-                toxic agent incident response during con-
                                        gram effectiveness for wounded warriors.                 tingency operations and fielded new envi-
                                        Result: These challenges include developing              ronmental support teams that were unavail-
                                        an operational definition of a successful tran-          able in 2003.
                                        sition end state; ensuring that timely access to    •	 The U.S. Army Center for Health Promo-
                                        specialty medical care is available; developing a        tion and Preventive Medicine issued re-
                                        program for high-risk medication management,             vised health risk assessment and chemical
                                        education, training and safety; developing pro-          exposure guidelines.
                                        cedures to ensure that Warrior Comprehensive        DoD and the Department of Veterans Affairs
                                        Transition Plans and Triad of Care processes are    have continued efforts to identify, contact and
                                        beneficial and accessible and developing com-       provide current and ongoing access to medical
                                        prehensive training programs for staff, civilian    surveillance and medical care for personnel who
                                        medical personnel and other civilians support-      may have been exposed to sodium dichromate
                                        ing the wounded warriors.                           at Qarmat Ali.
                                        Report No. SPO-2011-010                             Report No. SPO-2011-009

                                        Exposure to Sodium Dichromate at Qarmat Ali         Assessment of the BRAC 133 Mark Center
                                        Iraq in 2003, Part II                               Emergency Generator Fueling
                                        Overview: This evaluation, initiated in response    Overview: This self-initiated engineering in-
                                        to a request from the Senate Democratic Policy      spection assessed the BRAC 133 Mark Center
                                        Committee, reviewed DoD actions regarding           emergency generator fuel tank and fueling pro-
                                        the exposure of approximately 1,000 U.S. Army       cedures, specifically, fuel tank safety and secu-
                                        soldiers and civilians to sodium dichromate, a      rity during fueling operations, and compliance
                                        carcinogen, while working to restore a water        with DoD antiterrorism and safety policies re-
                                        treatment plant in Qarmat Ali, Iraq, after the      lating to the design and location of the fuel tank,
                                        overthrow of Saddam Hussein in 2003.                fuel delivery and refueling procedures.
                                        Findings: The evaluation found that DoD             Result: This report is classified.
DoD IG conducted an evaluation at the   military, civilian and contractor personnel did     Report No. D-2011-TAD-001
Qarmat Ali Water Treatment Facility.
                                        not effectively address environmental hazards
                                        found prior to beginning work at Qarmat Ali.
                                        DoD response to identified sodium dichromate        Joint Warfighting and
                                        contamination at the Qarmat Ali facility in 2003
                                        lacked urgency and was incomplete. Further,
                                                                                            Readiness
                                                                                            In Iraq, the United States is conducting a respon-
                                        contractor recognition of, and response to, the     sible drawdown while continuing the important
                                        health hazard represented by sodium dichro-         mission of advising, training and equipping the
                                        mate contamination was delayed because the          Iraqi Security Forces.
                                        contractor, KBR, did not fully comply with oc-
                                        cupational safety and health standards required     With U.S. forces scheduled to be withdrawn
                                        by the contract. As a result, service members and   from Iraq by December 31, 2011, the ISF has
                                        DoD civilians were first exposed when person-       taken the lead in protecting the Iraqi people.
                                        nel deployed to the site in April 2003 and con-     In Afghanistan, U.S. and international forces
                                        tinued to be exposed until mid-September 2003.      are continuing their mission to train, equip and
                                        Result: Since the sodium dichromate exposure        mentor the Afghan National Security Forces.
                                        at the Qarmat Ali water treatment plant in 2003,
                                        responsible organizations in DoD have made

40 SEMIANNUAL REPORT TO THE CONGRESS
Assessment of the U.S. Department of Defense           Afghan National Army; standing up an opera-
Efforts to Develop an Effective Medical Logistics      tional planning team with the Afghan National
System within the ANSF                                 Army to establish performance milestones and
Overview: DoD IG examined, in response to              pursuing the appropriate numbers, skills, and
a request from the commander, NATO Train-              seniority of mentors, as well as requesting ap-
ing Mission-Afghanistan/Combined Security              propriate pre-deployment training for medical
Transition Command-Afghanistan, the systems            mentors.
in place for U.S. procurement and distribution,        Report No. SPO-2011-007
storage, accountability and use of pharmaceuti-                                                                   DoD IG conducted an assessment at the
cals for the Afghan National Army and the ad-          Assessment of Planning for Transitioning the               National Military Hospital, Kabul, Afg.

visory and oversight mechanisms of the NATO            Security Assistance Mission in Iraq from DoD
Training Mission-Afghanistan/Combined Secu-            to DOS Authority
rity Transition Command-Afghanistan Medical            Overview: A major U.S. national security goal
Training Advisory Group and Logistics Training         is the establishment of a sovereign, stable and
Advisory Group in support of this mission.             self-reliant Iraq that contributes to the peace
Findings: Shortcomings in the development of           and security of the region and with whom the
a credible Afghan medical logistics system in-         United States can forge a long-term security
dicated that the ability of the Afghan National        partnership. An Iraq Security Forces capable of
Army to build and maintain a sustainable medi-         providing for internal security as well as a foun-
cal logistics system at its current level of ca-       dational external defense capability is essential
pability was not feasible in the absence of U.S.       to achieving these U.S. national objectives. To
and international community support. While a           be able to continue supporting the development
system of controls existed for Afghan National         of the ISF after the withdrawal of U.S. combat
Army medical logistics, the application of key         forces by the end of 2011, DoD will transition all
elements was inadequate and as a result, ac-           remaining training, equipping and mentoring
countability was weak. Because Afghan medical          activities from U.S. Forces-Iraq to the Office of
personnel did not properly establish require-          Security Cooperation-Iraq under Department
ments for procurement or manage inventory in           of State and Chief of Mission authority. DoD
accordance with Afghan Ministry of Defense             also will seek to establish the framework for a
policy, the United States and its coalition part-      robust security assistance and foreign military
ners have been purchasing inventory that was           sales program.
not needed. Pharmaceuticals provided to the            Findings: At the time of the assessment, de-
Afghan National Army by the U.S. government            tailed plans and guidance had been sufficiently
were at significant risk of theft and misappropri-     developed and were operative for transitioning
ation. DoD IG determined that medical mentor-          security assistance from DoD to DOS author-
ing efforts are insufficiently effective in develop-   ity. However, the planning for establishing an
ing Afghan medical leadership or establishing          enduring Office of Security Cooperation in Iraq
enduring Afghan institutional capacity for an          received a lower priority to planning for the
effective, sustainable medical logistics system.       withdrawal of U.S. forces. The planning largely
Pre-deployment training and sufficient in-coun-        succeeded due to the singular efforts of an ad
try orientation and management for U.S. medi-          hoc cadre of strategic planners operating within
cal mentors were lacking and compounded by             United States Forces-Iraq.
the fact that the medical mentoring staff was ap-      Result: To correct the identified general short-
proximately half of the number planned for.            comings in joint doctrine, DoD IG recom-
Result: Since the assessment, NATO Train-              mended U.S. Central Command issue interim
ing Mission-Afghanistan/Combined Security              theater-level campaign, security cooperation
Transition Command-Afghanistan has been                and Iraq-specific country planning details and
moving proactively and aggressively to imple-          assess the sufficiency of internal procedures and
ment improvements in these areas, including            resources dedicated to Iraq-specific security
working with CURE International to complete,           cooperation-related planning and guidance ef-
promulgate and implement standards of care for         forts. Further, DoD IG recommended the joint

                                                                                                            APRIL 1, 2011 TO SEPTEMBER 30, 2011 41
Core Mission Areas



                                        staff sponsor a formal doctrine development           Findings: DoD IG made recommendations to:
                                        proposal that supports transitioning a complex        •	 Establish standardized training and an
                                        contingency from stability operations to robust             oversight process for write-for-release, tear-
                                        security cooperation activities in a non-permis-            line and classification marking for produc-
                                        sive security environment.                                  ers of classified military information.
                                        Report No. SPO-2011-008                               •	 Establish policy requiring U.S. forces con-
                                                                                                    duct pre-deployment training with coali-
                                        Questionable Intelligence Activity - Assistant              tion partners they would deploy with to
                                        Secretary of Defense for Special Operations/                include training on the communications
                                        Low-Intensity Conflict                                      systems for sharing information.
                                        Overview: The report substantiated allegations        •	 Standardize and update the training and
                                        of unauthorized intelligence activities.                    certification for and track the management
                                        Result: This report is classified.                          of U.S. Army foreign disclosure officers and
                                        Report No. 11-INTEL-09                                      foreign disclosure representatives.
                                                                                              •	 Update the national disclosure policy relat-
                                        U.S. Cyber Command Authorities Pertaining to                ing to sharing classified military informa-
                                        Use of National Security Agency Personnel                   tion in a coalition environment.
                                        Overview: DoD IG did not substantiate allega-         •	 Develop an implementation plan and over-
                                        tions that (1) National Security Agency person-             sight process to ensure U.S. forces comply
“DoD IG evaluated the                   nel are conducting and directing U.S. Cyber                 with the policy that all tactical information
Office of the Under                     Command Title 10 mission without the ap-                    collected in Afghanistan be prepared in a
Secretary of Defense                    propriate authority; (2) The director, National             format releasable to International Security
for Intelligence con-                   Security Agency, is inappropriately delegating              Assistance Force.
tinuity of operations                   signals intelligence authorities to U.S. Cyber        •	 Implement the creation of a single, the-
                                        Command personnel; and (3) NSA personnel                    ater-wide, computerized source registry to
program...”                             who are paid out of agency funding lines set                be used by coalition for de-confliction of
                                        aside exclusively for the Crypto logic mission              counterintelligence and human intelligence
                                        are not being employed for this purpose. U.S.               source data.
                                        Cyber Command had acquired full operating             Result: The evaluation revealed that impedi-
                                        capability on October 31, 2010, and was still fine    ments to intelligence information sharing be-
                                        tuning procedures; however, DoD IG identified         tween U.S. forces and coalition partners have
                                        potential weaknesses that may warrant future          existed for years. The impediments continue to
                                        management control reviews for execution and          include inadequate information sharing train-
                                        sustainability of operations. DoD IG reported         ing, outdated foreign disclosure policies and
                                        inconsistency of international interpretation of      procedures; and the absence of a source registry
                                        “use of force” as it pertains to cyberspace.          for coalition partners to de-conflict counterin-
                                        Result: There were no recommendations. This           telligence and human intelligence source data.
                                        report was classified.                                This has resulted in information not being tacti-
                                        Report No. 11-INTEL-10                                cally useful by the time it is authorized for re-
                                                                                              lease.
                                        Improvements Needed in Review of U.S. Forces-         Report No. 11-INTEL-13
                                        Afghanistan Sharing of Tactical Counterintelli-
                                        gence and HUMINT with International Security          Evaluation of the Under Secretary of Defense for
                                        Assistance Force                                      Intelligence Continuity of Operations
                                        Overview: DoD IG evaluated if DoD Counter-            Overview: DoD IG evaluated the Office of the
                                        intelligence and Human Intelligence organiza-         Under Secretary of Defense for Intelligence con-
                                        tions attached to U.S. Forces-Afghanistan were        tinuity of operations program, which is man-
                                        in compliance with DoD and North Atlantic             aged by the Defense Intelligence Mission Assur-
                                        Treaty Organization guidance for providing U.S.       ance Office.
                                        tactical information to coalition forces of the In-   Result: This report is classified.
                                        ternational Security Assistance Force.                Report No. 11-INTEL-12

 42 SEMIANNUAL REPORT TO THE CONGRESS
Semiannual Report to the Congress                                                                                                                                                Contracting                                         Finance                                             Technology                                      Health                       Warfighting                                   DoD IG Projects by Category




                                                                                                                         Overseas Contingency




                                                                                                                                                                                                         Product Substitution




                                                                                                                                                                                                                                                                  Information Security
                                                                                                                                                Recovery Act


                                                                                                                                                               Acquisition Process



                                                                                                                                                                                     Procurement Fraud
                                                                                                                              Operations




                                                                                                                                                                                                                                             Public Corruption/




                                                                                                                                                                                                                                                                                                                                                                                       Nuclear Enterprise
                                                                                                                                                                                                                                                                                                                                               Health Care Fraud
                                                                                                                                                                                                                                                                                                                           Health and Safety




                                                                                                                                                                                                                                                                                                                                                                   Joint Warfighting
                                                                                                                                                                                                                                                                                            Computer Crime
                                                                                                                                                                                                                                              Financial Crimes
   The following projects are highlighted in the Semiannual Report for the reporting period                                                                                                                                                                                                                                                                                                                                                      Type Legend




                                                                                                                                                                & Management




                                                                                                                                                                                                                                Management
   April 1, 2011 to September 30, 2011. The full listing of reports is available at Appendix A and




                                                                                                                                                                                                                                                                                                             Technology
                                                                                                                                                                                                                                                                                                              Protection




                                                                                                                                                                                                                                                                                                                                                                       Readiness
                                                                                                                                                                                                                                 Financial
   downloadable versions can be viewed on the Web at :                                                                                                                                                                                                                                                                                                                                                                                                 Audit


   www.dodig.mil                                                                                                                                                                                                                                                                                                                                                                                                                                       Investigation

                                                                                                                                                                                                                                                                                                                                                                                                                                                       Inspection


Title                                                                                                Report #     Type                                                                                                                                                                                                                                                                                      Page    URL
American Recovery and Reinvestment Act—Improper Planning of the Administrative Buildings
                                                                                                     D-2011-119                                    X                  X                                                                                                                                                                                                                                     19-20   http://www.dodig.mil/Audit/reports/fy11/11-119.pdf
Project at Camp Lejeune, North Carolina
American Recovery and Reinvestment Act— Repair Project at Camp Pendleton, California,
                                                                                                     D-2011-117                                    X                  X                                                                                                                                                                                                                                      20     http://www.dodig.mil/Audit/reports/fy11/11-117.pdf
Needed Improvements in Planning
American Recovery and Reinvestment Act Wind Turbine Projects at Long-Range Radar Sites in
                                                                                                     D-2011-116                                    X                  X                                                                                                                                                                                                                                     20-21   http://www.dodig.mil/Audit/reports/fy11/11-116.pdf
Alaska Were Not Adequately Planned
DoD Cannot Ensure Contractors Protected Controlled Unclassified Information for Weapon
                                                                                                     D-2011-115                                                                                                                                                        X                                                                                                                                     29     This report is For Official Use Only.
Systems Contracts
Guidance for Petroleum War Reserve Stock Needs Clarification                                         D-2011-111                                                                                                                                                                                                                                                          X                                   31     This report is classified.

American Recovery and Reinvestment Act “Heating, Ventilation, and Air Conditioning Replace-
ment” Project at Naval Support Activity Norfolk - Planning and Initial Execution Could Have          D-2011-109                                    X                  X                                                                                                                                                                                                                                     21-22   http://www.dodig.mil/Audit/reports/fy11/11-109.pdf
Been Improved
Geothermal Energy Development Project at Naval Air Station Fallon, Nevada, Did Not Meet
                                                                                                     D-2011-108                                    X                  X                                                                                                                                                                                                                                      22     http://www.dodig.mil/Audit/reports/fy11/11-108.pdf
Recovery Act Requirements
Improvements Needed in Procedures for Certifying Medical Providers and Processing and Paying
                                                                                                     D-2011-107                                                                                                                                                                                                                                    X                                                         27     http://www.dodig.mil/Audit/reports/fy11/11-107.pdf
Medical Claims in the Philippines
The Department of the Navy Spent Recovery Act Funds on Photovoltaic Projects that Were Not
                                                                                                     D-2011-106                                    X                  X                                                                                                                                                                                                                                      21     http://www.dodig.mil/Audit/reports/fy11/11-106.pdf
Cost-Effective
Competition for Interrogation Arm Contracts Needs Improvement                                        D-2011-105                                                       X                                                                                                                                                                                                                                      19     http://www.dodig.mil/Audit/reports/fy11/11-105.pdf

Pricing and Escalation Issues Weaken the Effectiveness of the Army Contract with Sikorsky to
                                                                                                     D-2011-104                                                       X                                                                                                                                                                                                                                     16-17   http://www.dodig.mil/Audit/reports/fy11/11-104redacted.pdf
Support the Corpus Christi Army Depot
Special Operations Forces Plans for Drawdown and Reset of Property in Iraq                           D-2011-103                 X                                                                                                                                                                                                                                        X                                   31     This report is classified.

Afghan National Police Training Program Would Benefit from Better Compliance with the
                                                                                                     D-2011-102                 X                                                                                                                                                                                                                                        X                                   31     http://www.dodig.mil/Audit/reports/fy11/11-102.pdf
Economy Act and Reimbursable Agreements
DoD Bi-Directional Flow Agreements and Adequate Tracking Mechanisms on the Northern
                                                                                                     D-2011-100                 X                                                                                                                                                                                                                                        X                                   31     This report is classified.
Distribution Network
Additional Actions Needed to Mitigate Risks of Unsuitable Life Insurance Sales to Junior Enlisted
                                                                                                     D-2011-099                                                                                                                                                                                                                 X                                                                            28     http://www.dodig.mil/Audit/reports/fy11/11-099.pdf
Service Members
Defense Finance and Accounting Service Needs to Improve Controls Over the Completeness and
                                                                                                     D-2011-098                                                                                                                    X                                                                                                                                                                         26     http://www.dodig.mil/Audit/reports/fy11/11-098.pdf
Accuracy of the Cash Management Report
Army Contracting Command-Redstone Arsenal’s Management of Undefinitized Contractual Ac-
                                                                                                     D-2011-097                                                       X                                                                                                                                                                                                                                      22     http://www.dodig.mil/Audit/reports/fy11/11-097.pdf
tions Could Be Improved
Improvements Are Needed to the DoD Information Assurance Vulnerability Management
                                                                                                     D-2011-096                                                                                                                                                        X                                                                                                                                     29     This report is For Official Use Only.
Program
Afghan National Police Training Program: Lessons Learned During the Transition of Contract
                                                                                                     D-2011-095                 X                                                                                                                                                                                                                                        X                                  30-31   http://www.dodig.mil/Audit/reports/fy11/11-095_final508.pdf
Administration
Guam Medical Plans Do Not Ensure Active Duty Family Members Will Have Adequate Access to
                                                                                                     D-2011-092                                                                                                                                                                                                                 X                                                                           27-28   http://www.dodig.mil/Audit/reports/fy11/11-092.pdf
Dental Care
DoD Indian Incentive Program Payments to Related Parties and Rebates to Excluded Parties             D-2011-091                                                                                                                    X                                                                                                                                                                         26     http://www.dodig.mil/Audit/reports/fy11/11-091.pdf
Cost of War Data for Marine Corps Contingency Operations Were Not Reliable                           D-2011-090                 X                                                                                                  X                                                                                                                                                                         25     http://www.dodig.mil/Audit/reports/fy11/11-090.pdf
Ballistic Testing for Interceptor Body Armor Inserts Needs Improvement                               D-2011-088                 X                                     X                                                                                                                                                         X                                                                           18-19   http://www.dodig.mil/Audit/reports/fy11/11-088.pdf
U.S. Marine Corps Forces Special Operations Command Needs to Improve Controls Over Finan-
cial Transactions                                                                                    D-2011-086                                                                                                                     X                                                                                                                                                                        25     http://www.dodig.mil/Audit/reports/fy11/11-086.pdf

Additional Actions Can Further Improve the DoD Suspension and Debarment Process                      D-2011-083                                                       X                                                                                                                                                                                                                                      17     http://www.dodig.mil/Audit/reports/fy11/11-083.pdf
Contract Management of Joint Logistics Integrator Services in Support of Mine Resistant Ambush
                                                                                                     D-2011-081                  X                                    X                                                                                                                                                                                                                                     17-18   http://www.dodig.mil/Audit/reports/fy11/11-081.pdf
Protected Vehicles Needs Improvement
DoD and DOS Need Better Procedures to Monitor and Expend DoD Funds for the Afghan
                                                                                                     D-2011-080                  X                                                                                                                                                                                                                                       X                                   30     http://www.dodig.mil/Audit/reports/fy11/11-080.pdf
National Police Training Program
Previously Identified Deficiencies Not Corrected in the General Fund Enterprise Business System
                                                                                                     D-2011-072                                                                                                                     X                                                                                                                                                                       24-25   http://www.dodig.mil/Audit/reports/fy11/11-072.pdf
Program
Information Security Controls Over the Marine Corps Total Force System Need Improvement              D-2011-064                                                                                                                                                         X                                                                                                                                    29     This report is For Official Use Only.
Antiterrorism Programs for U.S. Forces at Kandahar Airfield, Bagram Airfield, Camp Eggers and
                                                                                                     D-2011-063                  X                                                                                                                                                                                                                                       X                                   30     This report is classified.
New Kabul Compound Need Improvement
Semiannual Report to the Congress                                                                                                                                                   Contracting                                         Finance                                             Technology                                      Health                       Warfighting                                   DoD IG Projects by Category




                                                                                                                            Overseas Contingency




                                                                                                                                                                                                            Product Substitution




                                                                                                                                                                                                                                                                     Information Security
                                                                                                                                                   Recovery Act


                                                                                                                                                                  Acquisition Process



                                                                                                                                                                                        Procurement Fraud
                                                                                                                                 Operations




                                                                                                                                                                                                                                                Public Corruption/




                                                                                                                                                                                                                                                                                                                                                                                          Nuclear Enterprise
                                                                                                                                                                                                                                                                                                                                                  Health Care Fraud
                                                                                                                                                                                                                                                                                                                              Health and Safety




                                                                                                                                                                                                                                                                                                                                                                      Joint Warfighting
  The following projects are highlighted in the Semiannual Report for the reporting period




                                                                                                                                                                                                                                                                                               Computer Crime
                                                                                                                                                                                                                                                 Financial Crimes
                                                                                                                                                                                                                                                                                                                                                                                                                                                    Type Legend




                                                                                                                                                                   & Management




                                                                                                                                                                                                                                   Management
  April 1, 2011 to September 30, 2011. The full listing of reports is available at Appendix A and




                                                                                                                                                                                                                                                                                                                Technology
                                                                                                                                                                                                                                                                                                                 Protection




                                                                                                                                                                                                                                                                                                                                                                          Readiness
  downloadable versions can be viewed on the Web at:




                                                                                                                                                                                                                                    Financial
                                                                                                                                                                                                                                                                                                                                                                                                                                                               Audit

  www.dodig.mil                                                                                                                                                                                                                                                                                                                                                                                                                                                Investigation

                                                                                                                                                                                                                                                                                                                                                                                                                                                               Inspection


Title                                                                                                Report #        Type                                                                                                                                                                                                                                                                                      Page    URL
Excess Inventory and Contract Pricing Problems Jeopardize the Army Contract with Boeing to
                                                                                                      D-2011-061                                                         X                                                                                                                                                                                                                                      16     http://www.dodig.mil/Audit/reports/fy11/11-061redacted.pdf
Support the Corpus Christi Army Depot
Army Commercial Vendor Services Offices in Iraq Noncompliant with Internal Revenue Service
                                                                                                      D-2011-059                   X                                                                                                  X                                                                                                                                                                        23-24   http://www.dodig.mil/Audit/reports/fy11/11-059.pdf
Reporting Requirements
Consistent Use of Supply Support Activities Could Increase Efficiency of Equipment Drawdown
                                                                                                      D-2011-056                   X                                                                                                                                                                                                                                        X                                  29-30   http://www.dodig.mil/Audit/reports/fy11/11-056.pdf
from Iraq
Review of United States Navy Nuclear Weapon Security Program                                          11-ISPA-15                                                                                                                                                                                                                                                                               X                31     This report is classified.
Improvements Needed in Review of U.S. Forces-Afghanistan Sharing of Tactical Counterintel-
                                                                                                     11-INTEL-13                   X                                                                                                                                                                                                                                        X                                   42     This report is classified.
ligence and HUMINT with International Security Assistance Force
Evaluation of the Under Secretary of Defense for Intelligence Continuity of Operations               11-INTEL-12                                                                                                                                                                                                                                                            X                                   42     This report is classified.
Summary of FY 2010 Inspections on Security, Intelligence, Counterintelligence, and Technology
                                                                                                     11-INTEL-11                                                         X                                                                                                                                                                                                                                      23     This report is For Official Use Only.
Protection Practices at DoD Research, Development, Test, and Evaluation Facilities
U.S. Cyber Command Authorities Pertaining to Use of National Security Agency Personnel               11-INTEL-10                                                                                                                                                                                                                                                            X                                   42     This report is classified.
Questionable Intelligence Activity - Assistant Secretary of Defense for Special Operations/ Low-
                                                                                                     11-INTEL-09                                                                                                                                                                                                                                                            X                                   42     This report is classified.
Intensity Conflict
DoD Efforts to Protect Critical Program Information: The Air Force’s Family of Advanced Beyond
                                                                                                     11-INTEL-08                                                         X                                                                                                                                                                                                                                     22-23   This report is For Official Use Only.
Line-of-Sight Terminals
Assessment of DoD Wounded Warrior Matters–Fort Drum                                                  SPO-2011-010                                                                                                                                                                                                                  X                                                                           39-40   http://www.dodig.mil/SPO/Reports/DRUM_508_Compliance_Reduced.pdf
Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003, Part II                                                                                                                                                                                                                                                                                                                                                      http://www.dodig.mil/SPO/Reports/PartII_QarmatAliFINALReport_v6-
                                                                                                     SPO-2011-009                  X                                                                                                                                                                                               X                                                                            40
                                                                                                                                                                                                                                                                                                                                                                                                                       NEW.pdf
Assessment of Planning for Transitioning the Security Assistance Mission in Iraq from DoD to
                                                                                                     SPO-2011-008                  X                                                                                                                                                                                                                                        X                                  41-42   http://www.dodig.mil/SPO/Reports/ISATReport082511.pdf
DOS Authority
Assessment of the U.S. Department of Defense Efforts to Develop an Effective Medical Logistics
                                                                                                     SPO-2011-007                  X                                                                                                                                                                                                                                        X                                   41     http://www.dodig.mil/SPO/Reports/MedLogSPO.pdf
System within the ANSF
Assessment of the BRAC 133 Mark Center Emergency Generator Fueling                                                                                                                                                                                                                                                                                                                                                     http://www.dodig.mil/Inspections/PDFs/BRAC133%20Final%20ReportPack-
                                                                                                    D-2011-TAD-001                                                                                                                                                                                                                 X                                                                            40
                                                                                                                                                                                                                                                                                                                                                                                                                       age_%20Compliant.pdf
Four Family Members Charged in Conspiracy to Export F-5 Fighter Jet Engines to Iran                      N/A                                                                                                                                                                                                        X                                                                                           39     Press releases on investigations are available at www.dodig.mil.
Guilty Pleas and Guilty Verdict for Mexican Nationals in Conspiracy to Acquire Stinger Missile
                                                                                                         N/A                                                                                                                                                                                                        X                                                                                          38-39   Press releases on investigations are available at www.dodig.mil.
and Other Military Grade Weapons
New Jersey Defense Contractor Pleads Guilty to Violations of the Arms Export Control Act and
                                                                                                         N/A                                                                                                                                                                                                        X                                                                                           38     Press releases on investigations are available at www.dodig.mil.
Conspiracy
Iranian National Sentenced to 51 Months for Illegally Exporting Missile Parts                            N/A                                                                                                                                                                                                        X                                                                                           38     Press releases on investigations are available at www.dodig.mil.
Two Chinese Nationals Charged with Illegally Attempting to Export Military Satellite Components
                                                                                                         N/A                                                                                                                                                                                                        X                                                                                          37-38   Press releases on investigations are available at www.dodig.mil.
to the PRC
Contractor Pays Navy for Defective Generators                                                            N/A                                                                                                     X                                                                                                                                                                                              37     Press releases on investigations are available at www.dodig.mil.
Non-Conforming Parts for DoD Vehicles                                                                    N/A                                                                                                     X                                                                                                                                                                                              37     Press releases on investigations are available at www.dodig.mil.
Final Subjects in Learning Links Case Sentenced to Probation, Community Service, and Ordered
                                                                                                         N/A                                                                                                                                                                                                                                          X                                                         36     Press releases on investigations are available at www.dodig.mil.
to Pay $67,311 Restitution
TRICARE Provider Pays $1.4 Million to Settle False Claims Allegations                                    N/A                                                                                                                                                                                                                                          X                                                         36     Press releases on investigations are available at www.dodig.mil.
Lockheed Martin, Incorporated Pays $2 Million for False Billing Scheme                                   N/A                                                                                                                                                                                                                                          X                                                        35-36   Press releases on investigations are available at www.dodig.mil.
Serono Laboratories Inc. Pays $44.4 Million for False Claims                                             N/A                                                                                                                                                                                                                                          X                                                         35     Press releases on investigations are available at www.dodig.mil.
Novo Nordisk, Inc., Pays $25 Million for False Claims                                                    N/A                                                                                                                                                                                                                                          X                                                         35     Press releases on investigations are available at www.dodig.mil.
DoD Contractor Agrees to Pay the Government $407,245.22 to Settle Allegations of False Claims
                                                                                                         N/A                                                                                X                                                                                                                                                                                                                   35     Press releases on investigations are available at www.dodig.mil.
Regarding the Buffalo Vehicle Contract Overview
$2.7 Million Settlement by Ultralife Batteries Incorporated for Defective Pricing                        N/A                                                                                X                                                                                                                                                                                                                  34-35   Press releases on investigations are available at www.dodig.mil.
Over $1 Million Settlement by General Dynamics Land Systems                                              N/A                                                                                X                                                                                                                                                                                                                   34     Press releases on investigations are available at www.dodig.mil.
Officials of Security Contractor Sentenced to Imprisonment and Ordered to Pay $8,780,258 in
                                                                                                         N/A                                                                                X                                                                                                                                                                                                                   34     Press releases on investigations are available at www.dodig.mil.
Restitution
Boeing/United Launch Alliance Agree to Repay $89 Million                                                 N/A                                                                                X                                                                                                                                                                                                                  33-34   Press releases on investigations are available at www.dodig.mil.
Berg Recycling Owners and NSA Official Convicted in Bribery Scheme                                       N/A                                                                                                                                           X                                                                                                                                                        33     Press releases on investigations are available at www.dodig.mil.
Military Members Charged Under UCMJ with Accepting Bribes                                                N/A                                                                                                                                           X                                                                                                                                                        33     Press releases on investigations are available at www.dodig.mil.
Former U.S. Army Special Operations Command Employee Sentenced to Six Years and $365,300
                                                                                                         N/A                                                                                                                                           X                                                                                                                                                       32-33   Press releases on investigations are available at www.dodig.mil.
Forfeiture for Extortion, Bribery and Illegal Gratuities
Saudi Arabia-Based Company Pays $13 Million to Resolve Kickback and Gratuity Allegations                 N/A                                                                                                                                           X                                                                                                                                                        32     Press releases on investigations are available at www.dodig.mil.
                    3


Enabling Mission Areas
Enabling Mission Areas



                                   Overview                                            Figure 3.1

Hotline                            The Defense Hotline continues its primary mis-
                                   sion of providing a confidential and reliable
                                                                                       Distribution of Method of Hotline Contacts Received

                                                                                          E-mail, 34%
                                                                                                                                                                 U.S. Mail, 9%
                                   vehicle for military service members, DoD ci-
                                   vilians, contractor employees and the public
                                   to report fraud, waste, mismanagement, abuse                                                                                          Internet, 7%
                                   of authority, threats to homeland security and
                                   leaks of classified information. The Defense
                                   Hotline received 9,340 contacts from the public
                                   and members of the DoD community: 9 percent
                                   via mail, 34 percent via email, 7 percent via the
                                   Internet and 50 percent via telephone. Based on
                                   these contacts the Hotline initiated 1,433 cases.
                                                                                                              Telephone, 50%
                                   Twelve percent of those cases were referrals from
                                   the Government Accountability Office, and 2
                                                                                       Figure 3.2
                                   percent were congressional complaints.




                                                                                                          Telephone



                                                                                                                       Email



                                                                                                                                     U.S. Mail



                                                                                                                                                 Internet
                                                                                       Distribution of Cases Initiated by Category

                                   Open Cases                                          500
                                                                                        500

                                   The 1,433 cases opened this reporting period are              405
                                   classified in the following categories:             400
                                                                                        400

                                   •	 Internal misconduct (405).
                                   •	 Reprisal (302).                                  300
                                                                                        300
                                                                                                    302

                                   •	 Finance (168).
                                   •	 Contract administration (164).                   200
                                                                                        200             168164
                                   •	 Government property (74).
                                   •	 Personnel matters (98).                                                              98
                                                                                        100
                                                                                       100
                                   •	 Programs (48).                                                                  74
                                                                                                                                48                          49
                                   •	 Military support services (13).                                                                13 20 1 3
                                                                                                                                                                 36 28
                                                                                                                                                                         2
                                                                                                                                                                             22
                                   •	 Medical (20).                                      00
                                                                                                      Internal Misconduct
                                                                                                                  Reprisal
                                                                                                                   Finance
                                                                                                 Contract Administration
                                                                                                    Government Property
                                                                                                        Personnel Matters
                                                                                                                 Programs
                                                                                                 Military Support Services
                                                                                                                  Medical
                                                                                                 Mental Health Evaluation
                                                                                                 Non-Appropriated Fund
                                                                                                             Recovery Act
                                                                                                                  Security
                                                                                                             Procurement
                                                                                                    Trafficking in Persons
                                                                                                                     Other
                                   •	 Mental health evaluation (1).
                                   •	 Non-appropriated fund (3).
                                   •	 Recovery Act (49).
                                   •	 Security (36).
                                   •	 Procurement (28).
                                   •	 Trafficking in persons (2).
                                   •	 Other (22).

                                   Closed Cases
                                   During this reporting period the Defense Hot-
                                   line closed 1,256 cases.
                                   •	 597 cases referred within DoD IG were
                                        closed.
                                   •	 531 cases referred to the military services
                                        were closed.
                                   •	 123 cases referred to other Defense agencies
                                        were closed.
                                   •	 5 cases referred to non-DoD agencies were
                                        closed.
                                   •	 787 cases were not referred and dismissed
                                        without action.

44 SEMIANNUAL REPORT TO THE CONGRESS
Hotline Case Referrals                             Substantiated Hotline Complaints
The Defense Hotline initiated 1,433 cases to the   •	 A service noncommissioned officer admit-
following activities:                                   ted to stealing government property while
                                                        performing duties as a security police officer
                                                        at a base in the United States. The officer was
Military Departments                                    observed removing uniform items, flight
          AF                                123         gloves, and flashlights from an unsecured
          Army                              303         supply building while making his security
          Navy                              121         rounds. On another occasion the officer
          USMC                               27         took self-inflating air mattresses and mess
          JS                                 73
                                                        kits from the same building. The guard used
DoD IG                                                  his police vehicle to stash the stolen goods,
         MRI                                200         before taking them home. The officer admit-
         ISO                                107         ted to stealing the items, and was forced to
         CRI                                 51         take an early retirement.
         Hotline                            168    •	   Four employees of a major defense con-
         Audits                               4         tractor were terminated by their employer
         Investigations                      93         for improperly annotating hours on their
         Intel                                1
                                                        timesheets. The employees were reporting
         OPR                                  4
                                                        more hours on their timesheets than they
         GC                                   1
         IPO                                  1         actually spent on the worksite.
         APO                                  3
                                                   Outreach Initiative
Other Defense Agencies                             As part of the Defense Hotline outreach initia-
         AAFES                                5
                                                   tive to improve the reporting of fraud, waste,
         ADMIN                                1
         BTA                                  1
                                                   abuse and mismanagement, the hotline deployed
         DCMA                                17    a website on the Joint Worldwide Intelligence
         DODEA                               11    Communication System. The Defense Hotline is
         DCAA                                 7    committed to providing an effective means for
         DECA                                 4    individuals to make disclosures involving classi-
         DFAS                                22    fied information. The website incorporates best
         DIA                                  7    practices as identified by the Council of Inspec-
         DISA                                 8    tors General on Integrity and Efficiency and pro-
         DLA                                 16
                                                   vides detailed information to assist and direct
         DSS                                  2
         GC                                   1
                                                   individuals in making disclosures. This deploy-
         MDA                                  3    ment follows a similar redesign of the websites
         MEPCOM                               2    on the Secret Internet Protocol Router Network
         NONDOD                               6    and Non-secure Internet Protocol Router Net-
         NGA                                  1    work.
         NRO                                  1
         NSA                                  1
         OSD                                  2
         PFPA                                 2
         POLICY                               2
         AT&L                                 3
         HEALTH AFFAIRS                       3
         P&R                                 10
         TRICARE                              9
         USDI                                 2
         WHS                                  6



                                                                                                          APRIL 1, 2011 TO SEPTEMBER 30, 2011 45
OutreachMission Areas
Enabling



                                    DoD IG investigates and oversees investigations            for alleging to his security manager in the
Whistleblower                       of allegations regarding whistleblower reprisal
                                    against service members, defense contractor em-
                                                                                               United States that members of his unit were
                                                                                               not properly safeguarding classified hard-
Protection                          ployees, and DoD civilian employees (appropri-
                                    ated and non-appropriated fund) and improper          •	
                                                                                               ware and information.
                                                                                               An Army Reserve battalion commander
                                    command referrals of service members for men-              reprised against an Army Reserve captain
                                    tal health evaluations.                                    by downgrading his promotion potential
                                                                                               recommendation on the captain’s Officer
                                    Military Reprisal Investigations                           Evaluation Report. The captain had report-
                                    DoD IG investigates or oversees allegations of             ed to his brigade commander that the bat-
                                    military, nonappropriated fund, defense con-               talion commander had engaged in several
                                    tractor whistleblower reprisal; and allegations            instances of unprofessional conduct and ex-
                                    of improper referral of members of the Armed               hibited poor judgment and leadership skills.
                                    Services for mental health evaluations. As of              In addition, DoD IG substantiated that the
                                    September 30, 2011, DoD had 366 open cases                 battalion commander and the battalion
                                    involving allegations of whistleblower reprisal            transportation team officer in charge made
“As of September                    filed by military service members, defense con-            verbal and written comments intended to
30, 2011, DoD had                   tractor employees and nonappropriated fund                 discourage or restrict unit members from
                                    employees.                                                 communicating with an inspector general.
366 open cases                                                                            •	   An Army Reserve captain threatened to sus-
involving allegations of                                                                       pend a staff sergeant’s security clearance in
                                    During the reporting period, DoD IG and ser-
whistleblower reprisal              vice IGs received 299 complaints of whistleblow-           response to the staff sergeant’s chain of com-
filed by military service           er reprisal and closed 100 cases. Of the 100 cases,        mand IG complaints that unescorted U.S.
members, defense                    48 were closed after analysis determined further           Army soldiers, who were not U.S. citizens
                                    investigation was not warranted, and 52 were               and did not have appropriate security clear-
contractor employees                                                                           ances, were allowed to enter a secure facility
and nonappropriated                 closed after full investigation. Allegations made
                                    in 17 (33 percent) of the 52 cases investigated            housing detainees in Afghanistan.
fund employees.”                    were substantiated. In addition, three com-           •	   An enlisted Army Reserve recruiter received
                                    plaints of restriction (preventing or attempting           an adverse efficiency report in reprisal for
                                    to prevent members of the Armed Forces from                complaining to the command IG about his
                                    making or preparing to make lawful or com-                 chain of command’s interference with his
                                    munications to members of Congress and/or an               retirement training. The service member
                                    inspector general) were substantiated. DoD IG              ultimately completed the retirement train-
                                    has statutory responsibility for oversight review          ing and petitioned the Army Board for Cor-
                                    of all cases of military whistleblower reprisal re-        rection of Military Records for relief.
                                    gardless of origination and reviews both prelimi-     •	   An Army captain, in collusion with his first
                                    nary inquiries and full investigations conducted           sergeant, threatened a soldier with non-
                                    by the service IGs and DoD IG.                             judicial punishment for making protected
                                                                                               communications to EO and IG officials. The
                                    DoD IG continued its expanded outreach, com-               chain of command also removed the soldier
                                    munication, and training to whistleblower stake-           in reprisal for her protected communica-
                                    holders and service IG counterparts, conducting            tions.
                                    17 events reaching 404 military IGs (a total of 24    •	   A Marine Corps IG refused to process a
                                    instruction hours).                                        sergeant’s complaint regarding abuse of au-
                                                                                               thority while restricting the sergeant from
                                    Examples of Substantiated Military Whistle-                filing the complaint with higher level IGs.
                                    blower Reprisal Cases
                                    •	 An Army Reserve sergeant major deployed            Improper Referrals for Mental Health Evalua-
                                        to Iraq received an unfavorable Non-Com-          tions
                                        missioned Officer Evaluation Report and           As of September 30, 2011, DoD IG had eight
                                        was denied an end-of-tour award in reprisal       open cases involving allegations of improper

 46 SEMIANNUAL REPORT TO THE CONGRESS
referrals for mental health evaluation. During      Civilian Reprisal Investigations
the period, DoD IG closed 23 cases, 16 (70 per-     During the second half of FY 2011, DoD IG con-
cent) of which contained a substantiated allega-    tinued to select cases involving Title 5 protected
tion that command officials and mental health       disclosures in four core mission areas: aviation
care providers failed to follow the procedural      maintenance, contracting and procurement, se-
requirements for referring service members for      curity clearances, and intelligence operations.
mental health evaluations under DoD Directive
6490.1, “Mental Health Evaluations of Members       On September 30, 2011, DoD IG had 10 open
of the Armed Forces.”                               cases. During the reporting period, the Depart-
                                                    ment received 15 complaints of Title 5 whistle-
Example of Improper Referrals for Mental            blower reprisal and closed 14 investigations. Of
Health Evaluations                                  the 14 investigations closed, one contained sub-
An Army captain improperly referred a special-      stantiated allegations of reprisal, resulting in a 7
ist for a mental health evaluation and an Army      percent substantiation rate. DoD IG also con-
licensed professional clinical counselor, lacking   ducted a total of 34 whistleblower reprisal out-
mental health care provider credentials, improp-    reach events attended by 434 DoD military and
erly performed the evaluation. The specialist’s     civilian personnel.
first sergeant, without statutory authorization,
also counseled and directed the specialist to un-   Substantiated Title 5 Whistleblower Reprisal
dergo the evaluation. Further, installation offi-   Case
cials circumvented DoD instructions for mental      An employee at a DoD Component Field Office
health evaluations by utilizing an incomplete lo-   was reprised against for disclosing to criminal
cal form to initiate referrals.                     investigators the alleged illegal transfer of clas-
                                                    sified materials by a U.S. government contractor.




                                                                                                           APRIL 1, 2011 TO SEPTEMBER 30, 2011 47
Enabling Mission Areas



                                   To promote public confidence in the integrity         In every instance, DoD IG expertly investigated

Senior                             of DoD leadership, DoD IG conducts or pro-
                                   vides oversight on all investigations into alleged
                                                                                         the facts and circumstances of the case and pre-
                                                                                         sented a timely and independent report of inves-

Officials                          misconduct by senior DoD officials (brigadier
                                   general/rear admiral and above, members of
                                                                                         tigation to management officials for appropriate
                                                                                         action.
                                   the senior executive service and senior political
                                   appointees). Misconduct allegations are non-          Examples of substantiated senior official cases:
                                   criminal in nature and typically involve ethics       •	 A senior official engaged in unprofessional
                                   or regulatory violations. Most senior official in-         and abusive behavior toward his subordi-
                                   vestigations are conducted by specialized units            nates in violation of the Joint Ethics Regula-
                                   within the offices of the military service IGs.            tion.
                                   DoD IG investigates allegations against the most      •	   A senior officer made unwanted sexual ad-
                                   senior DoD officials and allegations not suitable          vances to subordinates, wore unauthorized
                                   for assignment to service IGs.                             medals on his uniform, and engaged in oth-
                                                                                              er service-discrediting conduct. The officer
                                   On September 30, 2011, there were 281 ongo-                was subsequently removed from his leader-
                                   ing investigations into senior official misconduct         ship position.
                                   throughout the Department, representing a 7           •	   Two general officers misused military air-
                                   percent decrease from March 31, 2011, when                 craft by allowing their spouses to fly with
                                   303 open investigations were reported. Over                them without an official purpose or autho-
                                   the past six months, the Department closed 243             rization. Additionally, one of the officers
                                   complaints. Of those complaints, 125 contained             used a military helicopter to attend a meet-
                                   a credible allegation of senior official misconduct        ing with a non-profit organization with no
                                   that required investigation. Of the 125 senior of-         official federal or state affiliation.
                                   ficial investigations completed, 18 (14 percent)      •	   A senior executive violated merit system
                                   contained substantiated allegations. Addition-             principles and engaged in a prohibited
                                   ally, DoD IG completed 2,011 requests for re-              personnel practice by providing an unfair
                                   cords checks totaling 8,917 names of officers              advantage to a friend applying for a perma-
                                   being considered for promotion, reassignment,              nent position and advocating for the hiring
                                   or retirement. The Senate relies on the accuracy           of a relative, violated the Joint Travel Regu-
                                   of these records checks when deliberating officer          lation by not purchasing the lowest avail-
                                   nominations.                                               able government fare or using the City Pairs
                                                                                              Program, received compensation without
                                   During this period, DoD IG conducted several               an authorized entitlement and engaged
                                   sensitive investigations that received significant         in behavior that was inconsistent with the
                                   media coverage and directly impacted the De-               standards expected of a senior executive.
                                   partment. In one instance, DoD IG investigated
                                   the improper disclosure of the FOUO draft re-
                                   port on the impact of the repeal of “Don’t Ask,
                                   Don’t Tell.” In a second instance, DoD IG in-
                                   vestigated the comments and conduct ascribed
                                   to U.S. Forces-Afghanistan staff by the Rolling
                                   Stone magazine article, “The Runaway General.”




48 SEMIANNUAL REPORT TO THE CONGRESS
Testimony                                           ment, Committee on Oversight and Government
Section 4(a) of the Inspector General Act re-       Reform, on “Financial Management and Internal
                                                    Control Challenges at the Department of De-
                                                                                                           Congressional
quires the inspector general “to review existing
and proposed legislation and regulations relating   fense.” The hearing on September 22 focused on
                                                    specific financial management challenges within
                                                                                                              Testimony
to the programs and operations of [the Depart-
ment of Defense]” and to make recommenda-           the Department and improvements for internal
tions “concerning the impact of such legislation    controls that must be made. The focus of the
or regulations on the economy and efficiency in     September 23 hearing was on pervasive financial
the administration of programs and operations       management challenges within the Department
administered or financed by [the Department]        and improvements that must be made in order
or the prevention and detection of fraud and        to comply with the 2017 date for auditable finan-
abuse in such programs and operations.” DoD         cial statements for the Department of Defense.
IG is given the opportunity to provide informa-
tion to Congress by participating in congressio-    Briefings & Requests
nal hearings and briefings.                         During the reporting period, DoD IG had 53
                                                    meetings with members of Congress and their
On April 25, 2011, Deputy Inspector General         staff. Topics of discussion during those meetings
for Auditing Daniel Blair testified before the      include financial management, whistleblower                  Deputy Inspector General for Auditing
                                                                                                                 Blair testifies.
Commission on Wartime Contracting on “Im-           investigations, the Guam realignment, base re-
plementing Improvements to Defense Wartime          alignment and closure, and spare parts and in-
Contracting.” Mr. Blair discussed critical chal-    ventory management.
lenges and improvements that must be made to
DoD wartime contracting. During the hearing,        The Office of Communications and Congressio-
Mr. Blair discussed the most important recom-       nal Liaison supports DoD IG by serving as the
mendations using the DoD IG report, “Contin-        contact for communications to and from Con-
gency Contracting: A Framework for Reform,”         gress, and by serving as the DoD IG public affairs
which identified 10 systemic challenges related     office. From April 1, 2011, through September
to deficiencies in the contract management pro-     30, 2011, OCCL received 146 new congressional
cess during contingency operations. He also         inquiries and closed 169 cases, including a case
discussed the effectiveness of recommendations      that involved over 50 separate congressional in-
and challenges going forward.                       quiries regarding a senior official investigation.
                                                    New inquiries involved issues such as requests
Mr. Blair testified at hearings on September 22     related to reprisal investigations, concern about
and 23, 2011, before the Panel on Defense Fi-       improper payments, allegations regarding senior
nancial Management and Auditability Reform,         officials, and requests related to reviews of senior
House Armed Services Committee, on “DoD’s           DoD officials. OCCL continues to proactively
Efforts to Improve Payment and Funds Control”       reach out to congressional staffers to ensure they
and before the Subcommittee on Government           are informed about upcoming IG releases and
Organization, Efficiency and Financial Manage-      ongoing reviews.




                                                                                                           APRIL 1, 2011 TO SEPTEMBER 30, 2011 49
Enabling Mission Areas



                                         DoD IG outreach activities include chairing and       students from various agencies and components.
Outreach                                 participating in several coordination groups and
                                         task forces as well as providing training.            Interagency Initiatives
Activities                               Programs                                              Council of Inspectors General for Integrity and
                                                                                               Efficiency
                                         Asset Forfeiture Program                              The Council of Inspectors General for Integrity
                                         During the past six months, DCIS has partici-         and Efficiency was statutorily established as an
                                         pated in $1.9 million in final court orders of for-   independent entity within the executive branch
                                         feiture and a cumulative total of $27 million for     by the Inspector General Reform Act of 2008
                                         FY 2011. Since DCIS became a participant in the       to address integrity, economy and effectiveness
                                         Department of Justice Asset Forfeiture program        issues that transcend individual government
                                         in May 2007, it has conducted investigations that     agencies; and increase the professionalism and
                                         have led to orders of final forfeiture of $307 mil-   effectiveness of personnel by developing poli-
DCIS participates in the Department of   lion ($262.1 million in currency, real property,      cies, standards, and approaches to aid in the es-
Justice Asset Forfeiture program.        and vehicles have been seized and forfeited).         tablishment of a well-trained and highly skilled
                                         Additionally, since May 2007, DCIS has partici-       workforce in the offices of the inspectors general.
                                         pated in the seizure of assets totaling $597.3 mil-   DoD IG is an active participant in the CIGIE,
                                         lion.                                                 serving as a member of the CIGIE Executive
                                                                                               Council; as chair of the Information Technology
                                         Violent Crimes Division                               Committee; and as editor-in-chief of the Journal
                                         DoD IG established a new division that will           of Public Inquiry. During this reporting period,
                                         evaluate DoD and military service criminal            areas of focus for the IT Committee included the
                                         investigative policies, programs, and training        impact of recommendations on accreditation of
                                         focused on violent crimes including murder,           federal forensic laboratories on digital evidence
                                         suicide, sexual assaults, robbery, criminal child     units within the IG community; the trusted In-
                                         abuse, and aggravated assault. The establishment      ternet connections initiative; and cloud comput-
                                         of the Violent Crimes Division was authorized         ing contracts and IG access to information.
                                         by Inspector General Heddell in July 2011 and is
                                         located within the Office of the Assistant Inspec-    Defense Council on Integrity and Efficiency
                                         tor General for Investigative Policy and Over-        The Defense Council on Integrity and Efficiency
                                         sight. The new division is now being staffed with     is chaired by DoD IG and meets on a quarterly
                                         criminal investigators and investigative review       basis to discuss issues of common interest, share
                                         specialists, whose first assignment will be to fo-    information and best practices, and build closer
                                         cus on DoD criminal investigative response to         working relationships among members of the
                                         sexual assaults.                                      oversight community within the Department.
                                                                                               Key areas of focus during the reporting period
                                         Joint Activities Program                              included sexual assault prevention and report-
                                         DoD IG interfaces with other Department of            ing; the drawdown of U.S. forces in Iraq; and the
                                         Defense agencies, joint inspectors general world-     U.S. Marine Corps realignment to Guam.
                                         wide and other federal agencies. The mission of
                                         the Joint Activities Program includes develop-        Southwest Asia Joint Planning Group
                                         ing departmental oversight policy; developing         In May 2011, DoD IG hosted the Southwest
                                         and sustaining Joint IG publications; develop-        Asia Joint Planning Group, which works to co-
                                         ing and deploying Joint IG training; conducting       ordinate and deconflict the efforts of DoD and
                                         mobile training team evolutions; and staff as-        interagency oversight agencies that support U.S.
Principal Deputy IG Lynne Halbrooks
speaks to the Joint IG class.            sistance visits and developing and deploying an       military operations in Afghanistan, Iraq and the
                                         integrated knowledge management system and            Persian Gulf.
                                         structure. During this reporting period, DoD IG
                                         conducted two resident Joint IG courses, hosting


50 SEMIANNUAL REPORT TO THE CONGRESS
Interagency Coordination Group for the Guam          industry to identify and combat technology pro-
Realignment                                          liferating networks. Through this collaborative
In September 2011, DoD IG hosted the quar-           effort and information sharing, DoD is better
terly Guam Interagency Planning Group and            able to focus intelligence and procurement ef-
Joint Planning Group. The groups synchronize         forts to maintain the technological supremacy of
the efforts of DoD and interagency oversight         the American warfighter.
agencies that support the Interagency Coordina-
tion Group who oversees the realignment of Ma-       Suspicious Activity Reports Task Forces
rines to Guam. The U.S. Navy, director of plans      These task forces are comprised of DCIS special             The Guam IPG/JPG meet to discuss up-
and policy for the Joint Guam Program Office         agents, and other federal, state and local law en-          dates on realignment efforts in Guam.

briefed the groups on the future plans for the       forcement agencies meeting with the local U.S.
Marine Corps move to Guam. Representatives           Attorneys Offices to review suspicious activ-
from the Departments of the Interior, Educa-         ity reports and cash transactions reports with
tion, and Transportation as well as the Environ-     the goal to identify potential terrorist financ-
mental Protection Agency, Naval Audit Service,       ing, money laundering, kickback and bribery
Army Audit Agency and the Defense Contract           schemes. DCIS representatives focus on these
Audit Agency attended.                               reports concerning military members and con-
                                                     tractors.
Intelligence Community Inspectors General Fo-
rum                                                  Inspectors General Regional Councils
DoD IG participates in the Intelligence Commu-       DCIS participates with other OIGs investigative
nity Inspectors General Forum, which promotes        divisions in their respective regions in working
information sharing among inspectors general         groups designed to share training opportuni-
whose functions include audits, inspections/         ties throughout the group to help achieve mu-
evaluations or investigations of their respective    tual training requirements; discuss investigative
departments and agencies. The forum, chaired         strategies, efforts, successes, agency missions
by the director of national intelligence inspec-     priorities and available resources. The working
tor general, enhances effective coordination and     groups coordinate regularly with U.S. attorneys
cooperation and ensures there is no duplication      offices on ongoing prosecutive efforts.
of oversight.
                                                     Defense Criminal Investigative Organizations
Procurement Fraud Working Groups                     Command Policy
DCIS actively participates in procurement fraud      DoD IG established a semiannual defense crimi-
task forces and working groups across the coun-      nal investigative organizations command policy
try. Procurement fraud wastes limited funds,         meeting to discuss pertinent investigative issues
threatens safety and national defense, cheats        such as sexual assault and child abuse investiga-
American taxpayers, and harms government ef-         tions and peer reviews within the investigative
forts to obtain needed goods and services. DCIS,     community.
along with other agencies, partner to share
knowledge and resources to thwart illegal acts or    Awards
schemes aimed at defrauding the government.
                                                     FBI-DoD Task Force Officer of the Year Award
Counter-Proliferation Working Groups                 On August 16, 2011, a DCIS special agent was
DCIS agents nationally participate in working        presented the FBI-DoD Task Force Officer of
groups and task forces across the country to dis-    the Year Award for outstanding contributions
cuss and coordinate counter-proliferation poli-      to an undercover operation that culminated in
cies and operations as they relate to joint agency   the arrest and charging of Antonio Martinez, aka
enforcement. These groups are responsible for        “Muhhamad Hussain.” FBI Joint Terrorism Task
precluding sensitive technology and information      Force agents arrested Martinez for his attempts
from leaving the United States. DCIS continues       to murder federal officials by placing a bomb at a
to coordinate with federal partners and private      military recruiting office. Martinez sought to kill

                                                                                                           APRIL 1, 2011 TO SEPTEMBER 30, 2011 51
Enabling Mission Areas



                                       military personnel in retaliation for the deaths     The award honored leadership for demonstrat-
                                       of Muslims in Afghanistan and Iraq during U.S.       ing a strong commitment to excellence in ethics
                                       military operations. The efforts of the agent con-   program management and for building an ethi-
                                       tributed to the successful conclusion of this in-    cal culture in DoD IG.
                                       vestigation.
                                                                                            National Security and International Affairs
                                       CIGIE Award for Individual Accomplishment            Medal, Samuel J. Heyman Service to America
                                       The special agent in charge of the DCIS North-       The director, whistleblowing and transparency,
                                       east Field Office was recognized by the Council      and the Civilian Reprisal Investigations direc-
                                       of Inspectors General on Integrity and Efficiency    torate were finalists for the 2011 Sammies. This
                                       for his outstanding leadership and expertise in      award recognizes a federal employee and his or
                                       furthering the mission of DoD IG.                    her team for a significant contribution to the na-
                                                                                            tion in activities related to national security and
                                       CIGIE Award for Excellence in Evaluations            international affairs (including defense, military
SAC Northeast FO receives the CIGIE    A Special Plans and Operations assessment            affairs, diplomacy, foreign assistance and trade).
Award for Individual Accomplishment.   team was recognized by the Council of Inspec-        Recognition was given due to CRI protection of
                                       tors General on Integrity and Efficiency for ex-     civilian Pentagon whistleblowers who exposed
                                       ceptional performance in conducting the “As-         wrongdoing within intelligence and defense-
                                       sessment of Allegations Concerning Traumatic         related activities, ensuring the sources are not
                                       Brain Injury Research in Iraq.”                      harassed, punished or fired.

                                       CIGIE Award for Excellence                           Pentagon Memorial Service Award
                                       A Special Plans and Operations assessment team       The deputy inspector general for intelligence
                                       was recognized by the Council of Inspectors          and special program assessments received the
                                       General on Integrity and Efficiency for excep-       Pentagon Memorial Service Award from the
                                       tional performance in conducting the “Assess-        Northern Virginia Chapter of Association of
                                       ment of the U.S. Government Efforts to Train,        Governments Accountants This award was es-
                                       Equip, and Mentor the Expanded Afghan Na-            tablished in memory of the victims of the Sep-
                                       tional Police.”                                      tember 11, 2001, attack on the Pentagon. The
Special Plans and Operations is                                                             award formally recognizes public service to our
recognized with a CIGIE award.         U.S. Office of Government Ethics 2011 Program        nation in the field of financial management. The
                                       Innovation and Excellence Award                      award recognizes dedication and commitment
                                       DoD IG was nominated and selected by the U.S.        to improved government operations, financial
                                       Office of Government Ethics for one of its 2011      stewardship and accountability through public
                                       Program Innovation and Excellence Awards.            service to our nation.




52 SEMIANNUAL REPORT TO THE CONGRESS
           4


Services
Services



                                   ARMy AUdIT AGENCy                                    the requirements and acquisition process.

Army                               To accomplish its mission, U.S. Army Audit
                                   Agency relies on a work force of highly trained
                                                                                        USAAA identified five lessons learned related to
                                                                                        determining and validating system requirements,
                                                                                        communicating program expectations to senior
                                   professional auditors, many with advanced            Army leaders, and performing an affordability
                                   degrees and professional certifications. USAAA       trade analysis. The lessons learned should help
                                   staff consists of approximately 600 employees        the Army prevent the problems of the Multi-
                                   and is organized into 18 functional audit teams      Mission Unmanned Ground Vehicle from
                                   that provide audit support to all aspects of Army    occurring for all future systems.
                                   operations.                                          Report A-2011-0167-ALA

                                   USAAA also maintains a significant presence          Power and Energy Consumption in Weapon
                                   in the Central Command area of responsibility        Systems, Office of the Secretary of the Army
                                   assisting Army commanders. At the end of             (Acquisition, Logistics and Technology)
                                   September 2011, USAAA deployed 38 auditors           USAAA initiated this audit under the authority
                                   in Iraq, Kuwait and Afghanistan. Overall,            of the auditor general. It reported that program
                                   USAAA has deployed over 150 auditors since           management personnel did not incorporate
                                   2002 and issued more than 100 reports on             energy and fuel conservation measures into
                                   Operation Enduring Freedom/Operation Iraqi           the development of weapons systems. The
                                   Freedom.                                             Army acquisition executive issued a policy
                                                                                        memorandum on January 7, 2009, to address
                                   USAAA’s goal is to be a highly sought after          “Energy Productivity in Weapon Systems.” The
                                   and an integral part of the Army by providing        guidance required acquisition programs in
                                   timely and valued services that focus on the         development that consume energy to include the
                                   evolving needs of Army leadership. To ensure         fully burdened cost of energy needed to operate
                                   its audits are relevant to the needs of the Army,    the system in their total ownership cost analysis,
                                   USAAA refined its strategic audit planning           as well as their acquisition strategy decision
                                   process this fiscal year, placing greater emphasis   process. Only 1 of 10 weapon systems audited,
                                   on collaboration with the Army’s most senior         fully implemented the guidance outline in the
                                   leaders and on use of detailed corporate risk        policy memorandum and three systems partially
                                   assessment to ensure that audits focus on            implemented the guidance.
                                   significant risks and senior leader priorities.      Report A-2011-0153-ALA

                                   During the second half of FY 2011, USAAA             Body Armor Testing Process
                                   published 130 reports, made over 250                 At the requested of the secretary of the Army,
                                   recommendations, and identified over $365            USAAA performed an overall assessment of im-
                                   million of potential monetary benefits. A few of     plementation of the recommendations related to
                                   USAAA’s significant reports are described in the     the Army’s Interceptor Body Armor system. This
                                   following paragraphs.                                report focused on the testing and inspection of
                                                                                        the body armor. USAAA found that the Army has
                                   After Action Review of the Multi-Mission             made numerous changes to strengthen controls
                                   Unmanned Ground Vehicle Program, Assistant           over the body armor ballistic testing process and
                                   Secretary of the Army (Acquisition, Logistics        is improving a non-destructive testing process.
                                   and Technology)                                      Further, for future body armor contracts, there
                                   USAAA performed this review at the request           should be higher confidence in the effectiveness
                                   of Office of the Assistant Secretary of the          of the body armor based on using a statistically
                                   Army (Acquisition, Logistics and Technology).        based first article test protocol. Even though the
                                   The vice chief of staff of the Army tasked the       Army has improved controls, there continue to
USAAA reviewed the Multi-Mission   Office of the Assistant Secretary of the Army        be questions related to the testing process and
Unmanned Ground Vehicle Program.   with conducting an after-action review—with          test results. Not knowing the cause(s) of chang-
                                   USAAA assistance—to identify ways to improve         ing trends in test results, raises risks that the

54 SEMIANNUAL REPORT TO THE CONGRESS
Army accepted body armor that didn’t meet re-         had received some training to do their jobs
quirements or rejected body armor that did meet       but were missing a significant amount of
requirements. Also, USAAA reported to the sec-        required basic safety training identified by the
retary of the Army that plates being issued to        Career Program 12 proponent. The Army’s
Soldiers weren’t scanned for cracks before being      functional chief representative identified the
returned to inventory because personnel weren’t       training requirements for safety professionals,
fully following the Concept of Operation guid-        in April 2009, in an attempt to identify gaps
ance and there weren’t enough non-destructive         in safety professionals’ skills. Safety specialists
scanners. DCS G-four and the PEO soldier took         at the three installations reviewed completed
immediate action to update guidance that fo-          only 57 percent of the basic safety training.
cused on providing scanned plates to deployed         These conditions occurred because (1) safety
or deploying soldiers and to establish a require-     professionals did not have specific guidance
ment for additional scanners.                         for their career program and there was not a
Report A-2011-0132-ALA (FOUO)                         master training plan that identified mandatory
                                                      training or competencies required for Job
Implementing Body Armor Recommendations               Series 0018 and (2) safety professionals were
The secretary of the Army requested this audit to     hired without meeting the basic skills required
evaluate actions taken on 61 recommendations          by the Career Program 12 proponent. USAAA
from 6 previous audit reports on body armor,          also found that the Army had a standardized
one from GAO, three from DoD IG, and two              position description for brigade tactical safety
from USAAA reports. This report summarizes            specialists. However, only one of the three
the recommendations, actions taken and                installations had converted to the new position
status of the recommendations. DoD and the            description. Other installations, not included in
Army implemented and action was complete              the review, had not converted to the standard             USAAA reviewed the implementation
for 57 recommendations, and actions taken             position, due to funding shortages and time-              of body armor recommendations.

should improve body armor processes. For the          in-grade issues. Consequently, without essential
remaining four recommendations, one from              basic safety training, safety professionals are not
GAO and three from USAAA, actions were                properly trained or well-rounded in identifying
ongoing. Although one GAO recommendation              hazards and could potentially put Army assets
was not fully implemented, the Army did               (personnel and facilities) at unnecessary risk.
perform additional testing of the five designs        Also, installations that do not convert to the
questioned and did use outside experts to             standard position description could encounter
evaluate test procedures. Additional controls         higher turnover. The assistant secretary of the
established in 2009 to repeat first article testing   Army (financial management and comptroller)
after two lot failures minimized the Army risk.       provided the official Army position and agreed
Further, the Army had initiated some action           with the report’s finding and recommendations.
on three of USAAA’s prior recommendations             Report A-2011-0164-IEE
related to updating performance requirements,
developing quantitative requirements and doing        Planning      for    Disposal   of    Chemical
a systems evaluation.                                 Demilitarization and Storage Facilities, U.S.
Report A-2011-0082-ALA (FOUO)                         Army Chemical Materials Agency
                                                      The U.S. Army Chemical Materials Agency’s
Safety and Occupational Health Professionals          mission is the safe storage and disposal of
USAAA conducted an audit to determine                 chemical stockpile at nine designated sites.
whether Army safety offices were staffed              The disposal of chemical demilitarization
with trained safety professionals to support          and storage facilities is an important factor to
installation and mission functions. It also           the success of the Chemical Demilitarization
evaluated whether brigade tactical safety             Program, which is a $24.2 billion life-
specialists’ job descriptions, functions and          cycle program that receives a high level of
training requirements were standardized Army-         congressional interest. USAAA conducted the
wide. USAAA found that safety professionals           audit to determine whether the Army developed

                                                                                                        APRIL 1, 2011 TO SEPTEMBER 30, 2011 55
Services



                                        and implemented comprehensive plans for the           area. USAAA wanted to ensure that congressional
                                        disposal of demilitarization and storage facilities   resources submitted in the president’s budget for
                                        and whether installations properly accounted          Hurricane and Storm Damage Risk Reduction
                                        for real and personal property acquired for           System projects were identified, tracked and
                                        the construction of chemical demilitarization         reported to Congress, as designated in public
                                        facilities. USAAA reported that Army activities       law. USAAA reported that USACE developed
                                        developed and implemented comprehensive               and used processes to identify, track and report
                                        plans for the disposal of chemical demilitarization   appropriated funds—valued at about $14.5
                                        and storage facilities. However, USAAA’s review       billion and received from five Public Laws—for
                                        of real and personal property for five activities,    the design and construction of the Hurricane
                                        valued at about $2 billion, that the U.S. Army        and Storm Damage Risk Reduction System.
                                        Corps of Engineers transferred on DD Forms            Management personnel developed processes
                                        1354 to installations showed that:                    because they recognized the need to separate
                                        •	 Four activities did not account for about          and identify the appropriated funds by purpose,
                                             $119 million in facility costs in the            as outlined in the public laws. USACE:
                                             Integrated Facilities System. In addition,       •	 Identified the appropriated funds as described
                                             one activity did not obtain prior written DA           in the applicable public laws. USACE
                                             approval to dispose of facilities valued at            reviewed the supplemental appropriations
                                             about $111.8 million.                                  guidance; categorized Hurricane and Storm
                                        •	 Three activities did not properly account                Damage Risk Reduction System projects
                                             for procurement-funded equipment and                   by 3 appropriation structure codes, 32
                                             government-furnished equipment, valued                 category-class-subclass codes and 16 Army
                                             at about $996.1 million, in their installation         management structure codes; and used the
                                             property books.                                        project designations to plan about $14.5
                                        •	 The systems contractor at one activity                   billion in commitments.
                                             could not account for contractor-acquired        •	 Had sufficient processes in place for
                                             property purchased with research and                   tracking Hurricane and Storm Damage
                                             development funds during construction.                 Risk Reduction System funds. USACE
                                        These conditions occurred because personnel                 used internal spreadsheets and the Corps
                                        misinterpreted, did not fully understand, or                of Engineers Financial Management
                                        were not aware of requirements for accounting               System entries for recording commitments,
                                        and disposing of real and personal property                 reallocations and obligations.
                                        or did not provide sufficient oversight and           •	 Provided the two required reports to the
                                        documentation to the systems contractor. As a               Congressional Appropriations Committees
                                        result, the Buildings, Structures, and Facilities           per public law and congressional request.
                                        and General Equipment lines in the notes the          As a result, USAAA concluded that USACE
                                        Army General Fund and Army Working Capital            identification, tracking and reporting processes
                                        Fund Financial Statements may have been               for the Hurricane and Storm Damage Risk
                                        understated.                                          Reduction System-appropriated funds met the
                                        Report A-2011-0177-IEE                                requirements as outlined by public law.
                                                                                              Report A-2011-0124-IEE
                                        Hurricane and Storm Damage Risk Reduction
                                        System: Project Funding, U.S. Army Corps of           Application Migration, Office of the Chief
                                        Engineers, Mississippi Valley Division and Task       Information Officer/G-6
                                        Force Hope                                            The Office of the Chief Information Officer/G-6
                                        USAAA audited the processes that the U.S.             asked USAAA to audit whether Army activities
                                        Army Corps of Engineers used to account for           affected by base realignment and closure
                                        about $14.5 billion in emergency supplemental         conducted portfolio reviews to identify and
                                        funding received through five public laws to          report all candidate applications for potential
USAAA audited hurricane storm dam-      complete the Hurricane and Storm Damage Risk          migration to enterprise-hosting facilities.
age risk reduction funding processes.   Reduction System in the Greater New Orleans           USAAA evaluated if the Army established an

56 SEMIANNUAL REPORT TO THE CONGRESS
oversight structure and processes to manage          information officer and operational security
and monitor application migrations effectively.      guidance. Per DoD guidance, the Army has
The four base realignment-affected Army              actively embraced social media tools, and
activities reviewed were conducting portfolio        external official presence sites grew to over 1,000
reviews to migrate their applications. However,      sites by October 2010. However, since most social
actual migrations took significantly longer than     media tools are operated on public domains that
projected, resulting in activities having to apply   are not owned, operated or controlled by the
additional resources to migrate applications.        federal government, they present a multitude
The activities began planning to migrate their       of security risks. Although the use of social
applications in FY 2008; however, to date, two of    media has become entrenched in public affairs
the four have completed only portions of these       programs for many commands, the Army has
                                                                                                                    “USAAA evaluated
migrations. This happened because:                   not clearly defined the roles, responsibilities
•	 Activities initially lacked a single authority    and relationships of the four primary offices                   whether the Army
     for enforcement.                                tasked with managing how social media sites are           established an oversight
•	 Activities had limited visibility of their        operated and reviewed. Army guidance related              structure and processes
     applications on the network.                    to using these sites is spread among multiple             to manage and monitor
•	 Most applications required information            documents, and the level of operational security
                                                                                                                application migrations
     assurance approvals and certifications.         training provided to external official presence
•	 Application owners reported inaccurate            maintainers is inconsistent. Although the risk of                     effectively. ”
     information.                                    information spillage through interactive social
In February 2010, the Office of Management and       media websites is high, USAAA did not find
Budget mandated that all federal activities pursue   any operations security violations. However, it
data center consolidation. In response, the Army     did identify some required informational items
submitted an Army Data Center Consolidation          that were missing. USAAA also found a few
Plan in August 2010, which highlighted plans to      minor instances in which potential personally
consolidate 75 percent of its approximately 250      identifiable information was placed on a site.
data centers, making application migration an        Based on the discussions with the Office of the
Army-wide initiative. To ensure the success of the   Chief, Public Affairs, throughout the audit,
consolidation plan, USAAA recommended that           the office formally developed and published a
the Office of the Chief Information Officer/G-6      standard operating procedure for external official
provide guidance to Army activities that clearly     presence sites in January 2011. The document
articulates participant roles and responsibilities   is a valuable tool to help the Army manage its
in the data center consolidation process.            social media program. However, further actions
Although the Office of the Chief Information         are needed to improve how external official
Officer/G-6’s consolidation plan team developed      presence sites are established, maintained and
draft guidance, convened multiple working            reviewed.
groups and engaged potential enterprise-             Report A-2011-0150-IET
hosting organizations, no guidance or policy
has been published. The Office of the Chief          Internet Protocol Version 6, Chief Information
Information Officer/G-6 also needs visibility        Officer/G-6
over the Army’s applications and its information     Though widely used today, Internet protocol
assurance posture to estimate closure timelines      version 4 cannot accommodate the growing
and resources realistically and to better secure     number of global users and devices that connect
information technology assets.                       to the Internet. As a result, Internet protocol
Report A-2011-0143-IET                               version 6 was developed to increase available
                                                     Internet protocol address space. The transition
The Army’s Use of Social Media, External Official    to Internet protocol version 6 began DoD-wide
Presence Sites                                       in 2003, but interest waned after 2008 due to the
USAAA evaluated if the Army’s external official      lack of vendor products and approved security
presence sites were reviewed to ensure they          devices, concerns over warfighter support, and
operated within the tenets of established chief      competing priorities. Internet protocol version

                                                                                                       APRIL 1, 2011 TO SEPTEMBER 30, 2011 57
Services



                                        6 became a priority in September 2010 when         its contractors. Only about 25 percent of the
                                        the Office of Management and Budget released       contractors USAAA reviewed had the necessary
                                        a memorandum mandating that government             certifications. USAAA focused on the key
                                        agencies upgrade public and external-facing        elements causing noncompliance. Specifically,
                                        servers and services to the new version by         it reviewed the clarity of guidance, the contract
                                        the end of FY 2012 and their internal client       language and processes to get requirements
                                        applications by the end of FY 2014. USAAA          into contracts, and the oversight of contractor
                                        audited the Army’s readiness to transition to      compliance. USAAA found that:
                                        Internet protocol version 6. The Army has taken    •	 Army guidance was not clear on the
                                        steps toward upgrading the LandWarNet to                timeframe for getting certifications,
                                        support the use of Internet protocol version 6.         computing environment certifications and
                                        Specifically, DoD and Army policies, in place           appointment letters.
                                        since 2003, require that all hardware, software,   •	 Contracts did not include all the critical
                                        and systems purchased or developed be Internet          information assurance requirements.
                                        protocol version 6-capable. However, although      •	 There was little coordination between the
                                        the Army can operate in a dual Internet protocol        contracting officer’s representative and
                                        version 4 and version 6 environment for the             information assurance staff.
                                        foreseeable future, it is not fully prepared       There were also issues with the Army
                                        to transition to Internet protocol version 6       certification tracking system that contributed to
                                        technology. To ensure the LandWarNet can           it capturing incorrect and incomplete data. As
                                        support Internet protocol version 6, the Army      a result, organizations were not implementing
                                        must:                                              information assurance requirements consistently
                                        •	 Implement and enforce controls to make          or meeting the intent of DoD and HQDA’s
                                             sure systems are built to support Internet    guidance. This left networks at risk. Additionally,
                                             protocol version 6 standards.                 the Army could potentially pay $3.5 million
                                        •	 Develop and publish a transition and/or         to get contractors already in the information
                                             implementation plan.                          assurance workforce certified.
                                        •	 Gain visibility of all Internet protocol-       Report A-2011-0147-IET
                                             reliant systems and architecture.
                                        •	 Develop an address, allocation and              Army Traffic Safety Training Program, U.S.
                                             assignment plan for Internet protocol         Army Installation Management Command
                                             version 6.                                    To reinforce positive driving behavior,
                                        •	 Develop and incorporate a training program      individual responsibility and correct response
                                             to ensure that soldiers and civilians are     in driving situations, the Army established the
                                             trained to support Army networks and the      Army Traffic Safety Training Program. Between
                                             transition.                                   September 2006 and December 2010, U.S. Army
                                        Until these steps are taken, the Army cannot       Installation Management Command awarded
USAAA conducted a review of the         transition to using Internet protocol version      three contracts for a total cost of $62.7 million.
Army Traffic Safety Training Program.   6 technology in the near term and currently        The contracts offered driver-safety training
                                        cannot identify the level of resources, time and   which met DoD requirements and the intent
                                        effort required to transition.                     of the program to reduce the risk of death or
                                        Report A-2011-0149-IET                             injury. The contracts also included supplemental
                                                                                           training, which fostered a more robust,
                                        Information Assurance Certification for            comprehensive curriculum. At the request
                                        Contractor, Office of the Chief Information        of the Executive director, U.S. Installation
                                        Officer/G-6                                        Management Command, USAAA evaluated
                                        USAAA audited the Army’s implementation of         whether Installation Management Command
                                        information assurance certification requirements   administered the Army Traffic Safety Training
                                        for contractors. USAAA concluded that the          Program properly and cost-effectively to meet
                                        Army was not fully complying with guidance         established goals. USAAA identified training
                                        on information assurance certification for         provided that was not approved at the time of

58 SEMIANNUAL REPORT TO THE CONGRESS
acquisition, which resulted in cost increases. In    commercial and industrial sites and public
addition, USAAA determined that contracting          access park space. At the request of the assistant
personnel did not exercise diligence in their        chief of staff for installation management,
requirements determination process while             USAAA reviewed the financial statements and
contracting for services and had insufficient        environmental services invoices to determine
oversight during contract administration. As         whether the Oakland Redevelopment Agency
a result, Installation Management Command            properly reinvested proceeds and adhered to the
continued to acquire training services in a costly   terms of the environmental services cooperative
manner, overstate training needs and spend           agreement. It reported that the agency properly
funds for unapproved or unused training. By          reinvested proceeds and met the terms of the
aligning contract requirements with DoD and          cooperative agreement. Now that its seven-year
Army guidance and establishing reasonable            reinvestment period has concluded, USAAA
levels of training, USAAA identified where           made recommendations that the redevelopment
the Army can avoid $41.3 million in contract         agency submit audited adjusted closeout
costs over the next six years. During the audit,     financial statements to the Army. USAAA also
USAAA presented Installation Management              made recommendations so the redevelopment
Command with inconsistencies determined              agency can achieve regulatory closure in a timely
in the performance work statement of the             manner. The agency must achieve regulatory
ongoing solicitation, most of which had carried      closure from the California Department of
over from previous contracts. Installation           Toxic Substances Control for the 7 Remedial
Management Command immediately halted                Action Plan and 190 Risk Management Plan
the solicitation and, along with the director of     sites identified for environmental cleanup. The
Army safety, began taking corrective action to       agency has received regulatory closure for 5 of
change the program curriculum and restructure        7 Remedial Action Plan sites, while 62 of 190
the requirements to reflect its focus on a more      Risk Management Plan sites are completed and
cost-effective culture.                              awaiting inspection and approval.
Report A-2011-0158-IEO                               Report A-2011-0134-IEO

No-Cost Economic Development Conveyance,
Oakland Redevelopment Agency
The Oakland Army Base, about 425 acres, served       ARMy CRIMINAL                                                   “Army CID has over
                                                                                                                   500 agents and other
as a cargo distribution port and maintenance
facility for locomotives, trucks and equipment       INvESTIGATION                                                   personnel forward-
                                                                                                                 deployed in support of
for nearly 60 years until its closure under the
Base Realignment and Closure program on              COMMANd                                                        ongoing contingency
September 30, 1999. The Army has performed                                                                         operations in Kuwait,
environmental evaluations and select remedial        Initiatives, Operations and                                 Iraq and Afghanistan.”
actions at the base since 1989 to include            Programs
removing above- and below-ground petroleum           The U.S. Army Criminal Investigation Command
storage tanks, mitigating potential asbestos         is a combat-ready organization dedicated to
hazards, and replacing transformers containing       providing the Army critical investigative support,
polychlorinated biphenyls. In 2003, the Army         actionable criminal intelligence, logistics security
transferred the former Oakland Army Base to          and protective services to senior DoD personnel
the Oakland Base Reuse Authority (and, later,        around the globe. Army CID has over 500
its successor, the Oakland Redevelopment             agents and other personnel forward-deployed
Agency). The redevelopment agency had 7 years        in support of ongoing contingency operations
to reinvest proceeds earned on the property for      in Kuwait, Iraq and Afghanistan. This support
economic redevelopment. The redevelopment            extends beyond normal criminal investigations
agency’s original plan for the property called       and includes logistics security operations;
for development by the Port of Oakland for           training host nation law enforcement personnel;
increased cargo and rail capacity, a variety of      detainee investigations; and the use of forensic

                                                                                                        APRIL 1, 2011 TO SEPTEMBER 30, 2011 59
Services



                                         sciences and criminal investigative techniques        to reduce or prevent future deaths.
                                         to assist combatant commanders to identify,
                                         target, capture, deter or prosecute insurgents        Protective Services Battalion
                                         and criminal elements that pose a threat to U.S.      Since April 2011, Army CID conducted 10
                                         forces.                                               Operation Enduring Freedom and seven
                                                                                               Operation New Dawn travel missions, 67
                                         Since April 1, 2011, Army CID generated               travel missions outside the continental United
                                         4,248 new reports of investigation and 3,301          States, 119 continental United States missions
                                         investigative sequence actions. In spite of the       (excluding the daily protection of principals
                                         demanding case load, a solve rate of 98 percent       within the National Capital Region), and
                                         for drug crimes, 90 percent for violent crimes, 90    9 visiting foreign counterpart missions for
                                         percent for economic crimes and 95 percent for        ministers, chiefs of defense and Army chief of
                                         miscellaneous crimes was maintained. The solve        staff equivalents within the National Capitol
                                         rate for general crimes was 49 percent, compared      Region and throughout the continental United
                                         to the national average of 15 percent. During         States. Army CID is also providing temporary
                                         the reporting period, Army CID generated              protective support to the former secretary of
                                         more than $39.5 million in recoveries and cost        defense, the Honorable Robert Gates, and will
                                         avoidance.                                            begin providing temporary protective support
                                                                                               to the chairman of the Joint Chiefs of Staff,
                                         Army CID placed significant emphasis on its           Adm. Michael Mullen upon his retirement.
                                         conduct of sexual assault and death investigations    Additionally, Army CID was tasked to provide
                                         to help meet the intent of DoD and Department         a security advisor for Medal of Honor recipient
                                         of the Army leadership in reducing the number         Sgt. 1st Class Leroy Petry and his headquarters
                                         of sexual assaults and suicides that affect the       Army public affairs team.
                                         Army community. To improve the quality
                                         of sexual assault investigations and increase         Army CID conducted full-spectrum threat
                                         efforts to hold offenders accountable for their       assessments for each personal security
                                         actions, Army CID continued to hire additional        vulnerability assessment and every low, medium
                                         dedicated sexual assault investigators and            or high-risk travel mission, incorporating
                                         formed special victims units.                         terrorist and criminal threat data into a
                                                                                               comprehensive risk analysis program. Army
                                         During the reporting period, Army CID initiated       CID continued deploying special agents to
                                         over 351 death investigations (homicides,             Afghanistan, Iraq and Kuwait to lead protective
                                         suicides, accidental deaths and natural deaths)       services details for senior U.S. combat
                                         affecting the Army community around the               commanders, including the current commanders
                                         world, to include combat zones. Army CID is           of U.S. Forces-Iraq, Combined Security
                                         playing a vital role in support of the Army efforts   Transition        Command-Afghanistan/NATO
                                         to understand the reasons behind the increase         Training Mission-Afghanistan and Combined
                                         in Army suicides by collecting demographic            Joint Task Force-1st Calvary-Afghanistan, and a
Army CID is aggressively investigating   and incident data. The increasingly technical         special agent is currently training with the 82nd
intrusions and malicious activities.     nature of death investigations has prompted           Airborne Division for its upcoming deployment
                                         Army CID to implement policies emphasizing            to Afghanistan.
                                         a multidisciplinary and multiagency approach
                                         to investigating all deaths. Additionally, Army       Computer Crime
                                         CID has invested significant financial resources      Army CID is aggressively investigating intrusions
                                         to ensure its agents have the latest investigative    and related malicious activities targeting Army
                                         equipment available to solve crimes. These            computer networks. Increased emphasis on
                                         efforts are aimed at improving the quality of         insider threats came to the forefront with its
                                         death investigations, bringing justice to the         lead role in DoD cyber espionage investigation
                                         victims, and providing Army leaders critical          into the largest disclosure of classified material
                                         information so they can take proactive measures       in U.S. history, allegedly perpetrated by an Army

60 SEMIANNUAL REPORT TO THE CONGRESS
intelligence analyst in Iraq. In continuing its      began the first steps toward bringing disparate
partnership with the Army chief information          forensic laboratories in the expeditionary
officer, Army CID conducted proactive                environment under one consolidated structure.
vulnerability assessments of the LandWarNet          These Joint Expeditionary Forensic Facilities
that produced noteworthy and quantifiable            will combine the capabilities of the existing Joint
successes. This proactive crime prevention           Expeditionary Forensic Facilities labs with those
effort, part of Army CID’s multifaceted Virtual      of the current Combined Explosive Exploitation
Community Policing campaign, identified              Cell labs to realize economy of scale and
and remediated vulnerabilities before cyber          streamline forensic support for the combatant
criminals or other adversaries could access and      commander. During the first half of calendar
damage Army systems, steal or alter sensitive        year 2011, USACIL made significant strides
information or disrupt network operations            toward assuming responsibility for the Joint
and other critical military actions. During this     Expeditionary Forensic Facilities operations
reporting period, the vulnerability assessment       within the Afghanistan theater of operations. The
program identified $7.4 million in cost avoidance    Joint Expeditionary Forensic Facilities program
to the Army. After the mandatory remediation         transformed from one supported by contracted
of these vulnerabilities, no computer network        personnel through the U.S. Navy to one manned
compromises occurred at assessed installations       by Department of the Army civilians hired,
for this period.                                     trained and managed by USACIL. In July
                                                     2011, USACIL completed its first-ever forensic
Major Procurement Fraud                              training academy, graduating 21 latent print,
Army CID continues to combat fraud and               deoxyribonucleic acid and firearms forensic
corruption related to contingency operations.        examiners. These 21 examiners, with 20 other
The global mission of this unit is to conduct        USACIL examiners, deployed in September
criminal investigations into allegations of fraud    2011 to become the backbone of the entire Joint
associated with major Army system acquisition        Expeditionary Forensic Facilities program in the
programs to recover Army funds, ensure the           Afghanistan theater.
integrity of the Army procurement process,
and deter future crimes in order to preserve         Forensic laboratory analysis support to the               DoD Directive 5205.15E established the
soldier safety and Army readiness. Allegations       warfighter provided usable intelligence linking           Defense Forensic Enterprise.
of fraud affecting contracting operations in         physical evidence of criminal or insurgent
contingency environments throughout the              activity to the individuals responsible in the
world are investigated. Currently five forward       same manner as traditional crime lab work
operating investigative offices in Afghanistan,      links criminals to their actions. The forward-
Kuwait and Iraq are focusing on contingency          deployed labs pushed the envelope to deliver
fund contractual fraud involving overseas            timely results so the intelligence provided
contingency operations in support to the various     was contemporaneous and actionable. The
military operations under Operation Enduring         laboratory located at Kandahar Airfield,
Freedom and Operation New Dawn. Since April          Afghanistan, experienced a significant increase
2011, 198 reports of investigation were initiated,   in forensic case load in support of the U.S. and
with total recoveries approximating $264             coalition forces. From January 1 through July
million and an additional $330,000 identified as     31, 2011, that lab processed over 1,260 cases,
cost avoidance. Specific to overseas contingency     a 55 percent increase in monthly submissions
operations, Army CID initiated 68 reports of         over the previous six-month period. Examiners
investigation and realized over $2.7 million in      also managed to stay in front of the workload.
fines and restitutions.                              As of August 1, 2011, the number of pending
                                                     cases at the lab was 108, and of those 108, only
U.S. Army Criminal Investigative Laboratory          5 cases were open for longer than 30 days—an
On April 26, 2011, the deputy secretary of defense   amazing feat and a testament to the diligence of
signed DoD Directive 5205.15E, establishing          the examiners.
the Defense Forensic Enterprise, and USACIL

                                                                                                       APRIL 1, 2011 TO SEPTEMBER 30, 2011 61
Services



                                     The Joint Expeditionary Forensic Facilities          USACIL’s Combined DNA Index System had
                                     at Kandahar processed over 25,000 items of           hits, or confirmed matches, from its convicted
                                     evidence since January 2011. Latent print            offender/military arrestee database in 25
                                     examiners examined 18,123 items and 2,064            unknown offender military/civilian cases. In
                                     exhibits and developed 667 suitable latent prints,   March 2011, DoD initiated DNA sample
                                     421 of which were identified. Firearms examiners     collection from non-U.S. detainees, closing a
                                     examined 5,894 items and 429 exhibits,               significant DNA gap. USACIL’s processing of
                                     conducted 6,698 microscopic examinations and         the detainee samples enables their DNA profiles
Army CID firearms examiners exam-    made 14,000 positive conclusions. The DNA            to be uploaded to the National DNA Index
ined 5,894 items and 429 exhibits.   examiners received 1,597 exhibits and 2,296          System. The result of this process is that searches
                                     items and extracted 471 DNA profiles that were       of detainee profiles are enabled throughout the
                                     submitted to the database for identification,        United States, helping to improve homeland
                                     resulting in hits to 31 known samples.               security.

                                     In addition to providing support to the lab,         DoD Criminal Investigation Task Force
                                     USACIL initiated forensic support to the             Army CID serves as the executive agency for
                                     Combined Explosive Exploitation Cell. It             the DoD Criminal Investigation Task Force,
                                     received 442 “wire twist” cases and processed        which conducts criminal investigations of
                                     122 for latent prints (1 suitable print) and 9 for   suspected terrorists in Guantanamo Bay, Cuba,
                                     DNA (resulting in 2 DNA profiles). USACIL was        and elsewhere. The Criminal Investigation Task
                                     the focal point for coordinating forensic research   Force is staffed with special agents, attorneys,
                                     and development efforts while supporting the         intelligence analysts, linguists and support
                                     development of forensics as an enduring global       personnel working together to remove terrorists
                                     capability. In FY 2011, this program grew to 24      from the battlefield.
                                     projects valued at over $15 million.
                                                                                          The Criminal Investigation Task Force personnel
                                     USACIL also coordinated several educational          at the U.S. Naval Station at Guantanamo Bay,
                                     initiatives. The first program was a summer          Cuba, continued to work with prosecutors from
                                     intern program involving four military cadets        the DoD Office of Military Commissions and
                                     from the U.S. Air Force Academy. The cadets          spearheaded investigations of 32 detainees slated
                                     assisted forensic examiners in essential research    for prosecution before military commissions and
                                     projects during their summer break. The              38 identified for continued law of war detention.
                                     second program was a fellowship program at           In April and May 2011, six Guantanamo
                                     USACIL in conjunction with the University            detainees, investigated by the Criminal
                                     of Florida, for special agents of the Military       Investigation Task Force, were charged by
                                     Criminal Investigation Organizations. The first      prosecutors. Five were accused of orchestrating
                                     candidate was an U.S. Air Force Office of Special    the September 11, 2001, attacks on the United
                                     Investigations special agent, who will complete      States, and the sixth detainee allegedly headed al-
                                     her master’s degree in forensics while assisting     Qaida operations in the Persian Gulf region and
                                     USACIL with research projects.                       was believed to be a key architect and planner of
                                                                                          the October 2000 USS Cole bombing in Yemen.
                                     During this reporting period, USACIL’s in-
                                     house software for DNA analysis was patented         An Army CID agent assigned to the Criminal
                                     as a commercial product. USACIL’s DNA                Investigation Task Force since it was established
                                     analysis and mixture deconvolution software          in 2002 and a lawyer with the DoD Office of
                                     brought major benefits to the forensic DNA           Military Commissions were selected to sign
                                     community, including a significant time savings      the charge sheets against the suspects during a
                                     for case interpretations and reporting, less         historic ceremony on May 31, 2011, in Virginia.
                                     chance for errors, and increased confidence          The detainees, at Guantanamo since 2006, were
                                     in deconvoluting two and three-person DNA            charged with eight offenses: murder in violation
                                     mixtures.                                            of the law of war, conspiracy, attacking civilians,

62 SEMIANNUAL REPORT TO THE CONGRESS
attacking civilian objects, hijacking aircraft,      and shot him. The sergeant again fled the area.
terrorism, intentionally causing serious bodily      During his interview with Criminal Investigation
injury, and destruction of property in violation     Command, the sergeant admitted to attempting
of the law of war. Prosecutors recommended           to kill the Military Police patrolman when he
charges be referred as a capital case, meaning       stabbed him.
they could seek the death penalty if the suspects    Results: On June 30, 2011, staff sergeant was
are convicted.                                       found guilty by general courts-martial of
                                                     attempted murder (UCMJ Article 118) and was
The sixth detainee was charged in April 2011         sentenced to 10 years confinement, reduced in
with murder in violation of the law of war;          grade and dishonorably discharged.
attempted murder in violation of the law of
war; conspiracy to commit terrorism; murder in       Murder
violation of the law of war; attacking civilians;    Overview: An Army CID joint investigation
attacking civilian objects; intentionally causing    with the FBI revealed former Pfc. Christopher A.
serious bodily injury; hazarding a vessel; using     Wilaby became involved in an altercation with
treachery or perfidy; and other violations of the    the victim, a military spouse, and strangled her
laws of war. The charges claim this detainee also    to death on August 11, 2005. Mr. Wilaby then
planned the attempted January 3, 2000, attack        placed the victim’s body into the trunk of a car
on the USS The Sullivans in the same Yemeni          and drove onto U.S. Army Garrison, Fort Riley,
harbor and an attack on a French oil tanker in       Kan., and with the vehicle in neutral, pushed             Army CID conducted a joint murder
the Gulf of Aden on October 6, 2002, the MV          it into Moon Lake. The day before the murder,             investigation at Moon Lake.
Limburg, killing one person.                         Pfc. Wilaby was separated from the Army with a
                                                     discharge in lieu of court-martial for writing bad
Significant Investigative Cases                      checks and adultery with the victim. The vehicle
                                                     remained submerged until April 15, 2010,
Sergeant Murders Two in Iraq                         when the Department of Public Works partially
Overview: An Army CID investigation                  drained the lake to perform maintenance. A
revealed that on September 14, 2008, Sgt.            civilian police dive team was called to the scene
Joseph C. Bozicevich, a team leader, shot both       and confirmed that there were remains in the
a staff sergeant who was the squad leader and a      vehicle.
sergeant, also a team leader, while deployed to      Results: On May 19, 2011, in the District Court
patrol base Jurf in Iskandariyah, Iraq.              of Geary County, Kan., Christopher Wilaby
Results: Sgt. Joseph Bozicevich was tried by         plead guilty to murder in the second degree
general courts-martial and found guilty of           (intentional) under Kansas Statutes Annotated
premeditated murder (UCMJ Article 118). On           21-3402(a) and was sentenced to 13 years
August 10, 2011, he was sentenced to life without    confinement and three years supervised release
parole, reduced in rank to private, ordered to       and was ordered to pay restitution of $2,547
forfeit all pay and allowances and dishonorably      to the Crime Victims Compensation Board of
discharged.                                          Topeka.

Attempted Murder of a Patrolman                      Sexual Assault of a Child
Overview: An Army CID investigation revealed         Overview: Investigation determined an Army
that on December 21, 2010, when a Military           specialist engaged in sexual intercourse with
Police patrolman on U.S. Army Garrison, Fort         a child and a woman not his wife. A search
Campbell, Ky., got out of his patrol car to assist   of his personal computers and electronic
an Army staff sergeant, he was stabbed numerous      storage devices revealed child pornography.
times with a knife by the sergeant. When the         Investigation also revealed the soldier tried
sergeant fled the area, the patrolman began          to impede the investigation by wrongfully
foot pursuit until he collapsed. Having seen the     influencing his wife to dissuade the woman from
patrolman fall, the sergeant returned, at which      cooperating with law enforcement.
time the patrolman pulled his duty weapon            Results: At general courts-martial, the soldier

                                                                                                      APRIL 1, 2011 TO SEPTEMBER 30, 2011 63
Services



                                    plead guilty of aggravated sexual assault of          program, matters relating to the ongoing
                                    a child (UCMJ Article 120); Obstruction of            relocation of Marine Corps forces and their
                                    justice, Tampering with a witness (UCMJ Article       families to Guam, and more. The audit of Marine
                                    134); possession of child pornography (UCMJ           Corps equipment accountability identified
                                    Article 134); and willfully disobeying a superior     an opportunity for the Marine Corps to put
                                    commissioned officer (UMCJ Article 90). He            approximately $4 million to other use by limiting
                                    was sentenced on May 16, 2011, to 6.5 years           the purchase of some assets to those necessary
                                    confinement, reduced in rank, received a bad          to meet its FY 2012 objective. The assist reports
                                    conduct discharge and must register as a sex          for the Naval Criminal Investigative Service
                                    offender for life.                                    have identified approximately $1.4 million
                                                                                          in potential fraud to date. NAVAUDSVC will
                                    Aggravated Sexual Assault                             continue to work with senior Navy and Marine
                                    Overview: Investigation revealed on December          Corps officials to provide them with an expert
                                    1, 2010, an Army specialist, drinking alcoholic       and impartial assessment of critical DoN issues,
                                    beverages with peers and acquaintances at an          risks and opportunities.
                                    off-post establishment for several hours, invited
                                    several members of the party to his apartment.        Joint Warfighting and
                                    The victim, also under the influence of alcohol,
                                    arrived with several people and continued to          Readiness
                                    drink to intoxication. The victim lay on the floor
                                    and was then carried into the soldier’s bedroom       Marine Corps Equipment Accountability
                                    by himself and his roommate. Minutes later, she       The audit objectives were to verify that
                                    awoke to the soldier performing a sexual act and      Marine Corps equipment was being efficiently
                                    escaped the bedroom. A friend then escorted her       and effectively managed and to ensure that
                                    to the apartment’s security desk, and emergency       units in the field were accurately accounting
                                    services were notified.                               for the equipment they had been assigned.
                                    Results: On July 15, 2011, at general courts-         NAVAUDSVC found that the Marine Corps
                                    martial, the specialist was found guilty of           total life-cycle management process (defined
                                    aggravated sexual assault (UCMJ Article 120).         as asset management of principle end items
                                    He was sentenced to six years confinement,            throughout their service life, from acquisition
                                    reduced in rank and received a dishonorable           through disposal) needed improvement.
                                    discharge. The soldier must register as a sex         Specifically, NAVAUDSVC found that not all
                                    offender for life.                                    assets purchased could be accounted for and that
                                                                                          purchases of some assets in excess of the approved
                                                                                          acquisition objective were made. NAVAUDSVC
                                    Naval Audit Service
Navy
                                                                                          believes that this occurred because (1) Marine
                                    The Naval Audit Service’s mission is to provide       Corps Systems Command program managers
                                    independent and objective audit services to assist    did not review authoritative systems in order
                                    Department of the Navy leadership in assessing        to determine on-hand quantities at the unit
                                    risk to improve efficiency, accountability and        level prior to making purchases, and operating
                                    program effectiveness. Each year, NAVAUDSVC           units were not disposing of excess equipment
                                    works with senior DoN officials to develop a          (defined as quantities on-hand above the
                                    risk-based annual audit plan addressing critical      approved acquisition objective), as required; (2)
                                    areas officials feel merit additional oversight. In   there was limited formal coordination among,
                                    the past six months, NAVAUDSVC audits have            and oversight of, the multiple commands that
                                    addressed a number of important Navy and              participated in the total life-cycle management
                                    Marine Corps issues, such as responsiveness to        process; and (3) the Marine Corps did not have
                                    phone calls made to DoN sexual-assault-related        “cradle to grave” (purchase through disposal)
                                    phone numbers, acquisition controls, protection       accountability for all assets. Management
                                    of    personally      identifiable    information,    concurred with the nine recommendations and
NAVAUDSVC audited Marine Corps
Equipment Accountability process.   management of the civilian drug-free workplace        the $4 million in funds potentially available for

64 SEMIANNUAL REPORT TO THE CONGRESS
other use.                                          risk of inappropriate access to, or use of, DoN               “The audit objective
Report 2011-0055                                    information by the Navy Marine Corps Intranet              was to verify that Navy
                                                    prime contractor and subcontractors. Although
                                                    NAVAUDSVC did not identify any systemic
                                                                                                                   Reservists and their
Acquisition Processes and                                                                                         family members are
                                                    conditions related to contractor noncompliance
Contract Management                                 with applicable guidance, NAVAUDSVC found                   receiving medical ser-
                                                    that the Navy Marine Corps Intranet Program               vices in an efficient and
Award-Fee Contracts at Naval Facilities             Management Office had not established an
Engineering Command                                                                                                 effective manner.”
                                                    oversight mechanism to perform periodic
The audit objectives were to verify that            inspections to ensure that the prime contractor
contracting practices for the Naval Facilities      and its subcontractors were complying with
Engineering Command were effectively and            DoN security and information technology access
efficiently managed in accordance with laws         policy for its employees. This type of oversight is
and regulations and that internal controls          important to ensure that contractors, who need
were effective to ensure that the Department        security clearances or information technology
of the Navy received services for which it paid.    access to complete their job, only hire people
NAVAUDSVC found that the Naval Facilities           who possess the proper credentials.
Engineering Command had developed award-            Report N2011-0038
fee plans for contracts as required by Federal
Acquisition Regulation 16.4 and Defense Federal
Acquisition Regulation 216.4. NAVAUDSVC             Health Care
determined this by examining contractor
performance       evaluations;     performance      Navy Reserve Component’s Access to Military
monitoring reports; fee determining official        Medical Services
letters; and award fee evaluation documents,        The audit objective was to verify that Navy
which serve to document the award-fee               Reservists and their family members are
process. NAVAUDSVC found that Naval                 receiving medical services in an efficient and
Facilities Engineering Command sufficiently         effective manner. NAVAUDSVC found that
documented the award-fee process. However,          access to military medical services has not
the management control over their award-fee         placed Navy Reserve sailors at a disadvantage.
evaluation and determination process needed to      Although NAVAUDSVC found that the ability
be strengthened by updating the Naval Facilities    to schedule and complete the annual, mandatory
Engineering Command Award Fee Desk Guide.           periodic health assessment and dental exams is
Report N2011-0054                                   sometimes difficult to accommodate for the
                                                    Navy Selected Reservist, there was no evidence
                                                    that this affected operational support or impeded
Information Assurance,                              readiness. NAVAUDSVC also found that Navy
Security and Privacy                                Selected Reservists were receiving the medical
                                                    services to which they were entitled. Further,
Controls Over Navy Marine Corps Intranet            the FY 2010 National Defense Authorization
Contractors and Subcontractors Accessing            Act extended the amount of time that Selected
Department of the Navy Information                  Reservists can access military medical services
The audit objectives were to verify that internal   up to 180 days prior to mobilization. Since
controls over Navy Marine Corps Intranet            no material weaknesses were identified
contractors and subcontractors reduce the risk      during the audit, this report does not contain
of inappropriate access to, or use of, Department   recommendations.
of the Navy information to a level acceptable       Report N2011-0044
to DoN leadership and that appropriate
remedial actions are taken when information         Department of the Navy Civilian Drug-Free
security is breached. NAVAUDSVC found               Workplace Program – Discipline
that DoN internal controls were not adequate        The audit objective was to verify that the
and improvements would help reduce the              Department of the Navy Civilian Drug-Free

                                                                                                      APRIL 1, 2011 TO SEPTEMBER 30, 2011 65
Services



                                Workplace Program was effectively managed and           that required completion of a Post-Deployment
                                efficiently operating to best achieve its intended      Health Assessment. Sailors did not have the
                                purpose to deter and detect illegal drug use.           PDHRA completed and certified on time for a
                                DoN did not have reasonable assurance that the          number of reasons. For example, deployment
                                Drug-Free Workplace Program was operating in            health center representatives and personnel
                                a manner that would best achieve its intended           responsible for the sailors’ screening told us that
                                purpose of deterring and detecting illegal drug         the PDHRAs often were not taken within the
                                use. This occurred because DoN commands did             required time frame due to: (1) conflicts with
                                not always comply with DoN Office of Civilian           training/work requirements, (2) deployment
                                Human Resources Headquarters policy on                  and subsequent deployment preparations, and
                                removal of offenders, and DoN policy did not            (3) permanent change of station moves. Also,
                                comply with Department of Defense policy on             personnel responsible for ensuring sailors
                                mandatory initiation of removal from federal            complete the PDHRA informed us that they did
                                service after a second finding. In addition, DoN        not always have visibility of the PDHRA status
“DoN is at risk of              did not sufficiently track drug test results, or        of sailors who transferred to them during the
retaining or rehiring           effectively measure and monitor the Drug-Free           90 180 day period following their most recent
                                Workplace Program. Further, the flexibility in          return from deployment. Finally, sailors did not
employees who have              disciplinary action afforded by program and             always know they were required to complete a
tested positive for il-         higher-level guidance may also be impacting             PDHRA. As a result, sailors who did not take
legal drugs.”                   the program’s effectiveness. Specifically,              the PDHRA in accordance with the assistant
                                NAVAUDSVC found that existing guidance                  secretary of defense policy may not have had
                                allowed personnel with positive drug test results       their health needs and concerns identified or
                                to avoid disciplinary action, separate from             addressed following deployment. This could
                                employment without the results being recorded           negatively impact readiness, as well as their
                                in their personnel records and receive lesser           personal well-being and that of others.
                                penalties than others. The use of illegal drugs         Report N2011-0061
                                adversely impacts the effectiveness, safety and
                                discipline of the civilian work force. DoN is at        Human Capital
                                risk of retaining or rehiring employees who have
                                tested positive for illegal drugs. It is also putting   Marine Corps Community Services in Okinawa
                                other agencies at risk of hiring employees              The audit objective was to verify that the Marine
                                without knowing they tested positive while              Corps Community Services Okinawa program
                                employed with DoN.                                      complies with applicable guidance and meets
                                Report N2011-0045                                       the commandant’s intent for the quality of life
                                                                                        of Marines, their dependents and Department
                                Post-Deployment Health Reassessment at                  of Defense civilians living and working on
                                the U.S. Navy: Fiscal Years 2008, 2009, and             Okinawa. Business practices of Marine Corps
                                2010 Data Analysis and Future Monitoring                Community Services Okinawa were not fully
                                Recommendations                                         compliant with applicable guidance. Specifically,
                                The audit objective was to verify that DoN is           Marine Corps Community Services Okinawa
                                effectively implementing and managing the Post-         lacked a short- and long-term (5-year) plan and
                                Deployment Health Reassessment Program. A               a performance management plan that contained
                                significant number of sailors (64 percent in FY         performance metrics as required by Marine
                                2008, 53 percent in FY 2009, and 59 percent in          Corps Order P1700.27B. This was due to a lack
                                FY 2010) did not have their PDHRA completed             of sufficient internal controls and processes to
                                and certified within the required time frame.           ensure full compliance with U.S. Marine Corps
                                Assistant Secretary of Defense for Health               guidance. As a result, Marine Corps Community
                                Affairs Policy 05-011, “Post-Deployment Health          Services Okinawa was not able to sufficiently
                                Reassessment,” requires a PDHRA be conducted            evaluate the performance and effectiveness of
                                for all personnel from 90 to 180 days after             their programs and activities. The inability to
                                returning to home station from a deployment             evaluate performance and effectiveness could

 66 SEMIANNUAL REPORT TO THE CONGRESS
lead to weaknesses or the magnitude of existing        NAVAUDSVC found that DoN did not have
weaknesses going undetected and/or persisting          reasonable assurance that it was receiving all
in Marine Corps Community Services Okinawa             required years of obligated service from DoN
programs, such as the Single Marine Program            physicians. This was caused by deficiencies
and childcare.                                         with: (1) the obligated service date computation
Report N2011 0037                                      and review process and (2) Special Pays Office
                                                       recordkeeping practices. Department of Defense
Quality of Life Plans for United States Marine         and chief of Naval operations instructions                     “The audit objectives
Corps Forces Relocating From Okinawa to                govern the length of the active duty obligation              were to verify that the
Guam                                                   incurred, the revised obligated service date,
                                                                                                                        Department of the
The audit objectives were to verify that the           and whether the obligation is to be served
Department of the Navy has developed quality of        consecutively or concurrently with preexisting                  Navy has developed
life plans for U.S. Marine Corps forces relocating     obligations. As a result of the issues noted, out               quality of life plans
from Okinawa, Japan, to Guam that meet                 of a statistical sample of 62 DoN physicians,                 for U.S. Marine Corps
standards and leadership expectations and there        NAVAUDSVC identified 8 with obligated                        forces relocating from
is effective oversight to ensure the quality of life   service date computation errors, 6 of which
                                                                                                                        Okinawa, Japan, to
plans are effectively implemented. The Navy’s          impacted the overall obligated service date and
Joint Guam Program Office was established to           2 that mostly self-corrected. Further, most of                             Guam...”
facilitate, manage and execute requirements            these obligated service date computation errors
associated with the rebasing of Marine Corps           would not have been identified with the current
assets from Okinawa to Guam and other military         Navy Medicine process. From these results,
force enhancements on Guam and throughout              NAVAUDSVC project that the Medical Corps
the Commonwealth of Northern Marianas as               officer population contains at least 50, with
identified by the Army, Navy, Marine Corps and         a best estimate of 109, officers with obligated
Air Force. The NAVAUDSVC determined that               service date computation errors of at least 1 year
Headquarters Marine Corps developed quality            in length. This projection translates to a potential
of life plans for facilities and infrastructure        loss to DoN of 217 years of medical service from
as well as identified the mandatory Marine             highly skilled physicians, assuming these errors
Corps Community Services programs required             are not identified and corrected prior to the
for Marines and their dependents during the            physicians separating from DoN.
relocation to Guam. Implementation plan                Report N2011-0034
details for providing quality of life services had
not been finalized between the Marine Corps            Total Force Manpower Management System
and Joint Region Marianas. Additionally, key           Civilian Requirements
personnel from Navy supporting components              The audit objective was to verify that the Total
on Naval Base Guam (within Joint Region                Force Manpower Management System accurately
Marianas) had not been involved in the planning        reflects civilian requirements and the number of
for providing quality of life services or support      civilian personnel onboard at selected activities.
for the initial buildup of the U.S. Marine Corps       NAVAUDSVC was unable to determine that the
forces in Guam. Oversight of the quality of life       Total Force Manpower Management System
implementation plans was not as effective from         was accurate because tens of thousands of
all levels of commands as expected.                    billet identification numbers in the Total Force
Report N2011-0039                                      Manpower Management System could not be
                                                       reconciled to the Defense Civilian Personnel
Department of the Navy Medical Corps Officer           Data System, and supporting documentation
Contracts                                              did not always exist. NAVAUDSVC found that
The audit objective was to verify that the             all 19 Navy Budget Submitting Offices had
Department of the Navy was executing contracts         discrepancies between Total Force Manpower
for Medical Corps officers in a manner that            Management System civilian requirements and
ensured the proper establishment and fulfillment       DCPDS onboard personnel data. Specifically,
of contractual and military service obligations.       in FY 2008, only 100,564 of 164,040 (61

                                                                                                          APRIL 1, 2011 TO SEPTEMBER 30, 2011 67
Services



                                percent) of onboard employees listed in the         occurred because there was no direct oversight
                                Defense Civilian Personnel Data System could        of funding recipients to ensure that funds
                                be matched by billet identification number to       expended were properly accounted for and
                                Total Force Manpower Management System              supported, required to fulfill the requirements
“NAVAUDSVC reviewed             requirements. The 63,476 or 39 percent of billet    of the DoN Shore Energy Program and used in
                                identification numbers unmatched to Total           accordance with the approved budget. Further,
the internal controls           Force Manpower Management System civilian           these internal control weaknesses occurred
and oversight over ex-          requirements had an estimated value of $5.7         because the oversight roles and responsibilities
ecuting the DoN Shore           billion. NAVAUDSVC updated the FY 2008 data         (including approval authority, how to document
Energy Program budget           with FY 2011 data to determine if the previously    approval received/provided, document retention
and expending geo-              identified condition still existed. NAVAUDSVC       requirements, etc.) were not documented
                                found that not only did the condition still exist   in writing. As a result, the internal control
thermal revenues...”            but it had gotten worse. In FY 2011, only 95,387    environment increased the liability for personnel
                                of 182,049 (52 percent) of onboard employees        with fiduciary responsibility to execute the
                                in the Defense Civilian Personnel Data System       budget of the DoN Shore Energy Program.
                                could be matched by billet identification number    Also, one DoN activity could not accurately
                                to Total Force Manpower Management System           determine the cost of its energy program due to
                                requirements. The 86,662 (48 percent) of billet     the labor hour discrepancies identified and was
                                identification numbers unmatched to Total           at an increased risk to expend funds in excess of
                                Force Manpower Management System civilian           the requirements for its energy program due to
                                requirements had an estimated value of $9           the large amount of overtime worked without
                                billion. Billet identification numbers unmatched    documented justification.
                                to Total Force Manpower Management System           Report N2011-0049
                                could result in erroneous analysis of required
                                civilian manpower to fulfill the Navy’s mission.    Other
                                Report N2011-0043
                                                                                    Verification of Operational Capabilities and
                                Infrastructure and                                  Internal Controls at Joint Region Marianas
                                Environment                                         The audit objective was to ensure that
                                                                                    Department of the Navy, as the executive agent,
                                Internal Controls Over Spending Within the          has established effective operational capabilities
                                Department of the Navy Shore Energy Program         and internal controls at Joint Region Marianas
                                The overall audit objectives were to verify that    in accordance with joint basing practices. Joint
                                the Department of the Navy has effective internal   Region Marianas initiated efforts to provide
                                controls and oversight in place to ensure that      oversight of installation support functions and
                                geothermal revenues are used as intended and        produce results consistent with the joint basing
                                that geothermal contracting procedures provide      objectives; however, the ability to ensure that
                                the greatest benefit to DoN. NAVAUDSVC              installation support functions are efficiently and
                                reviewed the internal controls and oversight        effectively carried out is limited. This is due to
                                over executing the DoN Shore Energy Program         (1) a lack of guidance from higher commands
                                budget and expending geothermal revenues at         regarding implementation of a joint region, (2) the
                                seven DoN activities. NAVAUDSVC concluded           region’s organizational structure and delegation
                                that DoN had effective internal controls and        of authority, (3) difficulty differentiating and
                                oversight in place to ensure that geothermal        separating mission and installation support
                                revenues were used as intended with three           functions, and (4) weaknesses in establishing
                                exceptions: (1) accounting for and supporting       and implementing internal controls. As a result,
                                expenditures, (2) recouping unexpended funds,       the Navy cannot provide full assurance that
                                and (3) obtaining/retaining approvals for           joint basing principles and practices are being
                                changes to approved budget amounts and budget       achieved at Joint Region Marianas.
                                overages. The internal control weaknesses           Report N2011-0029


 68 SEMIANNUAL REPORT TO THE CONGRESS
Responses to Phone Calls Made to Department          accessible data for use in analyzing trends
of the Navy Sexual Assault-Related Phone             and decision making within I and II Marine
Numbers                                              Expeditionary Forces and selected installations
The audit objectives were to (1) verify that the     within Marine Corps bases, Atlantic and Pacific.
Department of the Navy’s initial responses to        The Secretary of the Navy’s memorandum
victim sexual assault complaints are effective,      dated July 6, 2009, details the Department of
efficient and appropriate; (2) verify that the       the Navy’s safety vision for 2009 and beyond.
proper DoN entities are involved in sexual           This memorandum states that mishaps,
assault prevention and response activities, and      hazards and near-miss events must be quickly
their involvement is at an appropriate level of      identified, analyzed and openly communicated,
effort; and (3) identify the resources budgeted      so lessons learned will prevent recurrence. The
and/or expended on sexual assault prevention         NAVAUDSVC identified that Marine Corps
and response and its related activities. During      commands often did not electronically report
the audit, NAVAUDSVC found various                   safety mishaps involving personnel injury or lost
ongoing efforts by the commands to address           work days as required by Department of Defense
the resources, roles and responsibilities of         and Marine Corps guidance. Specifically,
the sexual assault prevention and response           NAVAUDSVC found that for the commands
entities. Therefore, NAVAUDSVC decided not           reviewed, 87 percent of potential mishap-related
to review the resources and entities’ efforts at     injuries occurring in FY 2008 through first
this time. The audit was self initiated to address   quarter FY 2010 were not reported in the Web-
the secretary of the Navy’s goal to reduce the       enabled safety system. This condition occurred
number of sexual assaults in the Navy. To test the   for several reasons: (1) injured personnel and
effectiveness of DoN sexual assault hotlines, the    their supervisors were often unaware of the
audit team made phone calls to sexual assault-       reporting criteria and unclear on what injuries
related phone numbers posted on various DoN          were considered reportable, (2) there were
websites on June 12, 2010. NAVAUDSVC made            multiple mishap reporting data sources, (3)
another series of phone calls in January 2011        unclear guidance and (4) safety responsibilities
using the same method to locate the phone            competed with other priorities. As a result, when
numbers called in June 2010. NAVAUDSVC               personnel mishaps are not accurately reported,
found 52 percent (36 of 69) of auditor-placed        the Marine Corps loses the ability to identify
phone calls to DoN sexual assault-related phone      recurring hazards and is unable to develop
numbers were improperly handled, including           or evaluate mishap prevention strategies to
a significant number that were not answered          minimize future mishaps.
because the number was disconnected or did           Report N2011-0036
not have voice mail. Follow-up 7 months later
found only limited overall improvement across        Ethics Programs at Military Sealift Command
DoN (44 percent were still improperly handled).      Sealift Logistics Commands Atlantic and Pacific
NAVAUDSVC also found that a number of                The audit objective was to verify that the
installation and unit websites did not contain       commands have effective ethics programs in place
sexual assault-related phone numbers. Although       in terms of systems, processes and procedures
this improved from May 2010 (33 of 97, or 34         to reasonably ensure compliance with the
percent, lacked phone numbers) to December           Department of Defense Joint Ethics Regulations
2010 (26 of 137, or 19 percent, lacked phone         5500.7-R and Executive Order 12674, “Principles
numbers), the absence of phone numbers on            of Ethical Conduct for Government Officers and          NAVAUDSVC reviewed Ethics Pro-
websites remains a significant issue.                Employees.” As a result of the scope impairment,        grams at Military Sealift Command.

Report N2011-0031                                    NAVAUDSVC was not able to reach an overall
                                                     conclusion on the effectiveness of the ethics
Reporting of Marine Corps Personnel Mishaps          programs or provide complete assurance that
The overall audit objective was to verify that the   the programs were functioning as intended.
Marine Corps’ current safety mishap reporting        However, for the portions of the ethics programs
processes provide complete, accurate and readily     NAVAUDSVC was able to review, NAVAUDSVC

                                                                                                     APRIL 1, 2011 TO SEPTEMBER 30, 2011 69
Services



                                     determined an effective ethics program was in        a means to spot, assess and identify possible
                                     place. For Calendar Years 2008 and 2009, the         insider threats.
                                     results of NAVAUDSVC’s evaluation of training
                                     documents, policies, and procedures and the          Since its inception in March 2011, the NCIS
                                     comparative analysis performed on the rosters        Text & Web Tip Hot Line has led to 22
                                     of civilian and military personnel showed that       investigations, 4 arrests, the recovery of $3,200
                                     proper controls were in place and efficient          worth of government property, and 21 tips with
                                     processes and procedures related to the ethics       intelligence value.
                                     programs did exist.
                                     Report N2011-0042                                    Advances in Biometrics Collection
                                                                                          Criminals, terrorists and spies can forge and
                                     Test of Department of the Navy Sexual Assault-       change names, addresses, phone numbers,
                                     Related Phone Number                                 identification papers, Social Security cards
                                     The audit objective was to verify that Department    and passports, but they cannot change their
                                     of the Navy sexual assault-related phone numbers     biometric identity. The systematic and consistent
                                     were advertised on DoN installation websites         use of biometrics technology increases the speed
                                     and that initial responses to phone calls made to    and effectiveness of identification. Positive
NCIS utilized handheld biometric     those numbers were timely and appropriate. This      identification is critical to NCIS’ investigative,
Secure Electronic Enrollment Kits.   limited scope audit report provides the results of   tactical and kinetic actions.
                                     NAVAUDSVC’s August 6, 2011, test of sexual
                                     assault-related phone numbers. NAVAUDSVC             The NCIS has acquired 37 handheld biometric
                                     found significant improvement in the number          collection devices known as Secure Electronic
                                     of installations posting sexual assault-related      Enrollment Kits. Secure Electronic Enrollment
                                     phone numbers on their websites. However,            Kits are deployed in support of the warfighters
                                     while the percentage of improperly handled calls     and combating terrorism operations (including
                                     decreased, 25 percent of auditor-placed phone        counter piracy and counter narco-terrorism)
                                     calls to DoN sexual assault-related phone lines      in Afghanistan, Bahrain, the Horn of Africa
                                     were still not handled properly.                     and Singapore. These handheld devices capture
                                     Report N2011-0052                                    fingerprints, iris images and facial biometrics at
                                                                                          field locations; run automated quality checks; and

                                     Naval Criminal
                                                                                          transmit the data to both the DoD Automated
                                                                                          Biometric Identification System and the FBI

                                     Investigative Service
                                                                                          Integrated Automated Fingerprint Identification
                                                                                          System. For example, a NCIS special agent
                                                                                          supporting the multinational counter piracy task
                                     NCIS Establishes Text & Web Tip Hot Line             force in the Northern Arabian Sea biometrically
                                     Recognizing the potential value of person-           enrolled a suspected pirate and was alerted
                                     to-person messaging, NCIS has developed              within an hour of his involvement in a previous
                                     an anonymous Web and text-based reporting            act of piracy.
                                     conduit for service members and civilians to
                                     express concerns without inhibition or fear of       NCIS has deployed 32 live scan digital fingerprint
                                     retaliation. The NCIS Text & Web Tip Hot Line        devices to its field offices located around the
                                     reduces the tipster’s psychological burden of        world. These devices enable the automated
                                     suspicion for reporting a potential threat as well   capture, quality checks, transmission and
                                     as filling the gap between placing an emergency      enrollment of fingerprint data to the Integrated
                                     call and making a formal criminal complaint.         Automated Fingerprint Identification System
                                     Users may text “NCIS” and provide their tip          within minutes. This is a major improvement
                                     information to 274637 (CRIMES). NCIS uses the        over the previous process of sending fingerprint
                                     discreet reporting platform to quickly react to      cards by mail that required weeks for processing.
                                     criminal incidents, gather criminal intelligence,    NCIS is currently implementing high-speed
                                     gain visibility on developing situations, and as     connectivity that enables rapid submission

70 SEMIANNUAL REPORT TO THE CONGRESS
(typically less than 15 minutes) of fingerprint        Although no criminal product substitution
data and Integrated Automated Fingerprint              issues were identified, investigation has led to
Identification System feedback on biometric            significant discussion regarding the installation
matches of stored criminal records. For example,       of window fall-prevention devices. To prevent
biometrics coordination between NCIS, Interpol         additional falls, NCIS met with the safety and
and foreign authorities determined an individual       acquisition leadership of the Naval Facilities
originally identified as a lost fisherman had          Command Headquarters, briefed them on
in fact been previously implicated in an act of        the identified issues, and learned that current
piracy. As a result of this positive identification,   guidelines are not implemented across all
the Belgian government is seeking to extradite         locations and services equally. Specifically, since
the suspected pirate.                                  2006 DoD has required fall-prevention devices
                                                       for all new government-managed homes.
Forensic Technology and Graphics                       However, this requirement does not apply to                 “...NCIS special agent
On June 10, 2011, an NCIS special agent who            Public/Private Venture homes unless specifically                who specializes in
specializes in forensic graphics presented             incorporated into the PPV agreement. In Hawaii,
the method of crime scene panoramic                    Public/Private Venture housing is managed by
                                                                                                                  forensic graphics pre-
photography at the Federal Law Enforcement             two different companies; one incorporates the               sented the method of
Training Center. This rapid technique of scene         window fall-prevention device while the other             crime scene panoramic
documentation allows for portable and high-            does not.                                                      photography at the
resolution communication and briefings in real                                                                     Federal Law Enforce-
time. The panoramic photography technique is           NCIS also briefed the commander, U.S. Navy
an inexpensive way to document crime scenes            Pacific Fleet, who in turned notified the vice
                                                                                                                 ment Training Center.”
and provides a highly technical product that           chief of operations. The commander, Navy
allows the viewer to “walk through” a crime            Installations Command, was promptly tasked
scene. The ability to zoom in assists viewers in       with assembling a standardized fall-prevention
comprehending the overall perspective and the          safety program. This program will establish
relationships of individual items of evidence          standardized policies and procedures that
within the scene. Based on the presentation,           positively affect not just the Department of the
the Federal Law Enforcement Training                   Navy families of Hawaii but the families of the
Center has adopted the NCIS method of rapid            entire Department of Defense.
360-degree crime scene documentation as part
of its standard curriculum in advanced law             Gang Member Sentenced to Six Life Sentences
enforcement photography.                               Plus 163 Years
                                                       Overview: On December 9, 2009, a female
Safety Issues in Military Housing Areas in             sailor reported to the Norfolk, Va., police
Hawaii                                                 department that an unknown assailant broke
In March 2011, NCIS special agents in Hawaii           into her apartment as she slept and raped and
responded to the death of a four-year-old              robbed her. On December 14, 2009, another
dependent that fell from his second-story              female sailor reported to the Norfolk police
bedroom window. The following month,                   department that she drove to an address in the
another four-year-old dependent child fell from        local area to meet a shipmate after receiving
her second-story window. Fortunately, this child       a text message. Two armed men robbed the
did not suffer life-threatening injuries. During       sailor and took her to a hotel room, where one
its investigation, NCIS learned that 15 additional     of the men raped her repeatedly. Norfolk Police
dependent children were identified as having           Department requested NCIS assistance to locate
fallen from second-story windows in the Hawaii         the suspects. Surveillances and tracking of two
Military Family Housing since 2007. The injuries       cell phones used over four days by one of the
sustained included bumps, bruises, a fractured         suspects led to a break in the investigation. One
arm, a collapsed lung, skull fractures and one         suspect, Santiago J. Powell, was identified as a
fatal head injury.                                     “Blood” gang member. The NCIS investigative
                                                       team developed and executed an operational

                                                                                                         APRIL 1, 2011 TO SEPTEMBER 30, 2011 71
Services



                                           plan for taking the suspected gang member into       in restitution for fraud and false statements (18
                                           custody. The second suspect, a juvenile, was later   U.S.C. 1000[a] [2] and [3]). The Department of
                                           identified and taken into custody.                   the Navy, in accordance with Federal Acquisition
                                           Result: The joint investigative efforts of NCIS      Regulation Subpart 9.4, issued a notice of
                                           and the Norfolk Police Department of Virginia        debarment excluding Burks from government
                                           resulted in the suspects’ convictions in Norfolk     contracting for 11 years.
                                           Circuit Court. On January 10, 2011, Santiago
                                           Powell was sentenced to 6 life terms plus 163        25-Year Sentence for Daughter’s Murder
                                           years on 22 felony charges of Virginia State Code    Overview: An NCIS investigation was initiated
                                           abduction with intent to extort money (Section       after a three-year-old toddler was taken to
                                           18.2-48); rape (Section 61); object sexual           the Urgent Care Center at Marine Corps Air
                                           penetration (Section 67.2); armed statutory          Station, Cherry Point, N.C., by her parents and
                                           burglary (Section 90); robbery (Section 58); gang    was later pronounced dead. During an initial
                                           participation (Section 46.2); use of a firearm in    interview with NCIS, the child’s father, a USMC
                                           the commission of a felony (Section 53.1); and       corporal, stated that the injuries occurred when
                                           extortion (Section 59). Powell was also ordered      his daughter slipped and fell down a flight
                                           to pay court costs of $29,098. On May 6, 2011,       of stairs he had just finished mopping. The
                                           the juvenile plead guilty to five felonies and was   autopsy determined that the cause of death was
                                           sentenced to 53 years in prison (with 39 years       nonaccidental head trauma, and the manner
                                           suspended) and 10 years of supervised probation      was homicide. The corporal later admitted to
                                           and was ordered to pay restitution of $2,045.        knocking her down the stairs and voluntarily
                                                                                                reenacted the events leading to his daughter’s
                                           Three Years in Jail Plus 11-Year Debarment for       death, which was videotaped.
                                           Falsifying Submarine Inspections                     Result: On April 26, 2011, the corporal was
                                           Overview: On May 14, 2009, Robert R. Burks,          found guilty at general courts-martial of murder
                                           a nonnuclear, nondestructive test inspector for      (UCMJ Article 118) and false official statements
                                           Northrop Grumman Shipbuilding, Newport               (UCMJ Article 107). He was sentenced to 25
                                           News, Va., admitted to supervisory personnel         years confinement, reduced in rank, forfeited all
                                           that he falsified inspections on Virginia Class      pay and allowances and received a dishonorable
                                           Submarines. Preliminary investigation revealed       discharge.
NCIS investigated inspector for falsify-   that Burks had inspected more than 10,000
ing inspections on Virginia Class Sub.     structural and piping welds since his original       45-Year Sentence for Raping a Child
                                           date of employment with Northrop Grumman             Overview: In April 2010, NCIS was contacted
                                           in May 2005. Interrogations revealed he began        by the Pacific County, Wash., Sheriff ’s Office,
                                           falsifying inspections on various platforms circa    which advised that the 16-year-old stepdaughter
                                           2006. All critical welds that were inspected by      of a U.S. Navy master at arms petty officer first
                                           Burks were on Virginia Class Submarine hulls         class assigned in Bangor, Wash., had reported
                                           still at Northrop Grumman Shipbuilding. Aside        being raped by her stepfather on multiple
                                           from inaccessible welds, Northrop Grumman            occasions during the 2004–2008 time frame
                                           completed a 100 percent re-inspection of all         while stationed in California. The petty officer
                                           accessible pipe and structural joint welds that      was interrogated and denied any sexual contact
                                           were nondestructive test-certified by Burks on       with his stepdaughter but did admit to providing
                                           all affected Virginia Class Submarine and U.S.       alcohol to all of his minor stepchildren.
                                           Navy aircraft carrier platforms. The cost of the     Result: On June 23, 2011, the petty officer was
                                           re-inspection effort was $600,000, and weld          found guilty at general courts-martial of rape of
                                           defects were discovered in several critical ship     a child (UCMJ Article 120) and was sentenced
                                           systems.                                             to 45 years confinement, awarded a dishonorable
                                           Result: On April 12, 2011, in U.S. District Court,   discharge, reduced pay grade and forfeited all
                                           Newport News, Va., Robert Burks was sentenced        pay and allowances. He is required to register as
                                           to 3 years confinement, followed by 3 years          a sex offender upon his release.
                                           supervised release, and ordered to pay $654,000

72 SEMIANNUAL REPORT TO THE CONGRESS
33-Year Sentence for Raping a Child                     March ARB CA with 5 area audit offices at 19
Overview: An NCIS investigation was initiated           Air Force installations and 5 operating locations.
on a USMC gunnery sergeant when he reported
to a Dallas-Fort Worth, Texas, police department        The Support and Personnel Audits Directorate,
that he was having thoughts of suicide and said         headquartered at Randolph Air Force Base,
he had engaged in “inappropriate contact with           Texas, directs audits related to operational
one of his children.” A joint NCIS and Dallas           support, personnel, training, engineering
Police Department investigation determined              support, support services, environmental issues,
the sergeant’s 11-year-old daughter had been            intelligence operations and health care. AFAA/
raped and sodomized by her father while he was          SP also manages the Support and Personnel
assigned to Marine Corps Air Station Iwakuni,           Audits Region, Randolph, Texas, with five
Japan. A medical evaluation revealed the daughter       area audit offices at 14 Air Force installations
was pregnant and subsequently underwent an              and seven additional operating locations. The
abortion. Biological evidence submitted to the          Acquisition and Logistics Audits Directorate,
Armed Forces DNA Identification Laboratory              headquartered at Wright-Patterson AFB,
revealed that, statistically, the sergeant was likely   Ohio, directs audits related to procurement,
the father.                                             maintenance, supply, transportation and weapon
Result: On April 20, 2011, the sergeant was found       systems acquisition. AFAA/QL also manages
guilty at general courts-martial of rape of a child     the Acquisition and Logistics Audits Region
(UCMJ Article 120), sodomy (UCMJ Article                at Wright-Patterson AFB with five area audit
125), witness tampering (UCMJ Article 134)              offices and one additional operating location.
and disobeying a lawful order (UCMJ Article             In the last six months, audit efforts focused on
90). He was sentenced to 33 years confinement,          the following key management challenge areas:
received a dishonorable discharge, was reduced          Joint War Fighting and Readiness; Information
in rank and forfeited all pay and allowances. The       Assurance, Security, and Privacy; Acquisition
sergeant is also required to register as a convicted    Processes and Contract Management; Financial
sex offender following his release.                     Management; and Health Care. These efforts
                                                        have resulted in more than $1 billion in potential

Air Force Audit Agency
                                                        monetary benefits. Following are examples of

The Air Force Audit Agency provides all levels
of Air Force management with independent,
                                                        audit coverage performed by the AFAA related
                                                        to the following DoD management challenge
                                                        areas:
                                                                                                                      Air Force
objective and quality audit services by reviewing
and promoting the economy, effectiveness and            Joint Warfighting and
efficiency of operations; evaluating programs
and activities; assisting management in achieving       Readiness
intended results; and assessing and improving
Air Force fiduciary stewardship and accuracy            Base Drawdown Asset Management
of financial reporting. Organized into three            The transition from Operation Iraqi Freedom
line directorates, the AFAA conducts centrally          to Operation New Dawn in August 2010 ended
directed audits in numerous functional areas            combat missions in Iraq. The resulting mission
that provide support to Air Force senior leaders.       change reduced the number of Air Force
The agency also has audit teams at over 50              personnel and associated logistical support. As of
locations providing audit services to installation      May 2010, support equipment accounts, located
commanders. The Financial and Systems Audits            at four installations in Iraq, consisted of more than
Directorate, headquartered at March Air Reserve         372,000 items valued over $461 million. While
Base, Calif., directs audits related to financial       Air Force logistics personnel properly identified
management, financial support, information              and documented installation items and planned
systems development, communications systems             their related disposition, they did not establish
and system security. AFAA/FS also manages the           adequate plans and procedures for equipment
Financial and Systems Audits Region located at          item management at drawdown installations. As

                                                                                                            APRIL 1, 2011 TO SEPTEMBER 30, 2011 73
Services



                                     a result, logistics personnel did not delete more   potentially avoid the cost of unnecessary repairs
                                     than $19 million in excess authorizations or        for 759 reparable assets with over 223,000
                                     redistribute more than $8 million in unneeded       excess serviceable parts valued at approximately
                                     items. Reducing the excess authorizations and       $76 million. In addition, personnel did not
                                     redistributing unneeded supply items could          properly identify engine critical parts. Proper
                                     save the Air Force approximately $9 million by      identification of engine critical parts is necessary
                                     making the items available to satisfy current Air   for the Air Force to protect its personnel
                                     Force requirements.                                 and weapon systems. Finally, personnel did
                                     Report F2011-0007-FC4000                            not properly maintain engine critical data in
                                                                                         Air Force systems. As a result, procurement
                                     Air Launched Cruise Missile Engine                  personnel extended acquisition lead times,
                                     Maintenance                                         which increased inventory levels. Correction
                                     The Air-to-Ground Missile-86B is a subsonic         of inaccurate data for 2,132 routinely procured
                                     air-launched cruise missile developed to            engine parts would prevent additional Air Force
                                     increase the effectiveness of the B-52H bomber      costs of approximately $86.8 million over 6 years
                                     aircraft. The Williams International F107 turbo     (execution year and the Future Years Defense
                                     fan engine powers the air-launched cruise           Program).
                                     missile for launch at sustained subsonic speeds.    Report F2011-0005-FC2000
AFAA reviewed requirements for the   The Air Force maintains approximately 600
engine overhaul of cruise missile.   F107 engines valued at $144 million in support      Mobilization and Demobilization of Air Reserve
                                     of the air-launched cruise missile. Between FYs     Component Forces
                                     2012 and 2017, the Air Force plans to overhaul      Air Reserve Component mobilization consists
                                     504 F107 engines valued at $18 million. This        of activities necessary to orderly transition
                                     audit determined Air Force personnel did            these forces from peacetime to active duty
                                     not properly calculate annual F107 engine           posture—necessary to support contingencies or
                                     overhaul requirements and did not consider the      national emergencies. Demobilization is the act
                                     remaining life-cycle time of serviceable engines    of releasing mobilized Air Reserve Component
                                     in the Defense Logistics Agency storage facility    members from active duty status and returning
                                     when selecting engines for shipment. As a result,   them to their reserve component home station.
                                     the Air Force could reduce the F107 engine          In FY 2010, over 9,000 Air Reserve Component
                                     overhaul budget by $2.9 million from FYs 2012       members mobilized in support of contingencies
                                     through 2017.                                       around the world at an average enlisted and
                                     Report F2011-0004-FC2000                            officer daily mobilization cost of $240 and
                                                                                         $331, respectively. This audit determined 233
                                     Engine Critical Parts                               (51 percent) of 456 mobilized Air Reserve
                                     Air Force personnel identify engine parts that      Component members reviewed were either
                                     are critical to accomplishing Air Force missions,   mobilized to active duty before needed for
                                     weapon system performance and safety of             deployment or improperly allowed to remain
                                     operating personnel. This identification occurs     on active duty after the deployment requirement
                                     when the parts initially enter the inventory.       ended. Based on statistical projection, auditors
                                     As of August 6, 2009, the Oklahoma City Air         estimated at least 1,099 Air Reserve Component
                                     Logistics Center managed engine critical parts      members were unnecessarily mobilized a
                                     valued at over $7 billion. Air Force personnel      minimum of 8,770 days in FY 2010 at a cost
                                     did not effectively manage the maintenance          of over $2 million. Eliminating unnecessary
                                     of engine critical parts, resulting in the          mobilization days will increase the availability
                                     accumulation of over 20,800 parts in supply that    of Air Reserve Component members for other
                                     are not available to meet mission requirements.     requirements and will reduce contingency
                                     Correcting the issue will allow the Air Force to    operating costs by approximately $1.8 million in
                                     avoid condemning $149 million in accumulated        FY 2012.
                                     reparable parts and improve its ability to meet     Report F2011-0007-FD3000
                                     mission requirements. The Air Force could also

74 SEMIANNUAL REPORT TO THE CONGRESS
Information Assurance,                                7 of 11 major commands did not develop a
                                                      comprehensive current “AS-IS” enterprise
Security and Privacy                                  architecture while 11 of 11 major commands
                                                      did not develop a comprehensive target “TO-
Selected Long-Haul Telecommunication                  BE” enterprise architecture. Consequently, the
Requirements                                          chief information officer and other senior staff
LeaveWeb is a management information system           members may not be making decisions based on
Long-haul telecommunications are systems,             relevant or complete information. Also, the Air
equipment and services (Iridium satellite phones      Force Enterprise Architecture is unable to fully
and Internet connectivity) used to facilitate         support operational and business management
long-distance dissemination, transmission or          activities such as organizational transformation,
reception of information, including Internet-         information       technology      modernization,
based capabilities. The Air Force maintains over      strategic planning and gap analysis.
21,000 long-haul telecommunication circuits and       Report F2011-0004-FB2000
services. In FY 2009, the Air Force expended over
$550 million on long-haul telecommunications.
While long-haul telecommunication officials           Acquisition Processes and
properly validated billing and receipt of             Contract Management
services, they did not effectively implement
network control over Internet-based capabilities      Bomber Weapon System Simulators
bandwidth usage or effectively monitor Iridium        Simulators are an essential tool to help maintain
satellite phone requirements. Properly managed        aircrew proficiency at the most economical cost.
Internet-based capabilities bandwidth usage will      The current operational and budget environment
improve mission-related communication flow            makes simulators more important as the Air
while keeping Air Force telecommunication             Force continues to use aging aircraft to train for
costs reasonable. In addition, eliminating at least   and sustain contingency operations. Investment
93.7 percent of the 758 active Iridium satellite      costs to modernize and lengthen aircraft service
Subscriber Identity Module cards could enable         lives, such as the B-52 service life extension             AFAA reviewed contract costs for B-1B,
the Air Force to put $8.3 million to better use       program extending the B-52 to the year 2040,               B-2A and B-52H simulators.
over 6 years (execution year and the Future Years     coupled with flying hour reductions, are forcing
Defense Program).                                     the Air Force to explore training alternatives.
Report F2011-0007-FB4000                              During 2009, contract costs to support the B-1B,
                                                      B-2A and B-52H weapon system simulators
Air Force Enterprise Architecture                     were $16 million. Air Force personnel did not
Implementation                                        effectively identify all training events appropriate
The Air Force Enterprise Architecture is a            for simulator usage and did not optimize
strategic information resource that captures          simulator usage based on all training events
the “AS-IS” and “TO-BE” operational and               identified as simulator appropriate. Identifying
business capabilities of the Air Force. When          and authorizing all simulator-appropriate events
fully developed, the Air Force Enterprise             helps the Air Force more economically maintain
Architecture      will   support    Air  Force        readiness. Migrating the identified training
organizational transformation, information            events to simulators will allow the Air Force to
technology modernization, strategic planning          put $202.3 million in flying hour costs to better
and gap analysis. The Air Force Enterprise            use over 6 years (execution year and the Future
Architecture eventually will feed the DoD             Years Defense Program) and help better meet
enterprise architecture and, in turn, feed the        training requirements. In addition, optimally
larger federal enterprise architecture. For           using simulators to train simulator-appropriate
example, the Air Force Enterprise Architecture        events will allow the Air Force to put $42.9
should assist in the planning, programming and        million in flying hour costs to better use over
budgeting process of the approximately $313           six years (execution year and the Future Years
billion FY 2010 assets. This audit determined         Defense Program) and help better meet training

                                                                                                         APRIL 1, 2011 TO SEPTEMBER 30, 2011 75
Services



                                requirements.                                         Headquarters Air Force staffing resources.
                                Report F2011-0003-FD3000                              Proper management of these contracted
                                                                                      resources from requirements determination
“Air Force Smart Op-            Air Force Smart Operations for the 21st Century       through contract execution is critical to mission
erations for the 21st           Contract Management and Oversight                     success and maximizing Air Force resources. The
                                Air Force Smart Operations for the 21st Century       Air Force District of Washington Contracting
Century is the Air              is the Air Force’s dedicated effort to maximize       Office awards and administers services contracts
Force’s dedicated effort        value and minimize waste in all environments          for Headquarters Air Force, secretary of the
to maximize value and           and fully integrate continuous improvement            Air Force and Air Force District of Washington
minimize waste in all           throughout the Air Force. In March 2007, Air          organizations. As of September 2010, Air Force
environments...”                Force personnel awarded a $99 million blanket         District of Washington/PK managed 689 services
                                purchase agreement to provide contractor              contracts valued at $8.2 billion. An audit revealed
                                support for these efforts and raised the ceiling to   Air Force District of Washington personnel did
                                almost $124 million in April 2010. Contracting        not accomplish adequate planning for services
                                officers issue call orders against the blanket        acquisitions. Effective planning helps ensure
                                purchase agreement for required advisory              that the organizations acquired $6.5 billion of
                                support and assistance. As of September 2010,         contract services in an effective, economical
                                contracting personnel had awarded 79 call             and timely manner. In addition, personnel did
                                orders valued at nearly $123 million. An audit        not establish the proper level of management
                                identified that Air Force personnel did not           and oversight for services acquisitions.
                                conduct a proper source selection. As a result,       Identifying complex and high-dollar value
                                the Air Force does not have assurance the             contracts to the proper level of management will
                                blanket purchase agreement provided the most          improve management and oversight of service
                                effective and best value to support the program.      acquisitions valued at $4.2 billion. Further,
                                Additionally, the Air Force potentially paid          personnel did not properly manage task/call
                                between $17 and $36 million more for Air Force        order awards, resulting in the Air Force having
                                Smart Operations for the 21st Century support         no assurance orders awarded against contracts
                                than it would have if one of the lower offers         valued at $744 million were within the scope of
                                had been accepted. In addition, contracting           the selected contract vehicles. Nor did personnel
                                personnel did not effectively manage call order       perform adequate quality assurance to ensure
                                awards. Issuing $22.8 million in call orders to       contractors performed satisfactorily, contractor
                                acquire work outside the scope of the blanket         payments were justified, and that the Air Force
                                purchase agreement reduces the funds available        received the $5.5 billion of services under
                                to support the mission. Further, Air Force            contracts. Finally, personnel did not adequately
                                District of Washington contracting personnel          manage contract/task order funding. As a result,
                                did not perform quality assurance on the call         obligated balances of $8.8 million on 19 contracts
                                orders. Adequate quality assurance is essential       were excess to current requirements. Further,
                                to ensure the contractors perform satisfactorily,     validating unliquidated obligations on another
                                contractor payments are justified, and that the       32 contracts and deobligating excess funds could
                                Air Force receives the contracted services on the     make as much as another $23 million available
                                call orders valued at nearly $123 million. Finally,   for other mission requirements.
                                Air Force personnel did not effectively manage        Report F2011-0009-FC1000
                                call order closeout. Closing all completed task
                                orders and deobligating the residual funds will       Financial Management
                                provide over $816,000 to DoD for other valid
                                mission requirements.                                 Civilian Overtime and Compensatory Time
                                Report F2011-0005-FC1000                              Supervisors may require civilian employees
                                                                                      to work outside of their normal duty hours to
                                Headquarters Air Force Services Contract              meet special mission-related, time-critical or
                                Management and Oversight                              increased work requirements. In these situations,
                                Contracted services are a growing portion of          employees earn overtime pay or compensatory

 76 SEMIANNUAL REPORT TO THE CONGRESS
time. Overtime used represents a salary expense       combat pay and allowances continuation.
to the Air Force while compensatory time              Properly processing combat pay and combat
may be taken as leave at a later date. On some        zone tax exclusion entitlements and monitoring
occasions, supervisors may require employees          combat pay and allowances continuation
to work overtime and allow them annual leave          program eligibility ensure airmen receive timely,
in the same pay period. Sound business practice       accurate pay and entitlements. In addition,
dictates limiting concurrent use of overtime          improving combat pay and combat zone tax
and annual leave to instances when no other           exclusion entitlement management could result
resource is available to fulfill the increased work   in an estimated savings of $1.6 million over
requirement. In FY 2009, the Air Force paid $255      6 years (execution year and the Future Years
million in overtime. Air Force personnel did not      Defense Program).
properly process overtime and compensatory            Report F2011-0012-FD4000
time and did not adequately control concurrent
annual leave and overtime use. Proper                 Air Force Space Command Training Systems
authorization helps control the use of overtime       Part of Air Force Space Command’s readiness
and compensatory time and saves scarce Air            goal is to provide realistic training at the optimum
Force resources. Based on statistical sampling        level of concurrency, fidelity and interoperability
methodology, auditors estimated the Air Force         to enable mission accomplishment and effective
approved at least $51.7 million for improperly        joint operations. Air Force Space Command
processed overtime or compensatory time from          training systems include computers and servers
March through September 2009. In addition,            capable of simulating crew operations such as
controlling use of annual leave and overtime          satellite communications and vehicle launch. Air           AFAA reviewed costs of Air Force
in the same pay period could have avoided             Force Space Command and the Space and Missile              Space Command training systems.
about 4,100 overtime hours used during March          Center manage trainers for 10 satellite programs.
through September 2009. Implementing clear            The trainers’ investment cost approaches $250
guidance and effective management controls            million, and FY 2009 sustainment costs were $9
over concurrent annual leave and overtime use         million. Although Air Education and Training
Air Force-wide will result in potential monetary      Command and Air Force Space Command
benefits of $17 million annually or $102 million      personnel effectively managed initial and
over 6 years (execution year and the Future Years     recurring space crew training, personnel did
Defense Program).                                     not use Standard Space Trainer applications
Report F2011-0006-FD4000                              or establish trainer requirements that met user
                                                      needs for all 12 programs reviewed. Effective
Combat Pay and Tax Exclusion                          trainer requirements provide the warfighter
Depending on the location and length of time          optimal, realistic training on mission-critical
assigned, Air Force members are entitled to           space systems without needing workarounds
combat-related entitlements such as hostile fire      that degrade the training experience. Further,
pay, imminent danger pay and combat zone tax          clearly defining trainer requirements would
exclusion. In addition, when Air Force members        allow the Air Force to identify the most efficient
are wounded, injured or become ill in the line of     trainer, thereby reducing acquisition costs by
duty while serving in a combat operation, combat      almost $12.6 million per system, or $101 million
zone or hostile fire area, they are authorized        over the next 5 years.
combat pay and allowances continuation when           Report F2011-0013-FD4000
they return from deployment. During FY 2009,
over 38,000 airmen, including about 500 airmen        Health Care
enrolled in the combat pay and allowances
continuation program, received more than $103         Pharmaceutical Purchases
million in hostile fire or imminent danger pay        The goal of Air Force pharmacies is to provide
(hereafter referred to as combat pay). Air Force      safe, timely and cost-effective pharmacy
personnel did not properly process combat             services to military members, retirees and
pay and combat zone tax exclusion or monitor          their dependents. Air Force regulation and

                                                                                                         APRIL 1, 2011 TO SEPTEMBER 30, 2011 77
Services



                                              prudent business practices dictate medical            members no longer eligible would result in a
                                              personnel should purchase contracted,                 potential monetary benefit to the Air Force
                                              generic or other less expensive, but clinically       of approximately $4.8 million over 6 years
                                              equivalent, pharmaceuticals to minimize costs.        (execution year and the Future Years Defense
                                              In addition, Air Force pharmacies are eligible for    Program).
                                              manufacturer back-order credits when certain          Report F2011-0006-FD2000
                                              mandatory-use pharmaceuticals are unavailable.
                                              During FY 2009, Air Force pharmacies                  Air Force Medical Service Surgical Optimization
                                              expended approximately $612.5 million for 1.6         In 2008, the Air Force Medical Service initiated
                                              million pharmaceutical purchases. An audit            the surgical optimization initiative to improve
                                              determined pharmacy and medical logistics             provider satisfaction and operating room
                                              personnel did not purchase lower-priced               efficiency. The initiative, implemented at nine
                                              pharmaceuticals, use mandatory contracts for          Air Force military treatment facilities between
                                              30 percent of pharmaceuticals reviewed, or            September 2008 and September 2009, involved
                                              request manufacturer back-order credits. Proper       a combination of productivity and efficiency
AF Medical Service initiated the surgi-       purchasing controls at the 15 military treatment      concepts aimed at increasing surgeon caseload,
cal optimization initiative for efficiency.   facilities reviewed could decrease pharmaceutical     reducing purchased care costs and recapturing
                                              costs by approximately $19 million over 6 years       disengaged patients to the military treatment
                                              (execution year and the Future Years Defense          facility. The initiative also strived for caseloads
                                              Program). In addition, establishing back-order        with more difficult and diverse surgical cases
                                              credit procedures would allow personnel to            to support wartime readiness capability and
                                              obtain approximately $182,000 in manufacturer         skills, herein referred to as currency. Between
                                              back-order credits over the life of the contract.     May 1, 2009, and April 30, 2010, the Air Force
                                              Report F2011-0005-FD2000                              expended over $265.4 million for purchased care
                                                                                                    associated with general surgery and orthopedic
                                              Air Reserve Component Members on Medical              services. While surgical services gained limited
                                              Continuation Status                                   efficiencies, the surgical optimization initiative
                                              The DoD established the Medical Continuation          did not achieve its intended outcome. Specifically,
                                              program to provide pay and medical benefits           97 percent of providers reviewed either did not
                                              to Air Reserve Component members incurring            perform sufficient surgical caseload or complete
                                              or aggravating an injury, illness or disease in       required surgical currency cases to achieve
                                              the line of duty. Wing medical unit personnel         optimization initiatives. Optimizing referral
                                              have a significant role in the program, including     management, clinic appointments and operating
                                              processing Medical Continuation requests,             room throughput within the military treatment
                                              monitoring member medical status and serving          facilities should improve provider satisfaction
                                              as the point of contact between Air Reserve           and allow military treatment facilities to provide
                                              Component units and active duty medical               greater quantities of care and avoid purchasing
                                              treatment facilities. During FY 2010, the Air Force   private sector medical care of approximately
                                              spent over $33 million for active duty military       $60.6 million over 6 years (execution year and
                                              pay for Air Reserve Component members on              the Future Years Defense Program).
                                              Medical Continuation orders. An audit identified      Report F2011-0007-FD2000
                                              that medical officials did not either process

                                                                                                    Air Force Office of
                                              complete and timely Medical Continuation
                                              requests or accomplish initial and ongoing

                                                                                                    Special Investigations
                                              eligibility reviews. Further, none of the locations
                                              reviewed implemented all Medical Continuation
                                              program elements. Properly managing members           AFOSI operations facilitated the identification
                                              on Medical Continuation status is essential           and capture of a Taliban commander who
                                              to ensure airmen receive appropriate medical          was involved with complex suicide attacks,
                                              treatment and benefits. Additionally, timely          improvised explosive devices and assassination
                                              closing Medical Continuation orders for those         operations in and around Kandahar Air

78 SEMIANNUAL REPORT TO THE CONGRESS
Field, Afghanistan. As the result of another          these two terrorists were members of the Iraqi                “AFOSI operations
AFOSI counterintelligence operation, U.S.             Air Force assigned to the multinational facility                    facilitated the
forces and Afghan National Police conducted           they attacked. Upon capture, both tested positive
a joint counterthreat operation that led to           for TNT, and one was identified as a contact of
                                                                                                                     identification and
neutralizing two suicide improvised explosive         a high ranking Asa’ib Ahl Al Haq leader in the              capture of a Taliban
device facilitators who were targeting U.S. and       Baghdad, Iraq, area. In addition, as a direct              commander who was
coalition forces in the vicinity of Kandahar Air      result of information gathered through AFOSI              involved with complex
Field. Acting on intelligence information, agents     operations, multinational forces were able to                   suicide attacks...”
assigned in the Kandahar Air Field area were          coordinate the capture of four Jaysh Rijal Tariqah
able to guide coalition forces explosive ordnance     al-Naqshabandi cell members who participated
disposal teams to an established rocket launch        in rocket attacks against coalition forces in and
site. Upon arrival, the disposal teams disrupted      around Kirkuk. Further exploitation revealed
a pending attack on Kandahar Air Field by             that two of the four captured were members of
neutralizing two rockets before their launch.         the Iraqi Army Brigade assigned to the Kirkuk
                                                      area and that they possessed a video camera
AFOSI members stationed in the vicinity of            containing footage of one of the aforementioned
Bagram Air Field, Afghanistan, developed              rocket attacks.
sensitive reporting that led to the kinetic
destruction of two communication repeater             Marking the culmination of an extensive
stations that were being used by Taliban              operation, members of the AFOSI detachment
fighters to communicate and coordinate attack         at Joint Base Balad, Iraq, worked with local
information between cells. As the result of other     national police forces to capture a Jaysh al-
investigative activity, AFOSI members located         Mahdi Special Group leader. This leader had
near Bagram Air Field discovered and cultivated       ordered the November 2007 attack that killed             AFOSI members discovered and culti-
counterintelligence information regarding a           three AFOSI special agents.                              vated counterintelligence information.
specific indirect fire threat planned against
coalition forces. After coordination with the         Air Force Sergeant Receives Two Life Sentences
local task force, direct action units sent to the     for Murder
area were successful at eliminating the enemies’      Overview: A joint investigation with AFOSI and
ability to carry out the attack. Using AFOSI-         Escambia County Sheriff ’s Office, Pensacola,
developed information, a multinational team           Fla., identified Air Force Staff Sergeant Donnie
captured an insurgent with affiliation to Hizb-I      Ray Stallworth Jr. as having been involved in
Islami Gulbuddin. This insurgent was further          a home invasion robbery that resulted in the
identified as a member of a cell responsible for      double homicide of a civilian husband and wife.
attacks on Bagram Air Field and other coalition       On July 9, 2009, the sergeant and six accomplices
locations. These attacks had resulted in casualties   entered a local residence by force and found the
to coalition forces and limited freedom of            couple in their master bedroom. An accomplice
movement.                                             demanded the victims open a safe believed
                                                      to contained $13 million and then shot both
As part of a multinational and multiservice           of them. Staff Sgt. Stallworth’s identity was
effort, AFOSI members near Kirkuk Regional Air        confirmed through the victims’ home security
Base, Iraq, collected critical counterintelligence    video footage, and a “getaway” vehicle was
information used to capture a Jaysh Rijal Tariqah     found at his residence. Staff Sgt. Stallworth also
al-Naqshabandi cell leader. This particular cell      informed a friend that $300,000 was taken from
was responsible for several attacks on U.S. and       the robbery, of which he was to receive $70,000.
coalition forces, to include one that inflicted two   The sergeant turned himself in to Alabama
U.S. casualties in November 2010. Other AFOSI         authorities and was extradited to Escambia
operations near Kirkuk facilitated identifying two    County, Fla. This crime received national media
individuals wearing Iraqi Police uniforms who         attention revealing the couple had 18 children,
had launched rockets in an attack on coalition        16 who were adopted.
forces. The ensuing investigation revealed that       Result: In 2010 Staff Sgt. Stallworth was

                                                                                                       APRIL 1, 2011 TO SEPTEMBER 30, 2011 79
Services



“Working with the                      dismissed from the service under other than           Later, the airman attempted to influence the
local phone company,                   honorable conditions. On July 21, 2011, the           testimony of one of the children and an adult
                                       former sergeant was found guilty by a jury in         while disobeying a direct order.
AFOSI was able to                      the Circuit Court for Escambia County on two          Result: At general courts-martial, the airman
conduct an emergency                   counts of first-degree murder (Statutes 782.04        plead guilty to abusive sexual contact with
cellular phone trian-                  and 775.087) and one count of home invasion           a child (UCMJ Article 120), abusive sexual
gulation to locate both                robbery with firearm (Statute 812.135[1]and[2]        contact with a person substantially incapacitated
individuals...”                        [a] and 775.087). He was sentenced to 2 life          (UCMJ Article 120), sodomy (UCMJ Article
                                       sentences to run consecutively and 30 years to        125), violation of a lawful order (UCMJ Article
                                       run concurrently.                                     92), absent without leave (UCMJ Article 86),
                                                                                             and impeding an investigation (UCMJ Article
                                       Murder-Suicide                                        134). He was sentenced to 8 years confinement,
                                       Overview: AFOSI initiated an investigation            reduction in grade, forfeiture of pay and
                                       when two airmen stationed and living on               allowances, a dishonorable discharge and must
                                       Whiteman Air Force Base, Mo., failed to               register as a sex offender for life.
                                       report for duty and were charged with
                                       desertion (UCMJ Article 85). A search of one          Historian Shows History Cannot Be Rewritten
                                       of the missing airman, Kerby J. Barbe’s, vehicle      Overview: Andreas Fischer, an Air Force
                                       yielded a receipt indicating he had purchased         civilian hired to be the Air Force Wing Historian
                                       a semiautomatic rifle, five magazines and 200         on Anderson Air Force Base, Guam, with a
                                       rounds of ammunition. Working with the local          starting salary of $57,709 per year was overpaid
                                       phone company, AFOSI was able to conduct              with a salary of $81,093 per year plus bonuses
                                       an emergency cellular phone triangulation to          and raises due to an administrative oversight.
                                       locate both individuals but was only successful       In November 2009, the Air Force Personnel
AFOSI investigated civilian overpay-   in responding to the victim’s phone, which was        Center and the Defense Finance and Accounting
ment at Anderson AF Base, Guam.        established to be in Knob Noster State Park, Mo.      Service notified Fischer of their intent to
                                       This joint investigation with AFOSI, Missouri         recoup the overpayment, at which time he filed
                                       State Park Police Department, and the Johnson         a grievance and provided documentation to
                                       County, Mo., Sheriff ’s Office was joined by the      support his claim. The District Court of Guam
                                       Blanco County, Texas, Sheriff ’s Office and Texas     issued a search warrant for Fischer’s personal
                                       Department of Public Safety after Airman Barbe’s      email account, which contained emails he sent
                                       girlfriend contacted AFOSI and 911 to report he       with the same date and time stamp as those
                                       was at her home in Blanco, Texas, armed with a        previously provided, as support with minor, but
                                       rifle. The airman told his girlfriend he critically   significant, differences in the wording of the
                                       injured the other airman and provided directions      text. Most notably, the official acceptance email
                                       to his body. As law enforcement agents arrived,       Fischer sent from his personal account did not
                                       Airman Barbe drove into the woods behind the          contain the words “tentative” or “temporarily,”
                                       home, and shots were heard.                           whereas Fischer’s contention was that the email
                                       Result: Airman Kerby Barbe was found dead             document he submitted as proof of authorization
                                       with a self-inflicted gunshot wound and a             for the overpayment contained the words
                                       semiautomatic rifle nearby. After an extensive        “tentative” and “temporarily.”
                                       search, the victim’s body was found at Knob           Result: On January 20, 2011, Andreas Fischer
                                       Noster State Park, Mo.                                plead guilty in the District Court of Guam to
                                                                                             false claim to a federal government agency (18
                                       Airman Receives 8 Years in Prison for Abusive         USC 1001). On June 7, 2011, he received 2 years
                                       Sexual Contact                                        probation and was ordered to pay DFAS $46,267
                                       Overview: This investigation was initiated on         in restitution.
                                       information alleging a male airman had sexual
                                       intercourse with three underage civilian females
                                       and sexually assaulted two adult females, one
                                       of whom was under the influence of alcohol.

 80 SEMIANNUAL REPORT TO THE CONGRESS
             5


Appendices
Appendix A




Audit, Inspection and
Evaluation Reports Issued
Copies of reports may be obtained from the appropriate issuing office by contacting:

          DoD IG                                                                   Army Audit Agency
          (703) 604-8937                                                           (703) 693-5679
          http://www.dodig.mil/pubs                                                http://www.hqda.army.mil/aaaweb

          Naval Audit Service                                                      Air Force Audit Agency
          (202) 433-5525                                                           (703) 696-7904
          http://www.hq.navy.mil/navalaudit                                        http://www.afaa.hq.af.mil

                                                                                            DoD IG                    Military Depts.                Total
  Joint Warfighting and Readiness                                                              14                              70                     84
  Information Assurance, Security, and Privacy                                                 8                               37                     45
  Acquisition Processes and Contract Management                                                20                              51                     71
  Financial Management                                                                         16                              31                     47
  Health and Safety                                                                            5                               10                     15
  American Recovery and Reinvestment Act                                                       15                              13                     28
  Nuclear Enterprise                                                                           1                               0                      1
  Other                                                                                        3                               15                     18
  Total                                                                                        82                            227                     309


Joint Warfighting and Readiness
 Agency           Report Number         Report Title                                                                                    Date
 DoD IG           D-2011-056            Consistent Use of Supply Support Activities Could Increase Efficiency of Equipment Drawdown     04/14/2011
                                        from Iraq
 DoD IG           D-2011-063            Antiterrorism Programs for U.S. Forces at Kandahar Airfield, Bagram Airfield, Camp Eggers and   05/06/2011
                                        New Kabul Compound Need Improvement (Classified)
 DoD IG           D-2011-080            DoD and DOS Need Better Procedures to Monitor and Expend DoD Funds for the Afghan               07/07/2011
                                        National Police Training Program
 DoD IG           D-2011-095            Afghan National Police Training Program: Lessons Learned During the Transition of Contract      08/15/2011
                                        Administration
 DoD IG           D-2011-100            DoD Needs Bi-Directional Flow Agreements and Adequate Tracking Mechanisms on the                08/19/2011
                                        Northern Distribution Network (Classified)
 DoD IG           D-2011-102            Afghan National Police Training Program Would Benefit from Better Compliance with the           08/25/2011
                                        Economy Act and Reimbursable Agreements
 DoD IG           D-2011-103            Special Operations Forces Plans for Drawdown and Reset of Property in Iraq (Classified)         08/28/2011
 DoD IG           D-2011-111            Guidance for Petroleum War Reserve Stock Needs Clarification (Classified)                       09/27/2011
 DoD IG           SPO-2011-007          Assessment of the U.S. Department of Defense Efforts to Develop an Effective Medical            06/14/2011
                                        Logistics System within the Afghan National Security Forces



 82 SEMIANNUAL REPORT TO THE CONGRESS
Agency   Report Number     Report Title                                                                                     Date
DoD IG   SPO-2011-008      Assessment of Planning for Transitioning the Security Assistance Mission in Iraq from            08/25/2011
                           Department of Defense to Department of State Authority
DoD IG   11-INTEL-09       Questionable Intelligence Activity –SOLIC (Classified)                                           06/01/2011
DoD IG   11-INTEL-10       U.S. Cyber Command Authorities Pertaining to Use of National Security Agency Personnel           05/09/2011
                           (Classified)
DoD IG   11-INTEL-12       Evaluation of the Under Secretary of Defense for Intelligence Continuity of Operations           07/08/2011
                           (Classified)
DoD IG   11-INTEL-13       Improvements needed in Review of U.S. Forces-Afghanistan Sharing of Tactical                     07/25/2011
                           Counterintelligence and HUMINT with International Security Assistance Force
USAAA    A-2011-0103-IEU   Accountability of Left Behind Equipment in Europe                                                05/10/2011
USAAA    A-2011-0187-ALL   Agreed-Upon Procedures Attestation to Determine the Cost and Causes for Demurrage Fees           09/16/2011
                           Incurred Subject to the Host Nation Trucking Contracts, Afghanistan (FOUO)
USAAA    A-2011-0154-ALL   Agreed-Upon Procedures Attestation to Provide Market Analysis Support of the National            07/12/2011
                           Afghanistan Trucking Contract Award Process (FOUO)
USAAA    A-2011-0218-ALL   Agreed-Upon Procedures Attestation to Validate Army Fuel Deliveries in Northern Afghanistan      09/29/2011
                           (FOUO)
USAAA    A-2011-0217-ALS   Ammunition Supply Point Resource Requirements                                                    09/29/2011
USAAA    A-2011-0133-ALS   Army Workload Planning on the Deployment and Implementation of the Global Combat                 06/14/2011
                           Support System-Army (FOUO)
USAAA    A-2011-0182-ALL   Attestation Examination of Contractor Access to Dining Facility Services at Bagram Airfield,     08/18/2011
                           Afghanistan
USAAA    A-2011-0107-ALC   Audit of Army’s Short-Term Human Capital Plans - Contracting (Recruiting, Retention, and         06/02/2011
                           Relocation Incentives)
USAAA    A-2011-0123-IEI   Audit of Excess, Vacant, and Not Utilized Buildings, U.S. Active Army                            06/10/2011
USAAA    A-2011-0115-ALS   Audit of Funding Transfers for Ammunition Supply Points                                          05/24/2011
USAAA    A-2011-0129-IEO   Audit of Installation Facilities and Operations Support, U.S. Army Garrison Fort Benning -       06/10/2011
                           Notification of Potential Antideficiency Act Violation (FOUO)
USAAA    A-2011-0197-ALS   Audit of Issuing Ammunition to Coalition Forces: Reporting Procedures, U.S. Army Central         09/02/2011
USAAA    A-2011-0072-ALL   Audit of U.S. Equipment Transferred to Iraq                                                      05/25/2011
USAAA    A-2011-0169-FFF   Aviation Maintenance Services Contract for the U.S. Army Aviation Center of Excellence (AACE)    08/25/2011
USAAA    A-2011-0132-ALA   Body Armor Testing Process (FOUO)                                                                06/09/2011
USAAA    A-2011-0119-FFF   Civilian Requirements Determination Process                                                      06/01/2011
USAAA    A-2011-0118-FFP   Class IX Repair Parts--Korea, Eighth Army                                                        06/14/2011
USAAA    A-2011-0111-ALS   Container Operations Systems                                                                     05/18/2011
USAAA    A-2011-0189-ALM   Contracts for Maintenance Support--CECOM Life Cycle Management Command, Army                     09/07/2011
                           Contracting Command-Aberdeen Proving Ground (FOUO)
USAAA    A-2011-0206-FFS   Deployment Support Systems, Joint Base Lewis-McChord                                             09/21/2011
USAAA    A-2011-0159-ALL   Disposal of Army Material Into Dumpsites by Units in Iraq, United States Forces - Iraq           07/18/2011
USAAA    A-2011-0087-FFP   Equipment Maintenance, Hawaii                                                                    05/10/2011
USAAA    A-2011-0210-FFP   Equipment Maintenance--Alaska, U.S. Army Garrison Fort Richardson                                09/26/2011
USAAA    A-2011-0113-ALM   Examination of Army Suggestion Program Idea Number SWRR10020C, Red River Army                    05/25/2011
                           Depot (FOUO)
USAAA    A-2011-0181-IEU   Financial Liability Investigations of Property Lost by Contractors                               08/18/2011
USAAA    A-2011-0102-IEI   Followup Audit of Base Realignment and Closure 2005 Construction Requirements, Armed             05/17/2011
                           Forces Reserve Center, Camp Dodge, Iowa
USAAA    A-2011-0108-ALS   Followup Audit of Dormant Stock, Office of the Project Manager, Heavy Brigade Combat             05/18/2011
                           Team
USAAA    A-2011-0171-ALS   Followup Audit of Dormant Stock, U.S. Army TACOM Life Cycle Management Command                   08/03/2011
USAAA    A-2011-0140-ALM   Followup Audit of Field-Level Reset Requirements, U.S. Army National Guard                       07/14/2011
USAAA    A-2011-0098-ALL   Followup Audit of Management of Shipping Containers in Southwest Asia - Iraq, Visibility         04/29/2011



                                                                                                           APRIL 1, 2011 TO SEPTEMBER 30, 2011 83
Appendix A
Agency          Report Number          Report Title                                                                                  Date
USAAA           A-2011-0178-ALM        Followup Audit of Operational Loss Requirements, Offices of Deputy Chief of Staff, G-4 and    08/23/2011
                                       G-8
USAAA           A-2011-0186-ALS        Followup Audit of Program Managers' Use of Property Book Unit Supply-Enhanced System,         08/24/2011
                                       Project Manager, Force XXI Battle Command Brigade and Below
USAAA           A-2011-0137-ALS        Followup Audit of Project Manager Assets, Bradley Fighting Vehicles                           06/15/2011
USAAA           A-2011-0216-ALS        Followup Audit of Property Book Unit Supply Enhanced System Property Accountability           09/28/2011
                                       and Management, 10th Mountain Division
USAAA           A-2011-0077-ALL        Followup Audit of Retrograde Operations in Iraq, Class VII Theater Provided Equipment,        04/12/2011
                                       United States Forces - Iraq
USAAA           A-2011-0076-ALL        Followup Audit of Retrograde Operations in Southwest Asia Multi class Iraq                    04/14/2011
USAAA           A-2011-0207-FFF        Followup Audit of the Followup Audit of Management of Reserve Component Non-                  09/22/2011
                                       Participants, U.S. Army Reserve Command
USAAA           A-2011-0110-FFM        Followup Audit of Unused Airline Tickets                                                      05/19/2011
USAAA           A-2011-0142-ALM        Followup Audit on Automatic Reset Induction Criteria                                          07/06/2011
USAAA           A-2011-0082-ALA        Implementing Body Armor Recommendations (FOUO)                                                04/15/2011
USAAA           A-2011-0211-FFF        Improvised Explosive Device Defeat Home Station Lane Training, Office of the Deputy Chief     09/22/2011
                                       of Staff, G-3/5/7 (FOUO)
USAAA           A-2011-0097-IEO        Installation Facilities and Operations Support, U.S. Army Garrison Fort Belvoir               04/21/2011
USAAA           A-2011-0173-IEO        Installation Facilities and Operations Support, U.S. Army Garrison Fort Benning               08/04/2011
USAAA           A-2011-0174-IEO        Installation Facilities and Operations Support, U.S. Army Garrison Fort Riley                 08/04/2011
USAAA           A-2011-0037-FFP        Joint Basing and Force Structure, Alaska                                                      04/07/2011
USAAA           A-2011-0184-FFP        Managing Equipment Reset - Alaska                                                             08/31/2011
USAAA           A-2011-0105-FFP        Managing Reset (Left Behind Equipment) in Hawaii                                              06/21/2011
USAAA           A-2011-0126-FFD        National Guard Civil Support Team Readiness, National Guard Bureau (FOUO)                     06/20/2011
USAAA           A-2011-0128-ALM        National Source of Repair Selection Process - Workload Migration                              06/10/2011
USAAA           A-2011-0177-IEE        Planning for Disposal of Chemical Demilitarization and Storage Facilities, U.S. Army          08/19/2011
                                       Chemical Materials Agency
USAAA           A-2011-0209-ZBI        Predeployment Intelligence Training                                                           09/27/2011
USAAA           A-2011-0114-ALM        Reset of the Aviation Unit Maintenance and Aviation Intermediate Maintenance Shop Sets        07/19/2011
USAAA           A-2011-0155-FFF        Senior Leader Mentor Program                                                                  07/08/2011
USAAA           A-2011-0160-ALS        Tactical Vehicle Registration & Reporting                                                     09/22/2011
USAAA           A-2011-0208-IEO        The Army Metering Program Summary Report                                                      09/19/2011
USAAA           A-2011-0122-IEI        Utilities Privatization Policy and Procedures, U.S. Army Garrisons Aberdeen Proving Ground,   06/24/2011
                                       Maryland; Fort Bliss, Texas; and Fort Lee, Virginia
USAAA           A-2011-0112-IEU        Workload Survey of Property Accountability in Europe (FOUO)                                   05/20/2011
NAVAUDSVC       N2011-0051             Navy Operational Support Center Antiterrorism and Force Protection                            08/19/2011
NAVAUDSVC       N2011-0055             Marine Corps Equipment Accountability                                                         09/02/2011
AFAA            F-2011-0004-FC2000     Air Launched Cruise Missile Engine Maintenance                                                06/16/2011
AFAA            F-2011-0005-FC2000     Engine Critical Parts                                                                         07/29/2011
AFAA            F-2011-0006-FC4000     Patriot Express                                                                               04/01/2011
AFAA            F-2011-0007-FC4000     Base Drawdown Asset Management                                                                04/25/2011
AFAA            F-2011-0014-FD1000     United States Air Forces Central Area of Responsibility Construction Planning                 04/12/2011
AFAA            F-2011-0004-FD3000     Night Vision Equipment                                                                        04/04/2011
AFAA            F-2011-0007-FD3000     Mobilization and Demobilization of Air Reserve Component Forces                               08/18/2011
AFAA            F-2011-0007-FD4000     Deployed Airmen and Family Support                                                            04/28/2011
AFAA            F-2011-0008-FD4000     Active Duty Diversity Recruiting Effectiveness                                                05/25/2011
AFAA            F-2011-0009-FD4000     Rated Force Management                                                                        05/25/2011
AFAA            F-2011-0011-FD4000     Retiree Activities Program                                                                    08/11/2011



84 SEMIANNUAL REPORT TO THE CONGRESS
Information Assurance, Security and Privacy
Agency     Report Number     Report Title                                                                                     Date
DoD IG     D-2011-079        Defense Information Systems Agency Controls Placed in Operation and Tests of Operating           06/30/2011
                             Effectiveness as of October 1, 2010, through April 30, 2011 (FOUO)
DoD IG     D-2011-085        Defense Civilian Pay System Controls Placed in Operation and Tests of Operating Effectiveness    07/15/2011
                             for the Period October 1, 2010 through April 30, 2011 (FOUO)
DoD IG     D-2011-089        Reducing Vulnerabilities at the Defense Information Systems Agency Defense Enterprise            07/22/2011
                             Computing Centers (FOUO)
DoD IG     D-2011-096        Improvements Are Needed to the DoD Information Assurance Vulnerability Management                08/12/2011
                             Program (FOUO)
DoD IG     D-2011-114        Summary of Information Assurance Weaknesses as Reported by Audit Reports Issued From             09/30/2011
                             August 1, 2010, Through July 31, 2011
DoD IG     D-2011-115        DoD Cannot Ensure Contractors Protected Controlled Unclassified Information for Weapon           09/30/2011
                             Systems Contracts (FOUO)
DoD IG     D-2011-6-009      Quality Control Review of Air Force Audit Agency’s Special Access Program Audits                 08/15/2011
DoD IG     D-2011-6-012      Quality Control Review of Naval Audit Service's Special Access Program Audits                    09/23/2011
USAAA      A-2011-0148-ALL   Agreed-Upon Procedures Attestation - Comparative Analysis of Contract Labor Billing Data         06/27/2011
                             With Government Installation Access Data, Camp As Sayliyah, Qatar (FOUO)
USAAA      A-2011-0104-FFM   Agreed-Upon Procedures Attestation for Investigative Support to Crime Prevention Survey          05/10/2011
                             0024-2010-CID592 (FOUO)
USAAA      A-2011-0089-FFM   Agreed-upon Procedures Attestation for Investigative Support to the Fort Bragg 319th             04/06/2011
                             Airborne Field Artillery Regiment Case (FOUO)
USAAA      A-2011-0094-FFM   Agreed-Upon Procedures Attestation of Homeowners Assistance Program, Fort Monmouth,              04/12/2011
                             New Jersey-Criminal Investigation Assistance (FOUO)
USAAA      A-2011-0151-FFD   Agreed-Upon Procedures Attestation of Overtime and Leave of DA Police at Fort                    07/07/2011
                             Monmouth, New Jersey (FOUO)
USAAA      A-2011-0193-FFP   Agreed-Upon Procedures Attestation of U.S. Forces Korea Petroleum Tax Exempt Coupons             09/01/2011
                             (FOUO)
USAAA      A-2011-0143-IET   Application Migration, Office of the Chief Information Officer/G-6                               07/06/2011
USAAA      A-2011-0139-ZBI   Audit of Intel Funds--Site A                                                                     06/30/2011
USAAA      A-2011-0135-ZBI   Audit of Testing and Evaluation                                                                  06/15/2011
USAAA      A-2011-0136-ZBI   Audit of Testing and Evaluation                                                                  06/15/2011
USAAA      A-2011-0130-FFD   Biometrics Interoperability, Deputy Chief of Staff, G-3/5/7 (FOUO)                               06/14/2011
USAAA      A-2011-0096-FFD   Contracted Support Functions, U.S. Army Asymmetric Warfare Group (FOUO)                          05/03/2011
USAAA      A-2011-0100-IET   Data at Rest, Fort Bragg                                                                         04/29/2011
USAAA      A-2011-0152-FFD   Followup Audit of Force Protection Funds, Office of the Provost Marshal General                  07/12/2011
USAAA      A-2011-0190-FFD   Followup Audit of Installation Contract Guards, Office of the Provost Marshal General            09/06/2011
USAAA      A-2011-0147-IET   Information Assurance Certification for Contractors, Office of the Chief Information             06/23/2011
                             Officer/G-6
USAAA      A-2011-0149-IET   Internet Protocol Version 6, Chief Information Officer/G-6                                       07/11/2011
USAAA      A-2011-0204-FFD   Memorandum Report, Audit of Protection Requirements and Costs at Leased Facilities               09/14/2011
                             (FOUO)
USAAA      A-2011-0215-IET   Memorandum Report, The Army's Use of Smart Phones                                                09/29/2011
USAAA      A-2011-0150-IET   The Army's Use of Social Media, External Official Presence Sites                                 07/26/2011
USAAA      A-2011-0099-FFD   Time-Sensitive Report, Audit of Vulnerability Assessments and Risk Mitigation plans for          04/26/2011
                             Non-Installation U.S. Army Corps of Engineers Sites (FOUO)
USAAA      A-2011-0199-FFD   Vulnerability Assessments and Risk Mitigation for Off-Installation Sites, U.S. Army              09/08/2011
                             Accessions Command
USAAA      A-2011-0163-FFD   Vulnerability Assessments and Risk Mitigation for Off-Installation Sites, U.S. Army Cadet        07/26/2011
                             Command (FOUO)
USAAA      A-2011-0161-FFD   Vulnerability Assessments and Risk Mitigation for Off-Installation Sites, U.S. Army Recruiting   07/26/2011
                             Command


                                                                                                            APRIL 1, 2011 TO SEPTEMBER 30, 2011 85
Appendix A
Agency           Report Number         Report Title                                                                                   Date
USAAA            A-2011-0195-FFD       Vulnerability Assessments and Risk Mitigation for Off-Installation Sites, U.S. Military        09/06/2011
                                       Entrance Processing Command (FOUO)
NAVAUDSVC        N2011-0038            Controls Over Navy Marine Corps Intranet Contractors and Subcontractors Accessing              05/26/2011
                                       Department of the Navy Information
NAVAUDSVC        N2011-0040            Managing Personally Identifiable Information at Marine Corps Base Camp Lejeune                 06/01/2011
NAVAUDSVC        N2011-0047            Certification and Accreditation of Information Systems within the Marine Corps                 08/02/2011
NAVAUDSVC        N2011-0056            Contractors Accessing Department of the Navy Information on Non-Navy Marine Corps              09/07/2011
                                       Intranet Networks
NAVAUDSVC        N2011-0063            Information Systems Controls Within the Bureau of Medicine and Surgery                         09/29/2011
AFAA             F-2011-0004-          Air Force Enterprise Architecture Implementation                                               05/09/2011
                 FB2000
AFAA             F-2011-0003-          Access Controls for Electronic Medical Records                                                 04/01/2011
                 FB4000
AFAA             F-2011-0004-          Computer Network Incident Response and Reporting                                               04/20/2011
                 FB4000
AFAA             F-2011-0005-          Computer Network Cyber Incident Response and Reporting (Classified)                            05/02/2011
                 FB4000
AFAA             F-2011-0006-          Privacy Breach Reporting                                                                       07/14/2011
                 FB4000
AFAA             F-2011-0007-          Selected Long-Haul Telecommunication Requirements                                              08/17/2011
                 FB4000
AFAA             F-2011-0008-          Router Management                                                                              08/18/2011
                 FB4000

Acquisitions and Contracting
Agency          Report Number          Report Title                                                                                   Date
DoD IG          D-2011-061             Excess Inventory and Contract Pricing Problems Jeopardize the Army Contract With Boeing to     05/03/2011
                                       Support the Corpus Christi Army Depot (FOUO)
DoD IG          D-2011-066             Incomplete Contract Files for Southwest Asia Task Orders on the Warfighter Field Operations    06/01/2011
                                       Customer Support Contract
DoD IG          D-2011-068             Additional Actions Can Improve Naval Air Systems Command's Use of Undefinitized                06/08/2011
                                       Contractual Actions
DoD IG          D-2011-073             Afghanistan National Army Equipment Maintenance Apprenticeship and Services Program            06/14/2011
                                       Contract
DoD IG          D-2011-077             Improved Management Can Reduce Costs of the Maintenance, Repair, and Operations Prime          06/24/2011
                                       Vendor Contract for the Republic of Korea (FOUO)
DoD IG          D-2011-078             Contracts Supporting Base Operations in Kuwait Need Stronger Management and                    06/30/2011
                                       Administration
DoD IG          D-2011-081             Contract Management of Joint Logistics Integrator Services in Support of Mine Resistant        07/11/2011
                                       Ambush Protected Vehicles Needs Improvement
DoD IG          D-2011-083             Additional Actions Can Further Improve the DoD Suspension and Debarment Process                07/14/2011
DoD IG          D-2011-087             Procurement of High-Mobility Multipurpose Wheeled Vehicles and Troop Enclosures for the        07/20/2011
                                       Afghan National Security Forces
DoD IG          D-2011-088             Ballistic Testing for Interceptor Body Armor Inserts Needs Improvement                         08/01/2011
DoD IG          D-2011-097             Army Contracting Command-Redstone Arsenal's Management of Undefinitized Contractual            08/12/2011
                                       Actions Could Be Improved
DoD IG          D-2011-104             Pricing and Escalation Issues Weaken the Effectiveness of the Army Contract With Sikorsky to   09/08/2011
                                       Support the Corpus Christi Army Depot (FOUO)
DoD IG          D-2011-105             Competition for Interrogation Arm Contracts Needs Improvement                                  09/19/2011
DoD IG          D-2011-110             Better Management of Fuel Contracts and International Agreements in the Republic of Korea      09/27/2011
                                       Will Reduce Costs




86 SEMIANNUAL REPORT TO THE CONGRESS
Agency   Report Number     Report Title                                                                                     Date
DoD IG   D-2011-112        Counterintelligence Interviews for U.S.-Hired Contract Linguists Could Be More Effective         09/30/2011
                           (FOUO)
DoD IG   D-2011-113        Improved Pricing and Oversight Needed for the Afghan Air Force Pilot and English Language        09/30/2011
                           Training Task Order
DoD IG   D-2011-6-010      Failure of Defense Contract Audit Agency (DCAA) to Provide Adequate Support in Response to       09/02/2011
                           a Request for Review of Interim Public Vouchers
DoD IG   D-2011-6-011      Report on Hotline Allegation Regarding Lack of Agency Guidance on the Currency of Audit          09/02/2011
                           Testing in the Defense Contract Audit Agency
DoD IG   11-INTEL-08       DoD Efforts to Protect Critical Program Information: The Air Force's Family of Advanced Beyond   04/15/2011
                           Line-of-Sight Terminals
DoD IG   11-INTEL-11       Summary of FY 2010 Inspections on Security, Intelligence, Counterintelligence, and               06/27/2011
                           Technology Protection Practices at DoD Research, Development, Test, and Evaluation Facilities
USAAA    A-2011-0175-IEU   Administration of the Joint Training and Exercise Support Contract                               08/10/2011
USAAA    A-2011-0167-ALA   After Action Review of the Multi-Mission Unmanned Ground Vehicle Program                         07/29/2011
USAAA    A-2011-0109-ALC   Arlington National Cemetery Operations - Government Purchase Card                                05/18/2011
USAAA    A-2011-0106-ALA   Army Rapid Acquisition Processes-Tailored Acquisition (FOUO)                                     05/09/2011
USAAA    A-2011-0120-ALC   Audit of the Army's Human Capital Plans-Contracting (Reachback Capabilities)                     07/06/2011
USAAA    A-2011-0141-ALC   Audit of the Army's Short-Term Human Capital Plans Contracting (Defense Acquisition              07/06/2011
                           Workforce Development Fund)
USAAA    A-2011-0219-ALA   Configuration Management of Weapon Systems, Program Executive Offices, Ground Combat             09/30/2011
                           Systems, and Combat Support and Combat Service Support
USAAA    A-2011-0145-ALL   Contract for Recycling and Disposing of Waste Material, Camp Steeler, Iraq                       06/22/2011
USAAA    A-2011-0213-FFP   Contract Incentives, U.S. Army Pacific                                                           09/29/2011
USAAA    A-2011-0212-ALC   Contract Requirements Definition - Base Operations Support, U.S. Army Installation               09/22/2011
                           Management Command
USAAA    A-2011-0144-ALC   Contracting Operations in Support of Arlington National Cemetery, U.S. Army Corps of             06/28/2011
                           Engineers, North Atlantic Division, Baltimore District
USAAA    A-2011-0200-ALS   Examination of the Statement of Work for a Regional Warehouse Consolidation Study, Great         09/09/2011
                           Lakes and Ohio River Division, U.S. Army Corps of Engineers
USAAA    A-2011-0165-ALA   Followup Audit of Warfighter Information Network - Tactical, Fort Monmouth, New Jersey           07/21/2011
USAAA    A-2011-0101-ALC   Logistics Civil Augmentation Program (LOGCAP) III Contract Closeout, U.S. Army Contracting       04/28/2011
                           Command-Rock Island
USAAA    A-2011-0146-FFP   Managing Military Construction Projects, Alaska                                                  08/04/2011
USAAA    A-2011-0191-IEI   Military Construction Contract U.S. Army Corps of Engineers Albuquerque District, Brigade        09/14/2011
                           Combat Teams 1, 2, and 3 Company Operations Facilities, Fort Bliss, Texas
USAAA    A-2011-0170-IEI   Military Construction Contract, Infantry Brigade Combat Teams 1 and 2, Unaccompanied             08/26/2011
                           Enlisted Personnel Housing, Fort Bliss, Texas
USAAA    A-2011-0205-IEI   Military Construction Contract, U.S. Army Corps of Engineers Forth Worth District, Combat        09/15/2011
                           Aviation Brigade Unaccompanied Enlisted Personnel Housing, Fort Bliss, Texas
USAAA    A-2011-0172-IEI   Military Construction Contract, U.S. Army Corps of Engineers Sacramento District, Brigade        08/30/2011
                           Combat Teams 1, 2, and 3 Headquarters Buildings, Fort Bliss, Texas
USAAA    A-2011-0166-IEI   Military Construction Contracts U.S. Army Corps of Engineers Savannah District, U.S. Army        07/28/2011
                           Armor School, Fort Benning, Georgia
USAAA    A-2011-0134-IEO   No-Cost Economic Development Conveyance, Oakland Redevelopment Agency                            06/22/2011
USAAA    A-2011-0116-ALA   Paladin integrated Management Costs, Program Executive Office, Ground Combat Systems             05/20/2011
USAAA    A-2011-0153-ALA   Power and Energy Consumption in Weapon Systems, Office of the Secretary of the Army              07/06/2011
                           (Acquisition, Logistics and Technology)
USAAA    A-2011-0198-ALA   Research, Development, Test and Evaluation Costs for the Ground Combat Vehicle, Office of        09/08/2011
                           the Program Manager Ground Combat Vehicle (FOUO)
USAAA    A-2011-0188-IEU   Sole-Source Contracts in Europe, 409th Contracting Support Brigade, Expeditionary                08/25/2011
                           Contracting Command, Europe




                                                                                                           APRIL 1, 2011 TO SEPTEMBER 30, 2011 87
Appendix A


Agency          Report Number          Report Title                                                                                    Date
USAAA           A-2011-0203-IEU        Visibility and Oversight of Service Contracts in Europe, U.S. Installation Management           09/14/2011
                                       Command, Europe Region
NAVAUDSVC       N2011-0033             Contracts Awarded to Selected Contractors by Naval Supply Systems Command and Naval             05/05/2011
                                       Facilities Engineering Command Contracting Activities
NAVAUDSVC       N2011-0053             Naval Criminal Investigative Service Emergency and Extraordinary Expense Funds                  08/26/2011
NAVAUDSVC       N2011-0054             Award-Fee Contracts at Naval Facilities Engineering Command                                     08/30/2011
NAVAUDSVC       N2011-0057             Incentive and Progress Payments at Naval Supply Systems Command                                 09/07/2011
NAVAUDSVC       N2011-0058             Spare Parts Contracts Awarded for Maintenance Centers Albany, GA and Barstow, CA for            09/14/2011
                                       Selected United States Marine Corps Equipment
NAVAUDSVC       N2011-0064             Diego Garcia Base Operating Support Contract                                                    09/30/2011
AFAA            F-2011-0004-FC1000     Engineering and Technical Services Contract for Pacific Air Forces Command, Control,            04/20/2011
                                       Communications, Computers, Intelligence, War Gaming, and Force Protection
AFAA            F-2011-0005-FC1000     Air Force Smart Operations for the 21st Century Contract Management and Oversight               06/15/2011
AFAA            F-2011-0006-FC1000     Simplified Acquisition of Base Engineering Requirements Contracts                               07/13/2011
AFAA            F-2011-0007-FC1000     Contractor Performance Assessment Reporting Program                                             08/13/2011
AFAA            F-2011-0008-FC1000     Multiple-Award Indefinite Delivery Indefinite Quantity Contracts at the Air Logistics Centers   08/13/2011
AFAA            F-2011-0009-FC1000     Headquarters Air Force Services Contract Management and Oversight                               08/29/2011
AFAA            F-2011-0010-FC1000     Contracting Officer Representatives                                                             08/30/2011
AFAA            F-2011-0011-           Item Unique Identification Requirements on Air Force Contracts                                  08/30/2011
                FC1000
AFAA            F-2011-0003-           Quality Assurance Over Contract Maintenance                                                     04/11/2011
                FC2000
AFAA            F-2011-0005-           Interim Report of Audit, Acquisition Improvement Plan Implementation, Initiative 1              04/01/2011
                FC3000
AFAA            F-2011-0006-           Interim Report of Audit, Acquisition Improvement Plan Implementation, Initiative 2              04/14/2011
                FC3000
AFAA            F-2011-0007-           Interim Report of Audit, Acquisition Improvement Plan Implementation, Initiative 3              06/13/2011
                FC3000
AFAA            F-2011-0008-           Acquisition Improvement Plan Implementation                                                     07/29/2011
                FC3000
AFAA            F-2011-0009-           B-2 Modifications                                                                               08/25/2011
                FC3000
AFAA            F-2011-0010-           C-27J Program Management Transition                                                             09/07/2011
                FC3000
AFAA            F-2011-0015-           Cooperative Agreement for Environmental Services, Lowry AFB CO                                  08/12/2011
                FD1000
AFAA            F-2011-0019-           Alaska Military Construction                                                                    09/01/2011
                FD1000
AFAA            F-2011-0003-           Bomber Weapon System Simulators                                                                 04/01/2011
                FD3000
AFAA            F-2011-0005-           Follow-up Audit, United States Air Forces Central Services Contract Management                  06/02/2011
                FD3000

Financial Management
Agency          Report Number          Report Title                                                                                    Date
DoD IG          D-2011-058             Defense Finance and Accounting Service Has Made Progress in Providing Staffing Levels to        04/07/2011
                                       Support the Mission in Southwest Asia
DoD IG          D-2011-059             Army Commercial Vendor Services Offices in Iraq Noncompliant with Internal Revenue Service      04/08/2011
                                       Reporting Requirements




88 SEMIANNUAL REPORT TO THE CONGRESS
Agency      Report Number        Report Title                                                                                      Date
DoD IG      D-2011-060           Marine Corps Inventory of Small Arms Was Generally but Improvements Are Needed for                04/22/2011
                                 Related Guidance and Training
DoD IG      D-2011-064           Information Security Controls Over the Marine Corps Total Force System Need Improvement           05/05/2011
                                 (FOUO)
DoD IG      D-2011-070           Planning Needed on Special Purpose Entity Funds for the Guam Realignment (Classified)             06/15/2011
DoD IG      D-2011-072           Previously Identified Deficiencies Not Corrected in the General Fund Enterprise Business          06/15/2011
                                 System Program
DoD IG      D-2011-075           DoD Officials Need to Improve Reporting of Obligations and Expenditures for the Guam              06/17/2011
                                 Realignment
DoD IG      D-2011-084           Defense Finance and Accounting Service Needs More Effective Controls Over Managing DoD            07/15/2011
                                 Contractor Debt
DoD IG      D-2011-086           U.S. Marine Corps Forces Special Operations Command Needs to Improve Controls over                07/20/2011
                                 Financial Transaction
DoD IG      D-2011-090           Cost of War Data for Marine Corps Contingency Operations Were Not Reliable                        07/22/2011
DoD IG      D-2011-091           DoD Indian Incentive Program Payments to Related Parties and Rebates to Excluded Parties          07/22/2011
DoD IG      D-2011-093           Active Duty Military Personnel Accounts Were Generally Valid and Secure, but DoD May Have         07/27/2011
                                 Made Improper Payments
DoD IG      D-2011-094           Internal Controls Over U.S. Army Corps of Engineers, Civil Works, Disbursement Processes          08/01/2011
DoD IG      D-2011-098           Defense Finance and Accounting Service Needs to Improve Controls Over the Completeness            08/15/2011
                                 and Accuracy of the Cash Management Report
DoD IG      D-2011-101           Controls over Army Deployable Disbursing System Payments Need Improvement                         08/17/2011
DoD IG      D-2011-118           Independent Auditor's Report on the Agreed-Upon Procedures for Reviewing the FY 2011              09/30/2011
                                 Civilian Payroll Withholding Data and Enrollment Information
USAAA       A-2011-0090-FFM      Audit Readiness: Statement of Budgetary Resources-Appropriations Received                         04/01/2011
USAAA       A-2011-0196-FFM      Controls Over the Incentive Program in the California Army National Guard, Joint Force            09/06/2011
                                 Headquarters, California Army National Guard and U.S. Property and Fiscal Office for California
USAAA       A-2011-0192-FFM      Controls Over the Incentive Program in the Pennsylvania Army National Guard                       09/01/2011
USAAA       A-2011-0162-FFM      General Fund Enterprise Business System Disbursing Process Control Points                         07/26/2011
USAAA       A-2011-0124-IEE      Hurricane and Storm Damage Risk Reduction System: Project Funding, U.S. Army Corps of             06/15/2011
                                 Engineers, Mississippi Valley Division and Task Force Hope
USAAA       A-2011-0092-FFD      Reimbursement for Training Contractor Personnel                                                   04/20/2011
USAAA       A-2011-0095-FFM      Review of Army Assertion Document on Existence and Completeness of 'Quick Win' Mission-           05/10/2011
                                 Critical Assets (FOUO)
USAAA       A-2011-0121-FFM      Review of Army Working Capital Fund Capital Leases (FOUO)                                         06/24/2011
USAAA       A-2011-0091-FFM      Review of the Army Working Capital Fund Cash Liability Analysis                                   04/05/2011
USAAA       A-2011-0156-FFM      Review of the Army's Compliance with the Federal Managers' Financial Integrity Act                07/12/2011
USAAA       A-2011-0214-ZBI      Temporary Duty Authorizations and Vouchers, Program Executive Office Missiles and Space,          09/27/2011
                                 Lower Tier Project Office
NAVAUDSVC   N2011-0030           Department of Defense Electronic Mall Internal Controls for the Navy                              04/29/2011
NAVAUDSVC   N2011-0048           Budget Execution Transactional Review at Selected Fleet Warfare Enterprise Commands               08/04/2011
NAVAUDSVC   N2011-0049           Internal Controls Over Spending Within the Department of the Navy Shore Energy Program            08/09/2011
AFAA        F-2011-0004-         Audit Follow-up Program                                                                           05/16/2011
            FB1000
AFAA        F-2011-0005-         Air Force Office of Special Investigations Emergency and Extraordinary Expense Funds              08/30/2011
            FB1000
AFAA        F-2011-0006-         Official Representation Funds                                                                     08/30/2011
            FB1000
AFAA        F-2011-0005-FB2000   Standard Financial Information Structure Compliance                                               06/23/2011




                                                                                                                  APRIL 1, 2011 TO SEPTEMBER 30, 2011 89
Appendix A


Agency           Report Number          Report Title                                                                                     Date
AFAA             F-2011-0005-FB3000     Services Medical Activity - Air Force, Intragovernmental Transactions Related to the Exchange    04/21/2011
                                        of Goods and Services
AFAA             F-2011-0006-FB3000     Management Internal Control Program Over Nonfinancial Operations                                 04/22/2011
AFAA             F-2011-0007-FB3000     Cruise Missile, Target, and Drone Accountability                                                 04/25/2011
AFAA             F-2011-0008-FB3000     Follow-up Audit, Travel Obligations                                                              08/26/2011
AFAA             F-2011-0013-           Interim Report of Audit, Utilities Privatization Economic Analyses, Travis Electric              04/04/2011
                 FD1000
AFAA             F-2011-0016-           Interim Report of Audit, Yeager Air National Guard WV Water Utilities Privatization Economic     08/25/2011
                 FD1000                 Analyses
AFAA             F-2011-0017-           Interim Report of Audit, MacDill AFB FL Gas Utilities Privatization Economic Analyses            08/25/2011
                 FD1000
AFAA             F-2011-0018-           Interim Report of Audit, Minot AFB ND Electric Utilities Privatization Economic Analysis         08/25/2011
                 FD1000
AFAA             F-2011-0006-           Flag Exercise Funding                                                                            06/27/2011
                 FD3000
AFAA             F-2011-0006-           Civilian Overtime and Compensatory Time                                                          04/22/2011
                 FD4000
AFAA             F-2011-0010-           Active Duty Military to Civilian Conversions                                                     06/15/2011
                 FD4000
AFAA             F-2011-0012-           Combat Pay and Tax Exclusion                                                                     08/12/2011
                 FD4000
AFAA             F-2011-0013-           Air Force Space Command Training Systems                                                         08/18/2011
                 FD4000

Health and Safety
Agency            Report Number          Report Title                                                                                   Date
DoD IG            D-2011-092             Guam Medical Plans Do Not Ensure Active Duty Family Members Will Have Adequate                 07/25/2011
                                         Access to Dental Care
DoD IG            D-2011-099             Additional Actions Needed to Mitigate Risks of Unsuitable Life Insurance Sales to Junior       08/23/2011
                                         Enlisted Service Members
DoD IG            D-2011-107             Improvements Needed in Procedures for Certifying Medical Providers and Processing and          09/09/2011
                                         Paying Medical Claims in the Philippines
DoD IG            SPO-2011-010           Assessment of DoD Wounded Warrior Matters – Fort Drum                                          09/30/2011
DoD IG            SPO-2011-009           Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003, Part II - Evaluation of Army and     08/25/2011
                                         Contractor Actions Related to Hazardous Industrial Exposure
USAAA             A-2011-0158-IEO        Army Traffic Safety Training Program, U.S. Army Installation Management Command                07/15/2011
USAAA             A-2011-0220-IEM        Behavioral Health Programs, Fort Carson and Evans Army Community Hospital                      09/30/2011
USAAA             A-2011-0164-IEE        Safety and Occupational Health Professionals                                                   08/05/2011
USAAA             A-2011-0117-IEM        Survivor Outreach Services, Office of the Assistant Chief of Staff for Installation            06/07/2011
                                         Management
NAVAUDSVC         N2011-0044             Navy Reserve Component’s Access to Military Medical                                            07/14/2011
NAVAUDSVC         N2011-0045             Department of the Navy Civilian Drug-Free Workplace Program – Discipline                       07/19/2011
NAVAUDSVC         N2011-0061             Post-Deployment Health Reassessment at the U.S. Navy: Fiscal Years 2008, 2009, and 2010        09/23/2011
                                         Data Analysis and Future Monitoring Recommendations
AFAA              F-2011-0005-FD2000 Pharmaceutical Purchases                                                                           04/27/2011
AFAA               F-2011-0006-FD2000 Air Reserve Component Members on Medical Continuation Status                                      04/28/2011
AFAA              F-2011-0007-           Air Force Medical Service Surgical Optimization                                                08/10/2011
                  FD2000




 90 SEMIANNUAL REPORT TO THE CONGRESS
American Recovery and Reinvestment Act
Agency     Report Number     Report Title                                                                                Date
DoD IG     D-2011-062        Motion Sensor Project at Fort Hood, Texas, Generally Complied With the American             04/29/2011
                             Recovery and Reinvestment Act
DoD IG     D-2011-065        Project to Repair Nutrition Care Division at Fort Carson, Colorado, Generally Complied      07/22/2011
                             With the American Recovery and Reinvestment Act
DoD IG     D-2011-067        American Recovery and Reinvestment Act Project “Hospital Replacement Phase I” at Fort       06/06/2011
                             Hood, Texas, Was Properly Planned; However, Transparency Could Be Improved
DoD IG     D-2011-069        American Recovery and Reinvestment Act Small Business Innovation Research Projects in       06/09/2011
                             the DoD Near Term Energy-Efficient Technologies Program
DoD IG     D-2011-071        U.S. Air Force Academy Could Have Significantly Improved Planning, Funding, and Initial     06/16/2011
                             Execution of the American Recovery and Reinvestment Act Solar Array Project
DoD IG     D-2011-074        U.S. Army Corps of Engineers-Civil Works, Omaha District, Generally Met Recovery Act        06/16/2011
                             Requirements
DoD IG     D-2011-076        American Recovery and Reinvestment Act--Department of the Navy Near Term Energy-            06/23/2011
                             Efficient Technologies Projects
DoD IG     D-2011-082        American Recovery and Reinvestment Act Project to Construct Military Family Housing at      07/11/2011
                             Eielson Air Force Base, Alaska
DoD IG     D-2011-106        The Department of the Navy Spent Recovery Act Funds on Photovoltaic Projects That           09/22/2011
                             Were Not Cost-Effective
DoD IG     D-2011-108        Geothermal Energy Development Project at Naval Air Station Fallon, Nevada, Did Not          09/19/2011
                             Meet Recovery Act Requirements
DoD IG     D-2011-109        American Recovery and Reinvestment Act "Heating, Ventilation, and Air Conditioning          09/16/2011
                             Replacement" Project at Naval Support Activity Norfolk-Planning and Initial Execution
                             Could Have Been Improved
DoD IG     D-2011-116        American Recovery and Reinvestment Act Wind Turbine Projects at Long-Range-Radar            09/30/2011
                             Sites in Alaska Were Not Adequately Planned
DoD IG     D-2011-117        American Recovery and Reinvestment Act - Repair Project at Camp Pendleton, California,      09/30/2011
                             Needed Improvements in Planning
DoD IG     D-2011-119        American Recovery and Reinvestment Act-Improper Planning of the Administrative              09/30/2011
                             Buildings Project at Camp Lejeune, North Carolina
DoD IG     D-2011-120        Recovery Act-Funded Naval Hospital Replacement Project at Camp Pendleton, California,       09/30/2011
                             Was Adequately Justified and Planned and, if Implemented, Performance and Reporting
                             Controls Should Be Effective
USAAA      A-2011-0202-IEE   American Recovery and Reinvestment Act of 2009: Project Outcomes and Recipient              09/21/2011
                             Reporting, Oregon Army National Guard
USAAA      A-2011-0093-IEE   American Recovery and Reinvestment Act of 2009 Project Execution, Aberdeen Proving          04/07/2011
                             Ground, Maryland
USAAA      A-2011-0194-IEO   American Recovery and Reinvestment Act of 2009: Project Outcomes and Recipient              09/08/2011
                             Reporting, Dwight D. Eisenhower Army Medical Center, Fort Gordon, Georgia
USAAA      A-2011-0131-FFF   American Recovery and Reinvestment Act of 2009: Project Outcomes and Recipient              06/21/2011
                             Reporting, Fort Knox, Kentucky
USAAA      A-2011-0201-FFP   American Recovery and Reinvestment Act of 2009: Project Outcomes and Recipient              09/19/2011
                             Reporting, Fort Richardson, Alaska
USAAA      A-2011-0138-IEE   American Recovery and Reinvestment Act of 2009: Project Outcomes and Recipient              06/24/2011
                             Reporting, Joint Base San Antonio
USAAA      A-2011-0185-IEO   American Recovery and Reinvestment Act of 2009: Project Outcomes and Recipient              08/24/2011
                             Reporting, South Carolina Army National Guard
USAAA      A-2011-0176-IEE   American Recovery and Reinvestment Act of 2009: Project Outcomes and Recipient              08/24/2011
                             Reporting, U.S. Army Corps of Engineers Fort Worth District
USAAA      A-2011-0183-IEE   American Recovery and Reinvestment Act of 2009: Project Outcomes and Recipient              08/24/2011
                             Reporting, U.S. Army Corps of Engineers Kansas City District



                                                                                                           APRIL 1, 2011 TO SEPTEMBER 30, 2011 91
Appendix A


 Agency            Report Number        Report Title                                                                               Date
 USAAA             A-2011-0125-IEE      Review of American Recovery and Reinvestment Act Projects, Joint Base Lewis-McChord,       06/15/2011
                                        Washington
 USAAA             A-2011-0157-IEE      Summary Result for Phase II Audits of the American Recovery and Reinvestment Act of        07/14/2011
                                        2009
 NAVAUDSVC         N2011-0060           American Recovery and Reinvestment Act of 2009 – Photovoltaic Projects at Hampton          09/22/2011
                                        Roads, VA and Navy Installations in Florida, Texas, and Mississippi
 NAVAUDSVC         N2011-0062           American Recovery and Reinvestment Act of 2009 – Advanced Metering Infrastructure          09/23/2011
                                        Projects at Navy Installations in Florida, Mississippi, and Texas


Nuclear Enterprise
 Agency            Report Number        Report Title                                                                               Date
 DoD IG            11-ISPA-15           Review of United States Navy Nuclear Weapon Security Program                               09/19/2011


Other
 Agency            Report Number        Report Title                                                                                Date
 DoD IG            D-2011-6-008         Hotline Complaint Regarding A Defense Contract Audit Agency Employee Conducting             06/28/2011
                                        Private For-Profit Tax Business Activity on Government Time and Using Government
                                        Equipment
 DoD IG            D-2011-6-007         Hotline Allegations Concerning a Field Audit Office in the Defense Contract Audit Agency    04/15/2011
                                        Central Region
 DoD IG            D-2011-TAD-001       Assessment of BRAC 133 Final Environmental Assessment of July 2008 and Transportation       04/20/2011
                                        Management Plan of July 2010
 NAVAUDSVC         N2011-0029           Verification of Operational Capabilities and Internal Controls at Joint Region Marianas     04/27/2011
 NAVAUDSVC         N2011-0031           Responses to Phone Calls Made to Department of the Navy Sexual Assault-Related Phone        05/03/2011
                                        Numbers
 NAVAUDSVC         N2011-0032           Naval Station Rota, Spain, Human Resources Office and Local National Employee Program       05/05/2011
 NAVAUDSVC         N2011-0034           Department of the Navy Medical Corps Officer Contracts                                      05/12/2011
 NAVAUDSVC         N2011-0035           Project Handclasp Internal Controls                                                         05/19/2011
 NAVAUDSVC         N2011-0036           Reporting of Marine Corps Personnel Mishaps                                                 05/20/2011
 NAVAUDSVC         N2011-0037           Marine Corps Community Services in Okinawa                                                  05/24/2011
 NAVAUDSVC         N2011-0039           Quality of Life Plans for United States Marine Corps Forces Relocating from Okinawa to      05/27/2011
                                        Guam
 NAVAUDSVC         N2011-0041           Followup on Management of Privacy Act Information at Naval District Washington              06/15/2011
 NAVAUDSVC         N2011-0042           Ethics Programs at Military Sealift Command Sealift Logistics Commands Atlantic and         06/27/2011
                                        Pacific
 NAVAUDSVC         N2011-0043           Total Force Manpower Management System Civilian Requirements                                07/08/2011
 NAVAUDSVC         N2011-0046           Followup on Management of Personally Identifiable Information at Marine Corps               07/29/2011
                                        Recruiting Command
 NAVAUDSVC         N2011-0050           Naval Audit Service Input for the Fiscal Year 2011 Statement of Assurance                   08/15/2011
 NAVAUDSVC         N2011-0052           Test of Department of the Navy Sexual Assault-Related Phone Numbers                         08/26/2011
 NAVAUDSVC         N2011-0059           Ethics Program at Naval District Washington                                                 09/15/2011


▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(6).




 92 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                             Appendix B


                                                          Reports Containing Potential
                                                                   Monetary Benefits

                                                                                                       Potential Monetary Benefits
                                                                                                                       Funds Put to Better
                                Reports Issued                                                     Disallowed Costs
                                                                                                                              Use

  D-2011-061 Excess Inventory and Contract Pricing Problems Jeopardize the
                                                                                   05/03/2011             N/A              $287,800,000
  Army Contract with Boeing to Support the Corpus Christi Army Depot

  D-2011-077 Improved Management Can Reduce Costs of the Maintenance,
                                                                                   06/24/2011             N/A                 $44,500
  Repair, and Operations Prime Vendor Contract for the Republic of Korea

  D-2011-080 DoD and DOS Need Better Procedures to Monitor and Expend DoD
                                                                                   07/07/2011             N/A              $124,620,000
  Funds for the Afghan National Police Training Program

  D-2011-082 American Recovery and Reinvestment Act Project to Construct
                                                                                   07/11/2011             N/A                 $4,910
  Military Family Housing at Eielson Air Force Base, Alaska

  D-2011-091 DoD Indian Incentive Program Payments to Related Parties and
                                                                                   07/22/2011             N/A               $4,170,000
  Rebates to Excluded Parties

  D-2011-093 Active Duty Military Personnel Accounts Were Generally Valid and
                                                                                   07/27/2011             N/A               $4,200,000
  Secure, but DoD May Have Made Improper Payments

  D-2011-101 Controls Over Army Deployable Disbursing System Payments Need
                                                                                   08/17/2011             N/A                $162,258
  Improvement
  D-2011-102 Afghan National Police Training Program Would Benefit From Better
                                                                                   08/25/2011             N/A              $75,600,000
  Compliance With the Economy Act and Reimbursable Agreements
  D-2011-104 Pricing and Escalation Issues Weaken the Effectiveness of the Army
                                                                                   09/08/2011             N/A              $49,609,523
  Contract With Sikorsky to Support the Corpus Christi Army Depot

  D-2011-110 Better Management of Fuel Contracts and International
                                                                                   09/27/2011             N/A                $712,166
  Agreements in the Republic of Korea Will Reduce Costs

  D-2011-113 Improved Pricing and Oversight Needed for the Afghan Air Force
                                                                                   09/30/2011             N/A                $431,638
  Pilot and English Language Training Task Order


  Total                                                                                                                   $547,354,995

▶ Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(6) (See
Appendix A).




                                                                                                      APRIL 1, 2011 TO SEPTEMBER 30, 2011 93
Appendix C




Follow-up Activities
Decision status of DoD IG issued audit reports and dollar value of recommendations that funds be put to better use.

                                                                                                                      Funds Put
                                           Status                                          Number                  To Better Use 1
                                                                                                                  ($ in thousands)
     A.      For which no management decision had been made by the
             beginning of the reporting period.                                              25                     $148,897
     B.      For which were issued during the reporting period.                              74                      547,355
             Subtotals (A+B)                                                                 99                      696,252



     C.       For which a management decision was made during the reporting period.
             (i) dollar value of recommendations that were agreed to by management.
                  - based on proposed management action
                  - based on proposed legislative action
             (ii) dollar value of recommendations that were not agreed to by
                  management.
                                                                                             67                      645,1952

     D.      For which no management decision has been made by the
             end of the reporting period.                                                    32                      $51,057
             Reports for which no management decision was made within six months of
             issue (as of September 30, 2011).                                                33                        97

1.        DoD IG issued no audit reports during the period involving “questioned costs.”
2.        On these audit reports management has agreed to take the recommended actions, but the amount of agreed monetary benefits
          cannot be determined until those actions are completed.
3.        DoD IG Report No. D-2010-083, “Construction of New Kabul Compound Lacked Planning and Coordination, ” September 30,
          2010; DoD IG Report No. D-2011-045, “American Recovery and Reinvestment Act Project – Solar and Lighting at Naval Station
          Norfolk, Virginia, ” February 25, 2011; and DoD IG Report No. SPO-2011-005, “Assessment of Allegations Concerning Traumatic
          Brain Injury Research Inquiry in Iraq, ” March 31, 2011, had no decision as of September 30, 2011, but action to achieve a decision
          is in process.
▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(8),(9), & (10).




 94 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                   Follow-up Activities
Status of action on central internal audits period ending September 30, 2011


                                                                                                                 Funds Put to Better Use 1
                                          Status                                              Number                ($ in thousands)


  DoD IG
    Action in Progress - Beginning of Period                                                    103                       $43,036

    Action Initiated - During Period                                                            67                        645,195

    Action Completed - During Period                                                            69                        164,312

    Action in Progress - End of Period                                                          101                        43,0362

  Military Departments
    Action in Progress - Beginning of Period                                                    509                      4,759,2223

    Action Initiated - During Period                                                            229                       785,126

    Action Completed - During Period                                                            239                       1,041,060

    Action in Progress - End of Period                                                          499                       4,439,367

1. DoD IG issued no reports during the period involving “questioned costs”.
2. On certain reports (primarily from prior periods) with audit estimated monetary benefits of $1,147 million, DoD IG agreed that
    the resulting monetary benefits can only be estimated after completion of management action, which is ongoing.
3. Incorporates retroactive adjustments.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(b)(2) & (3).




                                                                                                      APRIL 1, 2011 TO SEPTEMBER 30, 2011 95
Appendix d




Contract Audit Reports Issued1
                                                                         Dollars
                                                                       Examined              Questioned
  Type of audit2                                 Reports Issued      ($ in millions)           Costs3            Funds Put to Better Use

  Incurred Costs, Ops Audits, Special Audits         1,912             $12,314.9              $1,498.2                     ---4

  Forward Pricing Proposals                          1,143             $50,977.1                 ---                    $5,076.65

  Cost Accounting Standards                           502               $148.1                 $160.8                      ---

  Defective Pricing                                   12                (Note 6)                $7.3                       ---

  Totals                                             3,569             $63,440.1              $1,666.3                 $5,076.6

1. This schedule represents Defense Contract Audit Agency contract audit reports issued during the six months ended September 30,
    2011. This schedule includes any audits that DCAA performed on a reimbursable basis for other government agencies and the associ-
    ated statistics may also be reported in other DoD IG Semiannual Reports to Congress. Both “Questioned Costs” and “Funds Put to
    Better Use” represent potential cost savings. Because of limited time between availability of management information system data and
    legislative reporting requirements, there is minimal opportunity for DCAA to verify the accuracy of reported data. Accordingly, sub-
    mitted data is subject to change based on subsequent DCAA authentication. In prior semiannual reporting periods, DCAA reported
    the total number of assignments completed. The total number of assignments completed during the six months ended September 30,
    2011 was 5,076.6. Some completed assignments do not result in a report issued because they are part of a larger audit or because the
    scope of the work performed does not constitute an audit or attestation engagement under generally accepted government auditing
    standards, so the number of audit reports issued is less than the total number of assignments completed.
2. This schedule represents audits performed by DCAA summarized into four principal categories, which are defined as:
    Incurred Costs – Audits of direct and indirect costs charged to government contracts to determine that the costs are reasonable, al-
    locable, and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition Regulation Supplement, and
    provisions of the contract. Also included under incurred cost audits are Operations Audits, which evaluate a contractor’s operations
    and management practices to identify opportunities for increased efficiency and economy; and Special Audits, which include audits
    of terminations and claims.
    Forward Pricing Proposals – Audits of estimated future costs of proposed contract prices, proposed contract change orders, costs for
    redeterminable fixed-price contracts, and costs incurred but not yet covered by definitized contracts.
    Cost Accounting Standards – A review of a contractor’s cost impact statement required due to changes to disclosed practices, failure
    to consistently follow a disclosed or established cost accounting practice, or noncompliance with a CAS regulation.
    Defective Pricing – A review to determine whether contracts are based on current, complete and accurate cost or pricing data (the
    Truth in Negotiations Act).
3. Questioned costs represent costs that DCAA has questioned because they do not comply with rules, regulations, laws, and/or contrac-
    tual terms.
4. Represents recommendations associated with Operations Audits where DCAA has presented to a contractor that funds could be used
    more effectively if management took action to implement cost reduction recommendations.
5. Represents potential cost reductions that may be realized during contract negotiations.
6. Defective pricing dollars examined are not reported because the original value was included in the audits associated with the original
    forward pricing proposals.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 8(f)(1).




 96 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                   Appendix E




                                                                        Status of Action on Post-
                                                                        Award Contracts1
                                                                                       Costs Questioned
                                                         Number of Reports               ($ in millions)               Disallowed Costs6
     Open Reports:
      Within Guidelines2                                        472                        $1,281.4                           N/A7
       Overage, greater than 6 months3                          555                        $1,154.1                           N/A
       Overage, greater than 12 months   4
                                                                424                        $1,266.7                           N/A
       In Litigation   5
                                                                190                        $2,227.5                           N/A
     Total Open Reports                                        1,641                       $5,929.7                           N/A
     Closed Reports                                             389                        $1,072.7                     $236.3 (22.0%)8
     All Reports                                               2,030                       $7,002.4                      $236.3 (3.4%)

1.      This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing, equitable adjust-
        ments, accounting and related internal control systems, and noncompliances with the Cost Accounting Standards as reported by
        DoD Components. The status of action on significant post-award contract audits is reported in accordance with DoD Instruction
        7640.02, “Policy for Follow-up on Contract Audit Reports.” Because of limited time between availability of the data and reporting
        requirements, there is minimal opportunity to verify the accuracy of the reported data.
2.      These reports are within the time frames established by OMB Circular A-50, “Audit Follow-up,” and DoD Instruction 7640.02 as
        described in footnotes 3 and 4 below.
3.      OMB Circular A-50 requires that audit reports be resolved within 6 months after report issuance. Generally, an audit is resolved
        when the contracting officer determines a course of action which is documented and approved in accordance with agency policy.
4.      DoD Instruction 7640.02 states that audit reports are overage if not dispositioned within 12 months from date of issuance. Generally,
        disposition is achieved when the contractor implements audit recommendations, the contracting officer negotiates a settlement
        with the contractor, or the contracting officer issues a final decision pursuant to the Disputes Clause.
5.      Of the 190 reports in litigation, 59 are under criminal investigation.
6.      Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.
7.      N/A (not applicable)
8.      Contracting officers disallowed $236.3 million (22.0 percent) of the $1,072.7 million questioned as a result of significant post-award
        contract audits during the period. The contracting officer disallowance rate of 22.0 percent represents a decrease from the disallow-
        ance rate of 53.4 percent for the prior reporting period.

▶ Fulfills requirement of DoD Instruction 7640.02, “Policy for Follow-up on Contract Audit Reports,” Enclosure 2, Section (1)(d).




                                                                                                           APRIL 1, 2011 TO SEPTEMBER 30, 2011 97
Appendix F




Status of Reports with
Action Pending
Report: D-2002-010, Armed Services Blood Program Defense Blood          Report: D-2008-066, FY 2006 and FY 2007 DoD Purchases Made
Standard System, 10/22/2001                                             Through the Department of the Interior, 03/19/2008
Description of Action: Commercial-Off-The-Shelf solution to correct     Description of Action: Publish guidance to address deficiencies in
the inventory counting and interface problems has been selected.        interagency acquisitions on the proper use of Non-DoD contracts.
Efforts continue to award contract for development/implementation/      Reason Action Not Completed: The Army delayed staffing the draft
deployment of Enterprise Blood Management System.                       directive pending a determination regarding future use of Directives
Reason Action Not Completed: Extensive time needed to develop           within the Department of the Army. The Draft Directive was reformat-
and award contract.                                                     ted as a manual for issuance as an Appendix to the Army’s Federal
Principal Action Office: USAF, ASD(HA)                                  Acquisition Regulation Supplement.
                                                                        Principal Action Office: Army
Report: D-2006-077, DoD Security Clearance Process at Requesting
Activities, 04/19/2006                                                  Report: D-2008-079, Management of Incremental Funds on Air Force
Description of Action: Updating policies for the DoD Personnel          Research, Development, Test, and Evaluation Contracts, 04/08/2008
Security Clearance Program to include various information includ-       Description of Action: Review the requirements of Air Force Instruc-
ing program management and investigative responsibilities, security     tion 65.601, chapter 13, to clarify the use of Research, Development,
clearance systems, submission processes, types and levels of security   Test, and Evaluation funds in the second year.
clearances, and training requirements for security personnel.           Reason Action Not Completed: Coordination and completion is
Reason Action Not Completed: Despite repeat recommendations to          expected by year end.
revise personnel security program guidance, the current guidance is     Principal Action Office: USAF
dated January 1987. Delays continue for revision and coordination of
DoD Instruction 5200.2 and DoD Manual 5200.2. ECD on DoDI is Nov        Report: D-2008-089, Planning Armor Requirements for the Family of
2011. ECD on the Manual is Oct 2012. The Army staffed the AR 380-67     Medium Tactical Vehicles, 05/09/2008
revision to the JAG office for review on 9/5/2011. Air Force provided   Description of Action: Update the capabilities documents for the
no estimated completion date for the creation of AFI 16-1401.           FMTV to include armor kit requirements. Once these requirements are
Principal Action Office: USD(I), Army, USAF                             approved, document plans for issuance of the armor kits.
                                                                        Reason Action Not Completed: Although action was initiated in late
Report: D-2008-002, DoD Salary Offset Program, 10/09/2007               2008, Army has yet to establish validated armor kit requirements for
Description of Action: Make modifications to existing systems to        the FMTV.
properly compute salary offsets for military members, retirees, and     Principal Action Office: Army
annuitants.
Reason Action Not Completed: Extensive time required to make            Report: D-2008-090, Controls Over Reconciling Army Working Capital
modifications to existing systems.                                      Fund Inventory Records, 05/13/2008
Principal Action Office: DFAS                                           Description of Action: The Army is working to update its regulations,
                                                                        policies, and procedures for performing the annual and end-of-day
Report: D-2008-045, Controls Over the TRICARE Overseas Healthcare       inventory reconciliations.
Program, 02/07/2008                                                     Reason Action Not Completed: The Army has coordinated the revi-
Description of Action: ASD (HA) is implementing recommendations         sion of policy and guidance, which is in the process of being pub-
to further control health care costs provided to overseas DoD benefi-   lished.
ciaries.                                                                Principal Action Office: Army
Reason Action Not Completed: Extensive time needed to revise fee
schedules.
Principal Action Office: ASD(HA)




 98 SEMIANNUAL REPORT TO THE CONGRESS
Report: D-2008-118, Host Nation Support of U.S. Forces in Korea,        Report: D-2009-059, Air Force Management of the U.S. Government
08/25/2008                                                              Aviation Into-Plane Reimbursement Card Program, 03/06/2009
Description of Action: Conduct joint reviews of accounting and          Description of Action: Develop Air Force specific guidance and
disbursing procedures for Labor Cost Sharing funds. Prepare and issue   procedures on the use of the AIR Card. Develop a training program to
any required updates to current policies and procedures based on        ensure training for all personnel involved in AIR functions.
joint review results.                                                   Reason Action Not Completed: Extensive time required to develop
Reason Action Not Completed: Extensive time taken to complete           and coordinate the policy.
coordination between DoD Components to conduct joint reviews            Principal Action Office: USAF
of accounting and disbursing policy, and update appropriate policy
guidance.                                                               Report: D-2009-062, Internal Controls Over DoD Cash and Other Mon-
Principal Action Office: USD(C)                                         etary Assets, 03/25/2009
                                                                        Description of Action: Improve internal controls over cash and other
Report: D-2008-130, Approval Process, Tracking, and Financial Man-      monetary assets by establishing a special control account, developing
agement of DoD Disaster Relief Efforts, 09/17/2008                      policies and procedures, and monitoring cash usage. Develop non-
Description of Action: Develop a memorandum of understanding            cash methods of payment for contingency operations.
with the Federal Emergency Management Agency that establishes           Reason Action Not Completed: Corrective actions cannot be imple-
guidelines and requirements for using and being reimbursed for DoD      mented until coordination with OMB and/or the Department of the
equipment used on mission assignments.                                  Treasury is complete. Extensive coordination needed between DoD
Reason Action Not Completed: The Department is reviewing current        and its Components, and with the Treasury and OMB.
procedures to determine if they align with the recently published       Principal Action Office: USD(C) DFAS
DODD 3025.18 and addresses issues identified.
Principal Action Office: USD(C)                                         Report: D-2009-064, FY 2007 DoD Purchases Made Through the
                                                                        National Institutes of Health, 03/24/2009
Report: D-2009-028, Organizational Structure and Managers Internal      Description of Action: Train contracting personnel, update financial
Control Program for the Assistant Secretary of Defense and American     records, and improve oversight of potential Antideficiency violations.
Forces Information Service, 12/10/2008                                  Reason Action Not Completed: Developing training, updating
Description of Action: Investigate potential misuse of funds, im-       financial records, and tracking progress of potential Anti-deficiency
proper contracting, and statutory violations.                           investigations takes considerable time to implement.
Reason Action Not Completed: The formal Antideficiency Act viola-       Principal Action Office: USD(AT&L), USD(C)
tion investigationsare ongoing.
Principal Action Office: ASD(PA), WHS                                   Report: D-2009-066, Marine Corps’ Management of the Recovery and
                                                                        Reset Programs, 04/01/2009
Report: D-2009-030, Marine Corps Implementation of the Urgent Uni-      Description of Action: USMC efforts are ongoing to improve inven-
versal Needs Process for Mine Resistance Ambush Protected Vehicles,     tory visibility and validate existing approved acquisition objectives.
12/05/2008                                                              Improvements resulting from that analyses will be implemented.
Description of Action: Report is FOUO.                                  Reason Action Not Completed: Management has not responded to a
Reason Action Not Completed: Joint Staff has been delayed issuing       request for current status of agreed-upon implementing action.
revised guidance due to pending DoD overarching guidance being          Principal Action Office: USMC
issued.. Marine Corps action is on hold pending completion of JS cor-
rective action.                                                         Report: D-2009-072, Monitoring Power Track Payments for DoD
Principal Action Office: JCS, USMC                                      Freight Transportation, 04/09/2009
                                                                        Description of Action: Use data mining to monitor problematic pay-
Report: D-2009-037, TRICARE Controls Over Claims Prepared By Third-     ments for duplicate payment indicators.
Party Billing Agencies, 12/31/2009                                      Reason Action Not Completed: The Third Party Payment System
Description of Action: Resolve legal relationship between providers     Oversight Council is implementing working group recommendations
and billing agencies in accordance with requirements.                   and the working group is exploring the use of data warehousing to
Reason Action Not Completed: Mediation discussions between TRI-         assist reviews.
CARE Management Activity and DoDIG have not yet been scheduled.         Principal Action Office: USD(AT&L)
Principal Action Office: ASD(HA)
                                                                        Report: D-2009-086, Controls over the Contractor Common Access
Report: D-2009-051, Controls Over Time and Attendance Reporting at      Card Life Cycle in the Republic of Korea, 06/09/2009
the National Geospatial-Intelligence Agency, 02/09/2009                 Description of Action: U.S. Forces Korea will rewrite Regulation 700-
Description of Action: Revise guidance to improve internal controls     19 to address the issues stated in the recommendations.
over time and attendance, especially the use of overtime and compen-    Reason Action Not Completed: The rewrite to Regulation 700-19 is
satory time.                                                            being re-staffed.
Reason Action Not Completed: Awaiting the issuance of final ver-        Principal Action Office: USFK
sions of two NGA instructions addressing time and attendance.
Principal Action Office: NGA




                                                                                                          APRIL 1, 2011 TO SEPTEMBER 30, 2011 99
Appendix F

Report: D-2009-098, Status of the Defense Emergency Response Fund        Report: D-2010-023, Review of Defense Technical Information Center
in Support of the Global War on Terror, 07/30/2009                       Internal Controls, 12/03/2009
Description of Action: Review the Fund for Global War on Terror          Description of Action: Revise the DoD Financial Management Regula-
obligations and deobligate all unliquidated obligations, withdraw all    tion to state when charging indirect costs to other DoD organizations
excess funds provided to the DoD Components, and transfer the funds      is permitted. The Defense Technical Information Center establish a
to the U.S. Treasury.                                                    process for accumulating and reporting indirect costs that complies
Reason Action Not Completed: Extensive time needed to coordinate         with the Financial Management Regulation and DoDI 4000.19, and
deobligation of unliquidated obligations, withdrawal of excess funds,    return any fee surpluses to customers.
and transference of funds to U.S. Treasury.                              Reason Action Not Completed: DoD continues to revise guidance,
Principal Action Office: USD(C)                                          processes and procedures in order to implement the report recom-
                                                                         mendations.
Report: D-2009-104, Sanitization and Disposal of Excess Information      Principal Action Office: USD(AT&L), USD(C)
Technology Equipment, 09/21/2009
Description of Action: ASD (NII) is updating DoDI 8500.02.               Report: D-2010-024, Contracted Advisory and Assistance Services for
Reason Action Not Completed: Extended time is required for revision      the U.S. Army Future Combat Systems, 11/24/2009
of DoD Instruction 8500.02.                                              Description of Action: Report is FOUO.
Principal Action Office: ASD(NII)                                        Reason Action Not Completed: Extensive time required to coordi-
                                                                         nate and issue guidance.
Report: D-2009-108, U.S. Air Forces Central War Reserve Materiel         Principal Action Office: USD(AT&L)
Contract, 09/23/2009
Description of Action: The Air Force will ensure a qualified contract-   Report: D-2010-026, Joint Civilian Orientation Conference Program,
ing officer reviews award fees and sales of government property and      12/09/2009
closes the old War Reserve Materiel contract. The DCAA will audit        Description of Action: Update DoDI 5410.19 to clarify how to admin-
direct costs under the old War Reserve Materiel contract and perform     ister and manage the Joint Civilian Orientation Conference program.
required surveillance of internal controls.                              Initiate a preliminary Antideficiency Act review of the use of Joint
Reason Action Not Completed: The Air Force has not completed cor-        Civilian Orientation Conference fees received since the inception of
rective actions on contracting issues and DCAA has not completed its     the Miscellaneous Receipts Statute.
audit work.                                                              Reason Action Not Completed: The Washington Headquarters Ser-
Principal Action Office: USAF, DCAA                                      vice is conducting a preliminary review of the potential ADA violations
                                                                         cited in the report. Guidance revisions are in process.
Report: D-2009-109, Contracts Supporting the DoD Counter Narcoter-       Principal Action Office: ASD(PA), WHS
rorism Technology Program Office, 09/25/2009
Description of Action: Army instructed the applicable contracting        Report: D-2010-028, Rapid Acquisition and Fielding of Materiel Solu-
officers to make numerous corrections and improvements.                  tions by the Navy, 12/15/2009
Reason Action Not Completed: The Army has not completed correc-          Description of Action: Report is FOUO.
tive actions on contracting issues.                                      Reason Action Not Completed: Long-term corrective actions are
Principal Action Office: Army                                            ongoing.
                                                                         Principal Action Office: Navy
Report: D-2010-004, Cost Increases Related to the Producer Price In-
dex for Titanium Mill Shapes on DoD Multiyear Contracts, 10/29/2009      Report: D-2010-032, DoD Countermine and Improvised Explosive
Description of Action: Report is FOUO.                                   Device Defeat Systems Contracts - Husky Mounted Detection System,
Reason Action Not Completed: Corrective actions are on-going.            12/31/2009
Principal Action Office: DLA                                             Description of Action: Report is FOUO.
                                                                         Reason Action Not Completed: Not adequate time to award contract
Report: D-2010-015, DoD Civil Support During the 2007 and 2008           in FY 11 because of limited resources.
California Wildland Fires, 11/13/2009                                    Principal Action Office: Army
Description of Action: Update joint publication to add clarity to the
process of staffing Federal Emergency Management Agency mission          Report: D-2010-035, Defense Logistics Agency Contracts for M2
assignments, on the legal employment of surveillance by DoD assets       Machine Gun Spare Parts in Support of Operations in Southwest Asia,
providing assistance to civil authorities, and on specific events for    01/11/2010
command and control handoff guidance.                                    Description of Action: Evaluate the metrics used to manage the prod-
Reason Action Not Completed: Delays in coordinating and issuing          uct quality deficiency reporting process and update the DLA product
policy.                                                                  quality deficiency reporting instruction.
Principal Action Office: JCS, USD(C), NORTHCOM                           Reason Action Not Completed: Corrective actions are on schedule.
                                                                         Principal Action Office: DLA




100 SEMIANNUAL REPORT TO THE CONGRESS
Report: D-2010-036, Controls Over Navy Military Payroll Disbursed in       Report: D-2010-063, Analysis of Air Force Secondary Power Logistic
Support of Operations in Southwest Asia at San Diego-Area Disbursing       Solution Contract, 05/21/2010
Centers, 01/22/2010                                                        Description of Action: Report is FOUO.
Description of Action: Develop an electronic storage capability for        Reason Action Not Completed: Corrective actions are on schedule.
supporting documentation.                                                  Principal Action Office: Air Force
Reason Action Not Completed: Navy has been converting from the
paper field service record to the Electronic Service Record, which will    Report: D-2010-064, Army Vessels Maintenance Contracts in South-
permit elimination of current stop-gap procedures and allow imple-         west Asia, 05/21/2010
mentation of electronic storage capability.                                Description of Action: Review contract files to ensure appropriate
Principal Action Office: Navy                                              documentation is included; revise standard operating procedures; cor-
                                                                           rect contract funding; and determine whether an Antideficiency Act
Report: D-2010-037, Internal Controls Over United States Marine            violation occurred.
Corps Commercial and Miscellaneous Payments Processed Through              Reason Action Not Completed: Reviewing the contract files and re-
the Deployable Disbursing System, 01/25/2010                               vising the standard operating procedures takes time to complete. The
Description of Action: Review the Deployable Disbursing System             preliminary Antideficiency Act report to the U.S. Army Material Com-
payments for FY 2006 and FY 2007 for duplicate payments and collect        mand was legally insufficient, and a reinvestigation was necessary.
the over payments.                                                         Principal Action Office: Army
Reason Action Not Completed: The Marine Corps has reviewed the
identified documents for duplicate payments and the demand letters         Report: D-2010-065, (U) Validity and Security of Selected DoD Civilian
have been issued.                                                          Employee Accounts, 05/25/2010
Principal Action Office: USMC                                              Description of Action: Report is Classified.
                                                                           Reason Action Not Completed: Corrective actions are on schedule.
Report: D-2010-043, Deferred Maintenance and Carryover on the              Principal Action Office: DFAS
Army Abrams Tank, 03/02/2010
Description of Action: Report is FOUO.                                     Report: D-2010-068, Government Oversight of Field Service Represen-
Reason Action Not Completed: The proposed change has been                  tative and Instructor Services in Support of the Mine Resistant Ambush
incorporated into the Financial Management Regulation, which will be       Protected Vehicle Program, 06/17/2010
published in the near future.                                              Description of Action: The Marine Corps Systems Command will
Principal Action Office: USD(C)                                            require contracting officials to implement quality assurance surveil-
                                                                           lance plans and newly appointed Contracting Officers Representatives
Report: D-2010-048, DoD Methodology for the Valuation of Excess,           will be trained.
Obsolete, and Unserviceable Inventory and Operating Materials and          Reason Action Not Completed: Corrective actions are in process.
Supplies, 03/25/2010                                                       Principal Action Office: USMC
Description of Action: Develop methodologies for estimating net
realizable value of excess, obsolete, and unserviceable inventory, oper-   Principal Action Office: D-2010-075, Foreign Allowances and Differ-
ating material and supplies, munitions, and missiles.                      entials Paid to DoD Civilian Employees Supporting Overseas Contin-
Reason Action Not Completed: Developing methodologies for differ-          gency Operations, 08/17/2010
ent assets takes time to complete.                                         Description of Action: Finalize and issue uniform DoD-wide policies
Principal Action Office: USD(C)                                            and procedures to accurately and consistently authorize foreign al-
                                                                           lowances and differentials. Review foreign allowances and differential
Report: D-2010-051, Defense Contract Management Agency Acquisi-            paid records to indentify inaccuracies and make the necessary adjust-
tion Workforce for Southwest Asia, 04/08/2010                              ments.
Description of Action: Revise DoDI 5000.66 to require military depart-     Reason Action Not Completed: Extensive time required to coordi-
ments and defense agencies to develop guidance to identify acquisi-        nate with DoD components and agencies. Additional time needed to
tion, technology and logistics workforce requirements in accordance        evaluate the scope of the inaccuracies and take the necessary correc-
with other DoD instructions and the Financial Management Regula-           tive actions.
tion.                                                                      Principal Action Office: USD (P&R)
Reason Action Not Completed: Extensive time required to revise and
coordinate instructions/guidance.                                          Report: D-2010-078, Air Force Use of Time-and-Materials Contracts in
Principal Action Office: USD(AT&L)                                         Southwest Asia, 08/16/2010
                                                                           Description of Action: The Air Force Center for Engineering and
Report: D-2010-058, Selected Controls for Information Assurance at         Environment will review invoices for time-and-materials task orders,
the Defense Threat Reduction Agency, 05/14/2010                            request that DCAA provide assistance and obtain reimbursements
Description of Action: Develop and implement a process to identify         for incorrect charges with attention to $24.3 million for labor charges
information assurance personnel and monitor their certification status.    invoiced by the contractors but not authorized by the task orders.
Review active accounts and suspend inactive accounts in accordance         Reason Action Not Completed: AFCEE requested funds for the re-
with DTRA guidance.                                                        view effort and DCAA is conducting its audit.
Reason Action Not Completed: Extensive time required to develop,           Principal Action Office: Air Force
coordinate and implement the guidance.
Principal Action Office: DTRA

                                                                                                              APRIL 1, 2011 TO SEPTEMBER 30, 2011 101
Appendix F

Report: D-2010-081, Army Use of Time-and-Materials Contracts in             Report: D-2010-088, Accountability and Disposition of Government
Southwest Asia, 08/27/2010                                                  Furnished Property in Conjunction With the Iraq Drawdown - Logistics
Description of Action: The Army Contracting Command will take ap-           Civil Augmentation Program, 09/30/2010
propriate administrative action on applicable contracting officers, and     Description of Action: Defense Contract Management Agency-Iraq to
will establish a plan for reviewing invoices for 18 contracts and request   (1) provide a sufficiently supported account of all management deci-
Defense Contract Audit Agency assistance. White Sands Missile Range         sions and actions taken concerning the acceptance, use and disposi-
will review a task order and obtain a refund from a contractor.             tion of unused trash trucks; (2) determine whether personnel or cost
Reason Action Not Completed: Corrective actions are on schedule.            recovery actions were warranted; and (3) determine proper disposition
Principal Action Office: Army                                               of the trucks.
                                                                            Reason Action Not Completed: Two of the three actions have been
Report: D-2010-086, Audit of the Utility Tax Relief Program in Ger-         completed. The third action, contingent upon completion of the other
many, 09/29/2010                                                            two actions, accomplished in June 2011, is underway.
Description of Action: Develop regulatory guidance requiring eligible       Principal Action Office: DCMA
civilian personnel to participate in the Utility Tax Avoidance Program
in Germany; and develop a standard form to prove participation or           Report: D-2010-091, DoD Needs to Improve Management and Over-
ineligibility for the program.                                              sight of Operations at the Theater Retrograde-Camp Arifjan, Kuwait,
Reason Action Not Completed: Long-term corrective actions are in            09/30/2010
process.                                                                    Description of Action: Develop appropriate performance require-
Principal Action Office: USD(P&R)                                           ments for processing materiel that are applicable, auditable and
                                                                            measurable and coordinate those requirements with the Contracting
Report: D-2010-087, Weaknesses in Oversight of Naval Sea System             Officer for inclusion in the newly awarded contract.
Command (NAVSEA) Ship Maintenance Contract in Southwest Asia,               Reason Action Not Completed: Negotiations are ongoing to further
09/27/2010                                                                  refine the performance metrics on the new contract and final agree-
Description of Action: NAVSEA will negotiate fair and reasonable            ment with the contractor is expected by Nov 2011.
prices for repair parts on all future orders; improve quality assurance;    Principal Action Office: Army
review ongoing contracts to ensure use of funds is in compliance with
guidance, and; obtain cost and pricing data for review with Defense
Contract Audit Agency.
Reason Action Not Completed: Navy has not yet modified applicable
contracts, random sampling of contracts for review is not complete,
guidance on use of funds in accordance with guidance has not been
completed, delays by contractor in providing cost and pricing data
preventing DoD review.
Principal Action Office: Navy


▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(b)(4).
▶ For this reporting period, there were disallowed costs of $29.2 million on reports over 12 months old with final action pending.




102 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                      Appendix G




                                                                                       Contract Audits with
                                                                                       Significant Findings
dCAA
Report No. 06211-2011C17200010                                            Date: Apri1 11, 2011
Subject: Independent Audit of Statement of Costs
Prepared For: CECOM (CCCE) Army Contracting Command
Report: $64.8 Million Questioned Cost
The contractor’s claim was questioned in its entirety, including $56.3 million of claimed costs and $8.5 million of claimed profit. The contrac-
tor (1) was unable to support its claimed costs by its books and records, (2) included costs duplicated in other claims, and (3) did not provide
adequate supporting documentation to substantiate that claimed labor was incurred only as a result of the asserted extra-contractual changes.

Report No. 06321-2009C17900003                                            Date: April 14, 2011
Subject: Independent Audit of Voluntary Disclosure Report
Prepared For: Air Force Office of Special Investigations
Report: $30 Million Questioned Costs
The audit of the contractor’s proposed $1.5 million net credit resulted in the determination that it was understated by $30 million. Of the $30
million understatement, $26.6 million relates to the proposed credit for labor billed for unqualified employees. DCAA took exception to the
methodology used by the contractor in computing its proposed credit. The recommended credit to the government represents the disallow-
ance of (1) a retroactively applied equivalency factor, (2) labor categories which were billed to the government but were not required on the
applicable task orders, and (3) hours for employees reassigned by the contractor to a lower category since they were not qualified for the billed
category. The audit of the contractor’s termination settlement proposal resulted in $31.2 million of questioned unallowable, unallocable or
unreasonable costs, including $10.0 million of direct labor, gifts, and bonuses; and $9.9 million of general project expenses and construction
equipment rental or purchases.

Report No. 03321-2010S10180003                                            Date: April 28, 2011
Subject: Independent Audit of Incurred Subcontractor Costs
Prepared For: Defense Contract Management Agency - Phoenix
Report: $12.2 Million Questioned Cost
The audit of the billed subcontract costs for operation of a dining facility resulted in $12.2 million of questioned costs because the billed costs
used headcount band prices that were not representative of the actual headcounts experienced. The contractor failed to incorporate lower
headcount bands into the subcontract terms, even though the subcontractor proposed these levels.

Report No. 03151-2008U17900002                                            Date: May 3, 2011
Subject: Independent Audit of Deferred Production Costs
Prepared For: Department of the Air Force – Headquarters Launch and Range Systems Wing
Report: $114.1 Million Questioned Cost
The report questioned the proposed costs in their entirety because (1) the proposed costs are not supported by accounting records; (2) the
proposal and advance agreement to amortize the deferred costs over future launches is non-compliant with CAS 406; and (3) the deferred costs
contain losses on other contracts which are expressly unallowable.




                                                                                                              APRIL 1, 2011 TO SEPTEMBER 30, 2011 103
Appendix G

Report No. 06331-2009L17900002                                           Date: June 17, 2011
Subject: Independent Audit of Historical Costs Through July 31, 2009
Prepared For: U.S. Army Corps of Engineers
Report: $29.6 Million Questioned
The audit of the contractor’s $285.4million proposed costs resulted in questioned costs of $29.6 million because the costs were not allowable,
allocable or reasonable in accordance applicable FAR provisions or contract terms; were not incurred in accordance with the contractor’s inter-
nal procurement manual; or the contractor did not obtain mandatory approvals or give timely notification to the USACE when required by the
terms of the contract. Significant questioned costs include $13.1 million of subcontractor costs, $3.3 million of bond costs, and $12.5million of
insurance costs.

Report No. 03521-2007B10100001                                           Date: July 5, 2011
Subject: Independent Audit of Incurred Costs
Prepared For: Defense Contract Management Agency – Western Regional Command
Report: $104.9 Million Questioned Cost
The audit of the contractor’s incurred cost submission resulted in $117.8 million of questioned costs of which $104.9 million related to govern-
ment contracts. The claimed medical insurance plan costs were questioned in their entirety because the contractor does not maintain adequate
supporting documentation necessary to support the eligibility of dependents included under the plan.

Report No. 03321-2010S10180014                                           Date: July 13, 2011
Subject: Independent Audit of FY 2004 Incurred Costs
Prepared For: Defense Contract Management Agency - Phoenix
Report: $10.1 Million Questioned Costs
The audit of the FY 2004 claimed subcontract costs for leased vehicles resulted in questioned costs of $10.1million. Of the $10.1 million ques-
tioned costs, $2.1 million relates to claimed lease costs for a period of 40 days prior to the date the subcontract was signed without adequate
evidence to support that the vehicles were actually received prior to the subcontract date; and $7.9 million relates to unreasonable costs due to
inadequate price competition in the selection of the vendor.

Report No. 03191-2011W17900001                                           Date: July 29, 2011
Subject: Independent Audit of Direct Costs Invoiced Under an Other Transaction Agreement
Prepared For: Defense Contract Management Agency – Navy Special Emphasis Operations
Report: $14.4 Million Questioned Cost
The audit of the invoiced costs resulted in $14.4 million of questioned costs because the contractor did not provide any source documentation
to support the costs. The contractor stated the records were destroyed in a flood.

Report No. 06501-2011C19500006                                           Date: August 17, 2011
Subject: Independent Audit of General Dollar Magnitude Cost Impact Proposal for Non-Compliance with CAS 409 (Depreciation of Tangible
Capital Assets)
Prepared For: Defense Contract Management Agency – Naval Sea Systems Operations
Report: $36.6 Million Increased Costs
The audit of the contractor’s general dollar magnitude cost impact proposal resulted in the identification of $36.6 million of increased costs
paid by the government for the period of January 1, 2005 to December 31, 2008 due to the contractor’s use of asset service lives that were not
developed in accordance with the requirements of Cost Accounting Standard 409.

Report No. 06211-2005C10100007                                           Date: August 18, 2011
Subject: Independent Audit of FY 2005 Incurred Costs
Prepared For: Defense Contract Management Agency – Cost and Pricing Center
Report: $15 Million
The audit of the contractor’s incurred cost proposal for allocation of service center costs to other segments resulted in $15 million of ques-
tioned costs, including $9.1 million of claimed corporate allocations in excess of the audit determined amount; $6.3 million of intercompany
billings for computer/information services at greater than cost; and $1.9 million unallowable consultant or lobbying costs. The questioned
costs were offset by a $4.6 million upward adjustment for allowable restructuring costs not included in the proposal.


104 SEMIANNUAL REPORT TO THE CONGRESS
Report No. No. 06501-2011C19500005                                         Date: August 18, 2011
Subject: Independent Audit of General Dollar Magnitude Cost Impact Proposal for Non-Compliance with CAS 404 (Capitalization of Tangible
Assets)
Prepared For: Defense Contract Management Agency – Naval Sea Systems Operations
Report: $17.1 Million Increased Costs
The audit of the contractor’s general dollar magnitude cost impact proposal for non-compliance with Cost Accounting Standard 404 resulted
in the identification of $17.1 million of increased costs paid by the government. The non-compliance is the result of the contractor’s failure to
allocate indirect costs to self-constructed assets for the period January 1, 2005 through December 31, 2009.

Report No. 06121/06211-2004C10100002                                       Date: August 26, 2011
Subject: Independent Audit of FY 2004 Incurred Cost
Prepared For: Department of the Treasury, Internal Revenue Service
Report: $50.4 Million Questioned Costs
The audit of the incurred cost proposal resulted in $50.4 million of questioned costs, including $41.9 million of claimed direct contract costs and
$8.5 million of claimed indirect costs. The questioned direct costs consisted primarily of $37.5 million of inadequately supported intercompany
facilities and other costs; and $3.6 million of unallowable material costs. The questioned indirect costs consisted of unallowable Corporate and
Home Office allocations, consultant costs, subcontractor costs, and executive compensation.

Report No. 02191-2011M17200001                                             Date: August 29, 2011
Subject: Independent Audit of Parts of a Price Adjustment Proposal
Prepared For: Defense Logistics Agency – Troop Support Subsistence Directorate
Report: $375.7 Million Questioned Cost
The audit of the contractor’s price adjustment proposal to provide delivery of food, water, and construction materials to forward operating bases
in Afghanistan resulted in questioned costs of $375.8 million, including $203.3 million of questioned aircraft lease costs due to questioned flight
hours and lease rates; $67.9 million of questioned fuel costs due to lack of supporting documentation; $77.5 million of truck cost due to lack of
supporting documentation and differences between the claimed amounts and vendor agreements or actual truck manifests; and $23.5 million
of overhead.

Report No. 06211-2005C10100001                                             Date: September 15, 2011
Subject: Independent Audit of Final Incurred Cost Proposal for FY 2005
Prepared For: Defense Contract Management Agency – Cost & Pricing Center
Report: $66.1 Million Questioned Cost
The audit of the contractor’s incurred cost proposal resulted in total questioned costs of $66.1 million, including $44.8 million of previously
reported questioned T&M labor costs (06211-2009C17900004); $13.1 million of intercompany direct costs; and $7.1 million of home office or
shared services allocations.

Report No. 03511-2010E10180001                                             Date: September 29, 2011
Subject: Independent Audit of Direct Costs Incurred and Billed from August 25, 2006 to September 30, 2008
Prepared For: U.S. Agency for International Development
Report: $32.2 million Questioned Cost
The audit of the contractor’s $135.5 million billed costs resulted in $32.2 million of questioned costs including $32.0 million of inadequately sup-
ported subcontract costs and $159K of questioned air fare in excess of the lowest standard air fare. The claimed subcontract costs were based
on subcontractor invoices; however, contractor did not provide documentation supporting the delivery, receipt, or acceptance of the subcon-
tracted products or services.

dod IG
Report No. D-2011-116                                                      Date: September 30, 2011
Subject: American Recovery and Reinvestment Act Wind Turbine Projects at Long-Range Radar Sites in Alaska Were Not Adequately Planned
Report: To Be Determined
The Air Force did not ensure that wind turbine project at Cape Newenham was properly planned and supported to meet the minimum savings
to-investment ratio and payback criteria. DoD IG recommended that the project be terminated and that the deputy under secretary of defense
(installations and environment) develop plans to use the resulting savings.
                                                                                                               APRIL 1, 2011 TO SEPTEMBER 30, 2011 105
Appendix G




 Report No. D-2011-110                                                     Date: September 27, 2011
 Subject: Better Management of Fuel Contracts and International Agreements in the Republic of Korea Will Reduce Costs
 Report: $712,166 of Funds Put to Better Use
 DLA officials did not effectively administer the contract for operating Army service stations. This occurred because contracting officers and
 their representatives did not verify that the contractor was paid for only work performed and the contract lacked provisions for adjusting fixed
 charges to reflect changes in customer requirements.

 Report No. D-2011-104                                                     Date: September 8, 2011
 Subject: Pricing and Escalation Issues Weaken the Effectiveness of the Army Contract With Sikorsky to Support the Corpus Christi Army Depot
 Report: $49.6 Million of Funds Put to Better Use
 Army Aviation and Missile Life Cycle Management Command officials did not effectively negotiate prices for 28 of 46 noncompetitive spare parts
 reviewed because neither Sikorsky nor AMCOM officials performed adequate cost or price analyses of proposed subcontractor prices. Sikorsky
 also paid excessive prices to subcontractors (pass-through costs) and did not always provide the most current, complete, and accurate cost data
 (defective pricing). In addition, the CCAD/Sikorsky contract established excessive inflation rates that were not tied to an economic index.

 Report No. D-2011-102                                                     Date: August 25, 2011
 Subject: Afghan National Police Training Program Would Benefit From Better Compliance With the Economy Act and Reimbursable Agreements
 Report: $75.6 Million of Funds Put to Better Use
 Department of State Bureau of International Narcotics and Law Enforcement Affairs officials improperly obligated an estimated $76.65 million
 of Afghanistan Security Forces Fund appropriations that DoD provided to support the ANP training program. Specifically, INL officials obligated
 an estimated $75.60 million of funds for two INL rule of law programs and one INL counternarcotics program and $1.05 million of funds for
 personal services contracts contrary to either Economy Act or reimbursable agreement limitations. This occurred because DoD did not appro-
 priately monitor INL obligations, and INL did not have adequate procedures to ensure it obligated funds in accordance with the Economy Act
 and reimbursable agreements.

 Report No. D-2011-080                                                     Date: July 7, 2011
 Subject: DoD and DOS Need Better Procedures to Monitor and Expend DoD Funds for the Afghan National Police Training Program
 Report: $124.6 Million of Funds Put to Better Use
 DOS officials did not appropriately obligate or return to DoD approximately $172.40 million of approximately $1.26 billion of DoD funds pro-
 vided for the ANP training program. This occurred because DOS lacked adequate procedures for obligating, monitoring, and deobligating DoD
 funds for the ANP training program. Moreover, DoD officials did not validate whether the Bureau of International Narcotics and Law Enforcement
 Affairs officials obligated funds in accordance with the reimbursable agreements. In addition, the DOS contracting officer’s representative ap-
 proved contractor invoices for payment for approximately $2.07 million that were either not authorized or were for services not provided. This
 occurred because DOS officials did not always perform a detailed review of invoices before payment and relied on a post-payment review of
 invoices to identify overpayments and obtain refunds from the contractor.

 Report No. D-2011-061                                                     Date: May 3, 2011
 Subject: Excess Inventory and Contract Pricing Problems Jeopardize the Army Contract with Boeing to Support the Corpus Christi Army Depot
 Report: $287.8 Million of Funds Put to Better Use
 Army Aviation and Missile Life Cycle Management Command officials did not effectively use $339.7 million of existing DoD inventory before
 procuring the same parts from Boeing because DoD had inadequate policies and procedures addressing inventory use. In addition, AMCOM of-
 ficials did not effectively negotiate prices for 18 of 24 high-dollar parts reviewed because neither AMCOM officials nor Boeing officials performed
 adequate cost or price analyses, and Boeing officials submitted cost or pricing data that were not current, complete, and accurate. Further,
 AMCOM officials overstated repair turnaround time improvements because they used inconsistent methodologies for calculating baseline and
 actual performance, showing a 46.7 percent improvement instead of an actual improvement of 26.1 percent to 36.9 percent. Also, AMCOM
 officials did not use the most cost-effective source of supply for consumable items because DoD had not developed an effective material man-
 agement strategy.

▶ Fulfills requirements of the National Defense Authorization Act for FY 2008 Section 845.



106 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                             Appendix H




Results of Peer Reviews
Peer Review of Department of Defense IG by Department of Health and Human Services OIG
The Department of Health and Human Services OIG conducted an external peer review of DoD IG Office of Audit and issued a final
report on December 2, 2009. DoD IG received a peer review rating of pass. There are no outstanding recommendations. A copy of the
external quality control review report can be viewed on at www.dodig.mil/audit.

Peer Review of U.S. Postal Service OIG by Department of Defense IG
DoD IG conducted an external quality control review of the United States Postal Service OIG audit organization and issued a final re-
port on March 31, 2010. USPS OIG received a peer review rating of pass. All outstanding recommendations have been implemented as
of March 31, 2011. A copy of the external quality control review report in its entirety can be viewed on the USPS OIG website at www.
uspsoig.gov.

Peer Review of DCIS Operations by the U.S. Department of Health and Human Services Office of Inspector General
The U.S. Department of Health and Human Services OIG conducted an external peer review of DCIS’s system of internal safeguards
and management procedures in effect through July 2011 and HHS OIG also conducted an evaluation to determine DCIS’ compliance
with applicable internal policies and procedures from April 2009 to July 2011. Since DCIS does not derive its statutory law enforcement
authority from the Attorney General or the Inspector General Act, it is not subject to the Council of the Inspectors General on Integrity
and Efficiency thus DCIS’s participation in this peer review was voluntary. After completing its review of DCIS, the HHS OIG issued a
final report dated August 19, 2011, and concluded that the system of internal safeguards and management procedures for DCIS was in
full compliance with the quality standards established by CIGIE and the Attorney General guidelines. These safeguards and procedures
provide reasonable assurance that DCIS is conforming to the professional standards for investigations established by CIGIE.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(14),(15),(16).




                                                                                                      APRIL 1, 2011 TO SEPTEMBER 30, 2011 107
Appendix I                                                                                             Appendix I




Acronyms
ADA               Antideficiency Act                                  FAR        Federal Acquisition Regulation
ADFM              Active Duty Family Member                           FBI        Federal Bureau of Investigation
AFAA              Air Force Audit Agency                              FMTV       Family of Medium Tactical Vehicles
AFAA/FS           Air Force Audit Agency Financial Systems            FOUO       For Official Use Only
                  Audits Directorate                                  GSA        General Services Administration
AFAA/QL           Air Force Audit Agency Acquisition and              HHS        Health and Human Services
                  Logistics Audits Directorate                        IG         Inspector General
AFAA/SP           Air Force Audit Agency Support and Personnel        IRS        Internal Revenue Service
                  Audits Directorate                                  ISAF       International Security Assistance Force
AFB               Air Force Base                                      ISF        Iraq Security Forces
AFCEE             Air Force Center for Engineering and                LOGCAP     Logistics Civil Augmentation Program
                  Environment                                         MRAP       Mine Resistant Ambush Protected Vehicles
AFOSI             Air Force Office of Special Investigations          NATO       North Atlantic Treaty Organization
AIR               Aviation Into-Plane Reimbursement                   NAVAUDSVC  Naval Audit Service
AMCOM             Army Aviation and Missile Life Cycle                NCIS       Naval Criminal Investigative Service
                  Management Command                                  NGA        National Geospatial Intelligence Agency
ANP               Afghan National Police                              NORTHCOM   U.S. Northern Command
ANSF              Afghan National Security Forces                     NSA        National Security Agency
Army CID          Army Criminal Investigation Command                 OCCL       Office of Communications and Congressional
ASD(HA)           Assistant Secretary of Defense for Health                      Liaison
                  Affairs                                             OCO        Overseas Contingency Operations
ASD(NII)          Assistant Secretary of Defense for Networks and     ODO        Other Defense Organizations
                  Information                                         OIG        Office of Inspector General
ASD(PA)           Assistant Secretary of Defense for Public Affairs   OMB        Office of Management and Budget
ATF               Bureau of Alcohol, Tobacco, Firearms and            PDHRA      Post Deployment Health Reassessment
                  Explosives                                          PRC        People’s Republic of China
BRAC              Base Realignment and Closure                        UCA        Undefinitized Contractual Actions
CAPS-C            Computerized Accounts Payable System-               USAAA      U.S. Army Audit Agency
                  Clipper                                             USACE      U.S. Army Corps of Engineers
CIGIE             Council of Inspectors General for Integrity and     USACIL     United States Army Criminal Investigation
                  Efficiency                                                     Laboratory
DCAA              Defense Contract Audit Agency                       USAF       U.S. Air Force
DCIS              Defense Criminal Investigative Service              USAID      United States Agency for International
DCMA              Defense Contract Management Agency                             Development
DEA               Drug Enforcement Administration                     USCYBERCOM United States Cyber Command
DFAS              Defense Finance and Accounting Service              USD(AT&L)  Under Secretary of Defense (Acquisition,
DLA               Defense Logistics Agency                                       Technology and Logistics)
DoD               Department of Defense                               USD(C)     Under Secretary of Defense (Comptroller)
DoDD              Department of Defense Directive                     USFK       United States Forces-Korea
DoD IG            Department of Defense Inspector General             USMC       United States Marine Corps
DoJ               Department of Justice                               USML       U.S. Munitions List
DoN               Department of the Navy                              USPS       United States Postal Service
DOS               Department of State
DSS               Defense Security Service
DTRA              Defense Threat Reduction Agency
ESPC              Energy Savings and Performance Contracts


108 SEMIANNUAL REPORT TO THE CONGRESS
Department of Defense                   Department of Defense
Inspector General                            Inspector General
4800 Mark Center Drive                  4800 Mark Center Drive
Alexandria, VA 22350-1500            Alexandria, VA 22350-1500

www.dodig.mil                                   www.dodig.mil

Defense Hotline 1.800.424.9098   Defense Hotline 1.800.424.9098
